<html>
<title> - FISCAL YEAR 2004 SUPPLEMENTAL REQUEST FOR RECONSTRUCTION OF IRAQ AND AFGHANISTAN</title>
<body><pre>[Senate Hearing 108-373]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-373

 FISCAL YEAR 2004 SUPPLEMENTAL REQUEST FOR RECONSTRUCTION OF IRAQ AND 
                              AFGHANISTAN

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARINGS

                   SEPTEMBER 22, 2003--WASHINGTON, DC
                   SEPTEMBER 24, 2003--WASHINGTON, DC
                   SEPTEMBER 25, 2003--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                               __________

90-309              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director



                            C O N T E N T S

                              ----------                              

                       Monday, September 22, 2003

                                                                   Page

Opening Statement of Chairman Ted Stevens........................     1
Statement of Hon. L. Paul Bremer, U.S. Administrator in Iraq.....     1
    Prepared Statement of........................................     7
Coalition Provisional Authority Request to Rehabilitate and 
  Reconstruct 
  Iraq...........................................................    12
Supplemental Request.............................................    15
Iraqi Reconstruction.............................................    20
The Plan.........................................................    21
Coalition Forces.................................................    23
Contracts........................................................    25
Telecommunications...............................................    27
Essential Services...............................................    28
International Community..........................................    28
Oil Reserves.....................................................    34
Reconstruction Funding...........................................    34
Healthcare for Children..........................................    37
Military Money...................................................    40
Oil Assets.......................................................    41
Terrorists.......................................................    46
The Plan.........................................................    48
Prepared Statement of Senator Mitch McConnell....................    52
Oil Revenues.....................................................    53
Iraqi Oil........................................................    56

                     Wednesday, September 24, 2003

Opening Statement of Chairman Ted Stevens........................    75
Statement of Hon. Donald H. Rumsfeld, Secretary, Department of 
  Defense........................................................    75
General Richard Myers, Chairman, Joint Chiefs of Staff...........    75
General John P. Abizaid, Commander, CENTCOM......................    75
Dr. Dov Zakheim, Under Secretary of Defense (Comptroller)........    75
Fiscal Year 2004 Supplemental Request............................    76
Importance of Funding for Recovery...............................    76
Progress in Afghanistan..........................................    77
Progress in Iraq.................................................    77
Foreign Contributions............................................    78
Affordability....................................................    79
Prepared Statement of Donald H. Rumsfeld.........................    80
Prepared Statement of General John F. Abizaid....................    84
War on Terrorism.................................................    84
Iraq.............................................................    85
Afghanistan......................................................    86
Mandate From American People.....................................    90
Oversight of Political Initiatives...............................    91
Status of International Support..................................    92
Other Components of the Request..................................    93
Coast Guard Funding..............................................    93
Participation of Reserve Components..............................    94
National Guard/Reserve Troops Supplemental Funds.................    94
Assessments of Guard/Reserve/Iraq Forces.........................    94
Fortitude of Iraqi People........................................    95
Funding for Foreign Divisions....................................    95
Coalition Support................................................    96
Force Levels.....................................................    96
International Forces.............................................    97
Obligation of Coalition Support Funding..........................    98
Loans as an Alternative..........................................    98
U.N. Involvement.................................................    99
Political Failure in Iraq?.......................................   102
Stay the Course and Win the War..................................   103
Improvements in Iraq.............................................   104
Difficulty of the Task in Iraq...................................   104
Winning the War on Terrorism.....................................   105
TRICARE for Reservists...........................................   107
Responses to Senator Leahy.......................................   108
Recruitment and Retention........................................   110
Reenlistment.....................................................   111
Military Construction Funding....................................   113
Entire Supplemental for the War?.................................   113
Responsibility for Recovery in Iraq..............................   115
Progress in Iraq.................................................   116
Funding for Equipment............................................   118
Supplemental Funding.............................................   118
Countries of Origin of Terrorists in Iraq........................   118
Iraqi/Foreign Fighter and Terrorists Against the Coalition.......   119
Skepticism About Iraq............................................   119
Finding Weapons of Mass Destruction..............................   121
Importance of the United Nations.................................   121
Being Candid About Iraq..........................................   124
Importance of Infrastructure to Security.........................   124
Protecting Vulnerable Populations................................   125
Combining Political and Economic Progress........................   126
New Measurements or Metrics......................................   129
Military Construction Supplemental Funding.......................   130
Consultations With Congress......................................   131
Unsecured Iraqi Munitions Sites..................................   132
Separating Two Parts of Fiscal Year 2004 Supplemental............   133
Payments on Iraqi Debt...........................................   133
When CPA Funds Will Run Out......................................   135
Special Military Pay.............................................   138
No-bid Contract for Halliburton..................................   139
Projected Oil Revenues...........................................   142
Prepared Statement of Senator Harry Reid.........................   143
Dissent About Whether Iraq can be Democratized...................   146
Uniform and Equipment Shortages..................................   147
Equipping the Forces Breastplates................................   147
Iraqi Liberation Act.............................................   151
Urgency of the Supplemental......................................   151
Publically Present Iraq Recovery Plan............................   152
Screening Iraqi's for Security Duties............................   154
Communicating With the American People...........................   155
Safety for Troops................................................   156
Telecommunications...............................................   157
Impact of Disapproval of $20 Billion Request.....................   158
Increased Use of Embedded Reporters..............................   159
Involvement of Small Businesses..................................   159
Prevent Decline in Reserve Components............................   162
Combat Service Support...........................................   162
Rebalancing the Force............................................   163
Limits on Deployments............................................   164
Paying for the War in Iraq.......................................   165
Affordability....................................................   165
Other Contributions..............................................   166
Costs of September 11 Attacks....................................   167
Restrictions on the $20 Billion for CPA..........................   168
Restructuring Iraq's Debt........................................   168
Terrorist Safe Havens............................................   169
Winning the Battle of Ideas......................................   169
Projections for Reservists.......................................   170
Evaluating the U.S. Global Footprint.............................   172
Military Construction Request and Air Bases......................   172
Funding for 23 Sites.............................................   174
Controlling Iraq's Borders.......................................   176
Police and Site Protection.......................................   177
Alternative to $20 Billion Request...............................   178
Security Situation...............................................   178
Additional Committee Questions...................................   178
Questions Submitted to Donald H. Rumsfeld........................   179
Questions Submitted by Senator Harry Reid........................   179

                      Thursday, September 25, 2003

                         DEPARTMENT OF DEFENSE

Statement of Hon. Dov Zakheim, Ph.D., Under Secretary of 
  Defense--Comptroller...........................................   183
General Peter Pace, Vice Chairman, Joint Chiefs of Staff.........   183
Peter Rodman, Assistant Secretary of Defense for International 
  Security Affairs...............................................   183
Statement of Chairman Ted Stevens................................   183
Statement of Senator Robert C. Byrd..............................   184
Statement of Senator Robert F. Bennett...........................   186
Summary Statement of Dov Zakheim.................................   187
Middle East Border Issues........................................   196
Percentage of U.S. Troops--Reserves/National Guard...............   196
Afghan Security..................................................   198
Funding Afghan Troop Training....................................   198
Drawdown of Troops...............................................   200
Troop Training Afghanistan Versus Iraq...........................   201
Troop Morale.....................................................   202
Afghan Reconstruction............................................   202
Afghan Central Government........................................   204
Afghan Growth of the Central Government..........................   204
Terrorist Movement...............................................   205
Force Protection Procedures......................................   205
Rapid Fielding Initiative (RFI)..................................   207
Increase of Forces...............................................   208
Activation of Forces.............................................   210
Afghan Supplemental Reconstruction...............................   211
Iraqi Post War Timeline Reconstruction...........................   212
Terrorism Worldwide..............................................   214
Equipment Replacement............................................   217
Remote Caches of Military Supplies...............................   219
Improve Infrastructure--Highways.................................   219
Drawdown of U.S. Troops..........................................   221
Additional Committee Question....................................   223
Question Submitted by Senator Robert C. Byrd.....................   224

 
 FISCAL YEAR 2004 SUPPLEMENTAL REQUEST FOR RECONSTRUCTION OF IRAQ AND 
                              AFGHANISTAN

                              ----------                              


                       MONDAY, SEPTEMBER 22, 2003

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 2:30 p.m., in room SH-216, Hart Senate 
Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Domenici, Burns, Bennett, Craig, 
Hutchison, DeWine, Brownback, Byrd, Inouye, Leahy, Harkin, 
Reid, Murray, and Dorgan.


               OPENING STATEMENT OF CHAIRMAN TED STEVENS


    Chairman Stevens. Mr. Ambassador, I notice you have your 
statement ready, and we have other Senators on the way. I'm 
going to call on you to make your statement first, and then the 
Senators can make their statements or ask questions after 
you've finished.

STATEMENT OF HON. L. PAUL BREMER, U.S. ADMINISTRATOR IN 
            IRAQ

    Ambassador Bremer. Thank you, Mr. Chairman, Members of the 
Committee, and thank you for this opportunity to discuss the 
President's supplemental request.
    Mr. Chairman, before I begin, I would like to pay tribute 
to the men and women of our armed services. Leading a 
coalition, our armed forces delivered a military victory 
without precedent. In roughly 3 weeks, they liberated a country 
larger than Germany and Italy combined, and they did it with 
forces smaller than the Army of the Potomac. They did all this 
while absorbing and inflicting minimal casualties. The Iraqis 
understood that we tried to spare the innocent. After the first 
days of the war, only those citizens of Baghdad living close to 
obvious targets feared our bombing.
    Mr. Chairman, I know you and all Americans hate waking up 
to hear a newscast that begins, ``Last night, another American 
soldier was killed in Iraq.'' Well, my day starts 8 days 
earlier than yours, and I'm among the first to know of those 
deaths----
    Chairman Stevens. Eight hours earlier?
    Ambassador Bremer. Yes.
    No one regrets those deaths more than I do. But these 
deaths, painful as they are, are not senseless. They are part 
of the price we pay for civilization, for a world that refuses 
to tolerate terrorism and genocide and weapons of mass 
destruction.
    Those who ambush Coalition forces, like those responsible 
for this morning's suicide bombing in Baghdad, and those who 
ambushed Governing Council member Aquila al-Hashimi on 
Saturday, are trying to thwart constitutional and democratic 
government in Iraq. They are trying to create an environment of 
insecurity. Mr. Chairman, they are in a losing battle with 
history.
    President Bush's vision, in contrast, provides for an Iraq 
made secure through the efforts of the Iraqis. In addition to a 
more secure environment, the President's plan provides for an 
Iraqi economy based on sound economic principles, bolstered by 
a modern, reliable infrastructure. And, finally, the 
President's plan provides for a democratic and sovereign Iraq 
at the earliest reasonable date.
    If we fail to recreate Iraq with a sovereign democracy 
sustained by a solid economy we will have provided the 
terrorists with an incredible advantage in their war against 
us. Terrorists love state sponsors, countries that provide them 
with cash, arms, refuge, a protected place to rest and plan 
future operations. Saddam's Iraq was one of those countries. If 
terrorists cannot find a congenial state sponsor, they thrive 
in chaotic environments with little or no effective government. 
When militias, warlords, and communities war with each other, 
terrorists are right at home. Think back on the Lebanon we knew 
in the 1980s.
    Either outcome, or some combination of both, is possible in 
Iraq if we do not follow up on our military victory with the 
wherewithal to win the peace. The opposite is also true. 
Creating a sovereign, democratic, constitutional, and 
prosperous Iraq deals a blow to terrorists. It gives the lie to 
those who describe us as the enemies of Islam, enemies of the 
Arabs, or enemies of the poor. That is why the President's $87 
billion request has to be seen as an important element in the 
global war on terrorism.
    Mr. Chairman, our national experience teaches us how to 
consolidate a military victory. We didn't have that experience 
85 years ago when we emerged victorious from the first world 
war. Many had opposed that war, wished to shake the Old-World 
dust off their boots and solve the problems here at home. We 
have spent and lent a lot of money. The victors celebrated 
their victory, mourned their dead, and demanded the money they 
were owed.
    Mr. Chairman, we know the results of that policy. 
Extremism, bred in a swamp of despair, bankruptcy, and 
unpayable debts, gave the world fascism in Italy and Nazism in 
Germany. The result was another world war. After that conflict, 
we showed that we had learned that military victory must be 
followed by a program to secure the peace. In 1948, our 
``greatest generation'' recognized that military victory was 
hollow if democracy was not reinforced against tyranny and 
terrorism. Democracy could not flourish unless Europe's 
devastated economies were rebuilt. That generation responded 
with the boldest, most generous, most productive act of 
statesmanship in the past century, the Marshall Plan. Winston 
Churchill called it ``the most un-sordid act in history.''
    The Marshall Plan, enacted with overwhelming bipartisan 
support, set war-torn Europe on the path to freedom and 
prosperity which Europeans enjoy today. After 1,000 years as a 
cockpit of war, Europe became the cradle of peace in just two 
generations.
    The $20.3 billion in grants to Iraq the President seeks as 
part of this $87 billion supplemental bespeak grandeur of 
vision equal to the one which created the free world at the end 
of the Second World War. Iraqis living in freedom with dignity 
will set an example in this troubled region which so often 
spawns terrorism. A stable, peaceful, economically productive 
Iraq will serve America's interest by making America safer.
    There are a few things I'd like to point out about this $87 
billion request. No one part of this supplemental is 
dispensable, and no part is more important than the others. 
This is a carefully considered request. This request is urgent, 
Mr. Chairman. The urgency of military operations is self-
evident. The funds for nonmilitary action in Iraq are equally 
urgent. Most Iraqis welcomed us as liberators, and we glowed 
with pleasure at that welcome. Now the reality of foreign 
troops on the streets is starting to chafe. Some Iraqis are 
beginning to regard us as occupiers and not liberators. Some of 
this is inevitable, but faster progress on reconstruction will 
help.
    Unless this supplemental passes quickly, Iraqis face an 
indefinite period with blackouts 8 hours daily. The link to the 
safety of our troops is indirect, but very real. The people who 
ambush our troops are small in number and don't do so because 
they have undependable electrical supplies. However, the 
population's view of us is directly linked to their cooperation 
in hunting down those who attack us. Earlier progress gives us 
an edge against the terrorists.
    We need to emulate the military practice of using 
overwhelming force in the beginning. Incrementalism and 
escalation are poor military practice, and they are a poor 
model for economic assistance.
    This money will be spent with prudent transparency. Every 
contract of the $20 billion for Iraq will be competitively bid. 
That the money be granted and not loaned, Mr. Chairman, is 
essential. Initially offering assistance as loans seems 
attractive; but, once again, we must examine the facts and the 
historical record.
    Iraq today has almost $200 billion in debt and reparations 
hanging over it as a result of Saddam's economic incompetence 
and aggressive wars. Iraq is in no position to service its 
existing debt, let alone take on more. Mountains of unpayable 
debt contributed heavily to the instability that paved Hitler's 
path to power. The giants of the post-war generation recognize 
this, and the Marshall Plan assistance was overwhelming in the 
form of grant aid.
    Turning to the specifics of the supplemental request, the 
President's first priority is security, security provided by 
Iraqis and to Iraqis. That security extends to our forces and 
changes Iraq from a logistics and planning base for terrorists 
into a bulwark against them. The President's supplemental seeks 
$5.1 billion for three pillars of security.
    The first pillar is public safety. If Congress agrees to 
the President's request, we will spend just over $2 billion for 
police and police training, border enforcement, fire and civil 
defense, public-safety training, and a communications network 
to draw all of these together. Already, Mr. Chairman, 40,000 
police are on duty throughout Iraq, and our plan will double 
this number in the next 18 months.
    National defense forces are the second pillar of this 
security. The President seeks another $2 billion for a new 
three-division Iraqi army and a civil defense corps. The first 
battalion of the new Iraqi army will graduate on schedule 
October 4. By next summer, Iraq will have 27 battalions 
trained.
    The third pillar is a justice system to rein in the 
criminal gangs, revenge-seekers, and others who prey on Iraqis 
every day and make them fear that they will never know the 
quiet enjoyment that so many of us take for granted. To fund 
this justice system, the President requests approximately $1 
billion for technical assistance to investigate crimes against 
humanity, to provide security for witnesses, judges, and 
prosecutors, and to construct prisons sufficient to house an 
additional 16,000 inmates.
    This security assistance to Iraq benefits the United States 
in four ways. First, Iraqis will be effective. As talented and 
courageous as the Coalition forces are, they can never replace 
an Iraqi policeman who knows his beat, knows his people, their 
customs, rhythms, and language. Iraqis want Iraqis providing 
their security, and so do we.
    Second, as these Iraqi security forces assume their duties, 
they replace Coalition forces in the roles that generate 
frustration, friction, and resentment, things like conducting 
searches, manning checkpoints, guarding installations.
    Third, this frees up Coalition forces for the mobile, 
sophisticated offensive operations against former regime 
loyalists and terrorists, for which they are best suited.
    And, finally, these new Iraqi forces reduce the overall 
security demands on Coalition forces and speed the day when we 
can bring our troops home.
    Now, security is the first and indispensable element of the 
President's plan for Iraq. It is not, however, by itself, 
sufficient to ensure success, because a security system resting 
only on arms is a security system that will fail.
    Recreating Iraq as a nation at peace with itself and with 
the world, an Iraq that terrorists will flee rather than flock 
to, requires more than people with guns. A good security system 
cannot persist on the knife-edge of economic collapse. When 
Saddam scurried away from Coalition forces, he left behind an 
economy ruined not by our attacks, but by decades of neglect, 
theft, and mismanagement.
    Imagine the effect on the economy of operating without a 
budget for a quarter century. Saddam, who came to power in 
1979, Mr. Chairman, never prepared a national budget. Ill-
conceived and clumsily executed policies left Iraq with an oil 
industry starved nearly to death by under-investment, thousands 
of miles of irrigation canals so weed-clogged as to be almost 
useless, and an electrical system that can, at best, meet only 
two-thirds of demand.
    Reflect, Mr. Chairman, if you will, on that last item. As 
millions of households, including my own, this past week 
discovered, it is almost impossible to live in the modern world 
without dependable electricity. Think of what we would be 
asking of Iraq were we to suggest they fashion a new economy, a 
new democracy, while literally in the dark 8 hours a day.
    The Iraqis must refashion their economy. Saddam left them a 
Soviet-style command economy. That poor model was further 
hobbled by cronyism, theft, and pharaonic self-indulgence by 
Saddam and his intimates.
    The good news is that important changes have already begun. 
The Iraqi Minister of Finance yesterday announced a set of 
market-oriented policies that is among the world's boldest. 
These policies include a new Central Bank law which grants the 
Iraqi Central Bank full legal independence, makes price 
stability the paramount policy objective, gives the Central 
Bank full control over monetary and exchange-rate policy, and 
broad authority to supervise Iraqi banks. This is rare enough 
anywhere in the world, and unique in that region.
    The Iraqi Government Council proposed--and on Thursday, Mr. 
Chairman, I had the great joy to sign into law--a program 
opening Iraq to foreign investment. Foreign firms may now own 
wholly-owned companies or buy 100 percent of Iraqi businesses. 
Under this law, foreign firms receive national treatment and 
have an unrestricted right to remit profits or capital.
    Iraq's new tax system is admirably straightforward, the 
highest marginal tax rate, as announced by the Minister of 
Finance yesterday, on personal and corporate income tax is, get 
this, 15 percent--one-five percent. Tariff policy is equally 
simple. There is a 2-year reconstruction tariff of 5 percent on 
all but a few imports. Foreign banks are free to enter Iraq and 
will receive equal treatment with Iraqi banks. On October 15, 
Iraq will get a new dinar, new currency, which will float 
against the world's currencies.
    Iraq's pro-growth policies should bring real, sustained 
growth and protect against something we've all seen and 
regretted in the past, economic assistance funds disappearing 
into a morass of poverty.
    Mr. Chairman, the Iraqi Government has put into place the 
legal procedures for encouraging a vibrant private sector, but 
those policies will come to nothing if Iraq must try to 
establish itself on an insufficient and unreliable electrical 
grid or in a security environment that puts a stick on the 
spokes of the wheel of commerce. Iraq, in short, cannot realize 
its potential to return quickly to the world stage as a 
responsible player without the services essential to modern 
society.
    We have made significant progress restoring these essential 
services. The widely predicted humanitarian crisis did not 
occur. There was no major flow of refugees. All of Iraq's 240 
hospitals and 90 percent of its health clinics are open today. 
There is adequate food, and there is no evidence of epidemic. 
We have cleared thousands of miles of irrigation canals so that 
farmers in these areas have more water than they've had for a 
generation. Electrical service will reach pre-war levels within 
1 month. But the remaining demands are vast, and that is why 
the President is requesting almost $15 billion for 
infrastructure programs in Iraq.
    Here are some of the main areas in which the President 
plans to use the supplemental to bring essential services to 
the Iraqi people: $5.7 billion for the electrical system; $2.1 
billion for the oil infrastructure; $3.7 billion for potable 
water, sewer systems, and related public works; $3.7 billion 
for water resources, transportation, telecommunications, 
housing and construction, health, and private-sector 
development.
    Mr. Chairman, on another front, there is already good news. 
The democratization of Iraq on which so much global attention 
is focused is further advanced than many people realize. 
Encouraging a quick political transformation, we have laid out 
a clear seven-step process leading to sovereignty. Three of the 
seven necessary steps have already been completed.
    First, an Iraqi Governing Council, the most broadly 
representative governing body in Iraq's history, took office in 
July. In August, the Governing Council took the second step by 
naming a preparatory committee to determine the mechanisms for 
writing Iraq's new constitution. Earlier this month, the 
Governing Council appointed ministers to run the day-to-day 
affairs of Iraq.
    The fourth step will be writing a constitution, which sets 
the framework for all that follows. This will occur after the 
Iraqi Governing Council decides how to act on the 
recommendations of the preparatory committee. This 
constitution, Mr. Chairman, will be written by Iraqis and for 
Iraqis.
    The fifth step, the constitution will be ratified by the 
popular vote of the entire adult population. This will give 
Iraq its first popularly approved constitution.
    Next, after the constitution is ratified, elections for a 
new government will be held.
    The seventh and final step comes after elections, when we 
transfer sovereignty from the Coalition authority to the new 
government.
    And, Mr. Chairman, I mentioned that the Governing Council 
had appointed ministers, and it's my great pleasure to note for 
you and the members here the presence of two of the ministers 
of the new Iraqi Government. I would like to introduce the 
Minister of Public Works and Municipalities, Nesreen Berwari, 
and the Minister of Electricity, which is the power industry, 
Mr. Ayham Sameraei. They are here in Washington this week for 
meetings and discussions, and I consider it an honor that they 
would take the time to come up here and hear my opening 
statement. They are indicative of the quality of people in this 
new cabinet. Mr. Chairman, the cabinet has 25 members, 17 of 
whom have Ph.D.s, which must make it one of the best-educated 
governments anywhere in the world, an extremely able group of 
people.
    Mr. Chairman, that's our seven-step plan. Some suggest that 
we should move soon to give full sovereignty to an Iraqi 
Government. I firmly believe that such haste would be a 
mistake. Iraq has spent a quarter century under a dictatorship 
as absolute and abusive as that of Nazi Germany. As a result, 
political distortions and inequities permeate the fabric of 
political life. No appointed government, not even one as honest 
and dedicated as the Iraq Governing Council, can have the 
legitimacy necessary today to take on the difficult issues 
Iraqis face as they write their constitution and elect a 
government. The only path to full Iraqi sovereignty is through 
a written constitution ratified and followed by free democratic 
elections. Shortcutting the process, in my view, would be 
dangerous.
    Mr. Chairman, Members of the Committee, as you examine the 
President's plan, I'm sure you will see that it is an 
integrated and thoughtful whole. Every part depends on every 
other part. As the Congress knows, sweeping political reforms 
cannot be separated from sweeping economic reforms. It is 
equally obvious that a population beleaguered by the threat of 
terrorism and endless insufficiencies in water, electricity, 
and telephones finds it hard to concentrate on the virtues of 
the new constitution and market-oriented policies. The need to 
protect the Coalition and populace alike against terrorist and 
common criminals is obvious and indispensable.
    This entire program requires the help of Congress. The 
United States must take the lead in restoring Iraq as a friend 
and democratic model. There is a donor's conference in Madrid 
in late October. The United States must set the example for 
other countries of goodwill. Other nations who do not wish to 
see Iraq become a terror-supporting tyranny or a landscape of 
factions should join us. We set an example and work with other 
donors to avoid the near-anarchy in which terrorists would feel 
right at home.
    When we launched military operations against Iraq, we 
assumed a great responsibility that extends beyond defeating 
Saddam's military. We cannot simply pat the Iraqis on the back, 
tell them they are lucky to be rid of Saddam, and ask them to 
go find their place in a global market to compete without the 
tools of competition. To do so would invite economic collapse 
followed by political extremism and a return to terrorism. If 
after coming this far we turn our backs and let Iraq lapse into 
factional chaos, some new tyranny and terrorism, we will have 
committed a grave error. Not only will we have left the long 
suffering Iraqi people to a future of danger and deprivation, 
we will have sown the dragon's teeth, which will sprout more 
terrorists and eventually cost more American lives.
    You may think I exaggerate. I ask you to look at what 
happened in Afghanistan, another country which, after being 
debilitated by decades of war and mismanagement, become easy 
prey for the Taliban and al Qaeda.
    The reconstruction of Iraq may seem distant from American 
concerns today. Eight time zones and two continents separate 
the East Coast of the United States from Iraq. The West Coast 
is effectively half a world away. Two years ago, on September 
11, terrorists brought their threat home to us. From a faraway 
corner of the world they showed us that we must fight terrorism 
globally. Iraqis only seem far away. Today Iraq is a focal 
point in our global war on terrorism. Failure there would 
strengthen the terrorists morally and materially.
    Success tells, not just the Iraqis, but the world, that 
there is hope, that the future is not defined by tyranny on one 
side and terrorism on the other.

                           PREPARED STATEMENT

    Mr. Chairman, Members of the Committee, we respectfully ask 
you to honor the President's supplemental request, which 
responds to urgent requirements. The administration and I look 
forward to working with you to achieve the vision of a 
sovereign, stable, prosperous, and democratic Iraq at peace 
with us and with the world.
    Mr. Chairman, I'd be happy to take your questions.
    [The statement follows:]

            Prepared Statement of Ambassador L. Paul Bremer

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to discuss the President's supplemental request.
    Before I begin, I want to pay tribute to the men and women of our 
armed services. Leading a coalition, our armed forces delivered a 
military victory without precedent.
    In roughly three weeks they liberated a country larger than Germany 
and Italy combined. And they did so with forces smaller than the Army 
of the Potomac.
    They did all this while absorbing and inflicting minimal 
casualties. Iraqis understood that we tried to spare the innocent. 
After the first days of the war, only those citizens of Baghdad living 
close to obvious targets feared our bombing.
    Mr. Chairman, I know that you and all Americans hate waking up to 
hear a newscast that begins, ``Last night another American soldier was 
killed in Iraq . . .''
    My day starts eight hours ahead of yours. I am among the first to 
know of those deaths and no one regrets them more than I do.
    But these deaths, painful as they are, are not senseless. They are 
part of the price we pay for civilization, for a world that refuses to 
tolerate terrorism and genocide and weapons of mass destruction.
    Those who ambush Coalition forces, like those responsible for this 
morning's suicide bombing in Baghdad and those who ambushed Governing 
Council member Aquila al-Hashimi on Saturday, are trying to thwart 
constitutional and democratic government in Iraq. They are trying to 
create an environment of insecurity. They are in a losing battle with 
history.
    President Bush's vision, in contrast, provides for an Iraq made 
secure through the efforts of Iraqis. In addition to a more secure 
environment, the President's plan provides for an Iraqi economy based 
on sound economic principles bolstered by a modern, reliable 
infrastructure. And finally, the President's plan provides for a 
democratic and sovereign Iraq at the earliest reasonable date.
    If we fail to recreate Iraq with a sovereign democracy sustained by 
a solid economy we will have provided the terrorists with an incredible 
advantage in their war against us.
    Terrorists love state sponsors, countries that provide them with 
cash, arms, refuge, a protected place to rest and plan future 
operations. Saddam's Iraq was one of those countries.
    If terrorists cannot find a congenial state sponsor, they thrive in 
chaotic environments with little or no effective government. When 
militias, warlords and communities war with each other, terrorists are 
right at home. Think of Lebanon in the 1980's.
    Either outcome, or some combination of both, is possible in Iraq if 
we do not follow up on our military victory with the wherewithal to win 
the peace.
    The opposite is also true. Creating a sovereign, democratic, 
constitutional and prosperous Iraq deals a blow to terrorists. It gives 
the lie to those who describe us as enemies of Islam, enemies of the 
Arabs and enemies of the poor. That is why the President's $87 billion 
request has to be seen as an important element in the global war on 
terrorism.
    Our national experience teaches us how to consolidate a military 
victory.
    We did not have that experience 85 years ago when we emerged 
victorious from World War I. Many had opposed the war, wished to shake 
the old world dust off their boots and solve problems at home. We had 
spent and lent a lot of money. The victors celebrated their victory, 
mourned their dead and demanded the money they were owed.
    We know the results of that policy. Extremism, bred in a swamp of 
despair, bankruptcy and unpayable debts, gave the world Fascism in 
Italy and Nazism in Germany.
    The result was another World War. After that conflict we showed we 
had learned that military victory must be followed by a program to 
secure the peace. In 1948 our greatest generation recognized that 
military victory was hollow if democracy was not reinforced against 
tyranny and terrorism. Democracy could not flourish unless Europe's 
devastated economies were rebuilt. That generation responded with the 
boldest, most generous and most productive act of statesmanship in the 
past century--the Marshall Plan. Winston Churchill called it ``the most 
unsordid act in history.''
    The Marshall Plan, enacted with overwhelming bipartisan support, 
set war-torn Europe on the path to the freedom and prosperity which 
Europeans enjoy today. After a thousand years as a cockpit of war 
Europe became a cradle of peace in just two generations.
    The $20.3 billion in grants to Iraq the President seeks as part of 
this $87 billion supplemental bespeak grandeur of vision equal to the 
one which created the free world at the end of World War II. Iraqis 
living in freedom with dignity will set an example in this troubled 
region which so often spawns terrorists. A stable peaceful economically 
productive Iraq will serve American interests by making America safer.
    There are some things I would like to point out about this $87 
billion request:
  --No one part of the supplemental is dispensable and no part is more 
        important than the others. This is a carefully considered 
        request.
  --This is urgent. The urgency of military operations is self-evident. 
        The funds for non-military action in Iraq are equally urgent. 
        Most Iraqis welcomed us as liberators and we glowed with the 
        pleasure of that welcome. Now the reality of foreign troops on 
        the streets is starting to chafe. Some Iraqis are beginning to 
        regard us as occupiers and not as liberators. Some of this is 
        inevitable, but faster progress on reconstruction will help.
      Unless this supplemental passes quickly, Iraqis face an 
        indefinite period with blackouts eight hours daily. The link to 
        the safety of our troops is indirect, but real. The people who 
        ambush our troops are small in number and do not do so because 
        they have undependable electric supplies. However, the 
        population's view of us is directly linked to their cooperation 
        in hunting down those who attack us. Earlier progress gives us 
        an edge against the terrorists.
  --We need to emulate the military practice of using overwhelming 
        force in the beginning. Incrementalism and escalation are poor 
        military practice and they are a poor model for economic 
        assistance.
  --This money will be spent with prudent transparency. Every contract 
        of the $20 billion for Iraq will be competitively bid.
  --That the money be granted and not loaned is essential. Initially, 
        offering assistance as loans seems attractive. But once again 
        we must examine the facts and the historical record. Iraq has 
        almost $200 billion in debt and reparations hanging over it as 
        a result of Saddam's economic incompetence and aggressive wars. 
        Iraq is in no position to service its existing debt, let alone 
        to take on more. Mountains of unpayable debt contributed 
        heavily to the instability that paved Hitler's path to power. 
        The giants of the post-World War II generation recognized this 
        and Marshall Plan assistance was overwhelmingly grant aid.
    The President's first priority is security, security provided by 
Iraqis to and for Iraqis. That security extends to our forces and 
changes Iraq from a logistics and planning base for terrorists into a 
bulwark against them.
    The President's supplemental seeks $5.1 billion for three pillars 
of security.
    The first pillar is public safety. If the Congress agrees to the 
President's request, we will spend just over $2 billion for police and 
police training, border enforcement, fire and civil defense, public 
safety training and a communications network to link it all together. 
Already 40,000 police are on duty. Our plan will double this number in 
the next 18 months.
    National defense forces are the second pillar. The President seeks 
another $2 billion for a new, three-division Iraqi Army and a Civil 
Defense Corps. The first battalion of the New Iraqi Army will graduate 
on schedule October 4. By next summer Iraq will have 27 battalions 
trained.
    The third pillar is a justice system to rein in the criminal gangs, 
revenge seekers and others who prey on Iraqis every day and make them 
fear that they will never know the quiet enjoyment that so many of us 
take for granted.
    To fund this justice system, the President requests approximately 
$1 billion for technical assistance to investigate crimes against 
humanity, security for witnesses, judges and prosecutors and the 
construction of prisons sufficient to house 16,000 additional inmates.
    This security assistance to Iraq benefits the United States in four 
ways.
    First, Iraqis will be more effective. As talented and courageous as 
the Coalition forces are, they can never replace an Iraqi policeman who 
knows his beat, who knows his people, their customs, rhythms and 
language. Iraqis want Iraqis providing their security and so do we.
    Second, as these Iraqi security forces assume their duties, they 
replace Coalition troops in the roles that generate frustration, 
friction and resentment-conducting searches, manning check points, 
guarding installations.
    Third, this frees up Coalition forces for the mobile, sophisticated 
offensive operations against former regime loyalists and terrorists for 
which they are best suited.
    Finally, these new Iraqi forces reduce the overall security demands 
on Coalition forces and speed the day when we can bring troops home.
    Security is the first and indispensable element of the President's 
plan. It is not, by itself, sufficient to assure success because a 
security system resting only on arms is a security system that will 
fail. Recreating Iraq as a nation at peace with itself and with the 
world, an Iraq that terrorists will flee rather than flock to, requires 
more than people with guns.
    A good security system cannot persist on the knife edge of economic 
collapse. When Saddam scurried away from Coalition forces he left 
behind an economy ruined not by our attacks but by decades of neglect, 
theft and mismanagement.
    Imagine the effect on the economy of operating without a budget for 
a quarter-century. Saddam, who came to power in 1979, never prepared a 
national budget. Ill-conceived and clumsily executed policies left Iraq 
with:
  --an oil industry starved nearly to death by underinvestment,
  --thousands of miles of irrigation canals so weed-clogged as to be 
        almost useless, and
  --an electrical system that can at best meet only two-thirds of 
        demand.
    Reflect, if you will, on that last item. As millions of American 
households (including the Bremer household) have learned in recent 
days, it is almost impossible to live in the modern world without 
dependable electricity. Think of what we would be asking of Iraqis were 
we to suggest they fashion a new economy, a new democracy, while 
literally in the dark eight hours per day.
    The Iraqis must refashion their economy. Saddam left them a Soviet-
style command economy. That poor model was further hobbled by cronyism, 
theft and pharonic selfindulgence by Saddam and his intimates.
    Important changes have already begun.
    The Iraqi Minister of Finance on Sunday announced a set of market-
oriented policies that is among the world's boldest.
    Those policies include:
  --A new Central Bank law which grants the Iraqi Central Bank full 
        legal independence, makes price stability the paramount policy 
        objective, gives the Central Bank full control over monetary 
        and exchange rate policy, and broad authority to supervise 
        Iraqi banks. This is rare anywhere in the world and unique in 
        the region.
  --The Iraqi Government Council proposed and on Thursday I signed into 
        law Thursday a program opening Iraq to foreign investment. 
        Foreign firms may open wholly owned companies or buy 100 
        percent of Iraqi businesses. Under this law foreign firms 
        receive national treatment and have an unrestricted right to 
        remit profits and capital.
  --Iraq's new tax system is admirably straightforward. The highest 
        marginal tax rate on personal and corporate income is 15 
        percent.
  --Tariff policy is equally simple. There is a two-year 
        ``reconstruction tariff'' of five percent on all but a few 
        imports.
  --Foreign banks are free to enter Iraq and will receive equal 
        treatment with Iraqi banks.
  --On October 15, Iraq will get a new Dinar, which will float against 
        the world's currencies.
    Iraq's pro-growth policies should bring real, sustained growth and 
protect against something we have all seen and regretted--economic 
assistance funds disappearing into a morass of poverty.
    The Iraqi Government has put in place the legal procedures for 
encouraging a vibrant private sector. But those policies will come to 
nothing if Iraq must try to reestablish itself on an insufficient and 
unreliable electric grid or in a security environment that puts a stick 
in the spokes of the wheels of commerce.
    Iraq cannot realize its potential to return quickly to the world 
stage as a responsible player without the services essential to a 
modern society.
    We have made significant progress restoring these essential 
services. The widely predicted humanitarian crisis did not occur. There 
was no major flow of refugees. All of Iraq's 240 hospitals and 90 
percent of its health clinics are open. There is adequate food and 
there is no evidence of epidemic. We have cleared thousands of miles of 
irrigation canals so that farmers in these areas have more water than 
they have had for a generation. Electrical service will reach pre-war 
levels within a month.
    However, the remaining demands are vast, which is why the President 
is requesting almost $15 billion for infrastructure programs in Iraq.
    Here are some of the main areas in which the President plans to use 
the supplemental to bring essential services:
  --$5.7 billion for the electrical system,
  --$2.1 billion for the oil infrastructure,
  --$3.7 billion for potable water, sewer service and related public 
        works,
  --$3.7 billion for water resources, transportation and 
        telecommunications, housing and construction, health, and 
        private sector development.
    On another front there is already good news. The democratization of 
Iraq, on which so much global attention is focused, is further advanced 
than many realize.
    Encouraging a quick political transformation, we have laid out a 
clear, seven-step process leading to sovereignty. Three of the seven 
necessary steps have been completed:
  --1. An Iraqi Governing Council, the most broadly representative 
        governing body in Iraq's history, was appointed in July.
  --2. In August the Governing Council named a Preparatory Committee to 
        determine the mechanism for writing Iraq's new, permanent 
        constitution.
  --3. Earlier this month the Governing Council appointed ministers to 
        run the day-to-day affairs of Iraq.
  --4. The fourth step is writing a constitution, which sets the 
        framework for all that follows. This will occur after the Iraqi 
        Governing Council decides how to act on the recommendations of 
        the Preparatory Committee. The constitution will be written by 
        Iraqis.
  --5. The constitution will be ratified by popular vote of the entire 
        adult population. This will give Iraq its first popularly 
        approved constitution.
  --6. After the constitution is ratified, elections for a new 
        government will be held.
  --7. The final step will come after elections, when we transfer 
        sovereignty from the Coalition to the new government.
    Some suggest we should move soon to give full sovereignty to an 
Iraqi government. I firmly believe that such haste would be a mistake. 
Iraq has spent a quarter century under a dictatorship as absolute and 
abusive as that of Nazi Germany. As a result, political distortions and 
inequities permeate the fabric of political life.
    No appointed government, even one as honest and dedicated as the 
Iraqi Governing Council, can have the legitimacy necessary to take on 
the difficult issues Iraqis face as they write their constitution and 
elect a government.
    The only path to full Iraqi sovereignty is through a written 
constitution, ratified and followed by free, democratic elections. 
Shortcutting the process would be dangerous.
    As you examine the President's plan I am sure you will see that it 
is an integrated and thoughtful whole. Every part depends on every 
other part. As the Congress knows, sweeping political reforms cannot be 
separated from sweeping economic reforms.
    It is equally obvious that a population beleaguered by the threat 
of terrorism and endless insufficiencies in water, electricity, and 
telephones finds it hard to concentrate on the virtues of a new 
constitution and market-oriented economic policies.
    The need to protect the Coalition and the populace alike against 
terrorists and common criminals is obvious and indispensable.
    All of this requires the help of Congress.
    The United States must take the lead in restoring Iraq as a friend 
and democratic model. There is a donor conference in Madrid in late 
October. We must set the example for other nations of goodwill. Other 
nations who do not wish to see Iraq become a terror-supporting tyranny 
or a landscape of factions. We set an example and work with other 
donors to avoid the near anarchy in which terrorists will feel right at 
home.
    When we launched military operations against Iraq we assumed a 
great responsibility that extends beyond defeating Saddam's military.
    We cannot simply pat the Iraqis on the back, tell them they are 
lucky to be rid of Saddam and then ask them to go find their place in a 
global market--to compete without the tools for competition.
    To do so would invite economic collapse followed by political 
extremism and a return to terrorism.
    If, after coming this far, we turn our backs and let Iraq lapse 
into factional chaos, some new tyranny and terrorism, we will have 
committed a grave error.
    Not only will we have left the long-suffering Iraqi people to a 
future of danger and deprivation, we will have sown the dragon's teeth 
which will sprout more terrorists and eventually cost more American 
lives.
    You may think I exaggerate. I ask you to look at what happened in 
Afghanistan, another country which, after it was debilitated by decades 
of war and mismanagement became easy prey for the Taliban and al Qaida.
    The reconstruction of Iraq may seem distant from American concerns 
today. Eight time zones and two continents separate the East Coast of 
the United States from Iraq. The West Coast is effectively half a world 
away.
    Two years ago on September 11, terrorists brought their threat home 
to us. From a farway corner of the world, they showed us that we must 
fight terrorism globally.
    Iraqis only seem far away. Today Iraq is a focal point in our 
global war on terrorism. Failure there would strengthen the terrorists 
morally and materially.
    Success tells not just Iraqis, but the world that there is hope, 
that the future is not defined by tyranny on one side and terrorism on 
the other.
    Mr. Chairman and members of the committee we respectfully ask you 
to honor the President's supplemental request, which responds to urgent 
requirements. The administration and I look forward to working with you 
to achieve the vision of a sovereign, stable, prosperous and democratic 
Iraq at peace with us and with the world.
    Mr. Chairman, I welcome your questions.

Coalition Provisional Authority Request to Rehabilitate and Reconstruct 
                                  Iraq

                                SECURITY

Objective
    Ensure a secure environment for people and property that enables 
citizens to participate fully in political and economic life. Create 
conditions and provide means for Iraqis to assume responsibility for 
their own security. Request--$5.136 billion.

Accomplishments
    Security remains top priority. Major focus of CPA security efforts 
has been to increase Iraqi participation and responsibility for a safe 
and secure Iraq.
    Security situation is complex:
  --80 percent of Iraq is permissive environment-people returning to 
        normal pace of life.
  --Remaining 20 percent are less permissive, with entrenched Saddam 
        loyalists, international terrorists and general lawlessness 
        hindering recovery efforts.
    60,000 Iraqis now under arms assisting in security:
  --46,000 Iraqi police nationwide.
  --8,700 facility protection officers augmenting the Iraqi police at 
        243 locations.
  --4,000 border and customs police helping to enforce immigration and 
        customs laws along the borders and stem the tide of foreign 
        fighters entering Iraq.
  --Civil Defense Corps is in the process of being developed.
    Beginning to train New Iraqi Army; first battalion graduates in 
October.
    In September, the Iraqi Ministry of Justice established an 
independent judiciary.

Plan for Requested Funds
            Public Safety Projects ($2.141 billion)
    Reinforcement and training of police forces:
  --Recruiting police officers, continuing operations and maintenance 
        ($150 million).
  --New police training force of 1,500 focusing on democratic 
        principles ($800 million).
  --Recruiting and training of 5,200 traffic officers ($50 million).
    Establishment of a Department of Border Enforcement ($150 million):
  --13,600 new personnel.
  --Rehabilitation of infrastructure.
    Facilities protection, mine removal, fire service, and public 
safety facility and equipment repairs ($500 million).
    Establish Facility Protection, Services ($67 million).
    Conduct Public Safety Training to increase professional standards 
($274 million).
    Develop a National Security Communications Network ($150 million).
            National Security Forces Projects ($2.076 billion)
    Establishment of New Iraqi Army (NIA) ($2 billion):
  --Full manning by September, 2004.
  --Training 9 brigades, including 1 armored brigade and army aviation.
  --Small coast guard.
  --Military academies and military training facilities.
    Establishment of Iraqi Civil Defense Corps (CDC) ($76 million):
  --Military support corps for the 18 Iraqi governates.
  --One battalion for each governate.
            Justice and Civil Society Development Projects ($919 
                    million)
    Technical assistance for investigations of crimes against humanity 
($100 million).
  --Establish a working system of criminal investigations and trials.
    Security for judges and prosecutors, renovate and harden 
courthouses ($200 million).
    Witness Protection Program ($100 million).
    Other technical investigative methods ($10 million).
    Prison system rehabilitation:
  --Prison system technical assistance ($10 million).
  --Reconstruction and modernization of 26 detention facilities ($99 
        million).
  --2 new 4,000 bed facilities ($400 million).

                 ESSENTIAL SERVICES AND INFRASTRUCTURE

Objective
    Restore essential services to acceptable standards and to begin to 
create a civil society which participates in improving social and 
physical infrastructure. Provide foundation from which Iraqis can 
rebuild Iraq. Request--$14.868 billion.

Accomplishments
    Under difficult conditions, there has been no food or health 
crisis:
  --Sufficient food stockpiles and distribution system; total 
        distribution since the beginning of operations has exceeded 1.8 
        million MT.
  --All hospitals and primary care clinics are open, have power 24 
        hours a day, and are being supplied with adequate medical 
        supplies for the first time in many years.
  --All schools and universities are open.
    Working together Coalition and Iraqi engineers have restored 
electric power production to prewar average levels--improved from 
virtually nothing following major combat operations to 3,200 MW in July 
and 3,734 MW in August.
    Water and sanitation--By July, much of Iraq at pre-war conditions; 
CPA has shifted focus to specific rehabilitation projects; Baghdad had 
first ever city-wide garbage clean up in August.
    Restoration of the oil industry is helping to rehabilitate the 
economy:
  --Iraqi/CPA oil management team is highly respected internationally.
  --Crude oil production is averaging about 1.7mi1 barrels per day 
        which is 160 percent higher than June average and 70 percent of 
        prewar output.
  --Oil exports are averaging 860k barrels per day which represents 
        approximately $21 million and is 165 percent higher than July 
        average and 45 percent of prewar level.
  --Sabotage remains an issue.

Plan for Requested Funds
            Electrical Projects ($5.675 billion)
    Electricity generation ($2.9 billion):
  --Rehabilitate existing power stations and spare parts.
  --New gas turbine generation.
  --New thermal power stations.
    Repair, expansion, and rehabilitation of transmission ($1.55 
billion):
  --Repair, expansion of 400 KV and 132 KV lines.
  --Rehabilitation and construction of substations.
    Rehabilitation and replacement of network infrastructure over 
several years ($1 billion):
  --33 KV and 11 KV substation and network rehabilitation and 
        development.
    Development of an automated monitoring and control system ($150 
million).
    Institutional strengthening ($25 million).
    Security of stations and transmission lines ($50 million).
            Oil Projects ($2.1 billion)
    Investment in oil infrastructure ($1.2 billion):
  --Rapid repair caused by sabotage and looting.
  --Convert to topping plants to reduce importation of refined 
        petroleum.
  --Establishment of transport redundancy due to sabotage.
  --Development of oil infrastructure and personnel security.
  --Increased efficiency of water plant for the Ramayllah reservoir.
  --Other repairs to rehabilitate upstream and downstream sectors.
    Importation of refined petroleum products to overcome shortfalls 
due to sabotage and looting ($900 million).
            Public Works Projects ($3.710 billion)
    Raising potable water access to 90 percent from 60 percent:
  --Costs are estimated at $500/km for 15,000 km of water main line 
        ($2.83 billion).
  --Includes efforts to reduce water loss ($30 million).
    Increasing sewerage service from 6 percent to 15 percent ($697 
million).
    Improving solid waste management ($153 million).
            Water Resources Projects ($875 million)
    Replace pumping station standby generators, pumps, electrical 
control devices ($150 million).
    Rehabilitation of irrigation and drainage systems ($130 million).
    10 major irrigation projects, reducing salinity loads to Tigris and 
Euphrates ($130 million).
    Dam repair, rehabilitation, and new construction ($125 million).
    Umm Qasr to Basra water pipeline and treatment plant ($200 
million).
    Environmental restoration of Euphrates, Hawizeh Marsh, and Basra 
Channel Regulators to benefit millions of people ($140 million).
            Transportation and Communications Projects ($835 million)
    Airspace and airport opening in Baghdad and Basra, and 120 smaller 
airports ($165 million):
  --Repair infrastructure, purchase avionic equipment, training to meet 
        ICAO standards.
    Umm Qasr Port rehabilitation ($45 million).
    Railroad rehabilitation and restoration ($303 million).
    Restoration of Iraqi Telecom and Postal Corporation ($124 million).
    Iraqi Communications systems, including Iraqi media ($109 million).
    Iraqi communications operations ($89 million).
            Housing and Construction Projects ($470 million)
    Housing ($100 million):
  --Construction of 3,500 new housing units including 7 housing 
        communities.
  --Pilot program for Ministry of Housing and Construction, 1 million 
        housing units needed.
    Public buildings ($130 million):
  --1,325 basic repairs and 140 refurbishment projects.
  --6 major reconstruction projects at $7 million each.
    Roads and bridges ($240 million):
  --2 percent of need for total road and bridge repair.
  --Repair to Expressway 1.
            Health Projects ($850 million)
    Major new children's hospital ($150 million):
  --41 percent of total population is under age 14.
  --Demographics point to baby boom within next ten years.
    Hospital refurbishment ($393 million):
  --Reduce infant and childhood deaths by 50 percent.
  --Refurbish 1,200 primary care clinics and 5 regional maternal/
        pediatric referral centers.
  --Construction cost in Iraq is one-tenth that of U.S.
    Equipment replacement ($300 million):
  --Early studies estimate that 50 percent of all equipment needs 
        replacement.
  --Equipment and training of technicians.
    Partner with American health care organizations, intern. donors, 
and schools ($7 million).
            Private Sector Development Projects ($353 million)
    An American-Iraqi Enterprise Fund ($200 million):
  --Promote private sector of Iraq.
  --Independent fund would invest in private enterprises, and 
        disseminate Western business know-how.
    Expand network of Employment Centers ($8 million).
    On-the-job training ($35 million).
    Market-oriented specialized training ($110 million).

                               GOVERNANCE

Objective
    Enable the transition to a legitimate constitutional government. 
Help Iraqis on the path to a democratic society and full sovereignty. 
Request--$300 million.

Accomplishments
    Iraqi Governing Council, comprised of 25 men and women representing 
Iraq's religious and ethnic diversity, was established on July 13th and 
has had several accomplishments:
  --Welcomed by UN Security Council as step toward a sovereign, 
        democratic Iraq.
  --Appointed constitutional preparatory committee.
  --Appointed 25 member Cabinet, responsible for the day to day 
        management of Iraqi government ministries.
  --Iraqi Foreign Minister has been seated by the League of Arab States 
        in early September.
  --Growing international recognition that GC is the political voice of 
        Iraq.
  --GC prepared to open embassies in U.S., U.K. and 5 Arab nations.
    90 percent of the Iraqi people live under local representative 
governing councils.
    Iraq has 3 pillars required for achieving a democratic society: 
free press and speech, freedom of religion and an independent 
judiciary.

Plan for Requested Funds
            Refugees, Human Rights, and Civic Society ($300 million)
    Migration and Refugee Assistance ($105 million).
    Local Governance & Municipalities ($90 million).
    Property Claims Tribunal ($30 million).
    Update antiquated banking system ($30 million).
    Catch up business training ($20 million).
    Human Rights ($15 million).
    Civic Programs ($10 million).

    Chairman Stevens. Thank you very much for your statement, 
Mr. Ambassador, and we thank you for bringing the Iraqi 
citizens with you. Perhaps we'll have a chance to visit with 
them later.
    This supplemental will be the subject of hearings more than 
any supplemental I'm aware of. We've gone back and checked the 
history. In the past we've had supplemental requests for 
Operations Desert Shield and Storm. We had only one hearing. 
That was true for Bosnia and Kosovo, too. The House and the 
Senate will conduct, I'm told, seven hearings regarding this 
supplemental, where administration officials will appear before 
the Congress. Ambassador Bremer, I am informed that you will 
appear at six of those hearings. You're going to have a busy 
week.
    Ambassador Bremer. Yes, sir.
    Chairman Stevens. I believe the supplemental is necessary 
to protect the lives of our people who are there now in Iraq. 
That includes our troops, as well as Americans who will be 
working there. We need to help rebuild their infrastructure, as 
you have said, and get the Iraqi people back to work. Mr. 
Ambassador, from my point of view, you will have my full 
support for this important task, and your colleagues in the 
Coalition Provisional Authority, known as CPA.
    Liberation of the Iraqi people from the oppressive rule of 
Saddam Hussein is no small feat, nor is the task of helping the 
Iraqi people craft a nation rooted in freedom, free markets, 
and the rule of law. With our help, America's help and 
leadership, the Iraqi people should become a stable nation with 
a promising future.

                          SUPPLEMENTAL REQUEST

    Last week, as you said, the administration sent us an $87 
billion supplemental request, of which $71 billion is for 
Iraqi-related programs. Of that amount, $20.3 billion is for 
activities under your jurisdiction. That includes $5.1 billion 
for security-related programs, including costs necessary to 
stand up a new Iraqi army, $5.7 billion for the electricity 
repair and reconstruction, and $2.1 billion for repair of oil 
infrastructure and oil products. You expanded that in your 
statement. The nexus between support for our troops and ongoing 
reconstruction efforts in Iraq, for me, is undeniable. The 
sooner a new Iraqi Government is formed and effectively 
functions, the quicker our solders, sailors, and all Americans 
can come home.
    Throughout this week, staff on the Defense and Foreign 
Operations Subcommittees of this committee, will continue to 
meet with relevant administration officials, including members 
of your CPA, to better understand the details and assumptions 
of your supplemental request. I look forward to your further 
comments through this hearing today.
    We are going to have a policy, if there's no objection, of 
recognizing each Member, one from each side of the aisle, as we 
go down the line, for not to exceed 8 minutes the first time 
around, and then we will continue along as long as we can 
continue the hearing.
    Senator Byrd?
    Senator Byrd. May I ask you a question, without its being 
taken from my time?
    Chairman Stevens. Yes, sir.
    Senator Byrd. When you say 8 minutes, does that include our 
opening statements as well as our questions?
    Chairman Stevens. Yes, sir. Eight minutes, which each 
member can use as they wish as we go through the first round, 
and then we'll go through another round as long as we can.
    Senator Byrd. Well, Mr. Chairman, it'll take me more than 8 
minutes for my statement. Could the chairman and the ranking 
member have some time for a statement--at least those two 
members, to begin with, without its being taken out of the time 
which we need for questions?
    Chairman Stevens. Senator, I think--they tell me I used 4 
minutes, so I'll let you have the rest of my statement, my 
time.
    Senator Byrd. Well, now, Mr. Chairman, you say you'll ``let 
me have.'' I'm here on behalf, as you are, of millions of 
Americans. This is a very serious matter that we are going to 
be studying. It seems to me that our time is going to be 
extremely limited if we proceed as I envision it under the 
chairman's proposal.
    Chairman Stevens. Senator, the----
    Senator Byrd. I'm not trying to be argumentative. I have a 
statement which will require at least 8 minutes. I'll try to 
move through it. But if I'm only to be allowed 8 minutes, then 
I'll use the full 8 minutes on my statement without getting to 
the questions which I have.
    Chairman Stevens. Senator, there are 29 members of this 
committee. If we give each one of them 8 minutes, it will be 
almost 3 hours, a little over 3 hours, before we get back to 
me.
    Senator Byrd. I understand. Now, how many sessions are we 
going to have in this committee?
    Chairman Stevens. We're going to have this hearing today. 
We're going to have another hearing on Wednesday, and maybe one 
on Thursday. We were considering having an additional meeting 
on the Afghanistan portion of this, but there are several 
portions of this supplemental. The Defense one, it's the 
largest one, it will be the subject of the Wednesday hearing, 
and hopefully we can go to other aspects. I've not discussed 
with members of the committee what other aspects might--we're 
thinking perhaps of having one portion of our hearing cover the 
question that's been raised by Ambassador Bremer, and that's 
the question of the contracts for reconstruction, which, as he 
indicated, will be subject to competition. I think that's a 
matter that should be explored. But we're going to have as much 
time as we possibly can.
    As I said, Ambassador Bremer is scheduled six separate 
hearings. And, as I understand, he is also returning to Iraq 
the last part of the week with the House Appropriations 
Committee. So we've got a lot to do in a short period of time.
    But, Senator, I'm not trying to be arbitrary, either, but I 
do believe--I've told every member of the committee will be 
here today, and each one of them is entitled some time. So in 
order to be entitled to some time, we have to limit all of us, 
at least as we go through the rounds. But, Senator, I agree we 
will not take this time out of your statement. I'll be glad to 
recognize you, and I hope you'll make your statement as short 
as you can, and I certainly will allot you the balance of my 
time.
    Senator Byrd. Well, Mr. Chairman, does the time used by the 
witnesses come out of the 8 minutes when we get to our 
questions?
    Chairman Stevens. Yes, it does, sir.
    Senator Byrd. You see, that's not the way we ought to do 
things. And I'm not blaming you for that. That's the way we're 
doing things around here anymore. But it used to be that we 
opened a line of questions, and we were permitted to pursue 
that line for much more time than we now are allowed to do. And 
I'm not faulting you for that. We have the same situation in 
the Armed Services Committee.
    Chairman Stevens. Senator, I remember, when I first came 
here, new Senators were seen and not heard. We didn't get a 
chance to ask questions until the senior members had exhausted 
their questions. That policy changed about midway through my 35 
years, and I think we're conducting this hearing in a manner 
that you conducted yours, sir, when you were chairman.
    Senator Byrd. Well, I don't remember having any hearings on 
a matter of this kind. And we had 5 days of hearings when I 
conducted this--when I was chairman of this committee last--I 
believe it was at the beginning of last year. We had 5 days of 
hearings. You participated in those hearings. I'm simply saying 
that we're going to need more time than it appears is going to 
be provided.
    Chairman Stevens. The Senator is correct, we did have 
hearings on the subject of the new Department of Homeland 
Security. It was a brand new issue, and I did sit through all 
those hearings with you. There's no question about it.
    This is on the question of a supplemental appropriations 
bill, which the President and Ambassador Bremer have said is 
absolutely necessary that we get this matter settled as quickly 
as possible. And there are other committees involved, both in 
the Senate and the House.
    So all I can do is be as fair as I can, Senator.
    Senator Byrd. Well, Mr. Chairman, you are always fair. 
There's no question about that. But this is a different matter 
from any that I have dealt with in quite awhile, and it takes 
more time. It really requires more time than it appears is 
going to be given. You and I can talk about this, to some 
extent, after the hearing. But I hope that we'll have more days 
of hearings, because it's obvious that, with an $87 billion 
request, that's $1,000 for each Iraqi, man, woman, boy, and 
girl. That's a lot of money.
    And I hear my friends on the other side of the aisle 
saying, ``This is your money,'' to the people, you see, when we 
have these tax cuts, ``It's your money.'' Well, here again, 
it's your money. And I'm just arguing that we really need more 
time, and I hope you'll think about it.
    So I'll begin then.
    Chairman Stevens. Yes, sir.
    Senator Byrd. Mr. Chairman, I thank Chairman Stevens for 
convening these hearings, and I thank Ambassador Bremer for his 
testimony today.
    Ambassador Bremer, you have a tough job. You've been handed 
an extremely difficult job under critical and dangerous 
circumstances. And I've been following you in the press as best 
I could. I think that you're doing the best you can do with 
what you have, and you have a terrible situation on your hands. 
It means life and death every day for you and our soldiers. And 
so the questions I ask are not going to be intended to be 
personal or unfriendly.
    But the chairman talks about his 35 years here. I've been 
in this Congress--this is my 51st year. And the people who are 
most affected can't be here today to ask questions. Our 
children, our grandchildren, they can't be here to ask 
questions. The American people out there, the voters, cannot be 
here today to ask questions. That's our responsibility.
    We passed a supplemental earlier this year. We didn't have 
extensive hearings on that supplemental. We passed a bill 
providing for $40 billion within 3 days after September 11, 
with no questions asked.
    Now, this is a lot of money. I understand the need to 
expedite the action, but this does not shield us from the 
responsibility to ask questions. This administration, in my 
view, has not wanted to ask questions, not wanted to answer 
questions. This is a request in which I think we have to ask 
the questions.
    I hope you'll accept my questions in the spirit in which I 
ask them. I don't mean to be contentious or combative, but the 
questions need to be asked.
    I recognize your problems as best I can, as ``looking 
through a glass, darkly.'' And I appreciate your coming here.
    The President's request for an addition $87 billion for the 
military and for the reconstruction of Iraq is eye-popping--e-
y-e, eye-popping. This request comes at a time when the 
American people are expressing serious reservations about the 
President's go-it-alone occupation of Iraq. The American people 
are asking questions about the reconstruction plan. They are 
questioning the wisdom of a policy that has our soldiers 
serving as sitting ducks in an Iraqi shooting gallery.
    The committee has before it the President's request for $87 
billion for Iraq. The request arrived late Wednesday without 
detailed justification or explanation. That's not your problem. 
That's not your fault. That explanation arrived over the 
weekend, and we are gathered here today, with the committee 
vote on the supplemental expected as early as September 30.
    Is that what you're proposing, Mr. Chairman, a markup by 
September 30?
    Chairman Stevens. I would hope to have it passed before the 
recess, yes, sir.
    Senator Byrd. I hope that we will not be in such a rush. 
This is a complicated, controversial, and incredibly costly 
request that has enormous long-range funding and policy 
implications. It is not something that this committee should 
rubberstamp. We ought to examine this request line by line and 
see if the high-minded rhetoric coming out of the White House 
matches its proposal.
    I believe that 2 days or 3 days, or whatever the chairman 
has said, are not sufficient, and I hope that the committee 
will take more time to consider this request. We need expert 
witnesses, and we need independent analyses to advise us on 
these matters.
    In his $87 billion request, the President asks future 
generations of Americans to pay for his war in Iraq. By 
refusing to pay for this war today and, instead, exacerbating 
the largest deficit in the Nation's history, President Bush is 
forcing those young Americans, who are now in kindergarten, to 
pick up the tab for his war in Iraq.
    If the President's $87 billion request is approved, the 
deficit for fiscal year 2004 could reach $535 billion. That 
assumes spending the $164 billion Social Security surplus in 
the streets of Baghdad. Such a deficit totals nearly $2,400 for 
every person in this country, almost $10,000 for every family 
of four.
    Just a few short years ago, we had eliminated annual 
deficits and were on a glide-path to wiping out the debt by 
2008. But that financial security has been destroyed in this 
administration's fiscal shock-and-awe campaign.
    The President's unsubstantiated justification for his war 
in Iraq has left the Nation questioning the White House's 
current efforts. The administration was wrong, it seems, on its 
claims of an Iraqi broad-scale advanced weapons-of-mass-
destruction capability. And it's not your fault. The 
administration was wrong on its claims that American soldiers 
would be welcomed with open arms, as liberators. And the 
administration remains wrong in its refusal to share authority 
and responsibility for the restoration of Iraq with the rest of 
the world.
    We obviously cannot accomplish this task alone. I think 
that's becoming more and more clear every day. And yet that is 
exactly what we continue to attempt. It is no wonder that the 
country is losing confidence and patience in the President's 
Iraqi program.
    Many of us on this panel have seen what a loss of public 
confidence and trust can do to a war effort, to a government, 
and, indeed, to the fabric of the Nation. I saw it in Vietnam. 
Have we not learned the lessons of our own past?
    Despite the best hopes for an Iraqi democracy, we have 
begun to realize the worst fears of occupation. Hit-and-run 
murders of American soldiers, guerrilla tactics, sabotage. We 
have forged a cauldron of contempt for America that may poison 
the efforts of peace throughout the Middle East and, indeed, 
the world. Winning the war has proved, by comparison, a far 
easier task than winning the peace. We had the weapons to win 
the war. But we have not shown the wisdom to win the peace.
    What has become tragically clear is that the United States 
has no strong plan for reconstruction, and no clear concept for 
maintaining order. America is stumbling through the dark, 
hoping, by luck, to find the lighted path to peace and 
stability in Iraq.
    The Bush administration's single-minded focus on Iraq has 
ignored, in large respect, the terrorist threat that produced 
the attack of September 11, 2001. The leader of that attack on 
our shores has not been found. Eyes have been trained solely on 
Iraq while we remain vulnerable here at home. Many of us on 
this committee have tried to better protect the American people 
from future terrorist attack. But time after time, the 
administration has actively opposed efforts to boost homeland 
security funds.
    In this request, however, the Bush administration seems 
very willing to back Iraqi homeland security dollars. The 
administration fought against a $200 million boost for 
America's police officers, firefighters, and paramedics. But 
Iraqi first-responders would get $290 million through this 
supplemental.
    Last Wednesday, I, along with Representatives David Obey 
and Martin Sabo, offered an amendment to the Homeland Security 
Appropriations Conference Report that would have provided $125 
million to hire 1,300 customs inspectors on America's borders. 
That amendment was rejected as too expensive. Yet on the exact 
same day, the President sent Congress this emergency request 
for $150 million for 5,350 border inspections personnel, 
including 2,500 customs inspectors, in Iraq.
    The cost of the President's war in Iraq grows by the day. 
And even when the supplemental requests stop and our soldiers 
do finally come home, the American people will continue to pay 
for this war for years to come. In essence, America faces two 
wars at once, the war brought against us with the attacks of 
September 11, 2001--that's one war--and the war that we brought 
to Iraq on March 19, 2003.
    The Iraqi war was the wrong war for the wrong reasons 
against the wrong enemy. It is a tragedy of American foreign 
policy that the sympathy which most of the world had for the 
United States after 9/11 has been squandered by the Bush 
administration's headlong pursuit of an unnecessary preemptive 
war against a sovereign country, a country which posed no 
imminent and direct threat to our national security. I don't 
blame you for that.

                          IRAQI RECONSTRUCTION

    Ambassador Bremer, you are the President's point man for 
Iraqi reconstruction. You have been placed in an almost 
untenable position by flawed policy and a nondescript plan that 
some have called ``Compassionate Colonialism.'' I believe that 
the best approach for this administration is to garner more 
dollars, more men, and more expertise from the United Nations. 
It is painfully obvious that despite the best efforts of 
Ambassador Bremer and those in charge of the American 
occupation of Iraq, we cannot continue on this path alone. We 
ought to seek help before we completely alienate the 
international community and give Iraq a future of chaos instead 
of stability.
    Five months ago, Congress provided more than $70 billion in 
funds for military and reconstruction activities in Iraq and 
Afghanistan. Now we learn that the administration needs far 
more money for Iraq, far sooner than it either anticipated or 
admitted. When it came to the President's last supplemental 
bill for Iraq, Congress could not get straight answers from the 
administration on the expected costs or the expected duration 
of the Iraq operation. We cannot afford to settle for evasions 
this time around.
    Again, Mr. Chairman, I thank you for calling these 
hearings, and I look forward to the testimony from the 
witnesses.
    Chairman Stevens. Thank you very much, Senator.
    Senator Domenici?
    Senator Domenici. Thank you very much, Mr. Chairman.
    First of all, the last I remember, the vote in the United 
States Senate for this war was 77 Senators aye, and 23 no. I 
would think that we could at least say that the Congress of the 
United States declared this war, and it's not the President's 
war, it's our war.
    Now, I have so many things that I disagree with the 
distinguished Senator from West Virginia on, but I am going 
to--in fact, I might say I disagree with his entire statement, 
and let me leave it at that. I think it has things in it that 
aren't true, it has accusations in it that are invalid. But I 
had another reason for coming today, and I will not let the 
distinguished Senator Byrd distract me from what I wanted to 
establish here today with you.
    First, let me say, your statement is a superb statement. As 
a matter of fact, the more I think about it, the more I 
perceive it to be a brilliant analysis of the current 
situation. Secondly, I believe it sets forth in great detail 
what you are going to use the money for. And, thirdly, I am 
pleased that you choose to mention a plan, the Marshall Plan. 
And I come here today because I want to ask you--and this is 
all asked in terms of trying to be positive, trying to be 
helpful, and trying to answer what my constituents want to know 
about Iraq. They're not so interested in many of Senator Byrd's 
attacks, but they would like to know if we have a plan. And I 
have to answer that more often than anything else, ``Does the 
administration have a plan?''
    Now, Mr. Ambassador, today in your statement you mentioned 
a great American achievement called the Marshall Plan. I read 
about it, only because of this. I am thoroughly amazed. I 
thought it must have been something huge, and it must have 
lasted forever. It was $13 billion and lasted 4 years, and it 
is thought to be the reconstruction--that's somewhere around 
150 today, Mr. Leader--and it is seen as the instrument for the 
revitalization of 21 countries who are our friends.
    Now, you talked today about specifics, but I want to ask 
you, do you have a definite plan, with a timetable, with 
guideposts, for the rehabilitation of Iraq's economy, 
infrastructure, and the turning over to the country, with its 
full political strength? Do you have one that can be viewed by 
the American people, can be presented as a plan to the 
Congress, to the public, so that we will know what it is and 
how you are going to implement it? Can I stop there and ask you 
to please answer that question?

                                THE PLAN

    Ambassador Bremer. Thank you, Senator. We do have a plan. 
The plan addresses four major areas--restoring security, 
restoring essential services, giving Iraq a vibrant private 
economy, and transforming Iraq's political structure to provide 
for a sovereign democratic Iraq.
    Each of those four areas is then enlightened by a series of 
particular steps. And, to answer your question, there are 
timelines and metrics on every single one of those steps.
    The plan, which I released--the latest version was released 
here to Congress on July 23--the plan runs now to, I think, 
some 98 pages and has some 300 or 400 individual tasks, each of 
which has a metric to measure over the next year to see how 
we're doing. It's a very comprehensive plan.
    Senator Domenici. Mr. Ambassador, is that plan a plan which 
is going to be followed and which--is it transparent? Can we 
see it? Can it be viewed and understood?
    Ambassador Bremer. Yes. The answer is yes to all those 
questions, Senator. I think I have a copy of it with me here, 
and I'd be happy to provide copies again to the committee. It 
is an unclassified plan. It's available to anybody. It's 
available to anybody, on our Web site, and can be read and 
studied by people and used however they wish.
    I will say this, that in the kind of circumstances we're 
in, which is obviously a rather fluid, complicated situation, 
we have to be flexible about the plan. We have--my motto is 
strategic clarity and tactical flexibility. We've got to be 
clear what we want to get in all four of those areas. We've got 
to be clear about the end state we want, and we have to be 
flexible how we get there. But that plan drives our work every 
day in Baghdad.
    Senator Domenici. I'm not looking for a plan that cannot be 
changed.
    Ambassador Bremer. Clearly.
    Senator Domenici. I mean, obviously----
    Ambassador Bremer. This is the plan, Senator. It's here.
    Senator Domenici. That's it?
    Ambassador Bremer. Yup.
    Senator Domenici. I wonder if there's some way that you 
might, when you leave here, ask some of your experts to reduce 
that plan to some simple propositions that can be presented to 
a committee like ours, where you say that's four parts, here's 
the part on the political, and here's the start, and here's how 
it goes; here's the part on economic. Could you do that, do you 
think?
    Ambassador Bremer. That's an excellent idea, Senator. We'll 
do that.
    Senator Domenici. I think you should have it ready the next 
time you testify, and it should be put up there where people 
can ask you questions from it. That's too cumbersome and too 
difficult for us.
    Now, it has been said that we intend to do this seeking 
help from no one. Is that true?
    Ambassador Bremer. No, sir. This is already a rather broad 
international effort. Sixty-one countries have already pledged 
to the reconstruction of Iraq. The troops of 30 nations are 
already on the ground fighting alongside our soldiers. And I 
have, on my staff, representatives from 25 other nations. It's 
already an international operation.
    Senator Domenici. Aren't we about to, or have we just 
completed a mechanism for an international bank that will 
handle the international banking transactions of Iraq? And did 
not somebody named Peter McPherson leave Michigan State 
University--or Michigan, and some to help you with that?
    Ambassador Bremer. Yes. Mr. McPherson's been my top 
economic advisor the last 4 months. He's just finished his 
tour. He was instrumental in putting together the proposal for 
a trade bank to finance imports into Iraq, that you just 
mentioned.
    Senator Domenici. And what would be the purpose of a trade 
bank?
    Ambassador Bremer. The purpose of that bank is to provide 
finance for Iraqis who wish to import materials--it could be a 
General Electric or a Siemens engine of some kind--for which 
they need trade credit.
    Senator Domenici. Now, most countries, immediately after a 
war, have trouble with banking. This country already has a 
banking system, does it not?
    Ambassador Bremer. After a sort. It has two state-owned 
banks, which ran rather on Soviet style and, therefore, were 
not really banks as much as mechanisms to push money to favored 
people in the economy. We do have them reopened now. Most of 
their branches are open, so we do begin to get some activity. 
But, as I said in my statement, a more important element is 
that the Minister of Finance announced yesterday that we're 
going to allow international banks to come in and compete, and 
that will give us a real modern banking system.
    Senator Domenici. But are you not going to have a central 
banking system with----
    Ambassador Bremer. Yes, sir.
    Senator Domenici [continuing]. Central monetary system?
    Ambassador Bremer. Yes, sir. We established the Central 
Bank as the first independent central bank in Iraq's history, 
in July.
    Senator Domenici. And that exists already.
    Ambassador Bremer. That exists, yes, sir. That's up----
    Senator Domenici. What is it----
    Ambassador Bremer [continuing]. Up and running.
    Senator Domenici [continuing]. Modeled after?
    Ambassador Bremer. It's really modeled more or less after 
the Federal Reserve here.
    Senator Domenici. My time is up, I'm sorry.
    Mr. Chairman, my time is up.
    Chairman Stevens. Thank you very much, Senator.
    Senator Inouye?
    Senator Inouye. Thank you very much.
    Thank you very much, Mr. Ambassador, for your statement.

                            COALITION FORCES

    Listening to your statement, sir, you mentioned the words 
``Coalition forces'' seven times. How many troops are in the 
Coalition forces?
    Ambassador Bremer. I think as of today it's about 16,000.
    Senator Inouye. Of that number, the United States is how 
many?
    Ambassador Bremer. Oh, I'm sorry, I thought you were 
talking about the non-American. The total number is about 
160,000, of which all but 16,000 are American. I may be off by 
a couple of thousand, because the numbers change from day to 
day and I've been away from Baghdad for 2 days.
    Senator Inouye. And there are 31 non-American countries 
there.
    Ambassador Bremer. That's right.
    Senator Inouye. That includes the British?
    Ambassador Bremer. That's right.
    Senator Inouye. With how many?
    Ambassador Bremer. The British have about 8,000, I think, 
Senator.
    Senator Inouye. And the next-largest group?
    Ambassador Bremer. Next-largest group would probably be the 
Poles, who are heading a multinational division based south of 
Baghdad. They have, I think, a reinforced brigade, probably 
3,000 to 4,000.
    Senator Inouye. All right. What about the others, the small 
ones? They must be small ones.
    Ambassador Bremer. Well, the numbers depend. There is a 
Spanish-led brigade as part of the Polish division, which has 
battalion-level troops from countries like El Salvador, 
Honduras, and Nicaragua, but they're--I mean, I could submit, 
for the record, or I could have the Pentagon submit for the 
record, the full list, Senator. I just don't have it at the top 
of my head.
    Senator Inouye. I would like to see that, because I've 
never seen this.
    Ambassador Bremer. Okay.
    [The information follows:]

    [Clerk's Note.--The information is classified and is being 
held in the committee files.]

    Senator Inouye. When one speaks of the ``Coalition 
forces,'' you get an impression of huge armies there. But I 
would gather from this that there are some countries that have 
provided, what, 100 troops?
    Ambassador Bremer. Well, there would be some with a company 
level, that's right.
    Senator Inouye. Now, you spoke of 60-plus countries that 
have provided aid for reconstruction?
    Ambassador Bremer. Yes, sir.
    Senator Inouye. What is the total amount that you're 
anticipating from all sources?
    Ambassador Bremer. It's a bit hard to tell right now. Those 
61 countries, according to our information, have pledged just 
under $1.5 billion. As I mentioned in my statement, we are 
working with the World Bank and the United Nations for a 
donor's conference in Madrid at the end of next month, and I 
think that will be the point at which we hopefully will see 
some substantial contributions by other countries and by 
international financial institutions.
    Senator Inouye. We will be providing, in this bill, roughly 
$20 billion for reconstruction?
    Ambassador Bremer. Yes, sir.
    Senator Inouye. In this $87 billion, do we anticipate 
assistance from other countries?
    Ambassador Bremer. Yes.
    Senator Inouye. Or is this all American?
    Ambassador Bremer. Well, the $87 billion, of course, is all 
American. The World Bank has just about completed an assessment 
of the needs of the Iraqi economy. They judge that the Iraqi 
economy needs something between $60 and $70 billion in the next 
4 to 5 years. Our $20 billion is part of that needed $60 to $70 
billion.
    Senator Inouye. So the heavy load, at this moment, in 
personnel and money is borne by the United States.
    Ambassador Bremer. That's correct.
    Senator Inouye. Now, I gather, from reading the press, that 
much work has been done. As you've pointed out, schools are 
open, hospitals are open, the water is running, we have 
electricity for 16 hours a day, et cetera, and oil seems to be 
pumping. Who has done that work?
    Ambassador Bremer. Well, that work has been done by Iraqis, 
often financed--almost always financed by the Coalition 
Provisional Authority using, in some cases, appropriated funds 
that the Congress appropriated earlier this year, and, in other 
cases--in fact, now the majority of the funds come from Iraqi 
sources--Iraqi oil revenues, frozen assets, and so forth.

                               CONTRACTS

    Senator Inouye. Do we have--this is a question that is 
asked of me quite often--do we have major American corporations 
involved in the reconstruction?
    Ambassador Bremer. Yes. We've had a number of contracts. I 
think the total now is 92 contracts have been let. And under 
U.S. law, the contract, the prime contractor, in those cases 
must be an American corporation.
    Senator Inouye. How much are the contracts worth?
    Ambassador Bremer. I would have to get back to you, but 
they're certainly worth $2.4 billion, because that's the amount 
that was appropriated. And then there will be other contracts 
that we have let using Iraqi funds that will have gone to 
American companies, also. But I would have to get back to you 
with a precise number, Senator. It's certainly at least $2.4 
billion.
    [The information follows:]

    Contracts awarded to American companies are worth $3.319 
billion (including U.S. appropriated and Iraqi funds). Of 
these, Bechtel's contract is worth $1.03 billion and 
Halliburton's KBR oil contract is worth $1.418 billion.

    Senator Inouye. How are the contractors selected?
    Ambassador Bremer. Contractors are selected on an open and 
fair bidding process consistent with U.S. law.
    Senator Inouye. Were we prepared for the terrorism and 
guerilla activities that are now occurring? Did we anticipate 
that when the President announced that the fight was over?
    Ambassador Bremer. I think we anticipated that there would 
be resistance by remnants of the former regime. The degree to 
which we are now threatened by terrorists, I think, has been an 
unwelcome surprise to some of us. You will recall that at the 
beginning of the war we attacked an Ansar al-Islam base in the 
north of Iraq. We killed quite a few of the terrorists, but a 
number of them escaped into Iran. Those terrorists have since 
infiltrated back into Iraq, and now there are scores of them in 
Iraq, many of them in Baghdad, who pose a threat that I think 
is important to both the Coalition and to the Iraqi people, as 
we've seen in the terrorist attacks, including the one today.
    Senator Inouye. Would this be unfair to say, that we should 
have learned something in Afghanistan, that there the war never 
ends?
    Ambassador Bremer. Well, I'm not enough familiar with the 
precise circumstances in Afghanistan to make a comparison, 
Senator, but I think it is clear that we've got to now continue 
the process we've started of imposing a sense of security in 
Iraq, and that the key to that, as I've suggested, is to get 
Iraqis more involved in it. And I think we'll find more success 
as we get Iraqis more involved in it.
    Senator Inouye. Some of my colleagues have been discussing 
the possibility of dividing this $87 billion in two parts, 
military and reconstruction. What would be the effect or the 
impact if this Congress passed the military portion, the $50-
plus billion, and left the remaining $20-plus billion for 
debate, awaiting the President's presentation of his case 
before the United Nations?
    Ambassador Bremer. Well, Senator, as I suggested in my 
opening remarks, I think this $87 billion is an integral part. 
We cannot secure security in Iraq in the long run, we cannot 
find a path to withdraw our troops there, unless we can provide 
Iraq and Iraqis with the essential economic infrastructure, 
which will give them a sense of security and let them move 
forward. And as was noted, $5 billion of the $20 billion is 
directly related to security--to the new Iraqi army, to the 
police, to the justice system. Those are inseparable, it seems 
to me, from the security of our forces and from providing 
security there.
    So I think it would be--of course, the Senate should have 
whatever debate it needs to have on the supplemental, but I 
think it would be a mistake to separate parts of these out. 
This is extremely urgent. We need to get this $20 billion going 
quickly.
    Senator Inouye. I notice my time is up. I thank you, Mr. 
Ambassador.
    Chairman Stevens. Thank you very much, Senator.
    Senator Bennett?
    Senator Bennett. Thank you, Mr. Chairman.
    Ambassador Bremer, thank you for your appearance here and 
for the clarify of your statement.
    Reference has been made to the Marshall Plan. I think 
that's an appropriate reference, and I would make this comment 
in response to earlier comments that were made in the 
committee. At the end of the Second World War, our national 
debt stood at 150 percent of the Gross Domestic Product (GDP). 
In other words, the national debt was half again larger than 
the total amount of goods and services produced in the United 
States. Today, the national debt owed to the public is 38 
percent of GDP.
    We are not endangering our children and our grandchildren 
financially with an $87 billion supplemental. I know $87 
billion sounds huge, compared to $15 billion or $13 billion for 
the Marshall Plan, but I also remember when you could buy a 
decent lunch for 35 cents, and you can't do that today.
    So in constant dollars, measured as a percentage of GDP, 
the point I would make is that this is not a terrifying amount 
of money that you have asked for.
    Second, I would point out that the Marshall Plan began in 
1948. The war ended in 1945. We cannot afford to wait 3 years 
to deal with the economic and infrastructure reconstruction of 
Iraq, as was done in Europe. So I applaud you on the speed with 
which you have moved to get this job done, much more rapidly 
than was done in a previous circumstance.
    Senator Burns had to leave. He handed me a note as he left 
and asked me to raise this issue on his behalf, which I am 
happy to do.

                           TELECOMMUNICATIONS

    Senator Burns, as you know, is very much concerned with 
telecommunications issues in the Senate Commerce Committee, and 
he believes strongly that the ability to communicate will be a 
cornerstone of the reconstruction. He has been trying to find a 
name of someone on your staff with whom he can communicate on 
this issue. And, on his behalf, I would ask you to provide that 
name to Senator Burns.
    He points out there's $322 million for telecom and postal 
corporation internal communication. He would like more 
information about how that $322 million would be used and, 
again, a name of someone on your staff with whom we could talk. 
Could you respond to that?
    Ambassador Bremer. Yes, I will get him a name this 
afternoon.
    [The information follows:]

    The point of contact for telecommunications is the Senior 
Advisor to the Ministry of Communication in Baghdad is Mr. Gary 
Sudnick and at the Pentagon is Mr. Linton Wells.

    Senator Bennett. Do you agree that telecommunications and 
postal service is an essential part of this?
    Ambassador Bremer. Absolutely. Iraq needs its economy 
brought quickly into the 21st century. And we are working 
already to restore the telecommunications system that existed 
before--the fiberoptics system--and we're trying to get a 
mobile cellular system up. But it's quite clear that if Iraq is 
going to have a modern business, and we hope it will, a vibrant 
sector, and we hope it will, we are going to have to spend 
several hundred million dollars on putting together a modern 
telecommunications system. It's a vital part, as you note, of 
this proposal.
    Senator Bennett. I applaud the four statements that you 
are--or the four areas that you are concentrating on, and I 
agree with the priority--security first and then essential 
services, working to get the economy under control, and then 
ultimately the political structure that will preserve these 
things.
    One of the statements that have been made--one of the 
accusations that has been made with respect to this is that we 
are doing things in Iraq that need to be done in the United 
States, and why are we spending money to build schools and pave 
roads and do all of these wonderful things in Iraq when we need 
more schools and roads, et cetera, in the United States?
    As I look through your presentation, there is none of that. 
You are not talking about building schools or providing 
anything that might be considered above the very basic survival 
kinds of levels. We have just gone through the experience with 
the hurricane and 4 million people out of power, and we are 
focusing, in this committee, I'm sure, as emergency monies come 
through, and the speed with which we get back to a certain 
baseline. As I read your plan, you are talking about 
establishing a baseline. You are not talking about constructing 
anything on top of that that might be something that the Iraqis 
themselves could construct. Do I have it correct? Is my 
examination here----

                           ESSENTIAL SERVICES

    Ambassador Bremer. Yes, Senator. The main thrust of what 
we're trying to do here is get the fundamental preconditions, 
the economic and essential service preconditions, that will 
allow Iraq to create a vibrant private sector which can then 
pay for itself. And I should say that if one looks forward in 
the budgeting process, our estimate is that by 2005, Iraq's oil 
revenues should be more than sufficient to pay for the Iraqi 
Government and provide an extra amount that can be used for 
capital investment in other areas, either more electricity or 
more schools. It's also the case that we think the donors 
conference will probably focus on some of the things you just 
mentioned--education, healthcare, and so forth. So we have 
tried to focus on the essential services.
    Senator Bennett. But we are not trying to do anything in 
Iraq other than provide simply the absolute baseline, plain-
vanilla kinds of security and services that are necessary, and 
then we----
    Ambassador Bremer. That's right.
    Senator Bennett [continuing]. Look to the Iraqis to build 
beyond that.

                        INTERNATIONAL COMMUNITY

    Ambassador Bremer. The Iraqis and the international 
community.
    Senator Bennett. And the international community.
    I held a hearing, as chairman of the Joint Economic 
Committee, on this issue of the cost of reconstruction of Iraq, 
and in that hearing discovered something that I had not known 
before. Iraq has fertile soil, and Iraq has water. And prior to 
Saddam Hussein's incredible mismanagement, Iraq was a net 
exporter of food in the region. I had not realized that.
    Ambassador Bremer. Right.
    Senator Bennett. I'm concerned that a single-product 
economy is a shaky economy. As you look down the road, are you 
looking at things that can be done? And does your plan help 
provide a baseline for things that can be done by the Iraqis to 
build an economy based on something other than total reliance 
on oil? Specifically, agriculture. To have a net exporter of 
food in that region would be a very significant thing.
    Ambassador Bremer. Yes, Senator, it's a good point. Many 
people, when they think about Iraq's wealth, think only about 
the oil. But the fact is, it has great water and very fertile 
soil when the water is put together with the soil. It was, 
after all, the ``fertile crescent,'' and it was an exporter of 
agriculture, and there's no reason why it can't be. We're 
spending something like $900 million on--particularly on the 
irrigation, which is the main problem, so that we can put that 
agriculture back on its feet as an export-earner and as a new 
source of revenue.
    I think there are other sources of revenue, which are 
obvious. They are taxation and, in the end, tourism. But the 
focus here is on agriculture, about $900 million.
    Senator Bennett. Thank you very much.
    One quick final comment, Mr. Chairman. I remember, in this 
Congress, when we approved an action in Haiti, went in to, as 
it now turns out, replace a brutal dictator, much beloved of 
American conservatives, with a brutal dictator much beloved of 
American liberals.
    We turned the reconstruction responsibility over to the 
United Nations, and left. And the people of Haiti are now worse 
off economically and politically than before we went in. We do 
not want another Haiti in Iraq.
    Chairman Stevens. Senator Leahy?
    Senator Leahy. Well, thank you, Mr. Chairman, and I also 
welcome the Ambassador. After the President, he probably has 
the most difficult job these days in the Federal Government, 
and he's doing it under very dangerous and difficult 
conditions.
    I want to thank you, Ambassador, for your office and the 
Office of Management and Budget (OMB) for the detailed 
materials you sent up with the supplemental request. You've 
mentioned your July 23 plan. I'd ask you to send a copy of that 
to the Congress so that we can see what it is, too, please. 
I'll assume that's a yes.
    [The information follows:]

    The July 23 edition of the Strategic Plan was re-submitted 
to Congress.

    Senator Leahy. And you may want to double-check your answer 
to Senator Inouye's question about the first $2.4 billion being 
in open and competitive bids. I'm not sure that's accurate. But 
if you----
    Ambassador Bremer. I'm sorry, no, I can correct--there was 
one bid that was not open--that is correct--before the war. 
That is correct. But I was answering----
    Senator Leahy. For how much----
    Ambassador Bremer [continuing]. I thought, the question on 
the future of the $20 billion.
    Senator Leahy. I'll let you look at the----
    Ambassador Bremer. Yeah, I'll----
    Senator Leahy [continuing]. Question and----
    Ambassador Bremer. I understand.
    Senator Leahy [continuing]. Clarify it, if you wish.
    I do appreciate you telling me your answers to the letters 
I sent you----
    Ambassador Bremer. Yeah.
    Senator Leahy [continuing]. Several months ago. You 
mentioned you didn't have a fax machine. I sent them to your 
office here in Washington. And I assume that every few months 
that they do find some way to correspond with you or at least 
with all the people we're sending back and forth over there.
    Now, I don't know, the way this bill is written, whether I 
want to vote for or against the supplemental, but I want to 
take this time to make this point.
    The President has gotten us into a costly and dangerous 
situation in Iraq. We're at a crucial juncture. American lives, 
our resources, and our credibility are on the line. I think the 
next 12 months are going to have consequences for decades to 
come, long after all of us are out of whatever offices we're 
holding now.
    Since the fall of Baghdad, practically everything the White 
House and the Pentagon predicted about Iraq has turned out to 
be wrong. You wouldn't know it when you listen to some of the 
officials here in Washington who made overly optimistic 
assessments--or when people raise questions about whether 
they're wrong, instead of an answer, we're told that we're not 
true patriots. The patriotism is questioned even of people who 
have served with distinction in our military.
    We get a different picture from those who are in Iraq in 
the field.
    Vice President Cheney said Saddam Hussein had reconstituted 
nuclear weapons. No weapons of that nature or any weapons of 
mass destruction have yet been found. Last week, even though we 
were told by some in the administration there's a link between 
Saddam Hussein and 9/11, President Bush conceded there was 
none. The Vice President said our troops would be treated as 
liberators. I'm sure that most Iraqis are grateful that we 
removed Saddam Hussein. I'm grateful that he's gone. But it's 
clear the Iraqi people increasingly don't want us there. A New 
York Times article last week, entitled, ``Iraqi's Bitterness is 
Called Bigger Threat Than Terror,'' described this problem.
    Now, you may disagree with this, but it's hard to overlook 
such warnings when our soldiers, who have performed so bravely, 
so admirably, are ambushed and killed. There seems to be 
increasing jubilation in the streets, and not just by remnants 
of Saddam's regime.
    And there is the issue of cost. Five months ago, we passed 
a wartime supplemental, I believe, Mr. Chairman, Senator Byrd, 
which provided $2.5 billion for the reconstruction of Iraq. And 
we were told that's all the U.S. taxpayers would be asked for. 
Well, that was a gross miscalculation. Then former OMB Director 
Daniels said the total cost could be between $50 and $60 
billion. The Deputy Defense Secretary said, ``We're dealing 
with a country that can finance its own reconstruction.'' He 
said the oil revenues of that country would bring between $50 
and $100 billion over the course of the next 2 to 3 years. 
Well, those were wildly off the mark.
    I agree with Senator Byrd. When Americans saw the $87 
billion price tag it gave Americans sticker-shock-and-awe. It's 
had the same effect up here.
    With this supplemental we'll spend more than $100 billion 
in the first year to rebuild Iraq. And it's clear we're going 
to be back for a lot more.
    We don't have this money in the bank. It is red ink. We are 
headed for a trillion dollar deficit that our children and 
grandchildren will pay off. I think of what this spending 
magnitude would bring to our national priorities--our schools, 
our healthcare, our ability to fix Medicare or Social Security.
    Now, one of the reasons many of us disagreed with the 
administration's decision to attack Iraq without the support of 
the United Nations, is that it would be harder to rebuild Iraq 
on our own. As one Senator, I feel it would have been better if 
the administration had not alienated our allies through 
arrogance, or snubbed Mexico and Canada, among others, only to 
find ourselves needing their support today.
    I haven't heard anything about how this supplemental is 
going to deal with the security situation in Iraq or bring our 
soldiers home. We are told the security problems will be solved 
by rebuilding the Iraqi army. That's going to take time, as 
we've seen in Afghanistan, another country where we're doing 
nation-building, where crime and violence today are on the 
rise. And I worry that our soldiers and relief workers will 
continue to die, attempts to rebuild will continue to be 
thwarted by saboteurs, and the Iraqi people's support will 
erode. It's a long road for the Iraqi Governing Council to a 
viable democracy. And even if that is possible, guess who's 
going to be there until the job is done? We are. Our soldiers, 
our aid workers, well-qualified and motivated diplomats, like 
yourself, and, of course, our money.
    I want to know how much it's going to cost, when the Iraqis 
can take over. I don't think we can drift along, spending more 
than $1 billion a week with no plan, no timetable, every week 
another four or five Americans killed and wounded, and the 
growing resentment of the Iraqi people. I think it's time to 
bend the same old go-it-alone strategy that has squandered the 
goodwill and support of the international community. I think 
we've got to get the international community behind us.
    Ambassador Bremer, I hope you don't take these criticisms 
personally. You inherited a policy without a strategy. We want 
you to succeed.
    Now, we were told the $2.5 billion the President wanted for 
the Iraq Relief and Reconstruction Fund was all you'd need. 
That was back in April. Five months later, you're asking for 
another $20 billion just for 2004. Do you believe you're going 
to need another $25 to $50 billion, or are we really going to 
see foreign donations? Because the amount of donations--we've 
talked about 30 countries. Some of them have got forces in 
there the size of some of the rural police forces in Vermont. I 
appreciate their support, but you can't really count that. I 
know we're going to get a request for more foreign aid than 
they donate. So are you going to be back here next year asking 
for another $25 or $50 billion?
    Ambassador Bremer. Well, Senator, the amount we're asking 
for here represents what we think is urgently needed now for 
immediate needs, and we don't anticipate coming back for 
another supplemental of this magnitude. That's all I can say at 
the moment. I think we've found the reason that the $2.4 
billion initially was not sufficient was we found the 
infrastructure in the country was in a lot worse shape than we 
thought. And that's the problem we've got. We've got to redo 
that infrastructure. It's expensive.
    Senator Leahy. Mr. Chairman, I'll submit my other 
questions. I thank you.
    Chairman Stevens. Thank you.
    Senator Brownback?
    Senator Brownback. Thank you, Mr. Chairman.
    Thank you, Ambassador Bremer, for being here today. I 
appreciate your testimony. I thought your statement was quite 
good and eloquent and very captivating on the current 
situation. It really describes something quite different than 
we read in the press, it seems like, on a daily basis, where 
most of the news seems to be pretty negative.
    I think it's important to go back and look at this 
situation and some of the history of how we, as a body, got 
here, because, as Senator Domenici pointed out, I think there 
were 77 Senators, or somewhere around that, voted for the Iraqi 
war conflict. In the House, the vote was 296 to grant the 
administration the authority to go to war and move forward, 
versus 133 against. Strong, bipartisan, nearly 300 votes in the 
House, out of the 435, were there. So, I mean, strong 
bipartisan support.
    And if you go back prior to September 11, it probably 
wouldn't have been there. But after September 11, we changed. 
And that same week of September 11, we appropriated nearly $40 
billion for reconstruction and war efforts and gave the 
President and the administration the authority to go to war in 
Afghanistan, with about an hour's debate, so moved was the 
country that we needed to do something about the terrorism 
threat. And then when that moved forward, and after that, 
there's a continuing threat in the war on terrorism that we're 
experiencing in the world today. The administration comes 
forward with a proposal on dealing with Iraq.
    Now, I've been dealing with the issue of Iraq and the Iraqi 
opposition for some time. I've been on the Foreign Relations 
Committee since I've been in the U.S. Senate, in 1996. I've 
worked with Dr. Chalabi, that you work with now, for some 
period of time. We've had him up for a number of hearings--
Iraqi opposition--and talking about the horrific situation that 
the Iraqi people were experiencing and also the three different 
areas of Iraq. In the North, it was basically governing itself 
separate from Saddam. In the South, Saddam was pillaging the 
countryside and draining the wetlands areas that I hope we're 
working on getting restored. And they came forward and put 
forward for us a bill, the Iraqi Liberation Act, that passed 
the Congress, was signed into law by President Clinton, and it 
called for regime change in Iraq, signed by President Clinton. 
This was passed probably in 1998, I'm thinking somewhere 
through that period of time. Allocated $100 million, which I 
wish we had spent it at that period of time in working and 
building up the opposition.
    The whole point that I'm putting forward here is that 
Saddam has been a problem for a long period of time, and any 
allegations or assertions that we're coming up--that the Bush 
administration came up with new claims about Saddam Hussein, I 
was getting the same intelligence reports under President 
Clinton as I was under President Bush about the Iraqi threat, 
the nature of the threat. And these were not--you can't know in 
intelligence reports for certain, because you're gathering 
information. Unless you've got somebody in the room, you're not 
certain what is taking place, but the best estimates. And we 
did know that he had used chemical weapons against his own 
people and against the Iranians. We knew that. And we knew he 
had terrorists operating on his soil. And so you had that 
mixture of terrorists and the ability to constitute weapons of 
mass destruction. And then we were in dependency--in dependency 
on Saddam Hussein that he wouldn't mix the two and use them 
against us.
    So when the vote comes up for the Congress, most of us 
said, ``I'm not willing to depend on Saddam Hussein that he's 
not going to use--find some way to get chemical weapons, give a 
pickup truck full of them to terrorists, and find them here on 
our soil, as we did on September 11.''
    We moved forward on Iraq. The war moved, I think, much more 
quickly than most people thought it would, surprisingly so, and 
we were very happy about that. But now we're at a point in 
time, do you go ahead and move forward and conclude and deal 
with the situation that we're in, or do you pull out, like we 
did the prior time, in Afghanistan, in the 1980s? And I think 
everybody has concluded you can't pull out at this point in 
time. You have to work in reconstructing and building Iraq back 
up.
    I do get two pointed questions often from my constituents 
on this, and they're this. Number one is, we hate the loss of 
any life, particularly an American life. And are there any 
other things that we can do to protect these American lives? Or 
how can we move forward with protection of those American 
lives? That's the thing that just strikes at the very nerve of 
Americans, is that issue.
    And then the second one that I'd like for you to address 
is, a number of people question--Iraq has the second largest 
reserves of oil in the world. Can't they pay for this in the 
reconstruction effort? And you've addressed a portion of that, 
that by 2005 they'll be able to pay for their government and 
some capital investment. Project me on out a little bit further 
on that point, if you would.
    Ambassador Bremer. Thank you, Senator.
    Just before I answer your questions, two points. We have 
about $100 million in this supplemental request to begin the 
reconstitution of the marshlands that Saddam Hussein drained.
    And you mentioned the chemical attack. Secretary of State 
and I, a week ago today, visited the site of the chemical 
attack in 1988, in Halebjeh, up in the north. And it was a very 
moving thing to see this village where more than 5,000 people 
were killed by Saddam's chemical attack in 1988. I met a man 
there who was the only member of a 24-member family who 
survived the chemical attacks. It's quite a moving thing.
    On the question about protecting lives, there basically are 
three things we're doing to try to deal better with security. 
Number one, we're trying to improve our collection of 
intelligence against the people who are attacking us, whether 
they're former regime loyalists or terrorists. We have a fusion 
cell that we've established in Baghdad under my direction, 
which is trying to focus our intelligence more closely.
    Secondly, we are in the process of reconfiguring our forces 
to make them more mobile and lighter so that they can move 
around and respond more quickly to threats. And, thirdly, as I 
mentioned in my statement, and as is very prominent in the 
President's request, we need to get Iraqi forces more involved 
in their own security. That's why you have $2 billion in here 
to speed up the training of an Iraqi professional police, and 
$2 billion to train an Iraq army. And contrary to one of the 
earlier comments, with the President's supplemental, we will be 
able to train a full three divisions by next summer, of the 
Iraqi army. That's a significant force for Iraq.

                              OIL RESERVES

    On the question of the oil reserves, the problem is this. 
The oil infrastructure was severely run down over the last 20 
years, partly because of sanctions over the last decade. Iraq 
has a theoretical production capability of about three billion 
barrels a day. We hope to get back to that level by the middle 
of next year, roughly, sometime in the late summer next year. 
Once Iraq reaches that level--that's its maximum production 
level--it should be able, assuming a price of about $18 a 
barrel, to generate in the neighborhood of $20 billion a year 
in oil revenues. To get substantially beyond that level means 
increasing their production, which means exploiting new fields, 
and that will involve a substantial investment, presumably from 
outside Iraq, into the development of new fields so their 
resources can be brought forward.
    But even with just getting back to three million barrels a 
day, by the year 2005 they should be producing a surplus on 
their cash budget, which will allow the Iraqis to begin to pay 
for some of the less urgent things that we've got to pay for 
over the next 12 to 18 months.
    Senator Brownback. Thank you.
    Thank you, Mr. Chairman.
    Chairman Stevens. Senator Dorgan?
    Senator Dorgan. Mr. Chairman, thank you very much.
    Ambassador Bremer, thanks for being here.
    There's no doubt that the money that you are requesting is 
needed, and let me describe my reaction this way. First of all, 
with respect to the military funding that you are requesting, I 
think that the Congress will move quickly. I don't think we 
will withhold one dollar that's needed to support the troops, 
who we have asked to fight for this country. And so I believe 
that is going to be appropriated fully by this Congress.

                         RECONSTRUCTION FUNDING

    I want to go through with you, however, the issue of 
reconstruction funding. The campaign that was initiated in 
Iraq, called ``shock and awe,'' exclusively and specifically 
did not target infrastructure. We didn't target their electric 
grid, we didn't target the dams and the basic infrastructure of 
Iraq. My colleague from Kansas made the point that Iraq has the 
second-largest oil reserves in the world, next to the Saudis. 
You made the point that by next summer Iraq will be able to 
produce three million barrels per day. And at that level of 
production, with about 80 percent available for export, the way 
I calculate it, using reasonably conservative prices, the Iraq 
oil fields will produce about $16 billion a year of net 
revenue. That's $160 billion in 10 years, or $320 billion in 20 
years.
    When I take a look at what you want to do in Iraq, with 
respect to reconstruction--basic investment in water, sewer, 
irrigation, developing marshlands, improving power plants, 
developing communications plans, including WiFi, housing 
projects, 3,500 new housing units in seven communities, and so 
on. This occurs to me not a reconstruction based on damage done 
by the war, but reconstruction that you believe is necessary 
for the long-term welfare and economic health of the country of 
Iraq.
    The question, for me, is, why would we not use the Iraq oil 
revenue to collateralize loans from the International Monetary 
Fund (IMF) or the World Bank to pay for the reconstruction of 
Iraq? $320 billion over the next 20 years, seems to me 
collateralizing loans from the International Monetary Fund, 
which I read this weekend, just provided $13 billion to 
Argentina, why is it that you have chosen to say that rather 
than moving in that direction, the American people should 
provide $20-plus billion in grants for reconstruction?
    Could you identify or at least address that piece? Because 
I think that no doubt the reconstruction is necessary, no doubt 
it is urgent, but there is also another way to pay for this, 
and I don't understand why you have chosen grants from the 
American taxpayers--and, incidently, told us in your testimony, 
that the new tax rate in the country of Iraq will have a top 
rate, and you beamed, apparently, when you said 15 percent--so 
we will have taxpayers in this country paying a much higher tax 
rate on income taxes than you have, or the council has, created 
in Iraq, and then use the money to invest in exactly the sort 
of things we're debating about in this country--water, 
communications, transportation infrastructure. Might you 
address that, Mr. Ambassador?
    Ambassador Bremer. Yes, thank you, Senator.
    We, of course, considered the question of whether this 
supplemental should be done in the form of loans of some kind, 
which is effectively what you're mentioning, and as I said in 
my testimony, and I feel quite strongly about it, I believe it 
would be a mistake to lay any more debt onto the backs of the 
Iraqis. They are under a burden, an extraordinary burden, of 
about roughly $100 to $120 billion of debt entered into by 
Saddam's regime over the last 20 years or so, and another $90 
to $100 billion in claimed reparations from countries because 
of Saddam's wars. That means that Iraq has something like $200 
billion in debt outstanding. There is no way the Iraq 
Government is going to be able to pay that. Even if you took 
all of the excess amounts projected--and I answered earlier, in 
answer to Senator Brownback's questions--the math is roughly as 
follows. Starting in 2005, the cost of running the Iraqi 
Government, with no major capital investments, is about $15 
billion a year. The revenues, as you rightly point out, we 
think they will come to roughly $20 billion a year by then, 
because they will have some tax revenues, they will have some 
tariff revenues in addition to the oil revenues. So you have 
revenues of roughly $20 billion, and expenses of roughly $15 
billion. You could----
    Senator Dorgan. Well----
    Ambassador Bremer. You could imagine roughly $5 billion a 
year, in other words, available for capital.
    If the debt is assumed to be $200 billion, and if you 
assume, just for sake of math, an average interest rate of 6 
percent a year, the debt service alone on that debt would come 
to $12 billion a year just----
    Senator Dorgan. But----
    Ambassador Bremer [continuing]. Just for the debt that they 
have now. Therefore, it has been our view that we need to help 
carry them across the bridge of 2004, which is the year when 
they are going to not be generating enough excess income to pay 
any extra capital for themselves.
    Senator Dorgan. Mr. Ambassador, I, frankly, don't 
understand that. You say that the country of Iraq has accrued a 
debt of $200 billion, roughly. Did you, then, developing a new 
government in Iraq, inherit the responsibility for the debt 
created by Saddam Hussein? It's a rather peculiar thing to 
inherit, it seems to me, number one.
    Number two, it seems to me the first obligation would be to 
begin seeking debt forgiveness. And I'd like to ask who is the 
largest holder of that debt?
    Ambassador Bremer. Of course, we do inherit the debt. 
That's international law until something is done about that 
debt by a sovereign government, which will come into being 
after the elections.
    Senator Dorgan. And who is the largest holder of that debt?
    Ambassador Bremer. The largest holders--and there is some 
imprecision as to exact amounts--are France, Russia, Germany, 
and Japan.
    Senator Dorgan. And we can talk about risk-free 
encumbrances at some point later. I have rather limited time. 
But I do want to make the point, if you're saying that you and 
the administration decided to seek grants for reconstruction in 
Iraq rather than collateralize their oil production--and I 
think we have a disagreement of about $5 billion a year, and 
we'll go over that later, as well, in this calculation--but if 
you're saying you made that decision because of overhanging 
debt, it seems to me that if one works hard at debt 
forgiveness--and certainly one should. Saddam Hussein is gone.
    Ambassador Bremer. Yes.
    Senator Dorgan. Good riddance. Whatever debt burden the 
Iraqi people now have around their neck, it seems to me, ought 
to be forgiven. And especially those countries who did business 
with the country of Iraq during a time when there was an 
embargo. There ought not be any obligation for you or anybody 
else in the Governing Council to accept that debt. I understand 
international law, but----
    Look, I really think--as this committee begins to 
strategize and think through what we do here, I think, first 
and foremost, we provide the money for the troops. It's 
essential. We do it quickly. Second, we think through a policy, 
a cogent policy, on behalf of this country. What should we do 
with respect to the reconstruction in Iraq? Not whether we do 
it, because we must, but who pays for it. Should that be the 
burden of the American people? And I don't--frankly, I don't 
think so, especially when you're dealing with a country that 
has the second-largest oil reserves in the world.
    And I do want to make one additional point, and I'll pursue 
this at a later time. There was a newspaper story, a rather 
lengthy story, in the Washington Post about 2 days ago that 
gave me great pause. Ambassador Bremer, you talked about the 
opposition in Iraq being guerrillas and insurgents and the 
Fedayeen and so on. This was a story that I read, and I put the 
paper down and thought a lot about it. It was about a family 
holding a picture of their son--wasn't part of Saddam's 
operation, wasn't part of the Fedayeen, wasn't part of 
anything. He was just a guy that became incensed and angry and 
part of the local group in his town, and decided to go out and 
kill some Americans.
    And I don't know whether that's happening over there in 
large degree or not. I mean, you described the insurgent 
movement as guerrillas associated with Saddam's old regime, but 
some of what we're reading, Mr. Ambassador, suggests that it is 
more than that. And if it is more than that, we really need to 
address that, as well, in a very significant----
    Ambassador Bremer. Well, let me--I know your--our time is 
up here, but let me just answer that question, Senator.
    I saw the story, and there are, no doubt, isolated cases of 
people meeting that definition. This fellow went out and, 
fortunately, he was killed and did not kill any of our 
soldiers, so it had a happy ending, as far as I'm concerned.
    There are, no doubt, isolated cases like that. But by far 
the majority--and we know this from our intelligence, we know 
it from the people we catch, we know it from the people we 
kill--the people who are attacking and killing our solders, our 
men and women, are Fedayeen Saddam, former regime loyalists, 
Ba'athists, members of the former intelligence community. That 
is a fact. Now, I don't say there aren't people like that 
story, but they are not what is driving the situation.
    Senator Dorgan. Well, Mr. Ambassador, that is helpful. And 
might I ask, as you're here this week, if we could exchange 
some information about oil revenues, potential oil revenues, 
expenses, so that I can at least pursue the issue of whether we 
ought not collateralize the oil capability of that country--to 
invest only in that country, by the way.
    Chairman Stevens. Senator DeWine?
    Senator DeWine. Mr. Ambassador, thank you very much. This 
is a ton of money, but I don't think there is any doubt that it 
is necessary, and I don't think there's any doubt this Congress 
will approve it.
    I thank you for your testimony. I thank you also for your 
service. We appreciate it very much.
    You have outlined a plan, which, as you have testified, 
puts a great deal of emphasis on security and infrastructure, 
as is it the beginning of the prosperity and return of Iraq. 
And I think that is certainly understandable. I would like to 
talk about something that I think also is important to Iraq, 
and that is the confidence of the people that things are 
improving. And that's one area, and that is the healthcare for 
children.

                        HEALTHCARE FOR CHILDREN

    Saddam Hussein's government spent virtually nothing on 
healthcare and nothing on--virtually on the health of its 
children. It ignored the children, with devastating results. 
The under-five mortality rate, we are told, has more than 
doubled in the last decade, with one in eight children now 
dying before their fifth birthday. Of those deaths, 70 percent 
are due to preventable illnesses such as common things such as 
diarrhea or respiratory infections.
    We have seen presented to us, you have presented to us, the 
Coalition's Provisional Authority plans to rehabilitate the 
healthcare system, which does include a new children's 
hospital, which I applaud that. My question to you is whether 
or not, in this plan, there is sufficient money that's been 
allocated to meet the health needs of children in a timely 
manner. In other words, will we--is there enough in there for 
this, and are we going to see some results based on this plan? 
Because I do think it is important--you know, people need to 
see some results. It's important from a humanitarian point of 
view. What's happened to these kids is just absolutely 
atrocious in a country that should have been able to provide 
for their children. And I think if we want to let people see 
some results and some changes--which is what they want to see, 
people need to see some changes--that the healthcare of their 
own kids is a pretty good place for them to be able to see it.
    Ambassador Bremer. Well, I agree, Senator. We do have 
something like $850 million in here for health. I'll just give 
you two numbers that are worth thinking about.
    In the last 6 months of 2002, Saddam Hussein spent $13 
million on healthcare for the entire country, a country of 27 
million people. In the budget which I approved for these 6 
months, the comparable 6 months of 2003, we're spending $211 
million. It is a 3,500 percent increase in healthcare, and 
we're going to continue--we have, in the budget for 2004, a 
comparable run rate on healthcare.
    I have visited a lot of the hospitals in Iraq, and you will 
never find more dedicated doctors and nurses anywhere in the 
world, but the infrastructure is appallingly rundown. You have 
children in incubators that are 20 or 25 years old that have 
not been maintained. You have children in wards where there is 
no air conditioning, and the outside temperature is 127 
degrees. You have hospitals where there are no generators, so 
that the operating rooms and the oxygen tents cannot operate 
when the power goes down.
    We are placing a great emphasis on healthcare. We agree 
with you, it's important. It has to move quickly. The 
children's hospital will take longer, because----
    Senator DeWine. Right.
    Ambassador Bremer [continuing]. We have to build it.
    Senator DeWine. It's an infrastructure issue, sure.
    Ambassador Bremer. But there are actions in this program to 
move quickly, in this area and in others, to show that life is 
improving.
    Senator DeWine. What else--take a moment--I'm going take 
some of my time for you to explain to me, how do you start 
moving--I mean, what everyone has told me is there are doctors 
there. They have good doctors in Iraq.
    Ambassador Bremer. Yes.
    Senator DeWine. And this is not the problem. But how do you 
begin to improve the infant mortality rate or the terrible rate 
that we see under the age of five, when you're losing kids to 
very, very common--what to us in our country is very common, 
very preventable diseases that should not be occurring in a 
country like Iraq.
    Ambassador Bremer. One of the most important elements here 
is the $400 million we're asking for hospital refurbishment. I 
mean, there are lots of hospitals. There are 240 hospitals. 
There actually are more beds than they need. The problem is the 
infrastructure. So if you look at how that's going to be spent, 
it's going to move quickly on things like immunization, trying 
to get nutrition counseling going. Again, in visiting 
hospitals, particularly in the Shia South, which was crushed by 
Saddam, now nutrition is an extremely--particularly of the 
mothers--is an extremely important problem. And we need to get 
quickly at that, and we can get quickly at that with many of 
the proposals here to rehabilitate some 200 of the 240 
hospitals.
    We're going to try to get maternal and paternal referral 
centers and care centers up to do counseling, for mothers, in 
particular, to know better how to take care of their children. 
But there is a whole series of things here, Senator, that we 
think can be done quickly.
    Senator DeWine. Is the security situation good enough to be 
able to put some of those programs in place? Because this is--
--
    Ambassador Bremer. Yes.
    Senator DeWine. It must not be just refurbishing and 
updating the hospitals. I mean, to get out and deal with 
nutrition issues and education issues, you obviously have to 
get beyond the hospital.
    Ambassador Bremer. That's right. But it's an important 
point, Senator, which you bring out, and that is Iraq is not a 
country in chaos. Most of the country is at peace. The North is 
quiet. The South is quiet. We have problems in the Baghdad area 
and particularly in the area just north of Baghdad. But the 
area I was talking about, in the South, where I have visited 
often, and I visited a number of hospitals there, people are 
moving around, they're going about their business in a 
perfectly normal way. There's no reason why we can't carry the 
kind of healthcare message out into villages that we need to 
do.
    Senator DeWine. Is there a healthcare--is there a health 
structure there now to do that, or do you have to create one?
    Ambassador Bremer. No, there is. There is a Ministry of 
Health, a very dedicated group of people. And the Ministry of 
Health has offices in each of the 18 provinces, that we can 
use.
    Now, the civil service is not as creative as you might 
hope, because they've lived for 35 years under one-man rule, so 
people don't take enough initiative. But as we start to work 
with them, we find them enjoying their freedom and starting to 
think creatively.
    Senator DeWine. So you'll be using the current----
    Ambassador Bremer. Yeah.
    Senator DeWine [continuing]. Health structure.
    Ambassador Bremer. We will use the current health 
structure.
    Senator DeWine. Is that a governmental health structure?
    Ambassador Bremer. Yes, it is. It's the Ministry of Health.
    Senator DeWine. All right. Well, this is something that I 
obviously have a great deal of interest in, and I would like to 
follow this up with you, if I could.
    Ambassador Bremer. Sure.
    Senator DeWine. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Stevens. Ambassador Bremer, I'm back to my time 
now.

                             MILITARY MONEY

    I do want you to know that, as chairman of this committee, 
I haven't had one single Senator tell me that he or she will 
oppose the military money in this bill. And I was pleased to 
hear Senator Dorgan make the comment he did.
    Our hearing here today is about the $20.3 billion that's in 
the structure for moving the Iraqi Government and people 
towards a point where they could be self-sufficient. A very 
important distinction. But the military money is absolutely 
necessary to assure that you can get on with the job. The other 
money is necessary so that you can help us get those men and 
women back here.
    I do have a few questions of my own. Do you believe, with 
this money, that you can be successful in aiding the Iraqis in 
creating a self-sustaining police security force that can 
handle the problem of these terrorists that are still at loose 
in their society?
    Ambassador Bremer. Yes, I do, Senator. I think if you cast 
your eyes forward to a day when Iraq has a sovereign 
government, the key question will be, do they have a competent, 
honest, police force? It's the same question that any country 
has to ask itself. It's the police who, in the end, are 
responsible for law and order. And they will. With this 
supplemental, we will create a police force of 75,000 to 80,000 
trained police in the next 18 months.
    The second question is, will they be able to defend 
themselves so that they can stay at peace with their neighbors? 
And the answer is, with this supplemental we will produce a new 
army, with 27 battalions, in about 1 year. That should give 
them enough, at least for now, while there are still Coalition 
forces on the ground, to be assured of staying in a secure 
environment.
    So I believe that this money, spent now, is, indeed, not 
separable from the rest of the money. It is all part of the 
question of security for Iraq and for the American success so 
that we can bring our soldiers home once Iraq is stable, 
secure, and democratic.
    Chairman Stevens. Now, your CPA is going to have a lot to 
do. Do you have sufficient personnel now in your CPA 
organizations to oversee not only the reconstruction efforts, 
but these security efforts?
    Ambassador Bremer. I believe we need a few more people, but 
we have largely got the people we need in the CPA structure 
now. We are going to--I am establishing a special office, a 
project management office, that will oversee the large-scale 
projects that are in the supplemental, the large-scale 
construction projects--electricity, hospitals, water projects--
because these tend to cut across various ministries in Iraq, 
and they are not accustomed to working together because of the 
very rigid structure Saddam kept them under.
    So we're going to have a project management office, which 
will work with standard Pentagon accounting and contracting 
procedures to be sure that we are consistent with American law 
and can move contracts quickly.
    Chairman Stevens. Now, those contracts, under our law, are 
let primarily--I think, exclusively--to American business, 
aren't they?
    Ambassador Bremer. That's correct. The prime contractor, by 
law, must be American.
    Chairman Stevens. The CPA--have you put out a statement of 
goals or objectives for the CPA, itself?
    Ambassador Bremer. Well, our goals and objectives are 
essentially what's in our plan. This is what my people work 
towards, which is our plan. That's our goals and objectives.

                               OIL ASSETS

    Chairman Stevens. Okay. What about these oil assets now 
that have been mentioned? I believe when I called you once over 
there, you told me that every time you get the pipeline 
repaired, the power plant goes down, or a power plant goes 
down. And by the time you repair the power plant, the pipeline 
goes down. And the money that's coming in now from the oil 
assets is primarily dedicated to the ongoing war to get the 
infrastructure reestablished. What's the situation over there 
now? I think that was several weeks ago we had that 
conversation.
    Ambassador Bremer. Yes, sir, it was. Well, we do still find 
acts of political sabotage against both the pipelines and 
against the power structure, but we are gradually getting 
better.
    Yesterday, we produced 1.9 million barrels of oil, which is 
the record since liberation. Yesterday, we produced about 3,700 
megawatts of power, which is getting towards our goal of 4,400 
megawatts of power.
    But there will be bad days ahead. The saboteurs know that 
this is a very fragile infrastructure, both the oil and the 
electricity infrastructures, and they know how to attack it 
where it hurts, and they have done that in the past, and I have 
no doubt they will do it again.
    We are trying to rebuild the police--the electricity 
police, and the oil police--to make it more difficult for them 
to attack the infrastructure, and we're making progress. And we 
will get back to our goal of pre-war power generation within 
the month, and we will get back to the goal of three million 
barrels a day within 1 year. But there will be ups and downs. I 
wouldn't want to mislead you.
    Chairman Stevens. Alaskans know a little bit about the oil 
business; not as much as we'd like to, but enough. My friends 
tell me that if they had anything to do with that series of oil 
fields you've got, they'd rebuild it from scratch, because what 
you inherited probably is harder to keep going than to build it 
all new. What really is the situation over there with regard to 
the status of the assets that are necessary to increase their 
production?
    Ambassador Bremer. Well, Senator, I'm not an expert on the 
oil industry. The fields have been managed, according to our 
oil experts, reasonably well. But the fact of the matter is 
that if Iraq is really going to have a bright economic future, 
they're going to have to probably double their production rate, 
and that is going to require new fields coming on-stream. I 
mentioned earlier, in answer to a question, I think, from 
Senator Brownback, that is going to take a lot more investment 
in the future.
    The Iraqis are known in the oil industry----
    Chairman Stevens. None of this money is for that stage yet, 
though, is it?
    Ambassador Bremer. No. No, because--no. That will be 
something the sovereign government will have to decide, what 
they're--because it will raise immediately the question of 
whether they're going to allow foreign investment in the oil 
field.
    Chairman Stevens. I see the yellow--let me ask one other 
thing. Is your CPA going to have anything to do with the donor 
conference in Madrid?
    Ambassador Bremer. Yes, sir.
    Chairman Stevens. Will you have a role in it?
    Ambassador Bremer. Yes, sir, I will. But, more 
importantly----
    Chairman Stevens. Should we be optimistic?
    Ambassador Bremer. Yeah, I think so. I think the 
international community will realize they have an interest in 
our success in Iraq, in Iraq not becoming a hotbed for terror, 
in Iraq being a stabilizing force in the Middle East. And I 
think the donors will make, we hope, a substantial 
contribution.
    Chairman Stevens. What role will this $20.3 billion play in 
trying to get those people to the table?
    Ambassador Bremer. Oh, I think it's very important, Mr. 
Chairman, because it shows that the American people understand 
their obligation now to win the peace, just as we won the peace 
in Europe after the Second World War. It will show leadership, 
and that's what they need to see from us.
    Chairman Stevens. Thank you.
    Senator Byrd?
    Senator Byrd. You had a plan there. May we have a copy of 
the plan?
    Ambassador Bremer. Yes, sir, of course.
    Senator Byrd. Have we seen this plan before?
    Ambassador Bremer. Yes, you have. This plan was presented 
to every Member of Congress on July 23, sir.
    Senator Byrd. Have we seen that?
    Ambassador Bremer. I'd be happy to submit it again.
    Senator Byrd. I don't recall----
    Ambassador Bremer. I'd be happy to submit it again.
    Senator Byrd. I'd like to have it. I'd like to have that 
plan, for the first time.
    Senator Leahy. I've been watching very carefully. I haven't 
seen one.
    Ambassador Bremer. Well, I don't know where 535 copies of 
it went on July 23. Maybe they were faxed to Baghdad.
    Senator Leahy. Maybe it was just the Republican side.
    Ambassador Bremer. No, it was sent to everybody on the 
Hill, sir.
    Senator Byrd. When was it sent?
    Ambassador Bremer. July 23.
    Senator Byrd. I'll be glad to have a copy.
    Ambassador Bremer. I'll be happy to present it to you, sir.
    [The information follows:]

    The July 23 edition of the Strategic Plan was re-submitted 
to Congress.

    Senator Byrd. I hope you'll present it today.
    Ambassador Bremer. Sure.
    Senator Byrd. Where does the administration plan to find 
the additional $38 to $55 billion that is estimated to be 
needed for rebuilding Iraq?
    Ambassador Bremer. If one looks at the World Bank Needs 
Assessment, Senator, from which the numbers are derived, 
basically they're looking at a longer period than we are 
looking at. They are looking at a 4- to 5-year period. And we 
are trying to address the urgent needs over the next 12 to 18 
months. We are hoping that the international community will 
come forward at the donor's conference once we set the example. 
We are hoping that the international financial institutions, 
like the World Bank and the IMF, will make substantial 
contributions. And we are hoping, as I have said earlier, that 
by 2005 the Iraqi Government and the Iraqi people, themselves, 
will be able to contribute substantially to closing that gap. 
Our goal is to try to close the gap of the urgent and essential 
things in the next 12 to 18 months.
    Senator Byrd. In addition to U.S. taxpayer funds and oil 
revenues, the administration plans on paying for the rebuilding 
effort by using seized Iraqi bank accounts and the millions of 
dollars in cash that were discovered in Iraq during the war. 
How much money has been seized or discovered to date?
    Ambassador Bremer. $900 million.
    Senator Byrd. How are those funds being used?
    Ambassador Bremer. Those funds have been entirely spent, 
and they are now exhausted. They've been spent on paying the 
Iraqi Government salaries. Salaries for the Iraqi Government.
    Senator Byrd. Are you keeping detailed records on the 
receipts and outlays of seized or discovered funds so that 
Congress may examine or audit the use of those funds?
    Ambassador Bremer. We have detailed records of those funds, 
sir.
    Senator Byrd. When you say ``we,'' whom are you talking 
about?
    Ambassador Bremer. The CPA.
    Senator Byrd. The CPA?
    Ambassador Bremer. Yeah.
    Senator Byrd. Has detailed records?
    Ambassador Bremer. Yes, sir.
    Senator Byrd. On the receipts and the outlays.
    Ambassador Bremer. Yes, sir.
    Senator Byrd. Could you tell this committee today what the 
total amount is for the receipts and outlays of seized or 
discovered funds?
    Ambassador Bremer. Well, the seized assets are in the 
neighborhood of $900 million. That has been spent. The frozen 
assets, which were the assets that the President froze here at 
the outset of hostilities, totaled $1.7 billion. Of that, all 
but $63 million has been expended, also on the Iraqi salaries, 
on paying for the new currency, a variety of things. That is 
essentially exhausted. Those are the two funds I think you 
asked about. Those two are essentially now exhausted, with the 
exception of $63 million.
    Senator Byrd. Do you have records that can be audited by 
Congress?
    Ambassador Bremer. We have records of all of the receipts 
and expenses.
    Senator Byrd. Now, you spoke earlier of the salaries----
    Ambassador Bremer. Yes, sir.
    Senator Byrd [continuing]. That are being paid.
    Ambassador Bremer. Yes.
    Senator Byrd. How much are you--I don't mean this to be 
you, personally, of course--how much are you paying to, let's 
say, the police? What are the salaries for the policemen?
    Ambassador Bremer. The salaries for a starting policeman 
now are $60 a month, which is 10 times what they got under 
Saddam, and we hope we're getting better policemen.
    Senator Byrd. What are you paying the people that are going 
into the army?
    Ambassador Bremer. They're getting about--I think the 
privates get about $110 a month. I may be off by $10, but it's 
in that neighborhood.
    Senator Byrd. You spoke of the number of men that other 
countries among the 30 are contributing. How many of those, of 
the 30, would you say contribute as many as 1,000 men?
    Ambassador Bremer. Senator, I'd have to get you the answer 
to that. I just don't have all those numbers in my head, and it 
is more on the side of the military side of the house than on 
my side, but we can----
    Senator Byrd. Yes.
    Ambassador Bremer [continuing]. Certainly get you those 
figures.
    Senator Byrd. That's probably a better question for Mr. 
Rumsfeld.
    Ambassador Bremer. Yes, sir.
    Senator Byrd. Thank you.

    The coalition force composition is classified and will be 
submitted for record through a secure information channel.

    Senator Byrd. The President plans to spend over $20 billion 
in this bill on reconstruction in Iraq, but he is asking 
Congress to let him reallocate that entire $20 billion after we 
approve it. This means he can tell us one thing today, but do 
something completely different in Iraq tomorrow. Do you expect 
to adhere closely to the spending plans outlined in this 
request?
    Ambassador Bremer. Yes, sir.
    Senator Byrd. If so, why do we need to authorize the 
reallocation of the entire $20 billion?
    Ambassador Bremer. Well, Senator, I am not an expert on 
these legislative matters, but I do work in a rather fluid 
environment, where we have plans, and we try to follow them, 
and we do our best, and I believe that we will spend this $20 
billion as we have suggested we will spend it, but I can't 
exclude that as events move forward, there might have to be 
some adjustments in that plan.
    Senator Byrd. But do you anticipate that the President will 
delegate any of his proposed reallocation authority to you so 
that you can have the extra flexibility to divert from the 
administration's spending plans?
    Ambassador Bremer. Well, Senator, that's a good question, 
and I don't have an answer to it for you today.
    Senator Byrd. Well, that's a good question, and we need an 
answer. If the chairman decides to ask you to return to this 
committee, when do you think you might be able to do that? This 
is the chairman's responsibility, but I would like to know, on 
behalf of my side of the committee.
    Ambassador Bremer. Well, I'm in the chairman's hands, 
Senator. And I can get you an answer to that once I discuss it 
with other officials in the administration. I just don't know 
the answer.
    Senator Byrd. Yeah, well, I'm very concerned about this 
reallocation of authority. I believe strongly in the 
Constitution and in the power of the purse as being vested 
here. I don't believe that we should give too much authority to 
the executive branch--to the President or to you, with all due 
respect, or to anybody else--to reallocate monies that we 
appropriate. That is your monies--your monies, the people who 
are watching through those electronic lenses. It's their money. 
And so, I am anticipating that you would expect the President 
to delegate some of this proposed reallocation authority to 
you.
    Is it fair to say, Ambassador Bremer, that for many of the 
spending decisions being made on the ground in Iraq, you have 
complete and final authority over those decisions?
    Ambassador Bremer. No. I have an international staff. I 
have Iraqi ministers, who have actually been instrumental in 
drawing up the plans for the supplemental, because they are 
people who understand the needs on the part of the Iraqis. And 
I have a program review board, which makes recommendations, 
which has representatives from other Coalition countries, as 
well as the United States, which actually makes the 
recommendations to me.
    Senator Byrd. Can you supply, for the record, the number of 
countries out of the 30 that provide at least 1,000 personnel, 
and can you supply the names of those countries?
    Ambassador Bremer. Yes, sir.
    [The information follows:]

    The coalition force composition is classified and will be 
submitted for record through a secure information channel.

    Senator Byrd. Would you say that 20 out of the 30--none of 
the 20 out of the 30--provide at least 1,000 persons?
    Ambassador Bremer. I'll get you that answer, sir.
    Senator Byrd. Yes, all right.
    Perhaps the Secretary will be in a better position to 
provide that.
    Ambassador Bremer. Yes.
    Senator Byrd. Is my time up?
    Chairman Stevens. Yes, sir. Senator Domenici is in the 
rear. He'll be coming back in a minute. I was letting you go 
until he comes back.
    Senator Byrd. Very well.
    With respect to U.S. payments for oil infrastructure, the 
President is requesting $2.1 billion for the cost of repairing 
Iraq's oil infrastructure. Should oil receipts be used for that 
purpose?
    Ambassador Bremer. Well, Senator, I think the problem is 
that we don't--the oil receipts are simply not there. There are 
not going to be any excess oil receipts before 2005. So it 
simply is not an option.
    Chairman Stevens. Would the Senator yield for just a 
moment?
    Senator Byrd. Yes.
    Chairman Stevens. Senator Byrd, Senator Domenici was called 
to our leader's office for a conference of chairmen pending 
bills coming up this week, and he will not be returning, soon, 
not before the votes. May I yield time now to Senator 
Brownback? He is waiting, sir.
    Senator Byrd. Can I follow on that just one brief moment?
    Chairman Stevens. Yes, sir.
    Senator Byrd. In Secretary Rumsfeld's testimony before the 
Senate Appropriations Committee on March 27 of this year, he 
said, quote, ``I do not believe that the United States has the 
responsibility for reconstruction. We want to participate in 
reconstruction. Other countries will want to participate in 
reconstruction. And the funds can come from frozen assets, oil 
revenues, and the Oil for Food Program.''
    Clearly, the Secretary misjudged the extent to which these 
other sources would produce revenue. Now, do you believe that 
the United States has the responsibility for reconstruction? 
Now, I'm using Secretary Rumsfeld's statement as the 
background, in which he said he didn't think it did, didn't 
think the United States had that responsibility.
    Ambassador Bremer. I think that, as my testimony, my 
prepared statement, suggested, I believe that we have a 
responsibility to ourselves, to our service men and women, and 
to the American people, to win this war against terrorism where 
it's being fought, which today is in Iraq. And I believe that 
we will be able to speed the day when we win that war and bring 
home our troops, by providing the Iraqis with the wherewithal 
to win that fight. And that means approving the President's 
supplemental request.
    Chairman Stevens. Senator, I must interrupt now and let 
Senator Brownback, who's been waiting for time, to come in.
    Senator Byrd. Okay.
    Chairman Stevens. I'm in.
    Senator Byrd. Will we have another round?
    Chairman Stevens. Yes, sir.
    Senator Brownback?
    Senator Brownback. Thank you very much, Mr. Chairman, 
appreciate that. And, Ambassador Bremer, thank you for hanging 
in there with us on a--going through more questioning rounds.
    You mentioned earlier that a number of hostile forces that 
we're facing are leftover Saddam loyalists----
    Ambassador Bremer. Yes, sir.

                               TERRORISTS

    Senator Brownback [continuing]. And then terrorists that 
are coming in. Do we know basically where these terrorists are 
coming in from, what border they're coming across, and what 
countries they're coming from?
    Ambassador Bremer. Yes. We think they're coming mostly from 
Syria and, to some extent, from Iran. And they are from a 
variety of countries, judging from the ones we've captured or 
killed. They carry Syrian, Saudi, Yemeni, Sudanese passports or 
travel documents.
    Senator Brownback. Is there any dominance of those, that 
it's most Syrians that are coming or most Saudis or Yemenis?
    Ambassador Bremer. We have, in detention, several hundred 
third-country nationals as detainees, who are people who have 
been fighting the Coalition. They may not all be terrorists in 
the sense of being trained terrorists. The majority of those 
278 detainees are Syrians.
    Senator Brownback. What's the next largest group?
    Ambassador Bremer. The next largest group, I think, are 
Jordanians. I have it. I'll check while you're asking your next 
question.
    Senator Brownback. Yeah, if you could, because I find this 
an interesting point of where these terrorists are coming in 
from and where they're coming from in attacking our troops. If 
you could.
    Ambassador Bremer. Yeah, the total is 278, of which 123 are 
from Syria. The next largest is actually Iran, 62, and Jordan, 
38.
    Senator Brownback. How many from Saudi Arabia?
    Ambassador Bremer. One.
    Senator Brownback. What's the----
    Ambassador Bremer. Mind you, these are not necessarily 
terrorists.
    Senator Brownback. Yeah, these are detainees.
    Ambassador Bremer. Simply detainees, some of whom may be 
terrorist, some of whom may have been simply fighting alongside 
Saddam's army. You'll recall that, at the outset of 
hostilities, a number of countries said they were sending 
volunteers to fight alongside Saddam. So some of these--I don't 
know when these were detained. Some of these may have been 
detained, actually, during the war.
    Senator Brownback. But these are hostile combatants when 
they were detained?
    Ambassador Bremer. That's right.
    Senator Brownback. In hostile actions? What are the--what's 
the Syrian Government and the Iranian Government doing to help 
us or to, in the contrary, to hinder us in this by letting 
people flow in?
    Ambassador Bremer. Well, we've had discussions with the 
Syrian Government. We believe there are--it's pretty well 
established that there are rat lines for people coming in 
across the Syrian/Iraqi border. Some of them are terrorists, 
some of them are foreign fighters, some of them are simply 
smugglers. We do not think the Syrians have done enough to 
control their border. The same can be said of the Iranian 
border.
    We are asking, in this supplemental, among other things, 
for funds to try to reestablish some control, effective 
control, over Iraq's borders through standing up of border 
police and a border patrol. And that's an important element, 
obviously, in creating a secure environment inside of Iraq. 
It's one of the reasons, another reason, why this money needs 
to be approved quickly.
    Senator Brownback. What about the Iranian Government? What 
are they doing to either help or to hinder us in this effort?
    Ambassador Bremer. Well, Senator, it's a difficult question 
to answer, because it's sometimes hard to tell who speaks for 
the Iranian Government. But my impression is that elements of 
the Iranian Government are causing mischief in Iraq interfering 
in affairs through their intelligence services and through the 
revolutionary guards. This is not helpful.
    Senator Brownback. It seems to me that the two countries 
that benefit the most from us having difficulty in Iraq today 
are either the Syrians, in some reassertion of a Ba'athist-type 
regime or area of control for the Ba'athists, or the Iranians, 
with a theocracy-style government coming into place in Iraq. 
Are we seeing that communicated by those governments in 
allowing these--you called them ``rat lines'' to be established 
and people coming in?
    Ambassador Bremer. Well, we have, as you know, diplomatic 
relations with the government in Damascus, so we are able at 
least to talk to them in a rather direct way. The same is not 
true in Tehran.
    The good news on the Iranian question, Senator, is that as 
I go around and talk to Shia and other Iraqis--Sunnis, Kurds--
Iraqis do not want their neighbors to interfere in their 
affairs, and they do not welcome Iran's interference. And, 
indeed, there was a poll recently that showed less than a third 
of the people in the entire country believe in any kind of a 
theocratic government coming from the constitution and the 
elections.
    So I think the Iranian interference is not falling on 
fertile soil, and I'd hope that will continue to be the case.
    Senator Brownback. I want to ask one other line of 
questions. A gentleman in Kansas lost his--husband and wife in 
Kansas lost their son in the battle. Jacob Butler is a Kansan 
from Wellsville, Kansas. And his dad would like to go over to 
Iraq sometime soon, as part of the healing process, to see the 
area where the battle was that his son was involved with. 
Number one, are you seeing some requests like this come 
through? And are you able to assist and to work with some of 
these family members? Or is that something that just doesn't--
you aren't available to do to date?
    Ambassador Bremer. Well, we haven't seen it yet. And I 
think as the security situation gets better, we probably will 
see more people who want to do that. We just haven't seen it 
yet.
    Senator Brownback. Okay. Well, we will be making a request 
of your office, because his dad has made a direct request of 
me, and I told him, when I contacted the family members after 
the loss of their son, and said, ``Is there anything I can do 
to help?'' And this was the one thing that he had asked of me, 
is he wants to go to the site of the battle where his son was 
involved in. And I told him we will, at the appropriate time, 
try to help out as much----
    Ambassador Bremer. Yeah.
    Senator Brownback [continuing]. As we can in that process. 
And I think you probably will be seeing a few more of those.
    Thank you for your direct answers. I really appreciate 
those.
    Thank you, Mr. Chairman.
    Chairman Stevens. Senator Leahy, do you have further 
questions?
    Senator Leahy. I do, Mr. Chairman.
    Ambassador Bremer, I find so many things I agree with in 
your comments. I mean, obviously, having overthrown the Iraqi 
Government, we can't just walk away. But I worry that, to some 
extent, we've done that in Afghanistan, and we may pay a high 
price for it.

                                THE PLAN

    The Iraqis need a chance to rebuild their country. I have 
not seen your plan, and I haven't found anybody on this side of 
the aisle, at least, that have. I'm not--I don't doubt your 
word that it was sent out, and maybe it's in--like the 
proverbial check, it's in the mail and someday I'll see it.
    But does the plan ask for more than just more money and 
more of the same?
    Ambassador Bremer. Yeah. The plan was written, Senator, as 
I mentioned, in a--it was, sort of, under constant revision 
from the time I got there in May, and it continues to be under 
revision. It was not established as a document to request for 
money; it is established as a document to show the way forward 
in the four critical areas.
    Senator Leahy. Well, I think what we see here today--and I 
think there's a feeling of all Senators, both sides of the 
aisle, that we're going to be asked for more and more money. 
Each time we've been told, ``This is the final amount,'' within 
months it's anted up considerably more. I remember the almost 
arrogant disregard of the former OMB Director, Mr. Daniels, 
when anybody even dared question that we'd be spending more 
than $20 billion or so here. Of course, now we're talking about 
$87 billion.
    I also think we need to start mending our fences around the 
world so that we might get other countries to join us.
    I think back to the terrible tragedy in Beirut when our 
marines were killed in a truck bombing in a country where 
suicide bombers are endemic. It turned out, subsequently, that 
the White House had not allowed them to put the normal tank 
traps, even though we had intelligence that said that they 
might get hit that way. It turned out the White House had not 
allowed them, the sentries, to be properly armed, even though 
they had asked to be. And it turned out the White House had 
ignored warnings when they put them all in the same place. But 
within a few days after that, we invaded Grenada, and the 
world's attention turned to that and proved that the U.S. 
military was able to take on the dozen or so, couple of dozen, 
Cubans in Grenada and free it for good, and they even had heads 
of state come to Washington to say that this was the greatest 
thing that ever happened. But even that was diminished when we 
found out later some of those heads of state were given cash by 
the U.S. Government prior to coming here.
    My question is this. Are any of these countries that are 
providing support either been promised money up front or been 
promised reimbursement for whatever they did subsequently?
    Ambassador Bremer. Senator, I really am reluctant to 
answer, not because I think the answer won't please you, but 
because I don't know the answer. These are really questions, I 
think, concerning the force disposition there, that belong more 
appropriately with the military side of the Pentagon. And I 
understand the committee will have the Secretary and General 
Abizaid up on Wednesday----
    Senator Leahy. But you're not aware--and maybe they'd be 
the ones to ask. But you're not aware of any country that was 
either given money or material prior to offering to support us 
in Iraq or promised money or material for their help?
    Ambassador Bremer. I'm not aware.
    Senator Leahy. Thank you.
    I don't think anybody doubted, whether they supported the 
war or opposed the war, that we would ultimately be victorious. 
After all, we have the best armed forces in the world. That was 
never in doubt.
    I still go back to the question about Afghanistan, which is 
not your portfolio, but I'm afraid that the administration and 
maybe the Congress is losing sight of Afghanistan, where we 
knew al Qaeda was. We also know that al Qaeda was very, very 
heavily entrenched--and still is--in Saudi Arabia, our close 
friends, and protected by some in the Saudi Government, even 
today. And in Pakistan, our other close ally, al Qaeda there. 
And some in the Pakistani Government turn a blind eye.
    I worry that all the burden suddenly gets put on you to 
stop terrorism, when maybe we ought to look at some of our 
very, very, very close friends, like the Saudis. And I don't 
think that this--and not just this administration, but past 
administrations, have ever done that.
    Now, you say that by next summer the Iraqi national army 
will be a significant fighting force. Will they be able to 
defend Iraq from threats posed by Iran? Iran has more than half 
a million troops, hundreds of aircraft. They have a budding 
nuclear capability. Would Iraq, by itself, next summer--if 
threatened by Iran, would they be able to defend themselves, or 
would they need the United States?
    Ambassador Bremer. Well, I think the question of how long 
foreign forces will be needed in Iraq is one that eventually a 
sovereign Iraqi Government, like every government in the world, 
is going to have to make its own determination on whether they 
would, at that point, ask for a SOFA agreement for American or 
other forces is really a question for a sovereign government. 
On the face of it, the answer is no, the Iraqi army will only 
have about 35,000 members by next summer. And, as you point 
out, the Iranians have a much larger armed forces and probably 
more capable, and this army will not have, for example, combat 
air force. It will not have an offensive capability, will not 
have heavy equipment----
    Senator Leahy. Okay, let me ask a question about elections. 
The extremists, former Ba'athists, are some of the best 
organized elements in Iraq. The Iraqi Governing Council has 
varying degrees of popular support. Are we going to hold 
elections if it looks like the extremists are going to win?
    Ambassador Bremer. One of the reasons why I emphasized, in 
my opening statement, the importance of following a steady path 
to elections, Senator, is because I think there is always a 
risk of early elections. And my view is that those elections--
and it is the view of the President and our Government--those 
elections should only take place after the Iraqis have been 
through the discipline of writing a constitution, so that there 
is a framework, a political framework, for subsequent political 
action. And I think while it is perhaps frustrating to the 
Iraqis to have to wait that long, I think our experience shows 
the importance of getting a constitution and getting it right. 
It, after all, took us the better part of 12 years to figure 
this out, and we might as well learn from that lesson.
    Senator Leahy. We didn't have computers. No, many here 
would agree with you, Ambassador Bremer.
    And I thank you, Mr. Chairman, for the extra time.
    Chairman Stevens. Thank you.
    Let me state that I've been informed there will be two 
votes at 5:30 p.m., and also state that at 10 a.m. Wednesday, 
in the Russell Caucus Room, Room 325, Secretary Rumsfeld and 
Generals Myer and Abizaid will be there to answer questions and 
make statements concerning the military portions of this.
    Senator Leahy. Russell Caucus, Mr.----
    Chairman Stevens. Rumsfeld with be----
    Senator Leahy. The Russell Caucus?
    Chairman Stevens. The Russell Caucus Room, yes.
    Senator Leahy. Great.
    Chairman Stevens. Senator DeWine?
    Senator DeWine. Mr. Chairman, I just have one additional 
question.
    Chairman Stevens. Yes?
    Senator DeWine. Mr. Ambassador, there have been some 
published op-ed pieces and some articles by individuals who 
have been involved in the reconstruction. And they were 
expressing their frustration about their inability to operate 
in Iraq. And it was--if I can, sort of, paraphrase the 
articles, they were saying that it was a tough environment--
understandably, I guess--it's a very tough environment to work 
in. You know, they would have to get permission from the 
military to move around. You know, just very, very, very 
difficult. These articles that I read were a couple of months 
old. Has that changed any in the last couple of months? Is that 
still a problem? Or how do you perceive the--maybe if you can 
just take a minute or two and tell us how is the environment to 
work in there today?
    Ambassador Bremer. Well, thank you, Senator.
    It is a lot better than it was a couple of months ago. The 
security situation, as I said earlier, in response to another 
question, is, by and large, good in most of the country, with 
the exception of the area north of Baghdad and, obviously, 
parts of Baghdad.
    Senator DeWine. Sure.
    Ambassador Bremer. But even in Baghdad, things are getting 
better. I had a petition presented to me last week by a group 
of restauranteurs who said, ``Business is so good now that we'd 
like you to extend the curfew from 11 o'clock to midnight or 
later, because we want to have more business. The people are 
out, they're enjoying themselves, and they want to stay later 
for dinner.'' This is a good sign, because it means the people 
are, in fact, moving around with more confidence in Baghdad.
    But I would not hide from you the fact that it is a 
difficult environment. There are, after all, significant 
dangers. There are terrorists. There are quite a number of al 
Qaeda terrorists in the country, picking up on the point 
Senator Leahy just made. And it's a tough environment. But it 
is considerably better than it was a couple of months ago.
    Senator DeWine. All right. Thank you. Again, I thank you 
for your service.
    Mr. Chairman, thank you very much.
    Chairman Stevens. Yes.
    I would place in the record, without objection, the 
statement of Senator Mitch McConnell regarding this bill.
    [The statement follows:]

             Prepared Statement of Senator Mitch McConnell

    Ambassador Bremer, thank you for appearing before the 
Committee today. It is my hope and expectation that the 
President's supplemental appropriations request we received 
last week can be considered and returned to the White House in 
a timely manner so that we can move forward with our important 
humanitarian, security and reconstruction work in Iraq.
    You are tasked with one of the most important missions in 
the world today. The success of your efforts--namely, to help 
the Iraqi people establish a representative and functioning 
government--is directly linked to stability in the region and 
continued progress in America's global war on terrorism.
    You must succeed, because failure is not an option. But you 
alone do not have an obligation to succeed. Congress must not 
fail to provide you with the tools and resources necessary to 
help the Iraqis build for themselves a stable economy and 
functioning democratic government.
    You have my full support, including for the President's 
$20.3 billion request for the reconstruction of Iraq.
    Not surprisingly, some are trying to stack the deck against 
you. Remnants of Saddam Hussein's toppled regime and foreign 
jihadis on a daily basis seek to sabotage and undermine any 
progress in Iraq. Just this weekend, terrorists tried to 
assassinate Akila Hashemi, one of only three women on the new 
Iraqi Governing Council, and only this morning another car bomb 
exploded by the U.N. headquarters.
    The $5.1 billion for security programs requested by the 
President, including support for the establishment of a New 
Iraqi Army, is clearly in the security interests of both Iraq 
and the United States; so too is the $3.7 billion for public 
works and $470 million for infrastructure projects. In Iraq, 
both the devil and terrorists are eager to find work for idle 
hands.
    Here at home, there are some who view the request for the 
reconstruction of Iraq as fodder for political campaigns. This 
is as reckless as it is irresponsible. Quick to cast themselves 
as patriots, these individuals profess unwavering support for 
American troops in Iraq--and then disparage the costs of 
rebuilding that country. The fact is you can't have it both 
ways.
    One hundred percent support for our troops in Iraq means 
support for their military needs ($51 billion, or 72 percent of 
the total cost requested for Iraq in the supplemental) and 
support for short term reconstruction costs ($20.3 billion, or 
28 percent).
    America can bring its soldiers home only after a 
functioning Iraqi government--with effective security forces--
is in place. The longer that takes, the longer our troops will 
remain in-country.
    Let me close by recommending we keep our eyes on the prize. 
Winston Churchill once counseled that in quarreling ``between 
the past and present, we shall find that we have lost the 
future.'' The President deserves our continued support as he 
tirelessly works to protect and defend the security of America.

    Chairman Stevens. Senator Murray?
    Senator Murray. Thank you, Mr. Chairman. And thank you, 
Ambassador, for being here today. And I apologize for being 
late. I will keep my questions short, Mr. Chairman. I just flew 
in.
    And I have to say that many of my constituents at home in 
Washington State had a little bit of sticker shock over $87 
billion. It's a lot of money at a time when our economy here is 
struggling, and I heard that comment over and over to me in the 
past week since we heard that figure. I'm sure you've heard it, 
as well. And I think part of it is that no one was expecting 
the price tag to be that high, and now you've come forward, and 
I think we're all trying to work our way through it to see what 
it is. I think a general sense, in my State, at least, that we 
understand that Iraq needs to rebuild their economy and their 
infrastructure and their government, but what our 
responsibility is, getting other countries to help, is 
critically important.

                              OIL REVENUES

    But one of the things that I heard over and over again was, 
weren't the oil revenues from Iraq supposed to finance much of 
this reconstruction? And what happened? I know there's a story 
behind that. I'd like to hear a little bit about that from you, 
what happened.
    But also, specifically, I've seen your proposal, that you 
have $1.2 billion to invest in the infrastructure in your 
testimony, is that investment alone enough to get the Iraqi oil 
revenues to cover any reconstruction costs beyond what you have 
presented to us in this proposal, or are we going to be seeing 
that that's not enough and we're going to have to look again at 
future proposals?
    Ambassador Bremer. Thank you, Senator.
    The problem with the oil revenues is basically twofold. 
Number one, that the previous regime, as was the case 
throughout the economy, did not invest in infrastructure. The 
oil industry, as I said in my testimony, was basically starved 
of investment for a period of almost 20 years. The Iraqi oil 
engineers, who are very competent, labored heroically and were 
able to get production at various times up to the maximum, 
which is about three million barrels a day. And our objective 
is to try to get the industry back to that level.
    But with the damage that was done by under-investment in 
infrastructure and with the repeated damage that is done now by 
political sabotage, and if you add into that the looting that 
took place in the immediate post-war period, we are in a 
situation where it is going to take this $1.2 billion to assure 
that the Iraqis get back to that three million barrels a day 
that they had, pre-war. And what that means, in terms of 
revenues, is that next year they will still not generate a 
surplus in revenues. It will cost them as much to run the 
government as they can get from revenues.
    In 2005, assuming we can get the oil production to three 
million barrels a day, they should be generating excess cash 
for capital investments on the order of $4 to $5 billion a 
year.
    Senator Murray. You do believe that the $1.2 billion is 
enough to get that reconstruction----
    Ambassador Bremer. Yes.
    Senator Murray [continuing]. To where we are seeing that?
    Ambassador Bremer. Yes. In fact, in general, the answer to 
your question about, you know, ``Are we coming back for more,'' 
is that what we've done here is put together the amount that 
believe represents what's urgently needed now to get the--to 
address Iraq's immediate needs, and we don't anticipate coming 
back with another major supplemental like this this year. 
This----
    Senator Murray. This year?
    Ambassador Bremer [continuing]. This is our best--now, 
well, we hope that in other years, we--any needs for Iraq are 
handled in a more normal way through the regular budgetary 
process. But I answered, I think, a question from another 
Senator before, Senator, you know, this is the best estimate 
that I can give you on what is needed. I do not believe we will 
need major additional amounts of money.
    Senator Murray. And do you think the oil production that 
we'll be able to generate is enough revenue to eliminate our 
continuing investment post-2005?
    Ambassador Bremer. Certainly on anything like this scale, 
yes.
    Senator Murray. Okay. Let me ask you a more specific 
questions about Um Qasr. I know that rehabilitation of that 
port was essential to getting food and other supplies into Iraq 
shortly after----
    Ambassador Bremer. Done by the Stevedores Association of 
Seattle.
    Senator Murray. Correct. And I know that there has been a 
lot of problems with sabotage and looting. I note in here that 
you have $45 million for the rehab of the port there. And I'm--
do you think that's enough to cover the costs, now that we've 
seen some of what the infrastructure there is like and some of 
the costs of security that weren't anticipated?
    Ambassador Bremer. Yes. Although the fact that I think it's 
enough is less important than that my experts think it's 
enough. The people we worked with in the Ministry of 
Transportation, and our own experts, believe that this should 
be enough to put the port, which is a very important port--it 
is our only port----
    Senator Murray. Right.
    Ambassador Bremer [continuing]. So it's very important, 
particularly for the import of food products, and now for the 
import of fuel oils that we're importing.
    Senator Murray. And it is open and operational----
    Ambassador Bremer. Yes it is.
    Senator Murray [continuing]. At this point?
    Ambassador Bremer. It's been open since June 16.
    Senator Murray. Okay. And is the $45 million enough to 
cover security for the people running the port?
    Ambassador Bremer. Yes. The security--of course, the 
security part of this supplemental comes more in the front part 
of it, where we talk about the roughly $5 billion for an Iraqi 
police force, for the facilities protective service, which is 
more likely to take on fixed-site security on places like 
ports. It's more likely to come through a different part of the 
supplemental, but we believe the amount that's in here for 
security should be enough.
    Senator Murray. Okay. Because I was noting that railroad 
rehab was $303 million. That's a lot more than $45 million for 
the port. Is that--am I----
    Ambassador Bremer. Well, it's----
    Senator Murray [continuing]. Just looking at that----
    Ambassador Bremer [continuing]. An extremely--it's the 
region's largest rail system. It's a very extensive rail 
system--again, drastically under-invested in over the years, 
with an outmoded rail--the actual physical rails are not 
adequate and need to be replaced. It's a very big capital 
project.
    Senator Murray. All right. Thank you very much, Ambassador.
    Ambassador Bremer. Yes.
    Chairman Stevens. Thank you.
    Senator Domenici?
    Senator Domenici. Thank you very much, Mr. Chairman.
    Mr. Ambassador, I'm sorry that I wasn't here for all the 
rest of all the testimony, but I was here for a part of it, and 
I'm very pleased to return for a couple of questions.
    First, about 10 days ago, 12 days ago, I got on the 
telephone and called five Senators. Don't ask me why. I just 
decided five names. I trusted them, and I'm pretty good 
friends. And I asked them if they'd like to work on thinking 
about, talking about, learning about reconstruction of Iraq. 
Most interesting, everyone said yes. None of them are on the 
Foreign Relations Committee, but four are on Appropriations, 
this Committee.
    We have since had a number of meetings. We met with 
Condoleezza Rice. We met with the Secretary of Defense. What 
we're really trying to find out is everything we can about what 
is the reconstruction contract, the reconstruction agreement, 
for Iraq. And a lot of good ideas have come out. And I want to 
share one with you. And I really believe you ought to seriously 
consider it.
    First, if you make the plan, if you put it on four stools--
and I think that's what I heard you say--and you abbreviate 
them where they're on placards instead of in a packet, I would 
submit to you that the American people ought to hear you 
regularly explain the plan, versus what you've accomplished. 
It's simple, but it would be a press conference which you would 
pledge as part of making sure that the public has full 
understanding and that it is totally visible to the public of 
America. And so you hold a press conference, and you say, ``The 
plan was. And it is 1 month since the last meeting. And here's 
what we have done,'' or, ``Here's what we have had to change.''
    Ambassador Bremer. Right.
    Senator Domenici. Now, I really believe, Ambassador Bremer, 
that you should do that, and you should do it in a way that is 
factual, forthright, the whole goal being to make this whole 
reconstruction totally transparent to the American people who 
are interested.
    Do you have a thought on that?
    Ambassador Bremer. No, I think that's a very good 
suggestion, Senator. I already made a note earlier, your idea 
of getting a simplified explanation----
    Senator Domenici. Right.
    Ambassador Bremer [continuing]. Of the plan, and we'll 
follow that up.
    Senator Domenici. Now, the Senator--new Senator from 
Tennessee, former Governor and Secretary, he's the one in our 
meetings that came up with, ``Why don't we tell America about 
it?'' And I'm passing that on to you. Okay?
    Ambassador Bremer. Thank you.
    Senator Domenici. Now, there are some who continue to act 
as if the American people are against the war in Iraq. Some are 
trying to make sure they turn out against the war by suggesting 
they should be against the war.
    I submit it's your responsibility and the President's, if 
you want to win, to make sure the American people understand, 
from you all, that we're winning this. Now, by that I mean that 
you tell them in detail that the plan is being implemented and 
we are succeeding. Because I believe there is still a very 
large percentage of Americans who think we should have gone 
into this war, who support it, but who are fragile because they 
don't understand the plan. That's why I think that plan of 
yours is good for you and for a bunch of people who are helping 
you, but it isn't very much good for the American people, 
because they're not going to read it, and that press crowd's 
not going to read it, and that TV outfit's not going to report 
it. So I would hope that you would make it so.
    My last observation is, the American people would be 
thrilled if you could come close, at some point, to telling 
them that we don't need any more capital after this $20 
billion. Now, why do I say that? I say that because it's 
obvious to me that, contrary to those who are attacking you and 
the President and the plan, that you're trying to make this a 
reconstruction plan that has borrowing capacity, that goes out 
into the donors market to see what you can get others to give 
and purchase and loan. And I submit to you that all of that 
sounds like you're trying to make this $20 billion leverage so 
that you can get this done. Am I right?
    Ambassador Bremer. Yes, that's right. I think I said, in 
response to an earlier point, that I think it's very important 
in the runup to the donors conference that it is clear that the 
American people are stepping up and doing our part, and it's 
important for us to have that $20 billion on the table.

                               IRAQI OIL

    Senator Domenici. Now, I want to talk about oil, but very 
quickly. I thought it too easy that you could just look at 
Iraqi oil as a great big asset and that you could say, 
``Eventually, Iraq should have a valuable flow of money that 
should help defray some of these expenses.'' Now, I want to 
submit to you that I understand everything is going to be 
privatized and internationalized except oil, and I understand 
that. Almost every country that has oil, except us, has done 
that. In Mexico, they call it their ``patrimony.''
    Ambassador Bremer. Yeah.
    Senator Domenici. In Spanish, ``el patrimonio,'' which 
really means the fatherland is equated with their oil.
    Well, I submit, nonetheless, that even though it's heavily 
in debt, Iraq, and it'll be awhile before you get oil, that you 
clearly ought to start talking early about the possibility that 
in a few years some portion of that oil revenue might come back 
to either pay donors or pay America back.
    Now, I'm not suggesting that we tell the Iraqis we don't 
want them to grow and prosper, but I just think, as a 
financier, what would be wrong with a pledge of $1 a barrel or 
$2 a barrel, starting 5 years from now? No, it probably 
wouldn't have an impact at all, but it would be a lot of money, 
and it would surely add credence to a donors conference, in 
terms of how people might want to bid to do things in Iraq.
    I offer the concept of oil as an asset in the outer years 
as something that I really think you should consider early with 
the Iraqis so they wouldn't think that you come along with it 
later and want to take something away.
    Thank you, Mr. Chairman.
    Thank you very much, Mr. Ambassador.
    Ambassador Bremer. Thank you.
    Chairman Stevens. Thank you, Senator.
    Senator Harkin?
    Senator Harkin. Thank you, Mr. Chairman. Mr. Ambassador.
    Again, I want to add my name to Senator Byrd's request for 
the plan. We've asked around, and no one's--I haven't seen it, 
and I've asked my staff for it on July 23, and no one can seem 
to find it. So hopefully it'll surface sometime soon and we'll 
see that.
    Chairman Stevens. Well, Senator, it came to my office, and 
I've sent to get it and get the letter that it was transmitted. 
I understand it was transmitted to all Members of Congress.
    Ambassador Bremer. Right.
    Chairman Stevens. It's just a book, but he's got a copy of 
it right there.
    Senator Harkin. Well, I just asked my staff, and they've 
asked around, and no one seems to have seen it. So I don't know 
where it is, but maybe it's around here someplace, one of those 
things that came and just was chucked or something like that. 
But I'd like to see it.
    Mr. Ambassador, the $21 billion that we're looking at for 
public works, water, housing, health, and other things, on a 
per-capita basis in Iraq that's more than we're spending here 
at home on some of those things. And I've been told that that's 
about half the GDP of Iraq. That would translate into about $5 
trillion of that kind of spending here in the United States in 
1 year. That's awesome.
    Chairman Stevens. What figure----
    Senator Harkin. That's awesome. Half of the GDP of Iraq.
    Chairman Stevens. What figure did you use, Senator?
    Senator Harkin. I don't know if that's true or not. Someone 
told me it was. $40 billion.
    Chairman Stevens. We're dealing with $20.3 billion, 
Ambassador Bremer is testifying concerning $20.3 billion.
    Senator Harkin. That's right. I don't know. What's the GDP 
of Iraq right now?
    Ambassador Bremer. Well, $40 billion is as good a guess as 
any.
    Senator Harkin. Well, that's what I'm saying.
    Ambassador Bremer. We just don't have--we don't know.
    Senator Harkin. Well, okay.
    Ambassador Bremer. But call it $40 billion.
    Senator Harkin. Okay. So this is half the GDP. I'm just 
saying, if you were spending that much on reconstruction in the 
United States, half the GDP, it would be $5 trillion in 1 year 
in the United States. So that's awesome.
    The other thing that came to my mind is, is the amount 
you're asking here consistent with other nation-building 
efforts in the past, on a per-capita basis--Kosovo, Bosnia, 
East Timor, among others? How does this compare, on a per-
capita basis, to those other countries? I don't expect you to 
know that answer, but I think it's something that we ought to 
find out, in terms of what the per-capita basis is.
    Now, again, I'd also like to know how the $20 billion will 
be spent. I think Senator Byrd's touched on that. What process 
will you use? Federal Acquisition Regulation (FAR) rules or 
some other approach? Who signs the checks? Will they all be 
competitive bids? In your statement, you said they would be 
competitive bids. But competitive bids by whom? By other 
countries? German companies? And France, French companies? 
Iraqi companies? Who can competitively bid for these contracts? 
Is it open to anyone, globally?
    Ambassador Bremer. Let me answer both of those questions, 
if I can.
    On a per-capita basis, there is a study by the RAND think-
tank that looked at the general question of spending and made 
the point that successful transitions tend to be characterized 
by large amounts spent early. And to answer your question, 
because it just happens to stick in my mind, the per-capita 
spending in Kosovo was about the same as what we're planning to 
spend here. It's about $800 per capita.
    On the process for bidding, it will be done under our 
American regulations; and appropriated funds, by law, will have 
to go--the prime contractor will have to be an American firm.
    Senator Harkin. Will have to be an American firm.
    Ambassador Bremer. That's the law.
    Senator Harkin. But they could subcontract----
    Ambassador Bremer. That's right.
    Senator Harkin [continuing]. To anybody else they want.
    Ambassador Bremer. That's right.
    Senator Harkin. And will you know that before the contract 
is approved, who they're----
    Ambassador Bremer. No.
    Senator Harkin [continuing]. Subcontracting to?
    Ambassador Bremer. Normally not, but the guidance that--the 
contractors we have now follow, my guidance is to place as much 
of the subcontract as possible in the hands of Iraqi companies 
so that we create jobs.
    Senator Harkin. There's an article this morning, ran in the 
New York Times--I don't know if it was brought up earlier; I 
apologize if it was, I was on a plane just coming back, but 
reading the New York Times in the plane coming here--said that 
the Iraqi leaders are going to come here to Congress next week. 
And I'll just read you this paragraph. It said, ``In 
interviews, the Iraqi leaders said they plan to tell Congress 
about how the staff of L. Paul Bremer III, the American 
occupation administrator, sends its laundry to Kuwait, how it 
costs $20,000 a day to feed the Americans at the Al Rashid 
Hotel in Baghdad, how American contractors charge large 
premiums for working in Iraq, and how across the board the 
overhead from supporting and protecting the large American and 
British presence here is less efficient than granting direct 
aid to Iraqi ministries that operate at a fraction of the 
cost.''
    It says they're coming here. It said that, ``In a 6,000 
mile end-run around American and British occupation 
authorities, leaders from the Iraqi Governing Council say they 
will go to Congress this week to argue that American taxpayers 
could save billions of dollars by granting sovereignty more 
rapidly to the Council and doing this.''
    Do you have any comment about that, Ambassador Bremer?
    Ambassador Bremer. Well, let me make a few. First of all, 
we don't send out laundry to Kuwait. But we did----
    Senator Harkin. You did.
    Ambassador Bremer [continuing]. We did when we first got 
there. We had no electricity. We had no running water. And so, 
for the first 6 weeks, the only place anybody could get any 
laundry was in Kuwait. We don't do that anymore, because the 
hotel is open.
    We spend $17,500 a day on food. We serve 3,000 meals. It 
works out to about $5 a meal, which, incidently, is $3 less 
than it costs for a meal, ready to eat (MRE).
    On the question of overhead, there is no doubt it is more 
expensive to have Americans than Iraqis, but the fact is we are 
needed there for all the reasons that have been laid out in the 
supplemental. And we are convinced that this $20 billion can be 
spent in accordance with our regulations, can be spent quickly, 
and can help give the Iraqis the necessary economic 
infrastructure so that they can have a viable economy, and 
that, in turn, will provide for a secure environment, which 
allows us to withdraw our troops.
    Senator Harkin. The rest of the article went on to say 
that, ``In the spirit of demonstrating such savings, the 
Governing Council this month cancelled the $5,000-a-day 
contract that Ambassador Bremer had arranged to feed the 25-
member body, and its staff found a cheaper supplier.'' That's 
$200 a day for the 25-member Council.
    Ambassador Bremer. Yeah, that, unfortunately, is factually 
incorrect. The Governing Council arranged that themselves. They 
were charged on a per-capita basis. And instead of feeding 25 
people a day, they were feeding about 100 a day, because they 
were having their staff and bodyguards eat there.
    They're on their own budget now, Senator, and it's up to 
them to figure out how much they're going to pay for meals. 
It's not my responsibility.
    Senator Harkin. So when they say that the Governing Council 
cancelled the $5,000-a-day contract that you signed----
    Ambassador Bremer. That's incorrect.
    Senator Harkin. That's incorrect. That you had arranged, 
that's incorrect.
    Ambassador Bremer. That's incorrect. They have----
    Senator Harkin. Well, I just----
    Ambassador Bremer. They have, I understand it, decided that 
they were spending a bit too much on food, which I entirely 
agree with. They were.
    Senator Harkin. Well, I'm glad we cleared that up, because 
obviously this is misinformation that's getting out, right?
    Ambassador Bremer. Shocking.
    Senator Harkin. Shocking, isn't it? Shocking. Shocking.
    The other thing I wanted to clear up was that on the amount 
that you're asking for here, in April we were told that the 
$2.5 billion the President wanted for the Iraq Relief and 
Reconstruction Fund was all you would need from American 
taxpayers. Five months later, you're asking for another $20 
billion, just for this year. Am I right to believe that you 
will need more like $75 billion, and that the balance of the 
$55 billion will be paid for with Iraqi oil exports and 
donations from other countries? Is that what we're looking at?
    Ambassador Bremer. Well, the $60 to $75 billion--probably 
more like $60 to $65 billion--overall need is the assessment of 
the World Bank of what is needed in the Iraqi economy over the 
next 4 to 5 years. It involves things like water and power and 
schools and healthcare and all of the basics.
    What we have done is said, what is the most urgent and 
essential stuff that we need for our strategy and for our plan? 
And we decided it is security and basic infrastructure. And 
then we asked ourselves, and what needs to be done now, in the 
next 12 to 18 months? And that's how we arrived at the plan 
that you have before you for the supplemental. That's the $20 
billion. The rest of the money will come over a period of 
years. We hope it will come from the donors conference, which 
we are going to attend, that the World Bank is calling, in 
Madrid on October 23. We hope that by the year 2005, Iraqi oil 
revenues will be more than sufficient to pay for the running 
costs of the government, and they will have probably $4 to $5 
billion a year in excess revenues spun off by the oil revenue 
that they can then invest. And that's how you will fill in this 
gap.
    Senator Harkin. Mr. Ambassador----
    Chairman Stevens. The time's expired.
    Senator Bennett's time will be the last before the votes. 
The votes will start in 2 minutes. There are two votes that 
start at 5:30 p.m. We'll return here after that time, 
Ambassador Bremer, if you continue to be available.
    Ambassador Bremer. Sure.
    Chairman Stevens. Senator Bennett?
    Senator Bennett. Thank you very much, Mr. Chairman.
    A wild question, off-the-wall, but do you have any idea 
what the GDP of Japan was at the end of the Second World War?
    Ambassador Bremer. No, I don't.
    Senator Bennett. Neither do I.
    Ambassador Bremer. I'm sorry.
    Senator Bennett. I don't know what percentage of our--what 
our contribution to Japan would have been, measured as a 
percentage of Japanese GDP.
    Ambassador Bremer. Don't know.
    Senator Bennett. But I think it would probably have been 
more than 50 percent of the GDP at that point, because Japan 
was absolutely prostrate. I used to own a business in Japan. I 
remember driving through the streets of Tokyo and said to the 
manager of the business there as I looked at the various 
buildings, some of which were traditional architecture, and 
some of which were new--I said to her, ``How many of these 
buildings survived the war? How many of them are pre-war?'' And 
she said, ``None.'' I said, ``None?'' She said, ``There were 
only two buildings in Tokyo at the end of the war--the Imperial 
Palace and the Daiichi Insurance Building,'' which was built 
out of solid concrete, seven stories--three stories above 
ground and four stories below. I may have those numbers wrong. 
She said, ``MacArthur took that as his headquarters.'' I don't 
think we measure reconstruction money as a percentage of GDP of 
a country that has been destroyed.
    Chairman Stevens. Will the Senator yield just for a moment 
there?
    Senator Bennett. Sure.
    Chairman Stevens. I think this President's the first 
President that's asked for money in advance for a military 
operation such as this. The money for Kosovo, for Bosnia, even 
for Tokyo, for occupation in Europe, came out of the operation 
and maintenance accounts of the Department of Defense. The 
President was asked, the last time we had this bill up, why we 
didn't budget in advance, and so this time he gave us the 
budget in advance for the military costs of this operation 
needed now for the future supplemental for 2004. And I commend 
him for doing it.
    It was really--past Presidents have taken the money out of 
money we appropriated to the Department of Defense under the 
Food and Forage Act, and spent the money for the occupation 
forces, and Congress replaced it in the Defense budget. This is 
the first time we've had a stand-up amount--it's an enormous 
amount--in advance for the costs of an operation like this, a 
military operation, to support what you're doing in terms of 
your program for reconstruction.
    Thank you.
    Senator Bennett. If I can go back to the hearing that I 
held in the Joint Economic Committee, I remember being struck 
by the testimony of the final witness that we had. And, by 
coincidence--or happenstance, rather--it happened to be the 
witness that the Democratic members of the committee had 
called. The Republicans called some of the witnesses, the 
Democrats called some of the witnesses. And she said to us, ``I 
wish to make four points about Iraq.'' I'm not sure I have them 
in the right order. She said, ``Number one, Iraq will be very, 
very difficult. Number two, Iraq will be very, very expensive. 
Number three, Iraq will take a very long time. And, number 
four, in the end Iraq will be very much worth it.''
    And I think that's the point you're trying to make. It will 
be expensive, it will take time, but, in the end, it will be 
very much worth it.
    We have a poll in front of us. I'm mistrustful of polls, 
but it's the only public-opinion poll that's been taken in Iraq 
done by the Zogby organization in connection with the American 
Enterprise Institute. Seventy percent of the Iraqis said they 
expect their lives to be better in the next 5 years. And 32 
percent, or roughly half of that, said they expect their lives 
to be very much better, which shows a great sense of optimism 
among the Iraqis, which is not what you hear from the American 
press.
    Now, what is your perception of how much of Iraq is in an 
optimistic mood and how much is in a funk, let us say, or a 
great concern? I understand that it changes geographically. Can 
you give us a sense of where in the country there is a sense of 
support and excitement and optimism about the future, gratitude 
for the Americans for being there, and what portions of the 
country are they saying, kind of, they wish they'd get us out? 
Because we keep hearing, from the American press, as if there 
is only one position in Iraq, and it's they hate us. And now I 
think a country that size, clearly there's going to be 
divisions, just as there are divisions in this country. Can you 
give us your sense, from the ground, as to who is optimistic, 
who is not, who feels good about our being there and who does 
not, how many on each side, and where are they geographically?
    Ambassador Bremer. Well, Senator, thank you for that 
comment.
    I've seen the poll, also, and, as you say, one doesn't know 
about polls. But certainly my, sort of, empirical experience 
traveling around, and I do travel a lot, suggests that 
something like 70 or 75 percent of the people in the country 
are optimistic--I'm very optimistic about Iraq's future--that a 
similar percent of people are delighted, even more delighted, 
with liberation. And I think the exception tends to be in those 
areas where we are being regularly attacked. About 80 to 85 
percent of the attacks against American forces are from a very 
small area, north of Baghdad, between Baghdad and Tikrit. And 
there are historical reasons for that, and that's the thing we 
have to keep working on. But if you go anywhere in the north--
from Mosul, north--if you go anywhere from Baghdad, south, you 
will, first of all, find a country that is basically going 
about its business. Kids are going to school, kids are playing 
soccer on the soccer fields, people are driving their cars, 
they're going out to restaurants. And this is the story that 
you don't hear as much as one should in the American press.
    Senator Bennett. Give us a sense of how long you think it 
will take in those--well, no, let me go another place, because 
my time is going.
    There are some who say that we cannot ever expect Iraq to 
function, because it's an artificial country created by Winston 
Churchill, et cetera, when the British drew the lines, and they 
drew them in arbitrary ways, and so on. As you move around the 
country, do you get a sense that there is an Iraqi identity 
that would override the Sunni, the Shia, the Kurd, and the 
other subdivisions of those divisions that we hear about, and 
that, in fact, Iraq has a national identity that can be tapped 
to create a viable country?
    Ambassador Bremer. I think so. I find the Iraqis very proud 
of their history and of their country, and they do have a great 
history that goes back 6,000 years, after all. And I find that 
it does cross the lines. This is not to minimize the problems. 
There are ethnic and sectarian tensions in Iraq that have to be 
dealt with, and it's one of the reasons we have to insist on 
following a careful process as we move on the political front. 
We cannot rush it, because to rush it is to court real trouble, 
as I said in my opening statement.
    But I think the Iraqis do have a sense of identity. In some 
degree, it's defined as an identity which is contrast to 
several of their neighbors. They spent 1,200 years under the 
Persians, so they have a view towards Iran. They spent 400 
years under the Turks, so they have a particular view towards 
the Turks. So they have managed to pull together something of a 
national identity, which takes pride in going all the way back 
basically to the Mesopotamian period 3,000 years before Christ. 
It is, nonetheless, going to be a challenge to get across all 
of these lines and put together a government that is unified, 
but it is our main job.
    Senator Bennett. Just very quickly, with my time gone, how 
long have you been at this?
    Ambassador Bremer. Since May.
    Senator Bennett. MacArthur took 7 years in Japan.
    Ambassador Bremer. I hope you're not going to tell me I'm 
going to take 7 years, Senator.
    Senator Bennett. No. The Marshall Plan, as I said earlier, 
came after 3 years----
    Ambassador Bremer. That's right.
    Senator Bennett [continuing]. Of occupation in Germany, et 
cetera. I think, by historic standards, you are proceeding at 
breathtaking speed. And I'm sorry the New York Times is 
impatient, but I am not.
    I agree with the witness, Iraq will be very expensive, Iraq 
will be very difficult, Iraq will take a very long time, but, 
in the long run, Iraq will be worth it, and we will reap a 
dividend from what you are doing in Iraq just as Americans have 
reaped an enormous dividend for what was done in Germany and 
Japan at the end of the Second World War.
    Economically, we have been paid 1,000 times over for the 
money and effort that we put into creating those economies on a 
stable basis and those islands of political stability in areas 
that had been historically explosive. If we can duplicate that 
in Iraq, and I think you're on a very fast track towards doing 
it, our children and our grandchildren will thank us enormously 
for leaving them that heritage of stability and strength.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you very much, Senator.
    We're 8 minutes into the first vote, gentlemen. I'd suggest 
we'll come back after the second vote.
    Senator Byrd. What time would you say we would come back?
    Chairman Stevens. I'd say that would be 5:15 p.m., 5:20 
p.m.--or 6:15 p.m. or 6:20 p.m., pardon me. 6:15 p.m.. I'm 
seeing the clock wrong. 6:15 p.m., sir.
    Senator Byrd. 6:15 p.m., okay.
    Chairman Stevens. Yes, sir.
    Gentlemen, if we may, we'll resume the hearing.
    Ambassador Bremer, I know you said that your home was dark. 
Mine is dark. I would hope that I get home before it's not too 
dark. But I know Senator Byrd has some additional questions.
    One of the Senators said to me, Mr. Ambassador, as we went 
to those votes, why did I believe that this Defense money, that 
amount of Defense money, was needed? The Defense money was the 
biggest, largest part of this request. And I told him I 
remembered too well being overseas in China on World War II. I 
think one of the desires of any American when he's overseas, 
particularly in uniform in wartime is to come home. I think 
that what you're doing is essential, in seeing to it that that 
wish of our people that are over there can be fulfilled. So I 
do hope we can get early action by the Congress on this 
request, and I do hope that you're successful in achieving the 
Coalition vision that's outlined in your working document of 
July 21.
    Senator Byrd, do you have questions?
    Senator Byrd. Well, Mr. Chairman, I've got a few questions, 
yes.
    Do we plan to have any further hearings with Ambassador 
Bremer?
    Chairman Stevens. Ambassador Bremer will not be asked to 
come back. I have seen his schedule. He's before the Armed 
Services Committee, and he's scheduled to be before the Senate 
Foreign Relations Committee, the House Appropriations 
Committee, both Foreign Operations and Defense Subcommittee--
they're not having theirs at full committee, as we decided to 
do--he'll be before the Senate Armed Services Committee and 
also before the House Armed Services Committee and/or the House 
Intelligence Committee in the time that he has left before he 
returns to Iraq.
    We do have scheduled, as I indicated, Secretary Rumsfeld, 
10 a.m. on Wednesday morning with Generals Myer and Abizaid. 
And we are trying to establish a connection with the commander 
in Afghanistan to see if we could have a televised appearance 
of the General before us this week. And we are also exploring 
the other issues that might be brought up. But we have told--
Ambassador Bremer has told us the balance of his week here is 
filled now with other committees that he's been requested to 
appear before.
    Senator Byrd. Well, Mr. Chairman, how about next week?
    Chairman Stevens. Senator, I hope to go to markup 1 week 
from tomorrow.
    Senator Byrd. Well, I'll tell you, Mr. Chairman, I think 
you've been very kind to have these hearings, and I personally 
appreciate them, but I don't think we've had enough hearings. I 
don't think we will have had enough hearings. It may be an 
imposition on Ambassador Bremer to come back, but he's asking 
for $20 billion here. I think that if he expects to get $20 
billion, he ought to make himself available. That's the way I 
feel about it.
    And we have a supplemental here, and we're talking about 
developing a democracy in Iraq, and we're talking about how 
we're going to build an army there, and how we're going to 
build a police force.
    This is the first supplemental in which we've really asked 
questions about the situation in Iraq. The American people have 
never had any debate with respect to what we have to do, as has 
been outlined here, with respect to reconstruction in Iraq. 
When we went into Iraq, the American people weren't told that 
we were going to reconstruct Iraq, or that we were going to try 
to build a democracy there. They weren't told that. And now 
here we are with a bill, and we're going to ram this bill 
through.
    Ambassador Bremer is the administration's key man. He's the 
point man for reconstruction in Iraq. It seems to me that the 
American people are entitled to know more about this 
reconstruction effort and what the plans are, and so are the 
Members of Congress.
    I hope that you won't think I'm being personal, Senator 
Stevens. I'm dumbfounded by the size of this request and also 
by the shortness, the brevity, of time which is going to be 
spent by this committee on this request. Once we latch onto 
this reconstruction effort and say that we're going to 
establish a democracy in Iraq, we're going to be there for 
quite a long time, in all likelihood. I think the American 
people are entitled to hear a debate and to have questions 
answered with regard to this reconstruction effort. We've got a 
lot of reconstructing to do here in our own country, and yet 
we're putting Iraq ahead of that.
    Now, much has been said about this plan. I'm telling you, 
this is the plan, and this day is the first day that I ever 
heard of such a plan. This afternoon is the first time that 
I've seen this so-called plan. That's not your fault, 
Ambassador Bremer, that we didn't see it. Here we are, this is 
on a Monday. Everybody who's familiar with the operations of 
the Senate and the way we do things around here anymore knows 
that some Senators are not here on Mondays. So, we have set up 
one of the most important hearings that we'll have this year 
with one of the most important witnesses that we'll hear, and 
yet we've had the hearing on Monday.
    I thank you, Mr. Chairman, I thank you, Mr. Ambassador, for 
readjusting the hearings to the point that we could begin them 
in the afternoon. That was necessary, because I had two 
doctor's appointments set up for my wife, and it's pretty hard 
to arrange doctor's appointments. I have a duty to my wife, and 
I'm going to stand by that duty, and you've allowed me to do 
that.
    But still, we are disadvantaging the American people when 
it comes to handling their money by ramming this huge bill 
through with only one day of hearings.
    Now, let's take a look at this plan. I'm looking on page--
I'm not too familiar with this plan--I'm looking on--it says 
``Security 1'' at the bottom of the page. The heading on the 
page is as follows, ``Achieve a Secure and Stable Environment 
and Transition Responsibility for Maintaining it to Iraqi 
Security Forces.'' One, ``Defeat Internal Armed Threats by 
October 3.'' That's the way I read it. The plan was to defeat 
internal armed threats by October 3. Is that correct, Mr. 
Ambassador?
    Ambassador Bremer. Well, that's one of the dates. That's a 
continuing obligation. If you continue out to the right there, 
Senator, you'll see that that particular obligation carries all 
the way through to the far right-hand column. And where it says 
``Continue,'' that means continue the effort to defeat internal 
threats and gradually transfer responsibility----
    Senator Byrd. No, no, no. That says ``Continue Transfer 
Responsibility.''
    Ambassador Bremer. No, there's a period after the word 
``Continue,'' sir.
    Senator Byrd. ``Continue.''
    Ambassador Bremer. Continue----
    Senator Byrd. ``Transfer Responsibility.''
    Ambassador Bremer. Yeah.
    Senator Byrd. Yeah. Continue what?
    Ambassador Bremer. Continue to defeat internal armed 
threats. That obligation carries all the way through to the 
right-hand column. In my view, that obligation will continue 
for at least the next 6 to 9 months. And as we do that, as this 
top line says, we're going to start transferring 
responsibility. Presuming we get the supplemental from 
Congress, we will accelerate the transfer of responsibility to 
Iraqi police, Iraqi border police, the facilities protective 
service, and the Iraqi army.
    Senator Byrd. Well, this certainly needs some fleshing out. 
That's all the more reason why we ought to have more hearings. 
This says, as I read it, ``Defeat Internal Armed Threat.'' And 
they're going on. In some ways, they seem to be increasing in 
number. It doesn't say that we're--the American people haven't 
been told that we were going to be in there another 8 to 10, 12 
months, or 12 or 14 or 16. We're going to rebuild an army? 
We're going to build an Iraqi army? The American people have 
never been told this, and yet we are going to appropriate money 
to do it. And once we start down that road, we're committed.
    With respect to the reconstruction process, how much money 
have other countries contributed, as of now, to the 
reconstruction efforts?
    Ambassador Bremer. Senator----
    Senator Byrd. In March, Secretary Rumsfeld testified that 
he thought that over 60 countries would contribute to the 
reconstruction effort. The President is asking Congress to 
appropriate $20 billion. To date, how much have we received in 
donations from the 60 countries for reconstruction efforts?
    Ambassador Bremer. Senator, 61 countries have pledged $1.46 
billion.
    Senator Byrd. Pledged. But how much have we received?
    Ambassador Bremer. Well, I don't know what the--the receipt 
number, I'm not sure, but that's pledged and given.
    Senator Byrd. Well, surely you know how much we've 
received.
    Ambassador Bremer. Well, I'd have to go through each 
country, Senator, to know which has been delivered. It's like 
our appropriations process. In many countries, they have to 
appropriate the funds after they pledge them, and then the 
funds actually have to flow.
    Senator Byrd. Well----
    Ambassador Bremer. There's a gap in time. But we have about 
a billion and a half from 61 other countries, to answer your 
question.
    Senator Byrd. Sixty-one countries have pledged about $1.5 
billion?
    Ambassador Bremer. That's right.
    Senator Byrd. Now, with respect to the contributions in 
personnel, I've heard this said time and time again, to the 
effect that there are 30 countries involved here, and it makes 
it sound like there may be 30 countries contributing what we're 
contributing. But when one takes a careful look at it, one will 
find that probably as many as 20 of these countries don't 
appropriate more than 1,000 men each, and possibly 20 of them 
contribute 100, 200, 300, or certainly less than 1,000. So why 
don't we just make it clear to the American people that of 
these 30 countries--there are about 4 or 5 that contribute--
Britain, I believe you said 8,000 or 10,000, something like 
that; then Poland, how many, 2,500?
    Ambassador Bremer. I think Poland has a reinforced brigade. 
But, again, Senator, I really think that you'll get more 
accurate information from your witnesses Wednesday on these 
figures. This is really more something that General Abizaid can 
answer with much more precision than I can.
    Senator Byrd. Well, I'll hope that I can be there Wednesday 
and ask questions.
    Now, with respect to Iraqi's new army, the New York Times 
of yesterday, Sunday, September 21, has this headline, front 
page, above the fold, ``Iraqi's New Army Gets Slow Start. 
Effort to Train Force is Small and Plagued with Delays.'' I 
suppose you're familiar with this.
    Ambassador Bremer. Yes, I saw the story.
    Senator Byrd. The story. It says, ``Within a few minutes, 
under the watchful eye of private trainers paid by the United 
States, a platoon of recruits overruns the enemy position. This 
is a mock attack, complete with whistles and so on. Like the 
rest of their battalion, these young men are only weeks from 
becoming full-fledged soldiers. When they are ready, their new 
army will have 735 men.'' That doesn't sound like a very big 
army, does it?
    Ambassador Bremer. Senator, that story refers to the first 
battalion of the new Iraqi army, which I mentioned in my 
opening statement will graduate not late, as that article's 
headline suggests, but on time on October 4.
    Senator Byrd. It says, ``Whether the Americans simply 
underestimated Iraqi resistance or whether the United States 
wanted Iraq to depend on America for security, as some Iraqis 
contend, the delay has fueled the Iraqi's distrust of 
Washington's intentions and placed a heavy burden on American 
troops.'' It goes on. I see a line that jumps out at me. It 
says, ``These troops will not be available until next summer.''
    And then I excerpt another paragraph, ``The occupying 
forces want to train an additional 35,000 Iraqi police officers 
in Hungary over the next 2 years. None are now being trained, 
though training is expected to begin this fall. Even if the 
plan to have former Iraqi officers recruit a new army works, 
the only new troops in the next 10 months will come from the 
training at the base here, which is expected to produce about 
6,700 by next September.''
    Well, Mr. Ambassador, we're going to be a long time in 
building an army at this rate. We're going to be a long time in 
building an adequate, efficient, well-trained police force at 
this pace.
    So I think we're being given--with all due respect, Mr. 
Chairman, I think we're being given a kind of a snow job by the 
administration. The American people haven't been told. They 
weren't told when we went into Iraq.
    Chairman Stevens. Senator, I've got to tell you, I've got a 
family at home. We're here to have you ask questions of 
Ambassador Bremer. If you want to ask him questions, do it. I'm 
not here to debate with you, and I'm not here for you to read 
me the New York Times. I read it yesterday.
    Now, I have to go home, sir. Do you have any more questions 
for Ambassador Bremer?
    Senator Byrd. Well, you're not going to rush this Senator.
    Chairman Stevens. Well, I'm----
    Senator Byrd. I'll tell you this. We're going----
    Chairman Stevens [continuing]. With all due respect----
    Senator Byrd [continuing]. We're going to have a debate on 
this. We're not being treated fairly. Here this is a Monday. 
Some Senators aren't here on Mondays. I'm sorry about that. I'm 
here. Senator Stevens is here, and a few other Senators. But 
normally the Senate is not in session on Mondays, and yet we're 
hearing one of the key witnesses in this whole thing.
    We're talking about an $87 billion Defense bill, $20 
billion of which is going to be under the direction of the 
witness who is testifying now. I said at the beginning, I think 
that he's doing a good job with what he has. But we have a 
responsibility. Senator, I can't help when you have to go home. 
I have to go home, too. I have responsibilities at home, but I 
also have responsibilities here.
    Now, if you can tell me, Mr. Chairman, that we will be back 
and that Ambassador Bremer will be back, I'll be very happy to 
close here in another 5 minutes.
    Chairman Stevens. Senator, we're going to close here at 
7:15 p.m. We're going to close this hearing at 7:15 p.m.
    Senator Byrd. 7:15 p.m.
    Chairman Stevens. Yes, sir.
    Senator Byrd. Well, in other words, these empty chairs here 
represent Senators who could not be here, and those Senators 
are not going to have an opportunity to hear Ambassador Bremer, 
or to ask him questions. Is that right?
    Chairman Stevens. Every Member of the Senate--this 
Appropriations Committee that I could find on the floor to ask 
did anyone else have any questions, not one did, from your side 
or from mine.
    Senator Byrd. That doesn't prove anything. These Senators 
have a responsibility to hear Ambassador Bremer and a right to 
hear him. They represent millions of people, collectively. And 
I think that, if we're going to make a considered judgment on 
spending this much money in a reconstruction effort which has 
never been debated in the Senate and concerning which the 
American people have never been informed about, we're not 
fulfilling our obligation to the American people and to these 
Senators. Now, they're not here, and perhaps they were told. I 
don't know. But, in any event, who else is going to appear 
before this committee and tell us about reconstruction? May I 
ask that question? What other witnesses are going to be before 
this committee and answer questions about the reconstruction 
effort? Is this the short and the long of it, as Shakespeare 
said?
    Chairman Stevens. Ambassador Bremer is the witness in 
support of this portion of the supplemental.
    Senator Byrd. Well, I'm requesting, Mr. Chairman, that we 
have Ambassador Bremer come back on another date so that these 
Senators who have not been here today will have an opportunity, 
another opportunity, to hear him and to go over his answers in 
today's hearing and to study the plan. This so-called plan was 
sprung on us, as far as I'm concerned. I'm not making any 
accusations, but in my conversations with other Senators on my 
side of the aisle, they never knew about this plan until today.
    Now, as the ranking member, I'm making that request, that 
we have Ambassador Bremer come back.
    Chairman Stevens. I'm sorry, sir, we've examined Ambassador 
Bremer's schedule. As I've told you, he's scheduled to return 
to Iraq with the House Armed Services Committee, as I 
understand it, at the end of the week, and he will not be back.
    Senator Byrd. Well, Mr. Chairman, if I were chairman, I 
wouldn't treat you like that--you, as the ranking member. If 
you asked for another hearing, I would arrange for you to have 
another hearing.
    The administration wants $20 billion over which it will 
have oversight. The Congress has a responsibility to oversee 
this money.
    Chairman Stevens. Senator, three committees in this Senate 
are having hearings, besides this one. Some of these Members 
are on those committees. Three committees in the House are 
having hearings. This is going to be thoroughly explored by at 
least six committees. We are exploring this $20 billion now. 
We're going to explore the Defense matter on Wednesday. And we 
may go into another issue on Thursday with regard to 
Afghanistan. I have before me the hearings history on 
supplementals. There has never been more than one meeting on a 
supplemental before this committee.
    Senator Byrd. No.
    Chairman Stevens. Never once----
    Senator Byrd. I don't know whether that's true or not.
    Chairman Stevens [continuing]. Before. Well that's the 
record.
    Senator Byrd. I'm not challenging what you're saying.
    Chairman Stevens. I didn't make it up. That's the record.
    Senator Byrd. What difference does that make? This is the 
first time that we've heard anything, the first witnesses that 
we've heard, about any reconstruction effort in Iraq, and this 
so-called plan has just came to light today, as far as I'm 
concerned. I think some of it is laughable. It's absolutely 
impossible to make a judgment based on a short examination of 
this plan, which came into my possession just 2 or 3 hours ago.
    And I'm asking you, as chairman, to work out a plan whereby 
Ambassador Bremer can come back. The American people are 
entitled to this. That's not asking very much. It's only asking 
what is right.
    Chairman Stevens. Senator, I'm sure the Ambassador will 
respond to any questions you want to submit for the record, and 
the record will be open until next Tuesday.
    Senator Byrd. Well, submitting questions for the record, 
Mr. Chairman--I've been around here a long time; I know what 
that means. You can't ask the Ambassador any follow-up 
questions about his responses. There are no follow-on 
questions. He can submit answers for the record. That's not 
like having the Ambassador here. He wants $20 billion.
    I'm not trying to provoke you, Mr. Chairman. I just am 
asking for what I think we should have. We should have another 
hearing. Look at the empty chairs.
    Chairman Stevens. Senator, as a member of the Armed 
Services Committee, he'll be before the Armed Services 
Committee.
    Senator Byrd. I understand that. I've been attending the 
Armed Services Committee as well as I can. But I'm sorry that 
the chairman is apparently just going to flatly turn me down on 
this request.
    Well, let me say, Mr. Chairman, that I don't mean to be 
discourteous, but if you're not going to have another hearing 
with Ambassador Bremer, I don't know why you would not want to 
do that.
    Ambassador Bremer, could you appear again before this 
committee, in the interest of this $20 billion bill?
    Ambassador Bremer. The chairman has already addressed that 
question, sir.
    Senator Byrd. Well, I'm asking you if you could appear, if 
the chairman were to ask you to come back?
    Ambassador Bremer. I don't have time, sir. I have--I'm 
completely booked, and I have to get back to Baghdad to my 
duties at the end of the week.
    Senator Byrd. You don't have time, and yet you want $20 
billion? You don't have time to make yourself available? Is 
that what you're saying?
    Ambassador Bremer. Senator, I'm prepared to stay here as 
long as you want tonight and answer any questions you've got, 
and I'm prepared to answer any questions you submit for the 
record we don't get to tonight.
    Senator Byrd. Well, are you prepared to come back if----
    Ambassador Bremer. Sir, I do not have the time, but I'm 
prepared to stay here as long as the chairman wants to keep in 
session.
    Senator Byrd. Well, look at the empty chairs. I'm sure that 
the American people are represented by more than one Senator, 
the Senator from West Virginia.
    I take it that we're not going to get you back and that 
you're going to take the position that you will just stay here 
as long tonight as I might want to stay. Where's the audience? 
You're asking for $20 billion.
    Well, Mr. Chairman, let me say this. I don't think that 
I've ever been treated with such discourtesy as I have on this 
occasion. I'm surprised, Mr. Chairman, that you would treat 
your old friend like that. I say most respectfully to you, that 
if the tables were turned, I would immediately do that for you 
and your colleagues representing a large minority here.
    You're going to close the committee at 7:15 p.m.?
    Chairman Stevens. Senator, I have the greatest respect for 
you, and I've tried to show it in this hearing today. I think 
the record will show that you've used half the time today. The 
rest of the members had 8 minutes apiece.
    Senator Byrd. What difference does----
    Chairman Stevens. I have done my best to meet--I agreed to 
hold the hearings that you requested. I agreed to get 
Ambassador Bremer here, and he came, as requested. I have 
agreed to get Secretary Rumsfeld here, and he will come on 
Wednesday, as requested. We're trying to work out a hearing, a 
televised hearing, about Afghanistan. I think I've gone much 
further than any chairman in my history has gone to meet the 
request for hearings on a supplemental. Most supplementals 
don't have any hearings at all.
    Senator Byrd. That doesn't make any difference what most 
supplementals do.
    Chairman Stevens. I understand that. This is an exception, 
and we've made an exception, sir.
    Senator Byrd. But I'm not going----
    Chairman Stevens. If I have offended you, I apologize. I've 
not intended to offend you, but I've intended to try to work 
this hearing in with my family responsibilities and other 
things that I must do.
    Senator Byrd. Senator, you haven't offended me. And what 
difference does that make? That's of no interest in the long 
run of history. I'm just trying to do my duty. I don't believe 
that adequate explanation has been made for this $20 billion on 
the part of Ambassador Bremer. He has been very good to make 
himself available this afternoon. But I can see the handwriting 
on the wall. There's not going to be any further hearing in 
this committee on this request insofar as Ambassador Bremer is 
concerned.
    And let me, then, close out my part, since you're going to 
close it at 7:15 p.m.
    I was one of the 23 who voted against giving the President 
the power, which the Constitution doesn't give him, the power 
to declare war. I was against giving him that power then, and 
I'm against it now. I think that it was the wrong decision on 
the part of the Senate to do what it did, and I think that 
Members will come to regret it, and many already have.
    I don't think that this $20 billion, insofar as Ambassador 
Bremer, has been justified. I don't think the American people 
had an understanding when we went into this war that we were 
going to create a democracy there, that we were going to spend 
billions of dollars for reconstruction. The American people 
weren't told about that.
    Now, I see two wars here, the war in Afghanistan, which 
began with the terrorist attack on the Twin Towers on September 
11, 2001. This country was attacked, and I am for doing 
whatever needs to be done in that regard. In the war in Iraq, 
we attacked a sovereign country by the order of the Commander 
in Chief. That country did not attack this country. That 
country did not represent an imminent threat to this country. 
But we deliberately attacked that country in furtherance of the 
doctrine of preemption. I don't subscribe to that doctrine. And 
so, we are in two wars. One I fully support. The other I have 
grave questions about.
    And that's why I've referred to it as ``Mr. Bush's war.'' 
He, as Commander in Chief, declared war, in essence, on Iraq, 
and Congress made a decision, which I did not share; namely, it 
shifted to the President the responsibilities for our making 
the declaration.
    And so, one can see why I think, and great numbers of the 
American people think, that we are in a war which we should not 
have fought. I feel a responsibility to the American people and 
to the people of West Virginia to do what I can to have 
Congress examine the request for $20 billion. That's the 
taxpayers' money. And that's not the end of it.
    We gave the United Nations the back of our hand when it 
came to going into Iraq. We should have taken a little longer 
there. The inspectors were on the ground. They were going 
wherever they wanted to go. They were making progress. They 
were destroying caches of weapons. I think we could have 
avoided this war by continuing with those inspectors, and by 
taking more time. Hans Blix said that it would take months, not 
years, to do the job there. We should have done that.
    I say, to the credit of the President, that he was 
instrumental in forcing the Iraqis to open their doors, so to 
speak, to the inspections. The inspections were going forward. 
But the President was apparently bent up going to war in Iraq.
    I recall Karl Rove, the President's political guru, who 
addressed the Republican Committee Members in January of last 
year, I believe it was, in California, saying, in essence, that 
we should make this war on terrorism our strategic centerpiece, 
or words to that effect, for the political campaign. Now, I 
haven't forgotten that, and that makes me dubious of the 
correctness or incorrectness of what we did, of our attacking 
another country that didn't present an imminent threat to us 
and had not attacked us. It was something that I think we 
already knew, many of the American people. I certainly knew it. 
But that is a kind of background. And so one cannot help but be 
somewhat suspicious of the motives of the administration in 
pushing us into that war.
    So having said that, that will probably explain why I say 
that there are two wars. I've explained why. Two wars. And the 
second one, I have designated that, in my own public statements 
and in my own mind, as ``Mr. Bush's war.'' He took us to war. 
There was no good reason to go. And here we are now, we're 
going down another long road, and that is that we're going to 
reconstruct Iraq. And, here again, we haven't asked the United 
Nations to help us. I understand that the President will go 
tomorrow, and I hope he will ask the United Nations to help. I 
can understand the reluctance on the part of some of the other 
countries to join with us in that. They weren't with us on the 
takeoff, and we didn't want them with us, we didn't wait, and 
now they won't be with us on the landing.
    But I say all that, Mr. Chairman, to explain why I, 
personally, feel that we're doing the wrong thing by our 
country in taking the actions that we've taken, and Congress 
stepping aside and giving to the Commander in Chief the 
authority that he doesn't have, the authority to declare war, 
and our stepping aside, relegating ourselves to the sidelines. 
And now we find that we're going to be taken down another long 
road.
    I thank you, Ambassador Bremer, for what you're doing. I 
think that you, personally, are trying hard. I think that 
you're loyal to those who have placed this responsibility in 
your hands. I think that you've done the best you could. I 
don't envy your task. It's a tough one. Much of what I have 
said certainly is not directed at you. I probably wouldn't have 
said it here tonight had it not been for the fact that, 
apparently, as the head of the Democratic Members here, I'm 
going to be denied on the basis, on my side, of a further 
opportunity to ask questions.
    This is an extraordinary time that we're in, I must say, 
and I am very sorry that this committee is not going to have 
another opportunity to ask questions of the key man in Iraq. I 
think it's bad.
    I, personally, thank you for what you're doing, and I 
certainly thank our troops for what they are doing. I think 
that we ought to do whatever we can even if it means our eating 
a little crow, I think we ought to be willing to eat some 
crow--to get the United Nations with us and give them a share 
in the control of the civilian side, and not be so bent over in 
opposition and in reluctance to share some of this with our 
erstwhile friends and allies.
    Mr. Chairman, I thank you for having this hearing. I thank 
you for having it in the afternoon so as to accommodate me, as 
I asked you to do. I have no more to say at this point.
    Chairman Stevens. Well, Mr. Chairman, Ambassador Bremer, I 
was sitting here thinking about a conversation I had once with 
a Secretary of Navy who was called by President Roosevelt to 
his office and told that he wanted to give Britain some of our 
naval equipment. He said he thought we ought to develop a 
program where we could loan them or lease them these pieces of 
equipment. The Secretary told me that he had gone back to his 
Department, and he asked his general counsel if the President 
had the authority to do this, and the counsel said no, he 
didn't have authority to do that. So the Secretary said he went 
back to the President and said he was sorry, he couldn't do 
what the President asked him to do because he didn't have 
authority to do it. And President Roosevelt, according to this 
gentlemen who told me the story, and he was the one that was 
there supposedly, said to him, ``Well, I want you to go back to 
your Department and go through your legal department, and the 
first lawyer that agrees with me, he's your new general 
counsel.''
    I say that, Senator, because in my lifetime and yours we've 
seen Presidents act in a lot of ways. I remember when Harry 
Truman went to Korea, and I remember when Lyndon Johnson went 
really deeply into Vietnam. And this President came to us for 
authority. He got the authority from Congress--77 to 23 in our 
Senate, almost two thirds in the House, voted to give the 
President this extraordinary authority to go to war, because he 
thought it was right, just as President Roosevelt thought was 
right to go into lend-lease, just as Harry Truman thought it 
was right to go into Korea, and just as Lyndon Johnson thought 
it was right to go into Vietnam.
    Now, you have your vision, and I have mine. Mine is that, 
Mr. Ambassador, I hope you go back there and do everything you 
have to do to assist this government to come to where the world 
wants it to be, to a stable government and to bring those young 
men and women home. I hope it happens during my watch. But if 
it doesn't happen during my watch, as long as I'm here I'll 
support you in what you're doing and do everything I can to get 
you the money, the taxpayers' money, to do what we have to do.
    Basically, this money, over $60 billion of it, is for 
Defense, to protect and give our people the ability to defend 
themselves and to defend the people we've chosen to defend, 
those who wanted freedom in Iraq.
    So I respect you, Senator, I respect your right to ask 
questions and to have a hearing, but I think my job is to 
respond to the President's request, an emergency request. This 
is an emergency bill. I don't know that we've ever had a 
hearing on an emergency bill before. We're going to have three 
hearings, at least, on this one. And that was at your request, 
Senator. So I have deep respect for you.
    I've got to say, Ambassador, God be with you, and I hope 
you do well in the other hearings, and I look forward to 
hearing what you and--again, you have my phone number, sir. I 
don't give it to many people, Senator, but I gave it to 
Ambassador Bremer. You call me if I can ever help you do the 
job, this incredible job--I think that's one thing, Senator 
Byrd and I both agree on--you have the most incredible job in 
the world right now. It's a tough one, and I wish you well.
    Senator Byrd. Mr. Chairman, may I say one thing in closing?
    Chairman Stevens. Yes, sir.
    Senator Byrd. Mr. Chairman, to me, the Constitution is far 
above any President of the United States. And I'm standing by 
what I think. I'm standing by the Constitution. This country 
invaded another country without provocation, and I think that 
has to be taken into consideration. American lives are being 
taken, and American treasures are being taken to fight a war 
under a new doctrine, the preemptive strike doctrine. I think 
if that matter were to be put before the American people, 
they'd vote it down overwhelmingly. The doctrine of preemption, 
that's what we're doing. And never, no matter what President 
there may be, Republican or Democrat, would I put that 
President ahead of the Constitution and ahead of this 
institution. I have to say that I don't think we're doing the 
right thing tonight.
    Thank you very much.

                            COMMITTEE RECESS

    Chairman Stevens. Well, thank you, Senator. I always wanted 
to be a marine. From the Halls of Montezuma to the Shores of 
Tripoli, neither one of those actions was authorized by 
Congress.
    Do your best, Mr. Ambassador.
    Ambassador Bremer. Thank you, Mr. Chairman.
    [Whereupon, at 7:14 p.m., Monday, September 22, the 
committee was recessed, to reconvene subject to the call of the 
Chair.]


 FISCAL YEAR 2004 SUPPLEMENTAL REQUEST FOR RECONSTRUCTION OF IRAQ AND 
                              AFGHANISTAN

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2003

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10:05 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Domenici, 
Bond, Burns, Shelby, Bennett, Campbell, Craig, Hutchison, 
Brownback, Byrd, Inouye, Hollings, Leahy, Harkin, Mikulski, 
Reid, Kohl, Murray, Dorgan, Feinstein, Durbin, and Johnson.

               OPENING STATEMENT OF CHAIRMAN TED STEVENS

    Chairman Stevens. Good morning, Mr. Secretary, General 
Myers, General Abizaid, and I note that Dr. Zakheim is with us. 
Thank you for coming.
    We're here to discuss the administration's request for the 
fiscal year 2004 supplemental, and it would be my wish that 
we'd hear from the Secretary first, and then proceed with our 
questions or statements.
    Mr. Secretary?

STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY, 
            DEPARTMENT OF DEFENSE
ACCOMPANIED BY:
        GENERAL RICHARD MYERS, CHAIRMAN, JOINT CHIEFS OF STAFF
        GENERAL JOHN P. ABIZAID, COMMANDER, CENTCOM
        DR. DOV ZAKHEIM, UNDER SECRETARY OF DEFENSE (COMPTROLLER)

    Secretary Rumsfeld. Mr. Chairman, thank you, and members of 
the committee. We've been requested to have our statements 
submitted for the record, and that only I make a brief opening 
statement, which I will do.
    Chairman Stevens. I'm pleased you've complied with that 
request. All of your statements will appear in the record as 
though read.
    Secretary Rumsfeld. Earlier this month, the American people 
marked the anniversary of September 11, and thanks to the 
courage of the men and women in uniform, two brutal regimes 
have been removed from power, two nations have been rescued 
from tyranny. And thanks to those who fight the battles, 
thousands of terrorists have been captured or killed, including 
nearly two-thirds of known senior al-Qaeda operatives, and most 
of those responsible for the September 11 attacks.
    With the support of some 90 nations, a number of planned 
attacks have been stopped, terrorist assets seized. But perhaps 
the greatest blessing is the fine men and women who wear the 
uniform. Each volunteered for service, and, in the course of 
the war, many have given their lives. Still others have 
suffered serious wounds. As many of you, we visit them in 
Bethesda, Walter Reed, and other hospitals around the country. 
Our hearts go out to their families and to all those who have 
been injured or killed in this war, both United States and 
Coalition, alike. We're grateful also for the brave soldiers 
and the fine civilian staffs from the Coalition countries that 
now serve in Iraq, Afghanistan, and elsewhere in the global war 
on terror.
    Together, we've accomplished a great deal, but a good deal 
remains. Notwithstanding the successes, dangers persist. Many 
terrorists are behind bars, but those that remain at large are 
planning future attacks.

                 FISCAL YEAR 2004 SUPPLEMENTAL REQUEST

    As a sign of his conviction, the President has proposed, 
requested, $87 billion in emergency funds to fight the war on 
terror. The vast majority of the funds that the President has 
requested will go the troops who are risking their lives in 
this struggle. Of the $87 billion, $66 billion is to support 
ongoing military operations, money for military pay, fuel, 
transportation, maintenance, weapons, equipment, lifesaving 
body armor, ammunition, and other military needs. He requested 
$51 billion for military operations in Iraq, $11 billion for 
military operations in Afghanistan, the Horn of Africa, and 
other Operation Enduring Freedom missions; $2.2 billion for 
defending the U.S. homeland; $1.4 billion to support Coalition 
partners, many of whom are stepping forward with troops willing 
to risk their lives in this effort, but whose governments lack 
the resources to support those deployments. So $66 billion, or 
75 percent of the request, is for the troops. They need it, and 
they will need it soon.
    The remaining $21 billion is to help Afghanistan and Iraq 
secure their nations for freedom so that they can get on a path 
to stability, self-government, and self-reliance.
    For the Afghanistan request, it's for $300 million for 
roads, schools, clinics, $400 million to train and support the 
Afghan National Army and highway patrol, border patrol, and 
national police, $120 million to train demobilized militia and 
help them find jobs, and support other private-sector 
initiatives, and nearly $300 million to support the rule of 
law, elections, and other critical support for the Afghan 
National Government. This support is in addition to the $1.8 
billion previously appropriated and the $5 billion that has 
been pledged thus far by the international community.

                   IMPORTANCE OF FUNDING FOR RECOVERY

    Since Ambassador Bremer was here before this committee on 
Monday, I will not address the request for the $20 billion for 
the Coalition Provisional Authority (CPA) in Iraq, except to 
say that a major portion is to help the Iraqis assume 
responsibility for the security of their country, including the 
training of Iraqi police, border guards, facility-protection 
services, a new Iraqi army, and a new Iraqi civil defense 
corps, and for the Iraqi justice system.
    The funds for the Department of Defense and the $20 billion 
for the Coalition Provisional Authority are linked 
inextricably. Both are needed. All of the CPA request 
investments are critical for the efforts that General Abizaid 
and General Sanchez and their troops are engaged in.
    Helping Iraqis provide for their own security is critical. 
The investments the President is requesting are, in a very real 
sense, a critical element of the Coalition's exit strategy. The 
sooner Iraq can defend its own people, the sooner the United 
States and the Coalition forces can turn over the security 
responsibility to the Iraqis. But reaching our goal requires 
some investments now to restore critical infrastructure and 
basic services necessary to jumpstart the economy. Iraq cannot 
make those improvements today without assistance from the 
United States and the international community. But the purpose 
of this assistance is to help the Iraqis get on a path where 
they can rebuild their own country.
    The President has requested a $20 billion investment in the 
future of Iraq. To put that in context, the Marshall Plan, 
after World War II, cost roughly $90 billion in today's 
dollars. Those investments helped transform a region that had 
been a source of violent war and instability for centuries and 
turn it into a place of peace, prosperity, and mutually 
beneficial trade.

                        PROGRESS IN AFGHANISTAN

    I recently returned from Iraq and Afghanistan, as did 
Secretary Powell, and I know a number of you have been there 
very recently, as well. I am convinced that progress is being 
achieved in both countries. Afghanistan is on the road to a 
more stable democratic self-government. After 2 years of 
training, the Afghan National Army has recently been fighting 
side by side with Coalition forces in our most recent anti-
terrorist campaigns, Operations Mountain Viper and Warrior 
Sweep. The central government is working to extend authority to 
these provinces. Together with the Afghan authorities, the 
Coalition deployed what we called Provincial Reconstruction 
Teams, or PRTs, to four provinces, with four more on the way.
    Afghanistan faces challenges, to be sure, but the progress 
has been measurable. The terrorist training camps are gone, al-
Qaeda is on the run, the Afghan people are liberated, and the 
country is on a path to democracy.

                            PROGRESS IN IRAQ

    In Iraq, the Coalition forces also face difficulties and 
dangers, let there be no doubt, including the threat from 
regime remnants, criminals, and foreign fighters who have come 
into the country to oppose the Coalition forces. What's 
remarkable is that despite the significant dangers they face, 
the Coalition civil and military staff in Iraq has, in less 
than 5 months, racked up a series of achievements in both 
security and civil reconstruction that may very well be without 
precedent.
    Consider a few of their accomplishments. In less than 5 
months, virtually all major Iraqi hospitals and universities 
have been reopened. Hundreds of secondary schools--until a few 
months ago, those schools were used often as weapon caches for 
the Ba'ath Party--they have been rebuilt and they were ready 
for the start of the fall semester. Fifty-six thousand Iraqis 
have been armed and trained in just a few months, and they are 
contributing to the security and defense of their country. 
Another 14,000 are currently--have been recruited and are 
currently in training, for a total of 70,000. Today, a new 
Iraqi army is being trained, and more than 40,000 Iraqi police 
are conducting joint patrols with Coalition forces. By 
contrast, it took 14 months to establish a police force in 
postwar Germany, and 10 years to begin training a new German 
army.
    As security improves, so does commerce, and some 5,000 
Iraqi small businesses opened since liberation on May 1. The 
independent Central Bank of Iraq was established and a new 
currency announced in just 2 months, accomplishments that took 
3 years in postwar Germany. The Iraqi Governing Council has 
appointed an Iraqi Cabinet of Ministers, something that took 14 
months in Germany. And all of this is in less than 5 months.
    In all major cities and most towns and villages, Iraqi 
municipal councils have been formed, something that took 8 
months in Germany. To date, the Coalition has completed some 
8,000 civil-affairs projects, with many more underway. All of 
this has taken place in less than 5 months.
    The speed and breadth of what Ambassador Bremer, General 
Abizaid, General Sanchez, and the Coalition military and 
civilian teams has accomplished is impressive. It may, in fact, 
be without parallel, whether compared to postwar Japan, postwar 
Germany, or postwar Bosnia or Kosovo.

                         FOREIGN CONTRIBUTIONS

    I keep hearing that the United States should not go it 
alone. Well, the United States is not going it alone. There 
are, at this moment, some 17 nations represented in Ambassador 
Bremer's Coalition Provisional Authority. They are 
participating in that authority. Moreover, there are currently 
32 countries with troops in Iraq today. They include Albania, 
Azerbaijan, Bulgaria, the Czech Republic, Denmark, Dominican 
Republic, El Salvador, Estonia, Georgia, Honduras, Hungary, 
Italy, Kazakhstan, Korea, Latvia, Lithuania, Macedonia, 
Moldova, Mongolia, The Netherlands, New Zealand, Nicaragua, 
Norway, the Philippines, Poland, Romania, Slovakia, Spain, 
Thailand, Ukraine, and the United Kingdom. Portugal is, at this 
moment, preparing to deploy forces in Iraq, as well.
    Of the 19 North Atlantic Treaty Organization (NATO) 
nations, 11 have already committed troops to Iraq. We're 
currently in discussions with 14 other countries.
    Now, do they equal our forces, or do their financial 
contributions equal ours? No, they don't. But do they represent 
a significant military commitment, and do they represent a 
significant political commitment of those nations? Yes, they 
do. And we are, and we should be, deeply grateful for their 
contributions, for their political courage, as well as for 
their friendship. A great many of the forces of those 
countries, I should add, are also volunteers, as are all of 
ours.
    In Afghanistan, NATO has just taken over command of the 
International Security Assistance Force (ISAF), the Alliance's 
first mission outside of Europe in its entire history. I met 
with the new German Commander of ISAF forces in Kabul. What 
they are doing is important for Afghanistan and for the NATO 
Alliance, as well.
    So between Iraq and Afghanistan, there are now 49 countries 
with forces on the ground, with many others making important 
contributions in other ways. So this business that America is 
going it alone, it seems to me, is not factual at all.

                             AFFORDABILITY

    Let me conclude by recalling why we're spending this money, 
why we are proposing it, why the President is requesting it.
    The Wall Street Journal recently tallied the cost to our 
country and the economy after the September 11 attacks: $7.8 
billion in lost income for the families of more than 3,000 
victims; $21 billion sent to New York City for direct-damage 
costs; $4 billion for the victims fund; $18 billion to clean up 
the World Trade Center site; $700 million to repair the 
Pentagon; $6.4 billion in reduced or lost wages or salaries for 
workers in New York industries; $1.3 million net job loss 
nationwide; $50 billion in costs to the insurance industry; $11 
billion in lost business to the airline industry; the 
bankruptcy of two airlines, even after a $15 billion Federal 
bailout; $38 billion in costs for new border security, 
protection against biological threats and emergency 
preparedness; $1.3 billion in costs to State governments for 
homeland security; $33 billion in spending by the private 
sector for new protective services.
    So even assuming some overlap, which there undoubtedly is, 
the 9/11 attack very likely cost the American people hundreds 
of billions of dollars. And that's not counting the price paid 
in lives and the immense suffering of their families and their 
loved ones.
    I believe our Nation can afford whatever it needs to defend 
our people, to defend our way of life, and to defend our vital 
interests. At the height of the cold war in the Eisenhower and 
Kennedy years, we spent roughly 10 percent of Gross Domestic 
Product (GDP) on defense. The last time I was Secretary of 
Defense, in the 1970s, we spent something in the neighborhood 
of 5 percent. Today, we spend a little over 3 percent. It's a 
great deal of money, let there be no doubt, but it's a modest 
fraction of our Nation's wealth.
    To defend freedom in the 21st century, we need to root out 
terrorists. We need to take the battle to the terrorists. And 
we need to help the now-free people in Iraq and Afghanistan 
rebuild from the rubble of tyranny and claim their places as 
responsible members of the community of nations. A British 
author wrote, quote, ``If a nation values anything more than 
freedom, it will lose its freedom. And the irony is that if it 
is comfort or money that it values more, it will lose that, 
too.''
    Is $87 billion a great deal of money? Answer is yes. Can 
our country afford it? The answer is also yes. We believe it is 
necessary for the security of our country and the stability of 
the world, and that the price of sending terrorists a message 
that we're not willing to spend what it takes to do or what it 
takes, that we value comfort or money more than freedom, would 
be far greater.
    Thank you, Mr. Chairman.
    [The statements follow:]

                Prepared Statement of Donald H. Rumsfeld

    Mr. Chairman, thank you for this opportunity to testify on the 
President's emergency supplemental request.
    Earlier this month, the American people marked the anniversary of 
the September 11th attacks--and took stock of all that had been 
accomplished in the two years since this war on terror was visited upon 
us two years ago.
    Thanks to the courage of our men and women in uniform, two brutal 
regimes have been removed from power, two nations rescued from tyranny. 
Thanks to those who fight the battles, seen and unseen, in the war on 
terror, thousands of terrorists have been captured or killed--including 
nearly two-thirds of known senior al-Qaeda operatives, and most of 
those responsible for the 9/11 attacks. With the support of dozens of 
nations, a number of planned attacks have been stopped, terrorist 
assets seized, and thousands of lives saved.
    We have much to be grateful for. But perhaps our greatest blessing 
is the fine men and women who wear our nation's uniform. Each of them 
volunteered for service--and in the course of this war, many have given 
their lives. They are heroes--they will not be forgotten. Still others 
have suffered serious wounds. I've visited with many of them, at 
Bethesda and Walter Reed, and Brooke Army Medical Center--to thank them 
for their service and sacrifice.
    Our hearts go out to the families of all those who have been 
injured and killed in this war--U.S. and Coalition forces alike. And we 
are grateful also for the brave soldiers and fine civilian staffs from 
Coalition countries now serving in Iraq and Afghanistan.
    Together, we have accomplished a great deal. But much work still 
remains. Notwithstanding our successes, dangers persist. Many 
terrorists are behind bars--but those that remain at large are planning 
future attacks. Standing between our people and the gathering dangers 
is the courage of our men and women in uniform--and the determination 
of our country to see this war through.
    As a sign of his conviction that we must prosecute this war, and 
defeat those who threaten us, the President has requested $87 billion 
in emergency funds to fight the war on terror.
    The vast majority of the funds the President has requested will go 
to the troops who are risking their lives in this struggle. Of the $87 
billion in the President's request, $66 billion is to support ongoing 
military operations--money for military pay, fuel, transportation, 
maintenance, weapons, equipment, life-saving body armor, ammunition and 
other critical military needs.
    The President has requested:
  --$51 billion for military operations in Iraq,
  --$11 billion for military operations in Afghanistan, the Horn of 
        Africa and other missions related to Operation Enduring 
        Freedom,
  --$2.2 billion for defending the U.S. homeland, and
  --$1.4 billion to support coalition partners, many of whom are 
        stepping forward with troops willing to risk their lives in 
        this effort--but whose governments lack the resources to 
        support those deployments.
    So $66 billion--or 75 percent of this request--is for troops. They 
need it--and they need it soon.
    The remaining $21 billion is to help the people of Afghanistan and 
Iraq secure their nations for freedom--so that they can get on a path 
to stability, self-government and self-reliance.
    For Afghanistan, the President will reallocate nearly $400 million 
in funds from existing accounts, and has requested an additional $800 
million to accelerate reconstruction efforts now underway.
    This includes:
  --$300 million for roads, schools, clinics;
  --$400 million to train and support the Afghan National Army and the 
        national police, border patrol and highway patrol;
  --$120 million to train demobilized militia and help them find jobs, 
        and to support other private sector initiatives; and
  --Nearly $300 million to support rule of law, elections and other 
        critical support for the Afghan government.
    This support is in addition to the $1.8 billion previously 
appropriated, and the $5 billion that has been pledged thus far by the 
international community.
    As discussed by Ambassador Bremer before this Committee on Monday, 
the President has also requested $20 billion for the U.S. contribution 
to support the Coalition Provisional Authority in Iraq--including $15 
billion to speed repairs to Iraqi's starved and dilapidated 
infrastructure, and $5 billion to help Iraqis assume increasing 
responsibility for the security of their country--including training of 
Iraqi police, border guards, facilities protection services, a new 
Iraqi Army and a new Iraqi Civil Defense Corps, and for the Iraqi 
justice system. The $20 billion the President has requested does not 
cover all of Iraq's needs, which are vastly greater than this--nor is 
it intended to.
    We expect that the international community to step up with 
additional contributions as well. Already, some 60 nations have made 
pledges or contributions of $1.5 billion--and there are discussions 
with others, who have expressed an interest in contributing as well. A 
free and stable Iraq is in the world's interest.
    The hope and intention is that over the coming years the bulk of 
the funds for Iraq's reconstruction will come from the Iraqis 
themselves--from oil revenues, recovered assets, international trade, 
and foreign direct investment. The funds the President has requested 
are designed to help Iraqis so they can generate the income, and 
security, necessary to rebuild their own country.
    Our goal is to help the Iraqi people get on a path to self-
reliance. The investments proposed are intended to help them do that.
    Today, Iraq is not yet producing enough income to pay for essential 
services. The $15 billion the President has requested to pay for urgent 
repairs to Iraq's infrastructure will, along with international 
contributions and Iraqi funds, help Iraqis begin generating the income 
necessary to eventually pay their own way.
    Take oil, for example. Ambassador Bremer testified that Iraq will 
earn about $2.5 billion in oil revenue in 2003--a substantial sum 
considering the dilapidated conditions of its oil infrastructure. With 
improvements to that infrastructure, Ambassador Bremer estimates that 
Iraq's oil revenue should grow to about $12 billion next year, and 
should reach roughly $20 billion by 2005.
    Investments are needed in water, sewage, power and other essential 
services that were allowed to degenerate over three decades--starved of 
investment as Saddam Hussein built his palaces and weapons. These are 
critical not only to the lives of Iraqis, but also to Iraq's ability to 
attract foreign investors.
    Iraq's interim leaders are already taking steps to make Iraq 
hospitable to trade and foreign investment. Last weekend, Iraq's 
finance minister announced sweeping reforms of Iraq's tax and foreign 
investment laws. The Iraqi economy will be open to foreign capital and 
investment, with 100 percent foreign ownership permitted in all sectors 
except natural resources. Tariffs on imports will be 5 percent across 
the board, except for necessities like food, medicine and clothing--
which will be tariff-free.
    It is safe to say that, with the implementation of these 
provisions, Iraq will have some of the most enlightened--and inviting--
tax and investment laws in the free world.
    But to attract foreign investment, Iraq must have more than just 
attractive tax and investment laws; it must also have a reasonable 
security environment.
    This is why the President has requested $5 billion to train Iraqis 
to help defend their country. This includes $2 billion for public 
safety, including the training of an additional 40,000 police in the 
next 18 months; $2 billion to train a new three-division Iraqi Army and 
an Iraqi Civil Defense Corps; and almost $1 billion for the Iraqi 
justice system. All of these investments are critical to the efforts of 
General Abizaid, General Sanchez and their troops' efforts. Helping 
Iraqis provide for their own security is critical. The investments the 
President is requesting are, in a real sense, a critical element of the 
Coalition's exit strategy. The sooner Iraq can generate income and 
defend its own people, the sooner U.S. and Coalition forces can come 
home.
    As foreign investment begins to flow, Iraq's leaders can invest in 
reconstruction and other efforts to bolster the economy and create 
growth and prosperity--so that the Iraqi people can achieve self-
reliance.
    That is the goal. But reaching that goal requires investments now 
to restore critical infrastructure and basic services necessary to 
jump-start their economy. Iraq cannot make those improvements today 
without assistance from the U.S. and the international community. But 
the purpose of this assistance is to help Iraqis get on a path where 
they can rebuild their own country--so that they do not become 
permanent wards of the international community.
    This is why the President has requested that the $20 billion be 
granted, and not loaned. Iraq is a nation with considerable potential--
water, oil, vast wheat and barley fields, biblical sites and great 
potential for tourism, and an educated population. But it also owes 
almost $200 billion in debts and reparations.
    Iraq is in no position to pay its current debt service, let alone 
take on more additional debt. If we want to encourage Iraqi self-
reliance, so that Iraqis can fund their reconstruction and so that 
American troops can come home, it would not be helpful to saddle Iraq 
with more debt it could not reasonably be expected to repay.
    What the President has requested is a $20 billion investment in the 
future of Iraq. To put that in context, the Marshall plan after World 
War II cost roughly $90 billion in today's dollars. Those investments 
helped transform a region that been a source of violent war and 
instability for centuries, and turn it into a place of peace, 
prosperity and mutually beneficial trade.
    Today, in Iraq and Afghanistan, we have a similar opportunity to 
help nations that were sources of terror and war get on a path to 
becoming sources of freedom and moderation in a turbulent region. If we 
have the vision to do so, the people of the world will reap the 
benefits of that investment for generations to come.
    Still, $87 billion is a lot of money. And the American taxpayers 
deserve to know that it is being spent wisely. So let me say several 
things:
    I recently returned from Iraq and Afghanistan, as did Secretary 
Powell. He will tell you, as I will, that progress is being achieved in 
both countries.
    Afghanistan is on the road to stability, democracy and self-
government. After two years of training, the Afghan National Army has 
been fighting side-by-side with Coalition forces in our most recent 
anti-terrorist campaigns--Operations Mountain Viper and Warrior Sweep.
    The central government is working to extend authority to the 
provinces. Together with Afghan authorities, the Coalition has deployed 
Provincial Reconstruction Teams (or PRTs) to four provinces, with four 
more on the way. Afghanistan faces challenges to be sure, but the 
progress has been measurable. The terrorist training camps are gone. 
Al-Qaeda is on the run. The Afghan people are liberated and the country 
is on the path to democracy.
    In Iraq the Coalition forces also face real difficulties and 
danger--including the threat from regime remnants, and foreign fighters 
who are coming into the country to oppose the Coalition. What is 
remarkable is that, despite the significant dangers they face, the 
Coalition civil and military staff in Iraq has--in less than five 
months--racked up a series of achievements, in both security and civil 
reconstruction, that may be without precedent.
    Consider a few of their accomplishments:
  --In less than five months, virtually all major Iraqi hospitals and 
        universities have been re-opened, and hundreds of secondary 
        schools--until a few months ago most often used as weapons 
        caches--have been rebuilt and were ready for the start of the 
        fall semester.
  --70,000 Iraqis have been armed and trained in just a few months, and 
        are contributing to the security and defense of their country. 
        Today, a new Iraqi Army is being trained and more than 40,000 
        Iraqi police are conducting joint patrols with Coalition 
        forces. By contrast, it took 14 months to establish a police 
        force in post-war Germany--and 10 years to begin training a new 
        German Army.
  --As security improves, so does commerce. Some 5,000 Iraqi small 
        businesses opened since liberation on May 1st. The independent 
        Iraqi Central Bank was established and a new currency announced 
        in just two months--accomplishments that took three years in 
        post-war Germany.
  --The Iraqi Governing Council has appointed an Iraqi cabinet of 
        ministers--something that took 14 months in Germany.
  --In all major cities and most towns and villages, Iraqi municipal 
        councils have been formed--something that took 8 months in 
        Germany.
  --To date, the Coalition has completed some 8,000 civil affairs 
        projects--with many more underway.
    All this, and more, has taken place in less than five months. The 
speed and breadth of what Ambassador Bremer, General Tom Franks, 
General John Abizaid, General Rick Sanchez, and the Coalition military 
and civilian teams have accomplished is impressive--it may be without 
historical parallel, whether compared to post-war Japan, Germany, 
Bosnia, or Kosovo.
    These successes would not be possible without many months of 
preparation--planning that began before Operation Iraqi Freedom was 
launched. And they would not be possible without substantial 
international support and cooperation.
    I keep hearing that the United States should not ``go it alone.'' 
Well, the United States is not going it alone. There are, at this 
moment, some 25 nations in the Coalition Provisional Authority--it is a 
genuinely international operation. Moreover, there are currently 32 
countries with troops in Iraq today.
    These include: Albania, Azerbaijan, Bulgaria, the Czech Republic, 
Denmark, the Dominican Republic, El Salvador, Estonia, Georgia, 
Honduras, Hungary, Italy, Kazakhstan, Korea, Latvia, Lithuania, 
Macedonia. Moldova, Mongolia, the Netherlands, New Zealand, Nicaragua, 
Norway, the Philippines, Poland, Romania, Slovakia, Spain, Thailand, 
Ukraine, and the UK.
    Portugal is at this moment preparing to deploy forces to Iraq. Of 
the 19 NATO nations, 11 have already committed troops to Iraq. We are 
currently in discussions with 14 other countries that have expressed 
possible interest in sending forces.
    Do they equal our forces or financial contributions? No they do 
not. But do they represent a significant military commitment and a 
political commitment for those nations? Yes, they do. And we are, as we 
should be, deeply grateful for their contributions, their political 
courage, and their friendship.
    The international forces in Iraq are extraordinary. Earlier this 
month, I met many of them when I visited the Polish Multinational 
Division in Babylon, which had just taken over from the Marines in the 
South-Central sector of Iraq. That division alone includes troops from 
17 nations, with four more nations providing civil support--for a total 
of 21 countries.
    Many were from nations that had only recently recovered their own 
freedom and independence--and were proud to be helping the Iraqi people 
recover theirs. It was an honor to meet them, and see their enthusiasm 
and their commitment.
    In Afghanistan, NATO has just taken over command of ISAF--the 
Alliance's first mission outside of Europe in its history. I met with 
the new German commander of ISAF forces in Kabul. What they are doing 
is important for Afghanistan, and for the NATO alliance.
    Between Iraq and Afghanistan, there are 49 countries with forces on 
the ground--with many others making important contributions in other 
ways. So this business that America is ``going it alone'' is not 
factual, plain and simple--it is false.
    Finally, let me conclude by recalling why we are spending that 
money.
    The Wall Street Journal recently tallied the costs to our country 
and economy, of the September 11th attacks.
    They include:
  --$7.8 billion in lost income for the families of the more than 3,000 
        victims--money that would have gone to pay for braces and 
        summer camps, schools and colleges.
  --$21 billion sent to New York City for direct damage costs.
  --$4 billion for the victims fund.
  --$18 billion to clean up the World Trade Center site.
  --$700 million to repair the Pentagon.
  --As much as $6.4 billion in reduced or lost wages and salaries for 
        workers in New York industries.
  --1.3 million net jobs lost nationwide.
  --$150 billion in reduced GDP.
  --$50 billion in costs to the insurance industry.
  --$11 billion in lost business to the airline industry.
  --The bankruptcy of two airlines, even after a $15 billion federal 
        bailout.
  --$38 billion in costs for new border security, protection against 
        biological threats, and emergency preparedness.
  --$1.3 billion in costs to state governments for homeland security, 
        and
  --$33 billion in spending by the private sector for new protective 
        services.
    Even assuming for some overlap, the 9/11 attack alone cost the 
American people literally hundreds of billions of dollars--and that is 
not counting the enormous price paid in lives, and the immense 
suffering of their families and loved ones--men and women from all 
walks of life, of all races and religions, and from most countries of 
the world.
    If September 11th cost more than three thousand lives and hundreds 
of billions of dollars, it makes $87 billion pale by comparison.
    Our nation can afford whatever it needs to defend our people, our 
way of life and our vital interests. At the height of the Cold War, in 
the Eisenhower and Kennedy years, we spent roughly 10 percent of GDP. 
The last time I was Secretary of Defense, in the 1970s, we spent 
roughly 5 percent of GDP on defense. Today, we spend a little over 3 
percent--a great deal of money, to be sure, but a modest fraction of 
our nation's wealth.
    Our job is to work to prevent another attack like the one we 
experienced on September 11th--before it happens. There is only one way 
to do so--by taking the battle to the terrorists, and those who give 
them support and sanctuary.
    As President Bush told the United Nations yesterday, ``events 
during the past two years have set before us the clearest of divides: 
between those who seek order, and those who spread chaos . . . between 
those who honor the rights of man, and those who deliberately take the 
lives of men and women and children without mercy or shame. Between 
these alternatives there is no neutral ground . . . Because a coalition 
of nations acted . . . Iraq is free . . . [and] people are safer 
because an unstable aggressor has been removed from power.''
    To defend freedom in the 21st century, we need to root out the 
terrorists. We need to make clear to the world's terrorist states that 
defying 17 U.N. resolutions, filing false declarations with the United 
Nations, refusing to cooperate with U.N. inspectors, and refusing to 
disarm and prove to the world you have done so, has consequences. We 
need to help the now free people in Iraq and Afghanistan rebuild from 
the rubble of tyranny, and claim their places as responsible members of 
the community of nations.
    A British author once declared: ``If a nation values anything more 
than freedom, it will lose its freedom; and the irony is that if it is 
comfort or money that it values more, it will lose that too.''
    Is $87 billion a great deal of money? Yes. But can we afford it? 
Without question. Because it is necessary for the security of our 
nation and the stability of the world--and because the price of sending 
terrorist a message that we are not willing to spend what it takes or 
do what it takes--that we value comfort or money more than freedom--
would be far greater.
    Thank you, Mr. Chairman.

                                 ______
                                 
             Prepared Statement of General John F. Abizaid

    It is an honor to report to this committee on the situation and our 
actions in the CENTCOM Area of Responsibility. As you know, our command 
is focused on three main priorities: defeating transnational terrorism 
and creating safe and secure environments in Iraq and Afghanistan. 
CENTCOM operates within the geographic and ideological heart of the 
Global War on Terror. It is a war without borders that spans all 
twenty-five countries in the region. There is no doubt that The War on 
Terror is connected to our efforts in Afghanistan and Iraq. Success in 
Afghanistan and Iraq will result in stable States that do not harbor 
terrorists and provide a visible alternative to the terrorist vision of 
hatred and conflict.
    The over 195,000 U.S. soldiers, sailors, airmen, and Marines now 
serving in the CENTCOM Area of Responsibility are engaged in a wide 
range of activities, each of them critical to maintaining our national 
security. These include counter-insurgency, counter-terrorist, 
stability, and civil-affairs operations. Over twenty ships and 200 
aircraft are sustaining our land forces and providing a potent 
deterrent to our adversaries. Our servicemen and women are also 
occupied with training exercises designed to increase our ability to 
operate with regional partners as well as enhance their military 
effectiveness. I visit our troops and their commanders frequently and 
they remain confident that we are winning the war on terrorism and 
winning the peace in Iraq and Afghanistan. They are also realistic and 
understand that success will not come without cost or without the 
cooperation of local populations. Those of you who have visited the 
region understand the great strides our servicemen and women have made 
toward accomplishing our objectives. We all recognize, however, that 
there are no easy answers to the problems we face in the region. At 
CENTCOM we also know that, while we are the military centerpiece of our 
national security efforts in the region, none of the problems with 
which we are engaged will succumb to military force alone. Integrating 
our efforts with those of other agencies and ensuring that our 
operations advance our political objectives are essential to our 
success.

                            WAR ON TERRORISM

    We have had good effect against terrorists throughout the Central 
Command Area of Responsibility. Our success has not been due to 
military actions alone. The United States Government, in cooperation 
with our regional partners, has killed and captured terrorists and 
attacked their infrastructure. CENTCOM is proud to have played a role 
in an effort marked by unprecedented cooperation between various 
agencies, regional partners, and members of the largest international 
coalition in history.
    Despite remarkable victories, the fight against terrorism is far 
from over. The enemy's ideological base, financial networks and 
information networks remain strong. Indeed, the demographic and 
economic conditions that breed terrorists may be worsening and those 
conditions are heightening the ideological fervor associated with 
radical Islamist extremism. It is clear that we must continually 
reassess our efforts and improve our effectiveness.
    We at Central Command, partnered as we are with many Islamic 
nations, recognize that the War on Terrorism is not a war against 
Islam; it is a war against the enemies of Islam. It is not a war 
against religion; it is a war against irreligious murderers. Securing 
all of our futures depends mainly on collective action and 
international cooperation. Each of the three main Combined Joint Task 
Forces in our Area of Responsibility has an important role to play in 
the greater regional effort against terrorists. Through these task 
forces and Component Commands, we synergize theater cooperation efforts 
with other nations and build indigenous capabilities to combat 
terrorism and control borders. Central Command, our regional partners, 
and the seventy-one members of the Operation Enduring Freedom Coalition 
will remain on the offensive until terrorists no longer pose a threat.

                                  IRAQ

    In Iraq, our forces are working alongside the Coalition Provisional 
Authority to provide military capacity in our interagency and 
international efforts toward building a unified and stable country. The 
CPA's endstate for Iraq calls for a democratic and sovereign nation, 
underpinned by new and protected freedoms and a growing market economy, 
and made secure through the efforts of Iraqis--able to defend itself, 
but posing no threat to its neighbors or the international 
community.\1\
---------------------------------------------------------------------------
    \1\ This more closely follows Amb. Bremer's testimony yesterday. It 
reads: ``President Bush's vision, in contrast, provides for an Iraq 
made secure through the efforts of Iraqis. In addition to a more secure 
environment, the President's plan provides for an Iraqi economy based 
on sound economic principles bolstered by a modern, reliable 
infrastructure. And finally, the President's plan provides for a 
democratic and sovereign Iraq at the earliest reasonable date.''
---------------------------------------------------------------------------
    Coalition servicemen and women, alongside many Iraqi partners, are 
fighting our enemies and making progress toward a return of Iraq to the 
Iraqi people. While Iraqi police capacity still remains below 
requirements, joint Coalition and Iraqi police operations are bringing 
to justice criminal gangs that have been preying on the Iraqi people. 
Neighborhood watch programs are springing up throughout towns and 
villages. Although large reconstruction projects will require 
considerable time and resources, military commanders are working with 
local townspeople to prioritize small reconstruction projects; 
thousands of these have been completed. Town and city councils are in 
place throughout the country. The first battalion of the New Iraqi Army 
will graduate on 4 October and the second battalion begins training the 
next day; these soldiers are proud to be part of the New Iraq. The 
first two thousand men and women of the Iraqi Civil Defense Corps are 
assuming security responsibilities alongside Coalition soldiers. All 
this and more has been achieved in just over four months, despite the 
utter collapse of virtually every Iraqi institution. Our achievements, 
however, have not come without sacrifice and there is more fighting 
ahead.
    Iraq has tremendous potential, but the Coalition and our Iraqi 
partners must defeat our enemies and overcome considerable obstacles 
before the future of Iraq is secure. While all but a very few Iraqis 
recognize the promise of freedoms they are enjoying for the first 
time--freedom to express their personal views, freedom to practice 
their religion, freedom from fear, freedom to determine their own 
destiny--there are those who would deny the Iraqi people the peace and 
prosperity they so richly deserve. We continue to experience attacks on 
Coalition forces, our Iraqi partners, and infrastructure punctuated by 
larger high-visibility attacks to discredit the Coalition, disrupt 
reconstruction, and cause unrest. While former regime loyalists remain 
the focus of our operations, extremists, foreign fighters and terrorist 
groups are emerging as a major threat to Iraqis, the Coalition, and the 
international community. Criminal activity continues to frustrate 
reconstruction efforts and is the major source of instability in some 
regions. While our enemies are too weak to challenge us militarily, 
they believe that we do not possess the will to persevere in Iraq. They 
are wrong.
    We are taking the fight to the enemy in Iraq. Attacks against our 
forces are localized in the Sunni areas and the city of Baghdad. Over 
seventy-five percent of violent incidents and sabotage have occurred in 
only four of the eighteen provinces. The preponderance of the country, 
including Baghdad, has achieved a very high degree of security and 
stability. Iraqis are providing intelligence that permits us to kill or 
capture the enemy and preempt attacks.
    We are focusing our efforts in five areas: improving intelligence, 
developing Iraqi security forces, internationalizing our security 
effort, protecting the infrastructure, and helping to communicate our 
aims, plans, and successes to the Iraqi people. We have also 
repositioned forces to concentrate our efforts in problem areas and 
establish a higher degree of control over Iraq's borders. In areas in 
which we achieve stability, we will disengage our forces and turn over 
security responsibilities to Iraqis while maintaining the capability to 
anticipate and respond rapidly to any changes in the situation. Later, 
as the New Iraq expands its security capacity, we intend to move our 
forces to less visible locations from which we can react to external 
threats and prepare to relinquish national defense responsibilities to 
the New Iraqi Army.
    Violence, of course, is not the only obstacle to progress in Iraq. 
As you know, we must maintain the consent of the Iraqi people. Popular 
disaffection sets conditions for instability. Disaffection stems from 
many sources including high expectations, high unemployment, a lack of 
essential services, suspicion of Coalition motivations for liberating 
Iraq, residual fear of the Baath Party, and the sudden end to the 
former regime's patronage system. Our efforts to rebuild Iraq are 
connected to the security situation because general disaffection among 
the populace provides available manpower to those who are inciting (and 
paying for) attacks against Iraqis, the infrastructure and Coalition 
forces.
    We recognize that economic development, political development, and 
security are interdependent. COMBINED JOINT TASK FORCE-7 and CENTCOM 
are supporting fully the Coalition Provisional Authority's efforts in 
all areas. In addition to securing critical infrastructure alongside 
our Iraqi partners, two U.S. Army task forces, Task Force Restore Iraqi 
Oil and Task Force Restore Iraqi Electricity are accelerating progress 
in restoring Iraq's failed oil economy--the financial engine to move 
Iraq forward--and providing the key enabler for all economic functions 
and public needs--electricity. Brigade commanders have partnered with 
Iraqis to complete over eight thousand reconstruction projects. Also, 
our commanders and civil affairs personnel worked with Iraqis to 
establish local and provincial councils as a foundation for regional 
and national governance.
    Over the past four months, we have improved our understanding of 
the situation and identified what more needs to be done. We know what 
is working well and what areas require additional attention and 
resources. CENTCOM, COMBINED JOINT TASK FORCE-7, CPA, and our Coalition 
partners are working together in accordance with our plans. We must 
remember, however, that the situation in Iraq is complex and dynamic; 
we are certain to encounter unforeseen difficulties and opportunities 
and we must remember that the future course of events depends not only 
on what we plan to do, but on enemy reactions and initiatives that are 
difficult to predict. We are resolved to reassess continually the 
situation, refine our plans, be prepared for contingencies, and refocus 
our efforts whenever necessary.
    Our commanders and troops are optimistic and feel that we now have 
before us an opportunity to gain tremendous momentum. In the short 
term, we believe that if we and our partners commit resources to 
accomplish three things--restore basic services (especially power), 
build Iraqi security capacity, and improve our ability to communicate 
our plans and successes to the Iraqi people--we will accelerate 
progress in the next months.

                              AFGHANISTAN

    The next year in Afghanistan, with the constitutional Loya Jirga in 
December and elections scheduled for June 2004, will prove critical to 
achieving peace and stability there. We have achieved much in 
Afghanistan, but there is much work that we, the Coalition, and the 
Afghans have yet to accomplish. As in Iraq, there is no purely military 
solution to the problems we face there. We must simultaneously defeat 
our enemies, support the effort to establish representative government 
and set conditions for economic growth and long-term stability.
    The enemy adjusted after the devastating losses inflicted on them 
since the initiation of Operation Enduring Freedom (OEF). Al Qaeda, 
Gulbiddin Hekmatyar's Hizb-e-Islami (HIG) and Taliban forces are 
conducting low-level guerrilla and terrorist attacks. Their attacks aim 
to obstruct reconstruction efforts and incite chaos. Al Qaeda and HIG 
terrorist activity pose the greatest threat in the Northeast while 
Taliban remnants have shown signs of reorganization and continue anti-
Coalition/anti-Afghan operations in the Southeast.
    We continue to seek out and defeat Taliban and Al Qaeda forces. 
Cooperation with the Pakistanis will disrupt further the enemy's 
ability to reorganize and conduct operations. The formation of the 
Afghan National Army (ANA) continues to be a success story as units 
demonstrate their professionalism and gain operational experience. Our 
conventional force in Afghanistan is small in comparison to the force 
in Iraq, but it is very effective due to its ability to conduct joint 
and combined operations. During a recent mission, COMBINED JOINT TASK 
FORCE-180 successfully brought together U.S. conventional, Special 
Operations Forces, air, Afghan National Army and Afghan Militia Forces 
against a long-known Taliban operational base.
    Because political and economic initiatives will prove most 
important in maintaining stability in Afghanistan, we must ensure that 
our operations support those initiatives. The expansion of Provincial 
Reconstruction Teams from four to eight and the possibility that NATO 
might expand its security efforts beyond Kabul are particularly 
promising.
    The most important person in Central Command is the young soldier, 
Marine, sailor, or airman performing his or her mission on the 
frontline of freedom in the middle of the night. It goes without saying 
that our successes will continue to depend on the bright, talented, and 
courageous servicemen and women who are taking risks and making 
sacrifices to preserve liberty and protect our nation. Our missions in 
Afghanistan, Iraq, and in the Global War on Terror are bound to entail 
additional risks and sacrifices. However, our airmen, sailors, Marines, 
and soldiers understand, as we all do, that a lack of perseverance in 
any of our vital missions would lead to even greater risk and loss. 
When I talk with them they invariably express to me their belief that 
we ``will either have to fight terrorists over here or fight them at 
home.'' I want to thank this committee for your support to our men and 
women and for your oversight of the vital operations we are undertaking 
in Central Command.

    Chairman Stevens. Thank you very much, Mr. Secretary.
    This hearing is particularly related to the $66 billion 
that is requested for the defense activities. The full amount 
of the $87 billion, of course, is subject to questions from 
members of this committee. It would be my intention to yield 
time to every member of the committee at 8 minutes each in the 
first round, and then we'll see how many people are here for 
the second round and see how much time we have.
    On Monday, Mr. Secretary, Ambassador Bremer, as you 
indicated, testified before the committee on reconstruction 
efforts in Iraq. His perspectives, to me, were invaluable in 
helping the committee better understand the importance and the 
critical need for the supplemental funding as a whole. During 
his testimony, as a World War II veteran, I was struck by the 
strong parallel between what occurred at the end of the Second 
World War and what's going on in Iraq now.
    As we all know, the Marshall Plan, in 1948, was--that's 3 
years after the war was over--was created to address the dire 
economic circumstances in Europe following that war. The plan 
ran for a period of 4 years and cost approximately $88 billion, 
in 1997--he used current dollars, at $90 billion. Of that 
amount, West Germany was provided approximately $9.2 billion to 
assist in their recovery efforts. The population of West 
Germany at that time was between 15 and 18 million. Iraq's 
population today is estimated to be between 24 and 27 million.
    At the end of World War II, the United States was one of 
the major war powers to occupy Germany. By the end of 1945, 
after a massive demobilization, we still had over 402,000 
soldiers in Germany, alone. Over a 4-year period, the number of 
soldiers dropped from 162,000 to 82,000. And we currently, now, 
as I am informed, have about 128,000 soldiers in Iraq.
    The Army estimates that they spent about $10 to $40 billion 
in Germany, alone, for occupation costs, in 2002 dollars. And 
the 2004 supplemental request before the committee, for $66 
billion to support ongoing operation in Iraq and Afghanistan, 
and continue the war on terrorism, I think has to be taken in 
perspective.
    The key difference is that in 1945 we had a conscript army. 
For the most part, they were not married, nor did they have 
families. They were young men who were drafted, primarily. In 
contrast, today we have an all-volunteer force that costs a 
great deal more to recruit and train. Approximately 70 percent 
of the force is married and has a family.
    The scope of the occupation duties in Germany would be very 
similar to what's happening in Iraq; however, the degree of 
difficulty is very different. Our U.S. service personnel face 
difficult challenges in Iraq. The security situation is fluid, 
and their ability to protect both themselves and the Iraqi 
people while carrying out their missions is a daunting one, to 
me.
    After World War II, the United States showed we had learned 
that military victory must be followed by a program to secure 
peace. Democracy could not flourish unless Europe's devastated 
economies were rebuilt. The United States assisted our allies 
in their reconstruction efforts. The Iraqi people are our 
allies now. We need to offer them the same assistance we 
offered to the Europeans after World War II.
    Iraq offers us a unique challenge. Iraq is not a highly 
industrialized nation, nor does it have an underpinning of 
democracy in its history. And, more importantly, it has 
suffered for years under a brutal dictator, who conducted war 
against his neighbors and against his own people.
    We cannot afford to fail the people of Iraq. We must 
complete our mission, our twofold mission. To provide stability 
in Iraq to let democracy take hold, and to give this new 
democracy the economic assistance it needs to succeed, is an 
absolute requirement, in my judgment.
    I believe your supplemental will address the needs of our 
soldiers, sailors, airmen, marines to fulfill these critical 
tasks. In order for them to do the job, we need to do ours and 
approve this as soon as possible.
    I'll retain the balance of my time, but I yield to Senator 
Byrd.
    Senator Byrd. How much time do I have?
    Chairman Stevens. Eight minutes, sir.
    Senator Byrd. Eight minutes. How many rounds will we go?
    Chairman Stevens. As many as needed. I have no idea, 
Senator.
    Senator Byrd. We now have 18 members here----
    Chairman Stevens. We have 19 members here. At 8 minutes 
apiece, that's a long time just for one round. I don't know how 
long we'll go.
    Senator Byrd. Thank you for your illuminating answer. Are 
you going to have any outside witnesses? Why not have some 
outside witnesses?
    Chairman Stevens. I cannot remember an outside witness at 
an emergency supplemental hearing.
    Senator Byrd. Well, you can't remember an emergency 
supplemental like this one, either. And I urge you to make 
provision to call outside witnesses so that the committee will 
have more than just the administration line.
    Chairman Stevens. Senator, it would be my intention to call 
witnesses to justify the request of the President of the United 
States, and no one else.
    Senator Byrd. Which would not include outside witnesses?
    Chairman Stevens. That's correct, sir.
    Senator Byrd. Well, I hope you'll think that over, take it 
under consideration. Don't rule it out.
    Now, Mr. Chairman, thank you for calling this very 
important hearing on the President's $87 billion supplemental 
budget request for Iraq, Afghanistan, and the war on terrorism. 
The American people deserve to know more about what the 
administration has planned. But rather than explanations of the 
administration's long-term plan for Iraq, the American people 
only get comparisons to the Marshall Plan.
    I can understand the administration's desire to equate, in 
the minds of the American public, Saddam Hussein's Iraq to Nazi 
Germany or Imperial Japan. World War II evokes images of the 
``greatest generation,'' of which I am one, but not of the 
greatest generation. I am one of the so-called ``greatest 
generation,'' and it was a great one, as designated by Tom 
Brokaw, but there was a greater generation, that generation 
which founded this Republic and wrote the Constitution. That 
was the greatest generation. The entire country united to 
defeat the brutally aggressive Axis powers, and then, after 
victory, staying behind to rebuild the cities of their 
conquered foes.
    But with World War II, Japan had attacked us. The Axis 
powers had declared war on us. The U.S. occupation of Germany 
and Japan took place in the wake of a widely supported 
defensive war--and there is a difference--with a commitment to 
internationalism and multilateralism.
    We're seeing none of this in Iraq. The war in Iraq was not 
a defensive war. It was a preemptive attack. We have alienated 
most of the international community in fighting this preemptive 
war. The Germans and the Japanese did not resist the U.S. 
occupation after World War II. They did not commit sabotage, 
assassinations, and guerrilla warfare. The Marshall Plan was 
not presented to Congress for its rubberstamp approval.
    Now, if we want to talk a lot about the Marshall Plan and 
attempt to equate it with the same situation here, let's talk 
about these things. The Marshall Plan was not presented to 
Congress for its rubberstamp approval. It was a comprehensive 
bipartisan strategy developed after extensive cooperation with 
Congress to provide $13.3 billion to 16 countries over 4 years 
to aid in reconstruction. When the Congress considered the 
Marshall Plan to rebuild Europe, the Foreign Relations 
Committee held 5 weeks of hearings--5 weeks--with the chairman 
calling 90 witnesses to testify. Think about that.
    After the Foreign Relations Committee reported legislation, 
the Senate further debated it for an additional 2 weeks. We see 
nothing like that in this Senate. Senator Arthur Vandenberg, 
the Republican chairman of the Foreign Relations Committee, 
called the aid plan, quote, ``the final product of 8 months.'' 
Now, if you want to talk about World War II, if you want to 
equate it with this, let's bring in these matters, which I'm 
discussing. I quote Arthur Vandenberg, ``the final product of 8 
months of more intensive study by more devoted minds than I 
have ever known to concentrate upon any one objective in all my 
20 years in Congress.'' That was Arthur Vandenberg.
    If this administration today truly believed in the Marshall 
Plan and what it stood for, it would be more open to working 
with Congress before committing vast sums for foreign aid, as 
was done half a century ago.
    The reconstruction of Europe was undertaken in the context 
of the spirit of internationalism, multilateralism, and 
collective security that led to the formation of the United 
Nations, NATO, the World Bank, and the International Monetary 
Fund. The same can hardly be said today.
    Yet today, we're asked to appropriate $20.3 billion for the 
reconstruction of Iraq for the next year alone. The President's 
$87 billion request is larger than the economies of 166 
countries. These funds are not just for rebuilding bridges. 
It's an attempt to transform a political culture that is very 
different from our own into a democracy, a form of government 
never before seen in those ancient lands. It is the beginning 
of an enormous commitment to Iraq. Let me say that again. It is 
the beginning of an enormous commitment to Iraq. We have a duty 
to understand the enormity of the potential consequences and to 
insist on an explanation of those consequences for the American 
people before we act.
    Now, it would be a huge task to attempt to build a republic 
in Iraq. The American people, from whom the power of our 
government originates, have never been asked for their mandate 
for democratizing Iraq or for making an even greater 
generational commitment to democratizing the Middle East.
    Secretary Rumsfeld, where is the mandate from the American 
people to carry out the reconstruction of Iraq? Who has set the 
parameters for how extensive this nation-building effort should 
be? And when did the American people give their assent, Mr. 
Secretary?
    And thank you for coming before the committee again. Thank 
you.

                      MANDATE FROM AMERICAN PEOPLE

    Secretary Rumsfeld. Thank you, Senator.
    Senator Byrd. I always enjoy having you before the 
committee. I wish we could have you more.
    Secretary Rumsfeld. Thank you, Senator Byrd.
    The answer to your question is that in our constitutional 
process the President came to the Congress, as we all know, 
sought a resolution, received a resolution. He recognizes that 
under Article I of the Constitution, the Congress controls the 
purse strings, and, therefore, he has made this request to the 
Congress. And certainly the deliberations that we're currently 
engaged in and the seven or eight or nine hearings that'll take 
place, previously and in the coming days, on these subjects 
will reflect the role of the Congress. And certainly the 
Congress represents the American people.
    Senator Byrd. But, now, Mr. Secretary, if I may keep to the 
question, you mentioned the resolution that was passed by the 
Congress on October 14, I believe it was, of last year, but 
where is the mandate from the American people to carry out the 
reconstruction of Iraq and to democratize that government?
    Secretary Rumsfeld. It certainly is correct, as you say and 
suggest, that there is a need to transform a country that does 
not have experience with democracy, that is correct. The way I 
would respond to your question, Senator Byrd, is this. We have 
130,000 troops there. Our friends and allies have still 
additional troops. The Iraqis now are up to close to 70,000 
people providing security. The goal for the United States is 
not to stay there, or for the Coalition. It's to turn that 
country back over to the Iraqi people, which is, as Ambassador 
Bremer pointed out, a seven-point plan to do that through a 
constitution and elections and then passing of sovereignty at a 
pace as rapidly as is reasonable.
    Senator Byrd. But, Mr. Secretary--my time is very limited--
I'm trying to get at the bottom of the idea that the American 
people are supposed to carry out the reconstruction of Iraq and 
that we're to build a democracy there and to democratize the 
Middle East. Where is the mandate for that? The American people 
have never been told that.
    Secretary Rumsfeld. Well, the last thought I could suggest 
is this, that the task we're engaged in--the bulk of the funds 
here are for the purpose of providing security and to enable 
the political process to move forward so that sovereignty can 
be transferred to the Iraqi people. The way that we can leave 
that country better than we found it, a lot better--no more 
mass graves, no more prisons filled with people--we could----
    Senator Byrd. We know all about that.
    Secretary Rumsfeld [continuing]. We could leave it by 
investing in the kinds of security that we're talking about 
here. And that is what this request is overwhelmingly about. 
Admittedly, there has to be some funds for the political side 
and some for the economic side, as well as the security side, 
because all three of those things have to go forward together.
    Senator Byrd. But still, I haven't had an answer to my 
question as to where the mandate comes from the American 
people. The American people have never been told that we're 
going into that country to build a new nation, to build a new 
government, to democratize the country, and to democratize the 
Middle East.
    Secretary Rumsfeld. Well, Senator----
    Senator Byrd. The people haven't been told that. They were 
told that we were going in there because of weapons of mass 
destruction.
    Secretary Rumsfeld. The American people were told by the 
President of the United States, at the United Nations and here 
in the United States, the reasons for going in. Once having 
gone in, the last thing we need to do is to turn that country 
over to another dictator like Saddam Hussein.
    Senator Byrd. Nobody's suggesting that.

                   OVERSIGHT OF POLITICAL INITIATIVES

    Secretary Rumsfeld. Well, the least we can do is to attempt 
to put in place a process, a political process, where they can 
migrate towards something that will not be a threat to their 
neighbors, that will not repress their people. It will be 
representative and reflective of the people in that country.
    Senator Byrd. If I may just pursue this for a brief moment. 
If I could follow this question. What will the United States do 
if the so-called democracy that we're building in Iraq takes a 
wrong turn? Will the United States override an Iraqi 
constitution if we don't think it is a good basis for a 
republic?
    Secretary Rumsfeld. I think that the answer to that 
question is very clear, the President's made it very clear, 
that there are certain redlines, in answer to your question, 
and the redlines are that the country be a country that does 
not have weapons of mass destruction, a country that is at 
peace with its neighbors, and a country that is not repressing 
its people and is reasonably represented and respectful of the 
various diverse ethnic and religious elements in the country. 
Beyond that, the Iraqi people are going to have to fashion that 
constitution, and they're going to have to rebuild their own 
country.
    Chairman Stevens. Senator, we must move on. I'm using some 
of my own time again, I would respectfully point out to you 
that the last ``whereas'' clause of the resolution that was 
adopted by the Senate, 77 to 23, reads as follows: ``Whereas it 
is in the national security interest of the United States to 
restore international peace and security to the Persian Gulf 
region.'' That was what we stated as the ultimate goal of the 
activities that we authorized the President to undertake.
    Senator Cochran, you're----
    Senator Byrd. Mr. Chairman?
    Chairman Stevens. Senator Cochran is recognized for 8 
minutes, Senator.
    Senator Byrd. Might I respond to that?
    Chairman Stevens. Senator, I was talking on my own time. 
You'll have time later.
    Senator Cochran?
    Senator Byrd. All right, thank you. Thank you for your 
courtesy.
    Senator Cochran. Mr. Chairman----
    Chairman Stevens. Senator, I was courteous to you, you went 
7 minutes over your time.
    Senator Byrd. Seven minutes. Think of that. On an $87 
billion request. $87 billion. Here I am the ranking member of 
the committee. I have seniority over all Democrats over here. 
As a matter of fact, I have seniority over all Republicans, 
really. I've been around here a long time. And I have 7 
minutes.
    Go ahead, Mr. Chairman. You're in charge.
    Chairman Stevens. Is the Senator finished?
    Senator Byrd. Go ahead, Mr. Chairman. You're in charge.
    Chairman Stevens. Thank you very much.
    Mr. Cochran?
    Senator Cochran. Mr. Chairman.
    Mr. Secretary, thank you very much for the outstanding 
leadership you're providing to the Department of Defense in our 
efforts in Iraq and Afghanistan and around the world to protect 
our security interests and the freedom of the American people.
    Secretary Rumsfeld. Thank you.

                    STATUS OF INTERNATIONAL SUPPORT

    Senator Cochran. I think the address to the United Nations 
by President Bush yesterday set the right tone for the world 
community, in terms of the fact that this is a challenge in 
Iraq, this is a challenge to the will of mankind, and the 
United Nations in particular.
    Do you have any early reaction from your friends or 
contacts in the United Nations about the willingness of the 
United Nations to act in a favorable way to the call that 
President Bush made yesterday for more involvement, more 
support, by countries from around the world, and in the United 
Nations, in particular, to help us in our goal in Iraq?
    Secretary Rumsfeld. Senator, I don't. Unfortunately, I have 
not had a chance to talk to either the President or Secretary 
Powell since their time in New York, where each of them have 
been engaged in a series of bilateral discussions, as well as 
the more public activities that they've been engaged in. I'm 
sure we'll know more in the next day or two.

                    OTHER COMPONENTS OF THE REQUEST

    Senator Cochran. Are there funds in this supplemental 
request that will help us defray some of the expenses of 
countries that might be willing to participate but don't have 
the financial resources to commit troops or to pay for training 
and equipping them?
    Secretary Rumsfeld. I'll come right back to that, if I may, 
I do want to finish answering the other question that--I 
neglected to say that any thought that we have a modest 
Coalition already--there may very well be additional countries 
from the United Nations as a result of events in recent days, 
but the United States already has a coalition of 32 nations in 
the country, and 90 nations in the global war on terror.
    With respect to your question, the answer is yes, there are 
some funds. My recollection is, it's about $1.4 billion, and 
there are some countries that stepped forward, offered troops 
and assistance, but did not have sufficient funds to pay for 
some aspects of their transportation or equipment or 
intelligence and that type of thing. So there are instances 
where the United States is assisting them, just as we're 
assisting in developing the Afghan National Army and the Iraqi 
National Army and the Iraqi police forces. Because the more we 
can get other countries providing that kind of security--in the 
case of Iraq, particularly Iraqis--that means there's less of a 
burden on General Abizaid and his troops.
    Senator Cochran. I noticed that part of this request is for 
funding that would actually go to the Department of Homeland 
Security, $2.2 billion for homeland security activities. Is 
that going to the Department, or is that for the Department of 
Defense to use to assist in homeland security?
    Secretary Rumsfeld. The latter. I think it involves Noble 
Eagle and the air caps and a variety of other things that the 
Department of Defense (DOD) does to support homeland--the 
security of the United States.

                          COAST GUARD FUNDING

    Senator Cochran. One item, as I understand it, is a 
reimbursement to the Coast Guard for activities that they have 
engaged in in support of the Iraqi war. It's $80 million, I 
think. And there's a question that has come to my attention 
about the sufficiency of that and whether or not the Coast 
Guard would actually have to use fiscal year 2004 funds that we 
have just appropriated in a bill passed by the House and Senate 
and is now in a conference report. It probably will be before 
the Senate this week. I would hate to see the Coast Guard have 
to use fiscal year 2004 monies if we can provide those funds 
that are allocatable to the Iraqi operation.
    Secretary Rumsfeld. I don't know the answer. We'd have to 
supply an answer for the record.
    [The information follows:]

    The Coast Guard is providing in theater operational support 
consisting of four 110 foot Patrol Boats and the crews, two 
full-time deployed Port Security Units within the U.S. Central 
Command area of operation, one Port Security Unit detachment 
deployed to Guantanamo Bay, Cuba for terrorism security, and 
Coast Guard Reserve support for strategic ports of embarkation 
and strategic ports of debarkation.
    No other funds were requested by the Department of Defense 
in the fiscal year 2004 President's budget for these 
activities. The fiscal year 2004 Supplemental request for $80.0 
million to be appropriated through the Navy's Operation and 
Maintenance appropriation finances the incremental cost of the 
increased Coast Guard operations as a result of the global war 
on terrorism and Operation Iraqi Freedom.

    Secretary Rumsfeld. There are some instances where the 
Coast Guard provides some critical assistance to the Department 
of Defense. And, in this case, I know for a fact they did, with 
respect to Iraq. And I'm told that the money for the Coast 
Guard is in the CENTCOM piece of the budget, so that shouldn't 
be a problem.
    Senator Cochran. Okay. Well, we'd appreciate your reviewing 
that and giving us some assurance that it is sufficient to meet 
the needs of the Coast Guard.
    Secretary Rumsfeld. We'll do that.
    Senator Cochran. Thank you.

                  PARTICIPATION OF RESERVE COMPONENTS

    General Myers, I have a question about the National Guard 
and Reserve forces. I wonder if there are sufficient funds in 
this supplemental request that will help ensure that those 
forces have the training and the equipment they need to protect 
themselves, as well as to carry out their missions in Iraq.

            NATIONAL GUARD/RESERVE TROOPS SUPPLEMENTAL FUNDS

    General Myers. Sir, that's accounted for in this 
supplemental. Your supposition there is exactly right.
    Senator Cochran. Well, how many National Guard and Reserve 
troops do we have in the theater at this time? Do you have that 
figure----
    General Myers. Yes, sir----
    Senator Cochran [continuing]. For us?
    General Myers [continuing]. I do. Currently, we have 
approximately 170,000 reservists called up--and I'd say 
``reserve component,'' both National Guard and Reserves--in all 
the services. That's down from a high of 223,000 during major 
combat operations in Iraq. Before major combat operations 
started in Iraq, our baseline after the attacks of September 
11, 2001, was about 50,000. That was what we had protecting the 
skies over the United States and helping with events in 
Afghanistan and other places in the world. So, steady-state, 
war on terrorism would be somewhere between 45,000 and 50,000. 
So the difference between that and the 170,000 that we have 
today is focused pretty much for the contingency in Iraq. And I 
think, you know, as you look forward, you could probably expect 
that number to come down a little bit. But those are the 
numbers.

                ASSESSMENTS OF GUARD/RESERVE/IRAQ FORCES

    Senator Cochran. Will the involvement of additional 
countries with more troops and more support help us to reduce 
the need for National Guard and Reserve forces?
    General Myers. It certainly could. If we got a third 
multinational division, which, as you know, we're working very 
hard, and it's being worked at the United Nations, as well, as 
you mentioned--if we got a third multinational division, that 
might reduce the active or Reserve component call-up that we'd 
have to have to fill that need.
    Senator Cochran. Let me ask General Abizaid, what is your 
assessment of the effectiveness of our National Guard and 
Reserve forces in the theater?
    General Abizaid. Well, sir, there is no doubt that the 
National Guard and the Reserve component forces have been doing 
an outstanding job. They have been absolutely essential. We 
couldn't get the job done without them. It isn't a matter of 
``nice to have,'' it's a matter of ``must have.'' They've been 
doing great work, all the way from combat operations to support 
operations. They're all over the theater. I saw some National 
Guardsmen in places as far away as Yemen, and I've seen them in 
faraway places like Afghanistan, and they're certainly in Iraq 
in very large numbers. They're doing great work.

                       FORTITUDE OF IRAQI PEOPLE

    Senator Cochran. Let me ask you a question, too, about the 
Iraqi forces you're trying to recruit and train and get 
involved in the protection of their own homeland. Do you think 
the Iraqi people have the courage and fortitude to see this 
mission through to its successful conclusion?
    General Abizaid. Sir, the Iraqi people have the courage to 
see this through. It's very, very clear to me that as you look 
at the country, as you look at the enthusiasm of people trying 
to build a new future, that they are both courageous and 
optimistic in most of the country. They have the courage, they 
have the tenacity, they have the education, they have what it 
takes to get the job done, but they can't do it without our 
help. Every day they get stronger, every day they get better. 
There's no doubt that they're prepared to risk their lives 
against those people that are trying to cause the mission to 
fail. And I have great, great faith in the Iraqi people, along 
with us, to make this mission successful, as do, by the way, 
Senator, our soldiers.
    Senator Cochran. Thank you.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you.
    Senator Inouye? Senator Inouye is recognized for 8 minutes.
    Senator Inouye. Thank you very much, Mr. Chairman.

                     FUNDING FOR FOREIGN DIVISIONS

    Mr. Secretary, before proceeding with my question, I would 
like to agree with you that every life is precious, every life 
is sacred, and whatever contributions are made, whether it's a 
division or a squad, it's very important.
    But having said that--I'm looking over the supplemental 
request now--there's an item of $390 million to pay the costs 
of supporting the Polish division, and another $390 million to 
support a potential second multinational division. What would 
be the impact if we did not appropriate this money?
    Secretary Rumsfeld. The impact would be that the support 
that we were getting, have been getting, from the forces of 
other countries would be, in some measure, denied us.
    Senator Inouye. They would leave the theater?
    Secretary Rumsfeld. Senator, I can't answer that. I don't 
know what they would do. The one division is, of course, 
already been paid for, the Polish division and the various 
countries that are participating in that. I don't--I think it's 
11 or 16 countries are involved in that particular one. The 
funds would, for the most part, relate to the second division, 
and it would clearly make it more difficult to encourage 
countries to participate in that second division.

                           COALITION SUPPORT

    Senator Inouye. Mr. Secretary, there is another item, $1.4 
billion, to support our Coalition forces. What is that for?
    Secretary Rumsfeld. Dr. Zakheim, why don't you respond to 
that? It involves a whole slew of things. Among other things, 
for example, the assistance that is being provided us by 
Pakistan in connection with the Afghanistan operation. And we 
use their bases, we use their fuel, we use various types of 
services from them, and we have an arrangement whereby we can 
reimburse them for those types of things, as, of course, this 
committee knows.
    Dov, do you want to elaborate?
    Dr. Zakheim. Yes, sir.
    Senator, these arrangements began almost--shortly after the 
war in Afghanistan. The Pakistanis have been dispatching forces 
in what are called the ``tribal areas'' in the Northwest, which 
border Afghanistan. They, in the past, have not even sent their 
forces in. And the alternative, quite frankly, would have been 
our having to go in there. We didn't know if we'd get the 
permission. We certainly would not know the territory anything 
like the Pakistanis do.
    When they come in--and not just Pakistan; Jordan and other 
countries--when they come in with requests for reimbursement 
for operations they would not otherwise have undertaken if we 
had not requested them to, we do not automatically reimburse 
them. We have a very, very rigorous system of reviewing those 
requests for reimbursement, and in some cases we've denied 
them. It has to be a direct support for the United States' 
efforts in support of our efforts in the global war on 
terrorism for activities that these countries would not have 
undertaken had we not asked them to.

                              FORCE LEVELS

    Senator Inouye. Mr. Secretary, I get the understanding, in 
reading the supplemental request, that there will be a decrease 
in U.S. troop level if we increase foreign involvement from 
three to four divisions. Is that correct?
    Secretary Rumsfeld. I think that the way I would respond--
and then I'd like General Abizaid, who is the Commander for the 
Central Command, to elaborate--I look at it not in two pieces, 
Senator, but in three pieces. There is the U.S. forces, there 
are international forces, and there are Iraqi security forces 
that are made up of an Iraqi army, police, border guards, site-
protection people. Then there are the facts on the ground. And 
what will determine the total number of forces and capabilities 
will be the facts on the ground. Either it will require more or 
less. Then the balance among those three elements will 
determine which forces are there to deal with those facts on 
the ground.

                          INTERNATIONAL FORCES

    Our goal, our purpose, is not to assume a permanent 
responsibility for the security of Iraq. It's certainly not to 
create a dependency on the part of Iraq that they must have our 
assistance or international assistance. It is to invest enough 
in the Iraqi security forces so that they are the ones that 
take over the responsibility for both the United States and for 
the Coalition forces.
    John Abizaid, do you want to comment?
    General Abizaid. Yes, Senator. We have, for a long while, 
looked forward to the opportunity to bring in a Coalition 
division primarily in the North. One reason is that the North 
is relatively calm. Another reason is that we thought we could 
attract some Muslim forces. We want to internationalize the 
force. As you know, the high percentage of Americans to 
Coalition forces leads to this notion that this is an American 
occupation, at least in the eyes of people in the Arab world 
and within Iraq. But, more importantly, we knew that if we 
could get some capability up there, that would then allow us to 
concentrate American forces where we would need them in other 
areas.
    Under the current circumstances, it is possible--and, of 
course, it's always difficult to predict the security 
situation--but it is possible to contemplate that additional 
Coalition forces would lead to a withdrawal of American forces 
over time.
    Senator Inouye. Further reading the request, I get the 
impression that if we're not successful in encouraging three 
multinational divisions to join us, we would replace that group 
with four Reserve enhanced brigades. Is that correct?
    Secretary Rumsfeld. Do you want to----
    Senator Inouye. American brigades?
    General Myers. Senator Inouye, just to--to answer that 
question, I'll just piggyback on what John said. What John 
tries to figure out, with his commanders and his folks, every 
day, are the needs for the future. And you can only look out so 
far in this business, as you're well aware. So that's one of 
the options.
    If we don't get a third multinational division, there are 
several options for filling that need. One is, the security 
situation could improve to the point where you don't need it. 
Another is, as the Secretary said, you could have enough Iraqis 
onboard by that time that you don't need it. There are 
certainly active-duty options that we're looking at, and there 
are also, in the supplemental, the options to bring on Reserve 
component forces to fill that need, given that it materializes. 
So----
    Senator Inouye. Well, what are the odds? Are we going to 
reduce our forces?
    General Myers. I'll let General Abizaid talk about that.
    General Abizaid. Sir, I think there's four things at play 
here. One of them is the current security situation. The other 
thing has to do with the number of international forces. But by 
far the most important element is the ability of Iraqis to take 
care of the security situation. And that's really split in two. 
It has to do with paramilitary forces and military forces on 
the Iraqi side, and police forces on the Iraqi side.
    If we can bring the Iraqi paramilitary and police forces up 
to both a strength and a capability that would allow them to 
take over certain urban areas, then I think we could 
contemplate bringing American force levels down, over time. And 
I think it's not impossible to believe that that could happen 
next year, provided that there is not a spike in violence that 
is unanticipated.

                OBLIGATION OF COALITION SUPPORT FUNDING

    Senator Inouye. Mr. Secretary, if I may just follow up my 
prior question. This request includes $1.4 billion for the 
support of Coalition forces, but I gather that the $1.4 billion 
we appropriated for 2003 has not been spent. Is that correct? 
Has only half been obligated?
    Secretary Rumsfeld. I think it's been spent.
    Do you want to comment?
    Dr. Zakheim. Yes. About half has been obligated so far. We 
anticipate that over the next few months we will be continuing 
to reimburse the Pakistanis roughly at the rate of about $70 
million a month. That is basically what we have verified in 
terms of their costs that----
    Senator Inouye. So the amount we appropriated will be 
spent?
    Dr. Zakheim. It will be fully spent, sir, yes.
    Senator Inouye. Do I have time?
    General Abizaid. Senator, if I may just add to the answer, 
I would like to point out that it's not just a matter of 
military forces. It's clearly a matter of also bringing 
economic and political activity forward in such a manner that 
it sets the conditions that allow us to be able to be 
successful. So it's very difficult to say that there's a 
strictly military solution to the force levels. It depends upon 
all the aspects of national power.
    Chairman Stevens. Thank you, Senator.
    Senator Specter is recognized for 8 minutes.
    Senator Specter. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service. And we thank the 
men and women of the Armed Forces for the outstanding job which 
they have done.

                        LOANS AS AN ALTERNATIVE

    Mr. Secretary, there has been a great deal of discussion 
among Senators about the possibility of advancing these funds 
with loans or perhaps involving the International Monetary Fund 
(IMF) or the World Bank. As I travel through my State and 
elsewhere, there is obvious concern about an $87 billion 
request. I believe the Congress will support the President and 
support the administration and support the Armed Forces, but we 
are looking for ways to lighten the burden if we can 
reasonably.
    Inevitably as we move through the appropriations process--
and we just finished the subcommittee, which I chair, which had 
appropriations for health, and education and worker safety. And 
as you might expect, there were many arguments raised on the 
Senate floor about why not more money for a given item when we 
are being asked to spend $87 billion on a supplemental. Where 
you deal with infrastructure--water, sewer, electricity--
customarily it is a capital investment, and funding is looked 
for--perhaps to the IMF or the World Bank.
    Is it realistic, Mr. Secretary, to try to structure some of 
this with loans from others, or looking to the Iraqi oil, where 
I think it is fair to use Iraqi resources to pay for the 
rebuilding of Iraq? We don't want that oil. Is there some way 
we can offset this request in loans or IMF or World Bank?
    Secretary Rumsfeld. Senator, I know that this is a subject 
that's been looked at very hard by the administration and by 
the Office of Management and Budget, the Department of the 
Treasury. The concern is that the Iraqis currently have 
something in the neighborhood of $200 billion of various types 
of obligations, whether reparations or debt. They have a 
relatively modest amount of oil revenues this year. They go up 
substantially next year, and they're estimated to be up, I 
think, around $15 to $20 billion within a matter of 2, 2\1/2\, 
or 3 years. They have immediate needs, and we are having a 
donors conference to get other countries to participate, in, I 
believe, Madrid, next month.
    You're quite right about the international lending 
organizations. The goal is to get them to participate, as well. 
The goal also is to get private-sector investments in that 
country as the security situation improves. It's going to take 
all of that. And the idea of adding an additional burden to the 
debts they already have, it was concluded to be the kind of 
thing that didn't work very well after World War I. And after 
World War II, the effort was to help them get started, kick-
start them and let them go, and it worked. It worked a lot 
better than it did after World War I, and so the conclusion on 
the part of the administration is that they believe that this 
portion should definitely be grants.
    Senator Specter. Let me move to another question and just 
an observation. The $200 billion in debt expended by a tyrant, 
they're really bankrupt. I don't think we have to look toward 
repayment of that. We're starting anew, and it seems to me that 
we can appropriately, by analogy to commercial transactions, 
look to their assets into the future.

                            U.N. INVOLVEMENT

    But let me move to another question, Mr. Secretary. This 
issue of unilateralism and multilateralism is a big, big point. 
I know that the ``coalition of the willing'' was a multilateral 
approach, did not get the United Nations support. When we were 
considering the resolution for the use of force, there were 
many of us--and I expressed this on the Senate floor--of 
concern to involve the United Nations as much as that could be 
done. And Senator Lugar had an amendment, which I had 
cosponsored, along with others, which would have conditioned 
the use of force on greater involvement of the United Nations. 
And that amendment ultimately was not offered, in a very 
complex procedural setting.
    And as the President is moving--and I compliment him for 
his efforts to bring in the United Nations--we have the 
continuing feeling that, in many quarters--and with the French, 
I think totally unjustifiable; they still haven't forgiven us 
for saving them in two world wars--but that sense is there as 
we're trying to get cooperation.
    And I'm just wondering, as we look at the historical impact 
of what has been done here and concern that the United Nations 
was weakened because the United States moved without the 
approval of the Security Council, I don't believe that the 
United States has anything to apologize for, but I wonder if, 
in hindsight--and I don't think this is Monday morning 
quarterbacking--because what we're looking at--at two points. 
One is the precedent as to what we have done here. And looking 
at the Secretary General's concern that other nations may want 
to act unilaterally--not unilaterally as we did, but without 
the consent of the Security Council--and also in an effort to 
try to get more support from the international community, if it 
might not be advisable to take a look at it and comment on 
whether, in retrospect, we might have done it a little 
differently. Not to apologize, not to mea culpa or to say we 
made a mistake, necessarily, but if you had it all to do over 
again, Mr. Secretary, would you have approached it with a 
little more effort to get more involved, including the Security 
Council?
    Secretary Rumsfeld. Senator, the amount of effort that was 
made by the Department of Defense, the Department of State, the 
President, personally, to get other countries involved was 
enormous. It began from the very beginning. U.S. Central 
Command (CENTCOM) was engaged in relationships to include other 
countries. We ended up with 32 other countries involved in that 
activity with troops on the ground. Now, that's not a small 
number of U.N. members. It's quite a few.
    You're quite right, the President, initially and yesterday, 
has indicated his conviction that it would be helpful to have a 
role played by the United Nations greater than is currently the 
case. And that's why he spoke there. That's why he and 
Secretary Powell were up there engaging in all those 
bilaterals.
    To say that the United Nations was weakened by the U.N. 
action, I think that has to consider how the United Nations 
would have been weakened if Saddam Hussein had been able to 
ignore 18 straight resolutions of the United Nations Security 
Council. It would have to make one wonder what is the value of 
a U.N. Security Council resolution if a dictator could, with 
impunity, ignore 17 or 18 such resolutions. I think that one 
could argue that that would have weakened the United Nations 
more.
    The President has demonstrated unambiguously that he wants 
to work with the United Nations and is attempting to do so.
    Senator Specter. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Stevens. Thank you very much.
    Senator Hollings, you're recognized for 8 minutes.
    Senator Hollings. Well, let me try to be helpful in my 8 
minutes, because this is a complicated situation, Mr. 
Secretary.
    Iraq was a tremendous military victory, and you folks at 
the table ought to be congratulated. Thus far, it's a political 
failure. I'm hearing all kind of nonsense here about 
complimenting the President on trying to bring in the United 
Nations. I know the Senator from Pennsylvania, and I know how 
to politic. I wouldn't say it's a really important thing for 
you to try to help me. I'd go out and ask for your help.
    And yesterday, you can see that the United Nations feels 
that it was an assault on their principles, as well as an 
assault on Iraq. And we were chastised there. And instead of 
sitting and listening--it's just like if you got up and left 
the room right now--the President got up and left the room with 
the Secretary of State and everything else. So I don't 
compliment the President a durn bit. He has not been helpful to 
the military.
    Starting at that thing, let's get away from trying to 
connect with this long litany of bankruptcy of two airlines, 
insurance industry 7 billion lost income, and all, trying to 
connect al-Qaeda with Iraq, or 9/11 with Iraq. Because even 
President Bush says there's no connection. That's number one.
    Number two, let's get away from the so-called Coalition--
Macedonia, Moldova, Mongolia. Come on. President Bush, the 
father Bush that you served with as Secretary of Defense and so 
forth, he got 144 nations. This 32 is not a corporal's guard. 
We are in trouble. That's your trouble. I'm getting right to my 
point. It's not money. I said months ago that it's not a money 
supplemental, it's a manpower supplemental.
    And you've got a heck of a job over there, that if they had 
a constitution this afternoon and an assembly and everything 
else, they'd still--those borders are porous. We've got a 
Lebanon on our hands. They're going to be blowing up each other 
out there for years on end.
    And how can we be helpful? Well, number one, I think when 
you talk about getting these two brigades in there, 
multinational brigades, it's going to be tough. Turkey, at the 
best, will have 10,000. That's not quite a brig. And then 
you'll bring in a little bit of Bangladesh and maybe a couple 
of hundred from India or something else like that. And I'm 
looking to this time, September, of next year, and it's not 
going to fly having the majority of the Reserves and the Guard 
on duty in Iraq and the United States defense establishment 
back home or elsewhere. And I don't know how you can do it. 
I've got the budget for 11 peacekeeper operations, plus, you 
know, now with Kuwait, Afghanistan, and Iraq. I still think 
you're going to need that kind of supplemental, of a manpower.
    Now, the news is good. The headlines, what the economy is, 
you've got a full complement in a volunteer army. Let's do more 
volunteer. I'd rather be paying them than running around paying 
Poles to get there or whatever else we're trying to do. But 
let's look at that. I think we can pass that and get a manpower 
supplemental and really get on top of it, because we're 
destroying our National Guard and Reserves, I can tell you. 
They're exhausted. They were called up right after 9/11. I've 
got them. They're doing an outstanding job and everything else 
like that. But there's so much that we can get done.
    And you folks in the military have been taking on our 
political mistakes. There were two ``resolved'' clauses. Don't 
get away from that two pages of ``whereas's.'' The one 
``resolved'' clause was to enforce the U.N. resolutions. And we 
overrode that. The United Nations was trying to do it. Hans 
Blix was there. We said, ``You're irrelevant. You're a debating 
society. Get out of the way. We're coming in.'' And, of course, 
so far they've been proved right, we haven't found any weapons 
of mass destruction. So you can't blame Hans Blix for not 
finding them. We've had 5 months to find them--and paying off 
people and giving them rewards and everything else. We haven't 
gotten rid of Saddam. He's killing us every day out there. I 
don't know where the heck he is, but we're getting killed.
    So let's don't run around, ``We've gotten rid of Saddam, 
we've gotten rid of the tyrant.'' This has been a political 
flop, and it's our task to make it a political success. And 
let's understand that in the initial instance.
    And one way to try to do it is start to build up the 
military and then, incidently, get the military the dickens out 
of there, turn it over to the State Department and Agency for 
International Development (AID). Then we'll have our military 
properly supported.
    But we don't have a money problem. We've got a political 
problem. You folks did your job and did it in an outstanding--
and you're trying to do it the best you can. But when the 
President makes his speech and then walks out and doesn't even 
listen to the people who are talking, and you're asking to get 
their help, that isn't any politics. I can tell you that right 
now. That's how to make enemies out of people.

                       POLITICAL FAILURE IN IRAQ?

    Secretary Rumsfeld. Senator, I certainly agree with you 
that the men and women in uniform achieved an impressive 
military victory.
    Senator Hollings. Yes, sir.
    Secretary Rumsfeld. I cannot agree that it's a political 
failure after 4\1/2\ months. It seems to me that that would be 
premature.
    I do agree with you that it is a manpower supplemental. And 
I'd like General Abizaid to elaborate, because he's there 
dealing with this every day.
    But the reality is that we have a choice. We could go out--
and I agree with you, further, that we're not going to get a 
lot of international troops, with or without a U.N. resolution. 
I think somewhere between zero and 10,000 or 15,000 is probably 
the ballpark. It's not going to change the drill dramatically.
    Senator Hollings. But then we'll have the majority of the 
Guard and Reserve on duty there this time next year.
    Secretary Rumsfeld. Well, that's my point, though. When I 
agreed that it's a manpower, I don't think it's a U.S. manpower 
supplemental as much as it is an Iraqi manpower supplemental.
    I think that there is no--the United States has no desire 
whatsoever to become the assurer of security for that country. 
We do have an obligation to try to help the Iraqis become 
capable of handling their own security. And we've found that as 
we've gone from zero to 56,000 Iraqis providing for their own 
security in 4\1/2\ months, that's impressive. That's an 
accomplishment. That's not a political failure. And the goal is 
to keep investing in them so that they will be able to assume 
that responsibility, and we'll not only not have to put more 
Americans in there, or more Coalition troops, but we'll be able 
to pull Americans and Coalitions down as the Iraqis assume 
responsibility for their own security.
    John Abizaid, would you----

                    STAY THE COURSE AND WIN THE WAR

    Senator Hollings. Well, let me--I agree with you, it's sort 
of premature. I'm trying to make it a political success. We 
don't have the final word on it. But we were running around--I 
was misled. I voted for that thing. But how was I misled? 
Number one, you had aluminum tubes, you had mushroom clouds, 
you had yellow cake, you had the Vice President saying they 
reconstituted nuclear.
    And I really thought we were doing it for Israel. If there 
were any real security threat by Saddam Hussein, Israel would 
knock it out in the next 2 hours, like they did at Baghdad. 
That's a little country, they are surrounded, and they've got 
no time for debate in the United Nations and everything else 
like that, and I'm with them. But I thought that's the kind 
of--we didn't have any security threat. Al Qaeda was not 
connected to 9/11.
    Excuse me, General, go right ahead.
    Secretary Rumsfeld. John, do you want to----
    General Abizaid. Sir, it's not my place to comment on the 
political success or failure of anything, but it is my place to 
comment on the success of the mission.
    We can be successful in Iraq. And while people with 
different opinions might be able to argue about what happened 
before in Iraq, before the war, there is no doubt now that Iraq 
is at the center of the global war on terrorism in a way that 
we can't deny. And so political success and military success, 
in my mind, have to be achieved if we're going to win the 
global war on terrorism.
    I believe that there is no doubt that our military forces 
are up to the task. There is no doubt that we must achieve 
success politically with Iraqis. But we also must show 
political will to stay the course, in my mind, in order to 
achieve success there, and I think it's possible that we can.
    Senator Hollings. But, General, get my point. Deputy 
Secretary Hamry--and we all have high respect, and I think 
you've got high respect, for him--he just, in the morning 
paper, is saying it's not you, it's the political entity--
namely, us--the Congress, the State Department, AID, and 
everything else, ought to be doing what you're doing. That's my 
point. That's what I'm talking about politically.
    I don't see how in the world you're going to ever get 
really good security, because two republican guard units folded 
back into the city of 5 million. You can't find them. You can't 
go door to door and de-weaponize them and everything else of 
that kind. So we've got a problem, a real problem on there, and 
the quicker we can get it over, as the Secretary says, to the 
Iraqis, I agree with you on that.
    Thank you, Mr. Chairman.
    Chairman Stevens. Senator Specter is recognized for 8 
minutes. Senator Domenici. Pardon me.
    Senator Domenici.
    Senator Domenici. Thank you very much.
    Push my button. I'll tell you, my button has been pushed 
already today. The problem is, I am not going to let it push 
me. I'm going to just forget about a few things I've heard 
today that would cause me to get off the path of what I came 
here today to do.
    First, I would tell you and tell Senator Byrd, I am not a 
member of the ``greatest generation.'' I'd like you to know I 
am a member of a much lesser generation than you, for I am too 
young to be a member of the ``great generation.''
    But I have been here 33 years, and I believe--I believe I'm 
entitled to my time just as you're entitled to yours. No more, 
and no less, for both of us.
    Now, let me say to you, we voted here, October 12--11 or 
12, late at night. We gave the President the authority to go to 
war, if war we had to have with Iraq. When did we invade? When 
did the bombardments start? Anybody remember?

                          IMPROVEMENTS IN IRAQ

    General Myers. March 19.
    Senator Domenici. March 19. Both events, the voting by 77 
Senators and the invasion of the country, are less than 1 year 
old, and we already have people here and across this land, and 
media people, who see no success other than they don't want to 
say to the military, ``You did a bad job,'' because they 
wouldn't dare do that, because they did a tremendous job. But 
other than that, all of a sudden, from October 11 and March, to 
this day, to a few months later, everything is gone wrong. We 
are doing everything wrong.
    Well, to all four of you and to anyone that's listening, I 
think those who say that are wrong. I believe we're doing a 
tremendous job. We have an option. We can pull out. And I would 
say, for anybody who wants to make that recommendation, make 
it. Take it to the floor of the Senate and say, ``We ought to 
pull out, because we have so many things going wrong, we just 
ought to quit.'' I don't think they'd get 10 votes.
    Now, since that's the case, we have to take a look at 
what's going on. And I want to tell you that in the New York 
Times today, there's some very good news. I know that sounds 
strange to all of you. New York Times? Good news about this 
war? Maybe their presses went awry. But they printed a poll. 
That's why it was good news. And the poll said that something's 
happening for the better in Iraq. The poll said two-thirds of 
the Iraqi people expect their lives to be better as a result of 
removing Saddam Hussein. Two-thirds. And they went on to say, 
Mr. Secretary and Generals, ``The Iraqi view of the job being 
done by Ambassador Bremer,'' and then these two words, quote, 
``are remarkably positive,'' close quote. With 47 percent of 
the respondents lauding him for the recovery process in place.
    Now, you wouldn't guess, from what we're hearing, both from 
the media and some Senators, you wouldn't guess that anything 
like that is going on in this country.

                     DIFFICULTY OF THE TASK IN IRAQ

    Now, Mr. Secretary, when you undertook this job, did you 
think it was going to be easy?
    Secretary Rumsfeld. No, sir.
    Senator Domenici. Did you think that----
    Secretary Rumsfeld. I was right.
    Senator Domenici. Did you think that it was going to be 
easy to change their government, Mr. Secretary?
    Secretary Rumsfeld. No, indeed. They have no real 
experience with democracy. It's a hard thing to do, to change a 
culture.
    Senator Domenici. Now, Mr. Secretary, do you--because it's 
hard and because it's never been done, did you choose to say, 
with our President, ``Let's try''?
    Secretary Rumsfeld. Absolutely.
    Senator Domenici. Why?
    Secretary Rumsfeld. For several reasons. I think a 
peaceful, responsible Iraq could have an enormous effect in 
that part of the world. And it's an important country, it's a 
large country, it's a country that has resources, and it--a 
country there that has that position and is not threatening to 
its neighbors, not invading Kuwait, not giving $25,000 to every 
family that does suicide bombing and killing innocent men, 
women, and children, and--it would be a good thing for the 
world.

                      WINNING THE WAR ON TERRORISM

    Senator Domenici. Generals, whichever one of you chooses to 
answer, you committed our military men there and you're its 
leader, chief of staff. Was it worth it, this war?
    General Myers. I think, as General Abizaid has said, that 
our troops over there know exactly what the mission is. If you 
would ask them individually, like many of you have, they think 
it's worth it. They understand----
    Senator Domenici. They do think it's worth it?
    General Myers. Absolutely.
    Senator Domenici. Can we win? Can we complete our mission?
    General Abizaid. Sir, we can win.
    General Myers. We can win. And let me just take off on that 
a minute. We can win. But to win, we need several other things 
to happen, in my view. We've got to have the will to win. And 
that's what the terrorists, by the way, are betting on, on 
these--this high-stakes game in Iraq. They're betting that we 
can be made to leave--we, the Coalition. They've seen it 
before, in Somalia. They saw it in Lebanon. They've seen it in 
other places. And they're hoping that they can outlast us, 
because they will have the will to win. And that's an issue we 
need to confront, not only as an American people, but as a 
Coalition against this.
    Commitment is important. And patience, I would say. As you 
pointed out, Senator, we've only been at this now for a 
relatively--in the scope of human history, a relatively short 
period of time.
    Senator Domenici. Let me move over to the other general, 
please.
    General Abizaid. Well, Senator, you know, a lot today has 
been made about the ``greatest generation.'' And my father is a 
member of that generation. And I think there's something to be 
said for that. But when you talk to our young people in places 
like Afghanistan and places like Iraq, downtown Baghdad, and 
you hear what they say about how they're doing, and you see 
their confidence, and you see their dedication, and you see 
their ability to withstand great dangers, you have to ask 
yourself whether or not they're not the greatest generation.
    They are fighting and winning the global war on terrorism, 
and they know it won't be easy. They know it won't be without 
casualties, and they know it won't be without sacrifice. But 
we've got to win this war, we've got to be tough. We've got to 
be tougher than our enemies, because they think we're weak. And 
we're not.
    Senator Domenici. General, do our troops think we can win?
    General Abizaid. Our troops know we can win.
    Senator Domenici. And how do you assess the situation 
today? Is it better than 2 months ago?
    General Abizaid. The situation is better than it was 2 
months ago. It's better than it was 4 months ago. And it will 
be better 2 months from now. But it will be a slow process. It 
will be a dangerous process.
    And, you know, Senator, really this is a battle of 
moderation versus extremism that we're engaged in. If we can 
win in Iraq, we can win the battle of moderation. And it's just 
not the battle for the United States; it's the battle for the 
Arab world, as well. They crave the opportunity to move forward 
in a moderate way. Every leader in that part of the world 
believes that. People believe that. There aren't 60,000 Iraqis 
coming to serve with us under arms because they're betting that 
they're going to lose. True, there are people that are against 
us, and they are dedicated against us in a way that is going to 
have to make us fight, and fight hard. But I have asked every 
brigade commander that I've met, and I've met almost every one 
of them in the field out there, ``Are we winning?'' And I put 
it in no uncertain terms. And they say, to a man and to a 
woman, ``Yes, we are.''
    Chairman Stevens. Thank you very much, General.
    Senator Leahy is recognized for 8 minutes.
    Senator Leahy. Thank you, Mr. Chairman.
    I'm struck by, as I hear the little bit of testimony we're 
getting up here on these matters, that the talking points seem 
to always be about how this is like the Marshall Plan. Let's 
make sure we know the facts. Much of the Marshall Plan was a 
dollar-for-dollar match by the European nations. It wasn't just 
a grant from us.
    I keep hearing about what it did for Germany. But Germany 
was not the largest recipient. They got about 11 percent. 
England got 25 percent.
    Loans made up almost 10 percent of the Marshall Plan. Now, 
Secretary Rumsfeld has testified that Iraq owes about $200 
billion owed to Saudi Arabia and Kuwait. I would hope that 
we're not going to pay off loans to Saudi Arabia and Kuwait.
    And I remind everybody that keeps trying to link Saddam 
Hussein to September 11--and I commend the President for 
finally saying there was no link--there is a connection between 
Saudi Arabia and September 11. Most of the hijackers came from 
Saudi Arabia. Most of them were protected and funded from Saudi 
Arabia. And there are a lot of al-Qaeda, we both know, still in 
Saudi Arabia, notwithstanding some of the crackdown by Saudi 
Arabia since September 11. So I would hope we're not going to 
be paying off loans to Saudi Arabia.
    President Truman urged sacrifice. He, among other things, 
made a personal appeal to the American people to keep down our 
grain consumption, because we were shipping grain over there--
that is just one example--so that it would not be inflationary 
here. Instead of 8-minute photo-ops for a review, the Senate--
and Senator Byrd, mentioned this--the Senate held 30 days of 
hearings. There were 100 non-governmental witnesses. There were 
hundreds of pages of testimony. The House had 29 days of 
hearings with 85 witnesses. The Congress established, with the 
administration, a bipartisan--there's been very little reaching 
out to both sides of the aisle up here on this issue--a 
bipartisan effort to go by 1-year authorizations--
authorizations, as well as appropriations.
    So I just want people to understand what the Marshall Plan 
was. If we are going to say this is like the Marshall Plan, 
then let's start doing things the way it was done back then.
    General Myers, as I've told you before, I am 
extraordinarily proud of our men and women who are over there. 
We have the finest Army, Navy, Air Force, and Marine Corps 
anywhere in the world. But I'm concerned that more are being 
killed every day. It was announced some time ago that the 
mission was accomplished there. And since then, we've lost more 
people than before May 1. I'm afraid that the Iraqi people who 
don't feel safe are turning against us. We want them as our 
friends. But the friendly-fire incidents don't help.
    I worry that some of our tactics are heavy-handed, with 
brute force, instead of doing more to bring the Iraqi people to 
our side.
    Foreign troop contributions, no matter how much we say, 
they've been meager, at best. Some of these countries that we 
list--and I'm glad to have Moldova and Estonia and Azerbaijan 
in there shoulder to shoulder with us, but I would suggest that 
some of these countries are seeking out more loans and foreign 
aid for us to pay for it, and also some of their contributions 
are about the size of a rural police department in my State of 
Vermont. And so I worry about the costs.
    We've been told by the administration--former Office of 
Management and Budget (OMB) Director, Mitch Daniels, said the 
total cost would be between $50 and $60 billion. The Department 
of Defense told us the oil revenues could bring in between $50 
and $100 billion over the next 2 or 3 years, and that would 
finance the reconstruction. Well, that isn't going to happen.
    There is going to be a real question about the money to 
rebuild schools, hospitals, roads, electrical infrastructure, 
and so forth, in Iraq. I think one plan is to build $50,000 bed 
new prisons. I think that we need to know a lot more about 
these exorbitant expenses.

                         TRICARE FOR RESERVISTS

    Secretary Rumsfeld, I worry about what this supplemental 
doesn't include. The National Guard and Reserves are critical 
to the security and reconstruction effort. Everybody knows 
that. In fact, the Department of Defense recently extended 
Reserve deployments to Iraq for a year. They're going to deploy 
upwards of four enhanced brigades.
    Now, the Senate recently voted overwhelmingly to make non-
activated Reservists eligible for TRICARE on a cost-share 
bases--on a cost-share basis--to try to keep our Reserves as 
healthy as possible. And this coalition, Republicans and 
Democrats, expressed willingness to work with the Department to 
develop a cost-effective program. Why didn't the Department 
request funds for this program in the supplemental? Why not do 
something when there is overwhelming support here for TRICARE 
for our Guard and Reserves?
    Secretary Rumsfeld. Senator, let me respond to several of 
those points. You're quite right----
    Senator Leahy. Could you do the--in case you run out of 
time, could you do the TRICARE one first?
    Secretary Rumsfeld. I'll sure get to it. The short answer 
is that the decision was made, I think in cooperation with the 
Congress, to restrict the supplemental to the global war on 
terror.
    Senator Leahy. But we're talking about money for our forces 
in Afghanistan and in Iraq, where we have more Guard and 
Reserve being called up.
    Secretary Rumsfeld. I'm told we already pay for TRICARE for 
Reserves when they're on active duty.
    Senator Leahy. No, I'm talking about for the Guard and 
Reserve prior to being on active reserve, why can they not be 
part of TRICARE?
    Chairman Stevens. Will the Senator yield?
    Senator Leahy. Yeah.
    Chairman Stevens. As the chairman of the Defense 
Subcommittee, I'll tell you, we tried to do that. It was not 
authorized yet.
    Senator Leahy. We've got a whole lot in here that's not 
authorized. I mean, we don't even have an authorization bill 
for this. We're building electrical grids, we're building 
schools, hospitals, and everything else, all of which may be 
very good. We're putting millions of people back to work in 
Iraq, and there hasn't been an authorization bill in this part 
yet.

                       RESPONSES TO SENATOR LEAHY

    Secretary Rumsfeld. May I respond to some of the points 
you've made?
    First, let me say that you're quite right, we have no 
interest in paying off anyone else's debts or loans that they 
had to Saddam Hussein's regime. All debt payments have been 
deferred until 2004, through an international agreement and 
understanding. And clearly, with that kind of debt, the country 
is going to require substantial debt restructuring.
    With respect to Saudi Arabia, you're correct, there were a 
great many of the 9/11 terrorists who happened to be Saudis. It 
is also correct, however, to say that the Saudi Government has 
been working increasingly closely with us and that, in fact, 
this week they either arrested or killed an additional high-
level al-Qaeda, and they have been focusing on that problem to 
our benefit.
    The President's----
    Senator Leahy. I wish they had earlier.
    Secretary Rumsfeld. The President's comment about ``major 
combat operation was over'' was correct. He did not say 
``mission accomplished.'' There was a sign there that said 
that, but his comments were correct. The mission was----
    Senator Leahy. I wonder how that sign got there. Amazing. 
Go on, I'm sorry.
    Secretary Rumsfeld. The mission is clearly not over. 
General Abizaid has been describing the difficulty of the 
mission and the danger of the mission, and we understand that.
    I have to say something about the comments you've made 
about the countries that have relatively small contributions. 
They are also relatively small countries, and hundreds of 
people--or six countries with over 1,000, to say nothing of the 
Iraqis that are getting killed and wounded, just as Coalition 
forces are, the Iraqis have 70,000 involved.
    Now, the fact that a country has only a few hundred, it may 
be that that country, as a proportion is roughly the same as 
other countries. And I think that we ought to be respectful for 
their contributions, and we ought to be grateful for their 
contributions.
    I will make one last comment, and that's about the prisons. 
We need those prisons. Saddam Hussein let something like 
100,000 to 150,000 criminals out on the streets against the 
Iraqi people. They are out there doing damage.
    The looting that took place was essentially against the 
Iraqi institutions, the Saddam Hussein institutions. It was 
against the ministries. It was against the prisons. It was 
against the things that repressed those people. The prisons 
were destroyed. There are places where, in the latrines, they 
didn't just take out the toilets, they took out the pipes, they 
took out every aspect of tiles that were in there. They have 
destroyed most of what was left of Saddam Hussein's regime, 
purposely. You can tell, the way the looting took place, that 
it was focused on that regime. We need prisons, and that's why 
the money's in there for them.
    Senator Leahy. That's why we're spending more per bed than 
we do in the United States for our prisons?
    My time's up. Thank you, Mr. Chairman.
    Chairman Stevens. The Senator's time is up. I'm going to 
use another minute of my time, just for a little bit of memory 
here.
    You know, I left the military and went through college and 
then halfway through law school before the Marshall Plan 
started. We had a military occupation of the areas in Europe 
for over 3 years before the Marshall Plan was suggested. Is the 
other side suggesting we should go through a military 
occupation for a period of time? Do you want to do that? Do you 
really want military occupation and not a progress towards 
democracy in Iraq?
    I'm supporting this because I believe we'll get our people 
home sooner if we move now to create something that will create 
democracy in Iraq.
    Senator Leahy. Well, if the chairman has addressed a 
question to me, let me say this.
    Chairman Stevens. I'm not suggesting a question. I'm making 
my statement.
    Senator Leahy. Well, Mr. Chairman, to answer your 
questions, if we're----
    Chairman Stevens. I didn't give you----
    Senator Leahy [continuing]. Going to have----
    Chairman Stevens [continuing]. A question.
    Senator Leahy [continuing]. A Marshall Plan, then we ought 
to have hearings on a Marshall Plan.
    Chairman Stevens. There were hearings yesterday before the 
Foreign Relations Committee. There are going to be hearings 
before the Armed Services Committee. This is the Appropriations 
Committee responding to a request by the President of the 
United States for emergency appropriations. This is not a 
committee to develop the policy of the United States in terms 
of authorization. This is not the place for that.
    Senator Burns is recognized.
    Senator Burns. I thought Senator Shelby wanted to follow 
that.
    Senator Shelby. You can go first.
    Senator Burns. Thank you very much, Mr. Chairman.
    And, first of all, let me----
    Chairman Stevens. Senator, would you yield?
    Senator Burns. Yes.
    Chairman Stevens. Just for information. Everyone's 
concerned. We're going down the list of the appropriators by 
seniority, not by the time people came in. Too many people come 
in and go out, come in and go out. So we're going down the list 
as they appear on the rollcall.
    Thank you.
    Senator Burns. Well, I thank the chairman for that.
    I just want to thank the leaders that we have at the table 
today. You have carried out your daily operations and your 
daily challenges that fulfills the wisdom, the vision of 
freedom that all people who live and die for daily, for that 
great human endeavor. I think we lose vision of what we are all 
about.
    To your credit, I think our men and women in uniform now 
serving on the ground, that have served on the ground, have 
been and remain the best ambassadors we have in Iraq. To your 
credit, they have upheld the American tradition. Once we were 
attacked, and we were, they took the battle against terrorism 
to the enemy on his ground. Americans do not want, nor can ill 
afford, the terrorists bringing the battle to us on our ground. 
That has never been the tradition of the American people since 
the Civil War.
    And we must understand, and the vision of this President, 
that no nation, no society, no government, no economy is exempt 
from the acts of terrorism and the damage that it can do. 
That's what this mission is all about.
    Now, saying that, we are in the business of appropriating 
money to carry out that mission. I know we have money in here 
to replace ordnance that was used, equipment, also replace 
weapons. But the replacement of our personnel, our people, and 
to maintain the size of our military strength under the new 
approach of an all-volunteer army, sort of concerns me.

                       RECRUITMENT AND RETENTION

    Mr. Chairman, General Myers, could you give us any kind of 
an indication, do we see any weakness in our recruitment or 
replacement of personnel, especially among Reserves and 
National Guard, since their duty has been redefined, and 
especially if you could give us a percentage between active 
people in support and combat positions now, could you give us 
an overall look about that? Other words, I know it's higher now 
with Reserves and National Guard. Tell me, is that affecting 
our recruitment and replacement of those people?

                              REENLISTMENT

    General Myers. I'll do the best I can, Senator Burns.
    Let's take the active duty first. Active duty propensity to 
reenlist has actually gone up, from 1999 to 2003. The 
percentages of those folks that are eligible for re-
enlistment--the percentages have actually gone up, and 
recruiting right now, I believe all the services are still 
meeting all their goals, as they have, for the most part, last 
year, and then, for the most part, the year before. On the 
Reserve component side, right now, retention is still--and 
recruiting--is still good. We are heavily using the Reserve 
component. And you would expect to do that if you're a nation 
at war and the stakes are high.
    I agree with the statements that were made earlier about 
the pride that these people have in their jobs. I just visited 
Bosnia and Kosovo, two operations that are manned by Army 
National Guard primarily, and other Reserve components as well. 
They couldn't be prouder of what they're doing.
    And one of the things that the Secretary and I and the rest 
of the Joint Chiefs of Staff, the Secretary's staff, are 
working on is to provide--so this recruiting and retention 
picture doesn't change for the worst--is to make sure that we 
provide as much predictability in the lives of our folks in the 
Armed Forces as we possibly can. It's important for active 
duty. It's perhaps even more important for the Reserve 
component, because they have to deal with the employer piece, 
as well. And we have, by the way, a lot of employers out there 
that have really been supportive of those members of their 
businesses that are a part of this effort. I think, in the end, 
those that are supporting it realize that it's all tied 
together, as the Secretary said in his opening remarks, and 
that we've got to win this one, and that's their sacrifice.
    We can do a better job in providing predictability. We can 
do a better job in communicating when people will come on 
active duty and when they will be leaving active duty, in terms 
of Reserve component. We can do a better job of that, and 
that's something that I think the Secretary and I discuss and 
try to work every day, matter of fact.
    Senator Burns. Well, I----
    General Myers. Before----
    Senator Burns [continuing]. Would comment that it's pretty 
hard to predict when you're going to--you know when you're 
going to leave and you know when you're needed and when you're 
going to be called up. Now when you get home, that's another 
story, because you're going to be used as needed. But I'm 
wondering if everything is--if you hear the press and you hear 
some other folks talk, that this whole thing is falling apart, 
that our enlistments and our recruitment capabilities of 
replacing people in our Reserve and our National Guard, that 
would have an effect, especially when you have employer input 
that have either had to hire people to take their place or to 
go through their own recruiting and retaining people. Looks 
like those numbers would, after about 5 or 6 months of 
operations now, and ever since September 11, would show some 
drift one way or the other, it would show us a trend that would 
indicate that there is general dissatisfaction out here under 
the conditions we're operating now.
    General Myers. Let me just backtrack a minute. I've got 
some facts here from the notebook that are slightly different 
than I stated. And that is, in the Army, in the Army Guard and 
Reserve, they have had recruiting challenges this year, but 
made up by their increase in retention.
    So, you know, the snapshot we take right now, we look fine. 
What the Secretary and I worry about, and the Joint Chiefs of 
Staff, as you look forward, are we doing all we can to 
encourage people to stay with us, people that have this 
tremendous experience, on the one hand, and do we treat them 
right?
    And I would also say, Senator Burns, that it's really 
important to tell them when they will go home. And there will 
be contingencies and so forth, but we can do a better job of 
that, and we need to do that.
    Secretary Rumsfeld. I'd just like to add that the system 
that is in place is designed for an industrial age. And, as a 
result, a number of the people were only given 5, 6, 8, 10 days 
notification before their call-up, and that's just not 
respectful of them and their employers and their family. And 
we're fixing that system. We cannot do that to the Guard and 
Reserve, in terms of activation.
    Second, as General Myers said, we're in the process--and 
General Abizaid is working on it, as well--they're in the 
process of finding ways that they can get some leave time for 
people in Iraq to get out to an area that's calm and relaxed 
and they can enjoy themselves for a few days. And that process 
is just in the early stages. And, second, there is an--if 
people are going to have to serve 12 months, boots on the 
ground, in Iraq, and a number of people are, then we're trying 
to find ways that we can begin a process where some of them can 
have a period of leave at home, in some way, and that's being 
worked on. I don't want to create an expectation level that 
it's going to happen instantaneously for everybody, but we're 
sensitive to what you're talking about, and we have to be 
taking steps now to make sure that we continue to meet 
recruiting and retention goals, because the single most 
important thing we've got in the Department of Defense is those 
wonderful people.
    Senator Burns. Thank you, Mr. Chairman.
    Chairman Stevens. Thank you very much.
    Senator Harkin----
    Senator Harkin. Thank you, Mr. Chairman.
    Chairman Stevens [continuing]. Is recognized for 8 minutes.
    Senator Harkin. Thank you, Mr. Chairman.
    Mr. Secretary, again, you have said, as Ambassador Bremer 
said day before yesterday, or day before yesterday when he was 
here, that our goal is to turn back security to the Iraqi 
people as soon as possible. One of you used ``possible,'' one 
used ``feasible.'' I'm not going to parse words. But then I 
look at the items that are listed in your supplemental request, 
and I go through it, and I'm beginning to wonder, you know, 
because a supplemental--let's face it, a supplemental, under 
any administration, is basically for either an emergency or 
miscalculations, poor planning, things like that, that come up 
that we have to pass a supplemental for. And so I look at some 
of the items here--and I'm not going to go through them all, 
but I'm going through some of them, because it adds up to a lot 
of money, and I'm wondering why it's in a supplemental and what 
it means in terms of our long-term commitments to keeping 
people, our troops, in Iraq.

                     MILITARY CONSTRUCTION FUNDING

    For example, here's military construction, Air Force, 
$292,550,000 to remain available until September 30, 2008. It's 
for aircraft runway repair in Afghanistan, an air freight 
terminal at Dover Air Force Base, a munitions maintenance, 
storage, and wash pad at Camp Darby, Italy, and on and on and 
on. Now, I have to ask, is this really an emergency? This seems 
like it ought to be something that ought to be in our regular 
appropriations bill.
    Chairman Stevens. Would the Senator yield on----
    Senator Harkin. Let me go through----
    Chairman Stevens [continuing]. My time right there?
    Senator Harkin. Huh?
    Chairman Stevens. Would the Senator yield on my time?
    Senator Harkin. Sure.
    Chairman Stevens. We had a demand earlier in regard to Iraq 
that the administration submit the monies, the request for 
monies, that were associated with Iraq. That was discussed with 
the administration. And this money was requested in a separate 
appropriation, a supplemental appropriations bill rather than 
the practice in the past of having the administration take the 
money out of operation and maintenance or out of military 
construction, out of other items that were related to the war. 
That's what happened in the past. Every President in the past 
has done that.
    This time, the administration, for the first time, has 
requested a total amount of funding related to the war in one 
package, at my request.

                    ENTIRE SUPPLEMENTAL FOR THE WAR?

    Senator Harkin. I appreciate it, but my question is, I'm 
not certain that a lot of this is related to the war. I think 
it's just, you know, almost like the kitchen sink just thrown 
in, and maybe some new carpeting----
    Dr. Zakheim. Senator, if I could respond to that, please?
    Senator Harkin. Very briefly, because I've got a whole 
bunch more I want to go through. Why don't you wait until I go 
through them all?
    Here's research, development, test, and evaluation, 
Defense-wide, $265.8 million for research, development, test, 
and evaluation. Here's research, development, test, and 
evaluation, Air Force, $39 million. Here's research, test, and 
evaluation, Navy, $34 million. Okay, those are just some of 
them. I wonder, why is this in a supplemental appropriation? 
This sounds like regular appropriations. It just sounds like, 
well, you've got it here, so you might as well ask for it and 
get it.
    Dr. Zakheim. Sir, it's not a regular appropriation at all, 
Senator. In fact, if you take the military construction, which 
you mentioned, there's about $133 million directly for Iraq. 
The rest is all related to Operation Enduring Freedom, 
including Camp Darby. Everything there is for supporting 
Enduring Freedom, which, as you know, is primarily 
Afghanistan--that is, the entire $412 million.
    As for the research and development, Senator, that is all 
for classified programs. In another setting, I'm sure, we can 
explain to you that, again, this is all related to either 
Enduring Freedom or Iraqi Freedom.
    Senator Harkin. Well, here's an additional item here. 
Here's missile procurement, Army. It's only $6.2 million, but 
it's the replacement of multi-launch rocket system destroyed in 
Operation Iraqi Freedom. Yet recently, General John Abigail 
said we're in a classic guerrilla war. Well, maybe you do have 
to replace the launch system, but I don't think that that is an 
emergency appropriation. It ought to be in the regulation 
appropriations bill.
    Here's another item, $35.5 million for overseas 
humanitarian disaster and civic aid. It says here the request 
includes $20 million for Central Command for projects in Iraq, 
Afghanistan, and related areas. It also includes $15.5 million 
for European Command for projects in countries directly 
supporting the war on terror. What is this? Why is this in 
here? What's this all about, that we're putting in a 
supplemental for the military, $35.5 million for disaster and 
civic aid?
    And here's another one, transfer of funds for intelligence 
community, $21.5 million; $15.5 million may be transferred and 
merged with the Federal Bureau of Investigation for salaries 
and expenses. That doesn't seem like something that ought to be 
in a military supplemental appropriation.
    But here I'm getting, sort of, to the, I think, the nub of 
it here. Here's $930 million, almost $1 billion, to be 
available until September 30, 2006, and there's just one item 
in here, and it says base-camp housing units to improve the 
housing and morale of deployed forces, $344.7 million. This 
sounds like a long-term type of thing. This sounds like 
something that's going to be there for quite awhile, and it 
doesn't square with this idea that we're going to turn it over 
to Iraqi security as soon as possible or as soon as feasible. 
These seem like long-term items.
    Dr. Zakheim. Not at all, Senator. The situation we have at 
the base camp, the big one that you referred to--and General 
Abizaid probably could answer this in far more graphic detail 
than I--is that so many of our people out there are living in 
impossible conditions. The funds that are applied here are 
simply to get them into what are called semi-permanent 
conditions as long as they're going to be in Iraq, whether for 
6 weeks, 6 months, or 1 year, or a short period of time. We 
just do not want them living in tents anymore in 130 degree 
weather that they have suffered from out there. If you have 
been out there, as we have, you know that that is what it is 
like. So it is totally semi-permanent.
    I'd like to also give you----
    Senator Harkin. Can I ask this questions, though?
    Dr. Zakheim. Yes, sir.
    Senator Harkin. How about the $119.9 million for power 
plants and distribution systems, water and wastewater treatment 
facilities?
    Dr. Zakheim. Yes, that is all to support those facilities. 
If you are going to have a semi-permanent facility, you want 
these people to have toilets.
    Senator Harkin. Well, it sounds more permanent than----
    Dr. Zakheim. Not at all, sir. And certainly, if you have 
been to the region, you have seen these elsewhere. These are 
not exactly luxury hotels, to put it mildly. More specifically, 
all the funding and all the monies and projects that were put 
together for this supplemental were restricted to Operation 
Iraqi Freedom, Enduring Freedom, and Noble Eagle. There were 
other projects, very worthy, very urgently required, that we 
did not include precisely for the reason you gave.
    Senator Harkin. Wait a minute. The transfer----
    Dr. Zakheim. These are----
    Senator Harkin [continuing]. Of $15 million to the Federal 
Bureau of Investigation (FBI) for salaries and expenses is 
absolutely connected with our war in Iraq?
    Dr. Zakheim. Yes, sir.
    Senator Harkin. I guess we can stretch appropriations to 
mean what we want.

                  RESPONSIBILITY FOR RECOVERY IN IRAQ

    Lastly, again, I want to read a statement by you, Mr. 
Secretary, that you made earlier this year. You said--and I've 
got the quote right here--`` `I don't believe that the United 
States has a responsibility for reconstruction, in a sense,' 
Rumsfeld said, `What we have is a responsibility to get that 
country on a path toward representative government.' ''
    And then, in addition to Iraqi assets and contributions 
from U.S. allies, an, quote, `` `international donors 
conference will be established,' said Secretary Rumsfeld.'' 
Deputy Secretary of Defense Paul Wolfowitz said that, ``Iraq 
would play a major role in funding the reconstruction, noting 
that the country's oil revenue would generate $50 billion to 
$100 billion over a 2- to 3-year period.''
    You just said today it would be $15 billion. So can you 
blame us if we're kind of a little skeptical here of some of 
these numbers that keep getting thrown at us all the time?
    Secretary Rumsfeld. Could I respond, please?
    Senator Harkin. Yes, sir.
    Secretary Rumsfeld. The statement I made on March 27 was 
that, ``I don't believe the United States has the 
responsibility for reconstruction, in a sense. What we have is 
a responsibility to get that country on a path that it has a 
representative government that fulfills the standards that 
General Myers has just outlined. We want to participate in 
reconstruction. Other countries will want to participate in 
reconstruction. And the funds can come from those various 
sources that I mentioned.''
    Now, let's go to the oil situation. I don't think anyone 
knows precisely what the facts will prove to be over the next 3 
or 4 years, but the numbers I am told by Ambassador Bremer are 
the following, that in 2003 the expectation is that the oil 
revenues for Iraq will be something in the $2 to $3 billion 
level.
    Senator Harkin. Over what period of time?
    Secretary Rumsfeld. In calendar year 2003. The expectation 
for 2004 that Ambassador Bremer is putting forward is $12 
billion over the calendar year.
    Senator Harkin. Uh-huh.
    Secretary Rumsfeld. The expectation for 2005 is $19 
billion, and the expectation for 2006 is $20 billion. So you 
might get up, over a 3-year period, to a level at a $20 billion 
revenue. That, of course, Senator, is dependent upon the amount 
of investment that goes into that oil infrastructure. It is 30 
years of being degraded and under-invested in.
    Iraq has enormous oil reserves, maybe the second or third 
largest in the world, I'm told. Now, if there is outside 
investment that goes into that infrastructure, it is possible 
that those numbers could go up. I'm not making any assumptions 
about them. But, right now, they're patching that 
infrastructure together with rubber-bands and chewing gum. And, 
nonetheless, as degraded as it is, those are the expectations 
that Ambassador Bremer set forth Monday to this committee, I'm 
told.
    Senator Harkin. Well, again, this probably isn't in your 
purview, but how much of this reconstruction is to repair the 
damage that we did? I mean, we're rebuilding schools, but I 
don't think we bombed schools, did we?
    Secretary Rumsfeld. Practically--very, very little is a 
result of war damage, you're exactly right. The infrastructure 
that's critical to the success in this situation is 
infrastructure that the Saddam Hussein regime under-invested in 
for over 30 years. And the problem with schools and hospitals 
is a little distinctive. The Ba'athist party used those for 
headquarters and weapon caches. And, as a result, a number of 
them were damaged during the war.
    Chairman Stevens. Senator Shelby is recognized for 8 
minutes.
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Secretary, perhaps a little different tone here. First, 
Mr. Secretary, I want to join the chorus--is the mike on now? 
It's on now. Sorry.

                            PROGRESS IN IRAQ

    Mr. Secretary, I have a little different tone. I want to 
first commend you again for your leadership as Secretary of 
Defense and for your candor, not only with this committee, but 
with the American people. You've not, I believe, sugar-coated 
our great challenge in Iraq, nor minimized the strategic 
opportunity that we have there.
    I believe, as a lot of people believe, we must stay the 
course, and we cannot, I believe we must not, cut and run. We 
cannot waver at home. We've got to complete the job. And we 
know it's a lot of money and a lot of concern.
    But tell us, again, about this progress that we're making. 
For example, you've alluded to the police force that we're 
building, the army that we're building with Iraqi troops, and 
our success, if you can measure it, at this point in our fight 
against the hardcore terrorists who have infiltrated Iraq.
    Secretary Rumsfeld. It is always a difficult thing--and I 
thank you for your comments, Senator Shelby--it's a difficult 
thing when you know people are being killed--Americans, 
Coalition, being killed and wounded, and we know that Iraqis 
are being killed and wounded. It's a difficult thing, in the 
midst of that, to then comment on progress. But we have to. 
There is progress. There's political progress, there's economic 
progress.
    There are folks who come to us and compare it to Germany. 
Someone here said that there was no sabotage after Germany 
surrendered and all of that. The fact of the matter is, there 
were allied forces killed afterwards, there were mayors that 
were cooperating with us that were killed. So that's a fact, 
historical fact.
    But the circumstance that we're in, I think requires us to 
look at it very accurately, and there are successes that are 
taking place every day. There are political successes--to have 
that Governing Council, to have those ministries, to have 90 
percent of the people living under local representative 
councils that they either elected or that are representative of 
them, that's a big accomplishment in 4\1/2\ or 5 months. To 
have the schools operating, to have the hospitals operating, is 
a big accomplishment. To have conducted the conflict with that 
precision, that so little infrastructure damage did occur, was 
a great benefit to those people. There was not a humanitarian 
crisis. There were not enormous numbers of refugees or 
internally displaced people.
    And John Abizaid and I were talking about what's taking 
place with these military folks we've got. They are engaged in 
military combat for a few minutes a day, if that. There are 
very few incidents a day. They last a very few minutes. 
Basically what they're doing is, they're contributing to the 
political and economic progress that's taking place in that 
country, and they're doing it creatively. They're really 
talented, talented people.
    John, would you comment on it?
    General Abizaid. Well, Senator, I would say that for every 
combat operation we have, there's probably 30 or 40 civil 
affairs operations or other operations to help with the 
infrastructure, to help build things and make things better in 
Iraq.
    That having been said, it's clear that we do have an armed 
group of resisters that are primarily operating in a defined 
geographic region that's generally defined by a triangle, 
Tikrit, Ar Ramadi, Baghdad.
    We are making progress against them on the military side. 
We're certainly making progress on the political side. But the 
key point is that there is no progress if you don't make it on 
both sides. You've got to make it militarily, and you've got to 
make it economically. And I think when you look at the 
supplemental--and I am not the appropriator type of person, as 
you well know--but we can't move forward unless we move 
together both militarily and on reconstruction.
    When I talk to our people, I say, ``Look, we've got to 
concentrate on five areas. The number one area is, we've got to 
make sure that Iraqis take more control of their security, and 
we need to do it fast.'' After all, we win when we leave and 
they're in charge and they're in charge of a good government. 
Number two, we've got to try to internationalize a force, 
because this is a problem that's bigger than just the United 
States. Number three, we've got to make our intel better so 
that we can fight the enemies, identify them, and move into the 
cellular structure that is clear. Number four, we've got to do 
a much better job telling people how we're doing, the 
information campaign, both with the Iraqis and here at home. 
Obviously, we've got to do better. And, finally, and last but 
not least, but perhaps more importantly, is we've got to work 
on the infrastructure. The infrastructure is about as bad as 
anyplace I've ever seen. We've got to invest in it in the 
short-term if people are going to believe in a better future.
    And so I think you have no choice, if you're going to 
achieve victory there, but to spend both on the military side 
and the infrastructure side.

                         FUNDING FOR EQUIPMENT

    Senator Shelby. General, along those lines--this is not a 
macro issue, but I think it has to do with the forces there--
the equipment that's being used, a lot of it will--it's nuts 
and bolts, but it's very important to the Army and all the 
forces. Is there enough money in this supplemental to really 
maintain that equipment, to rehabilitate it and keep it going 
in the future--tanks, other vehicles, and so forth--and be 
brought back here to work in our depots?

                          SUPPLEMENTAL FUNDING

    General Abizaid. Senator, I believe that there is enough 
money in the supplemental to do what needs to be done with our 
equipment there. Our equipment has been very, very heavily used 
there, probably on unprecedented levels. As you understand, 
when we first moved in there the logistics base was very 
immature. Now it's becoming more mature. So a combination of 
improving our logistics infrastructure within Iraq and doing a 
better job in moving what we need to the troops, in terms of 
spare parts, will have the force in good shape.
    And I'd defer to the chairman about the specifics.
    [The information follows:]

    The supplemental supports on-going operations in theater as 
its first priority. Funding is also included for reconstitution 
of unit and Army Pre-positioned equipment sets from Operations 
Enduring Freedom and Iraqi Freedom, but not fully at the rate 
it is being consumed. The operational tempo and harsh Iraqi 
environment is extremely demanding on our equipment. The $2.8 
billion depot maintenance funding in the Supplemental is based 
on estimates of equipment availability and depot capacity. The 
request was balanced to consider the rates at which equipment 
could be returned for work in the coming year and surge 
capacity available of public/private depots/yards to complete 
the work.

    Secretary Rumsfeld. Could I just make a----
    Senator Shelby. Sure.
    Secretary Rumsfeld [continuing]. Comment about the Iraqi 
security forces? They are making a contribution. Fifty-four 
Iraqi security forces have been killed since May 1. Indeed, 
most of them have been killed in the last 2 months, because we 
just started developing those Iraqi security forces. Ninety-one 
have been wounded in action. And these--so the Iraqis are 
making a contribution to this effort, let there be no doubt.

               COUNTRIES OF ORIGIN OF TERRORISTS IN IRAQ

    Senator Shelby. Mr. Secretary, how many of the terrorists 
that are from outside Iraq--what groups have been identified? 
Can you talk about this here, or would you rather not?--from 
outside Iraq that have come in? In other words, we know that 
it's become a place for the terrorists to gather to fight us 
there. And, you know, I think they're not going to go away. 
We're going to have to take them out.
    Secretary Rumsfeld. We've got 2, 4, 6, 8, 10, 12, 14, 16--
20, 25 countries, we've scooped up people from that many 
countries. A large portion of them are from Syria and Iran and 
Lebanon. But they come from 20 to 25 countries.
    Senator Shelby. So we're----
    Secretary Rumsfeld. John Abizaid you may want to comment on 
the distinct groups.
    General Abizaid. Yes.
    Secretary Rumsfeld. They're criminals, they're foreign 
fighters, and they're remnants of the Ba'athist regime, and 
extremists, that make up the bulk of them.
    Senator Shelby. General?

       IRAQI/FOREIGN FIGHTER AND TERRORISTS AGAINST THE COALITION

    General Abizaid. Well, Senator, we have well over 200 what 
I would call foreign fighters that are in our custody. We've 
identified many others out in the West. We have engaged and 
we've killed some in combat in the West. It's also clear that 
we have terrorist groups such as Ansar al Islam that are 
operating in the country, and as I think most people know, 
Ansar al Islam has links to al-Qaeda. Therefore, those two 
major terrorist groups are operating, in some sense, throughout 
the country, although it's primarily in the geographic area as 
I described before.
    There are also foreign fighters that come that are 
extremist oriented that may or may not be associated with 
various terrorist groups, that primarily infiltrate across the 
Syrian border. There is some indication that some infiltrate 
across the Saudi border. We do not believe that either of the 
two nations involved is complicit. We are making moves to work 
with the Saudis, in particular, on their border and to move 
troops on the Syrian border to assist in that.
    I would not want to overstate the problem of the foreign 
fighters. The number one problem remains Iraqis of the former 
regime, hardcore Ba'athists, and extremists within the Sunni 
community.
    Senator Shelby. Thank you, Mr. Chairman.
    Chairman Stevens. Thank you.
    Senator----
    Senator Leahy. I didn't hear how many were in custody.
    General Abizaid. Two hundred.
    Senator Leahy. Two hundred.
    Chairman Stevens. Two hundred.
    General Abizaid. Foreign fighters, there's around--it's 
over 200--it's around--I think the right number is 270 or so.
    Chairman Stevens. Senator Kohl is recognized for 8 minutes.

                         SKEPTICISM ABOUT IRAQ

    Senator Kohl. Thank you, Mr. Chairman.
    I'm somewhat disappointed, as I have been for a period of 
time now, that the administration, Secretary Rumsfeld, others 
in positions of authority and power, do not respond to the 
expressions of concern on the part of people all across the 
spectrum in our country with respect to the things that we were 
told and the things that have come to the surface since before 
the war began and since it ended. It's been brought up before, 
but I haven't heard answers today that satisfy me.
    As we all recall, we were led to believe and understand 
that there was imminent danger of weapons of mass destruction 
being unleashed, not only in the Middle East, but throughout 
the world. We were told that Iraq had an imminent nuclear 
capability that required immediate involvement towards an end 
of destruction. We were led to understand that there was a 
connection between 9/11 and Iraq. We were led to understand and 
believe that there was a connection between terrorism and the 
world, al-Qaeda, and Iraq. And we were made to understand that 
there was no time to be spent working with the United Nations 
for another month or two or three, that invasion needed to be 
done immediately, and, as a result, we did it, to some 
considerable extent, unilaterally.
    So that kind of skepticism, as it has evolved since the war 
ended, and the things that were said to justify the need for an 
immediate invasion, have somewhat evaporated, causes the kind 
of skepticism that we're facing, not just here in this room, 
but all across the country.
    And I don't hear, either today or I haven't heard very 
regularly, the need to own up to or to concede or to explain 
that sort of skepticism that was put out by the administration 
that has caused the skepticism so that we can move forward, 
which I would like to do in a minute, with discussion about 
where do we go from here.
    Secretary Rumsfeld.
    Secretary Rumsfeld. Yes, sir, Senator, thank you.
    Just so the record's clear, I never used the word 
``imminent danger.'' I don't know anyone who did in the 
administration. You've used it twice. I never used the phrase 
``imminent nuclear capability.'' We had a conviction that they 
did not have nuclear weapons, and so stated, but a conviction, 
according to the intelligence community, that they did have 
nuclear programs. I think if one goes back and looks at that 
record, it's clear. I have publicly stated, as has the 
President, past, present, and recently, that we do not have 
evidence of a direct link between 9/11 and Iraq at all. And 
I've said that, the President's said that, both within the last 
week, as well as previously.
    You've mentioned the linkage between terrorists and Iraq 
that was mentioned. That's true. The intelligence community has 
released both classified and unclassified documentation. Part 
of the public record is that Iraq was systematically offering 
$25,000 per family that would encourage their children to go 
out and kill people in suicide bombing attacks. If that isn't a 
linkage with terrorism, I don't know what it is.
    With respect to al-Qaeda and Iraq, I think most people have 
been very careful about that in the past. All I have ever said 
about the subject was specific words that I have read from the 
podium that were released by George Tenet and the Central 
Intelligence Agency (CIA) that conformed with a classified 
version that he had used before the Senate and House 
Intelligence Communities.
    Now, you again use the phrase that it was ``unilateral.'' I 
think 32 countries is not unilateral, myself. But where are we?

                  FINDING WEAPONS OF MASS DESTRUCTION

    Notwithstanding those comments by me, the essence of what 
you're saying is fair. Where are we with respect to weapons of 
mass destruction? And it seems to me it's important that it be 
addressed, and I personally believe it has been addressed by 
any number of members of the administration.
    When Secretary Powell made his presentation to the United 
Nations, he believed what he said, I believed what he said, the 
President believed what he said, and the three of us still do.
    The Central Intelligence Agency has been giving essentially 
the same intelligence to the United States and to the American 
people and the United States Government for the past 5, 6, 7 
years. It is what was presented in the last administration. It 
is what was publicly commented on by the prior administration. 
It is what we have been presented and what we have publicly 
commented on. Recently, the Agency took the steps to declassify 
a national intelligence estimate, I believe from October of 
last year, so that the world could see what they were saying to 
the Congress and to the administration, and that's a matter of 
public record.
    What's being done? The administration has put together a 
team of people under Dr. David Kay that reports to the CIA. 
They have hundreds and hundreds of people in Iraq. It is a 
country the size of California, a country that had years to try 
to hide what they were doing and mask what they were doing, and 
there's a great deal of intelligence information about the 
ways, the techniques, they used to try to mask what they were 
doing. That work is going forward. They will make a public 
presentation at the point where they feel they have exhausted 
or appropriately explored or exploited the various leads and 
information they have.
    The way they're doing it essentially is not running around 
all over the country trying to discover things, as the 
inspectors had to do, which is a very difficult thing to do, as 
we can all imagine. The way they're doing it is through 
interrogations. They're trying to find the people who were 
involved in those programs and get them to talk to them about 
what it was they were doing. When they make their report, we--
you and I and all of us will know what it is they have. And 
that seems to me to be a very public exercise that they're 
engaged in. And I'm as interested in what they find as you are.

                    IMPORTANCE OF THE UNITED NATIONS

    Senator Kohl. With respect to the United Nations, I don't 
think there's any disagreement in any quarter that the United 
Nations is a vitally important institution, that its strength 
and all the things that it provides to the world are enormously 
important to the United States, that if the United Nations were 
to disintegrate, perhaps the biggest loser would be the United 
States.
    With that in mind, how is it that we are at such odds with 
the United Nations--when we went to war, in the aftermath of 
the war, and yesterday, when the President went to the United 
Nations with an impassioned plea, with Kofi Annan having 
responded as he did. If the United Nations is as important to 
the United States as I believe that it is, why can't we find a 
way to work with the United Nations and other of the large 
countries throughout the world to come up with a program that 
will represent a rebuilding of Iraq under the aegis of the 
United States and not just the United States, but the United 
Nations and important and powerful countries all around the 
world.
    Chairman Stevens. First, let me reiterate that the 
rebuilding of Iraq is basically the Iraqi people's 
responsibility. The Coalition Provisional Authority has some 17 
countries in it. There are 32 countries involved. It is not 
basically the United States, I don't think, in that case. 
You're right in two respects. One is, the United Nations is 
important, let me say why I personally believe it's important, 
particularly for the period ahead.
    There are certain things the United States simply can't do 
by itself. And one of them is counter-proliferation. We are 
looking at a world in the coming period where we run the risk 
of having two, three, four, more, countries with weapons of 
mass destruction that are, in some cases, on the terrorist 
list, over the next decade or 15 years. That's not a happy 
prospect. The only way that an effective counter-proliferation 
effort can be undertaken is not by one country, not even by 30 
countries. It's going to take a broader coalition of countries 
sensitive to that problem. So I certainly agree with you.
    Next, the problem between the United Nations and the United 
States, it seems to me, is not a problem between the United 
Nations and the United States, and it is basically a problem 
between the United Nations and a number of countries in the 
United Nations, including the United States and a few 
countries. There are a few countries that are disagreeing 
vociferously, some of which have veto power, and that makes it 
a difficult situation. And that is why Secretary Powell is 
working the problem. That's why the President is working the 
problem. And it seems to me that we're going to have to find a 
more effective United Nations in the decade ahead, particularly 
if we're going to tackle this problem of counter-proliferation.
    Senator Kohl. Thank you, Mr. Chairman.
    Chairman Stevens. Senator Bennett is recognized for 8 
minutes.
    Senator Bennett. Thank you, Mr. Chairman.
    I have a number of items I'd like to get into. I hope I can 
do this in a coherent fashion, rather than just a scattershot.
    I am interested to hear--we've heard it today here, I've 
heard it often from commentators in the press--about how 
brilliantly the war was conducted. And you, Mr. Secretary and 
General Myers and, through you, General Franks, have been given 
great kudos for the brilliance of the military operation. And 
then, by comparison, they say the subsequent operation has 
been, if not a failure, halting.
    I have enough memory to remember that at one point it was 
not considered brilliant. And I've said to my constituents, 
``We lost the war on the Cable News Network (CNN), but 
fortunately we won it on FOX.''
    There are those who were saying, after a week, that we 
didn't have enough troops. There were those who were saying we 
had a flawed plan, that we didn't know what we were doing, 
Tommy Franks should be cashiered for having made wild and 
unorthodox plans, he should have been conducting the war the 
way the generals on CNN wanted him to. And then when it turned 
out all right, we get the rhetoric we're hearing today that it 
was absolutely brilliant right from the beginning.
    I have the feeling that those who are making the current 
comments about the progress since the war will end up having to 
eat the same kind of crow they had to eat on the military side 
when they said that you didn't know what you were doing.
    The reason I have that conviction, Mr. Chairman and 
Secretary Rumsfeld, is that I have a memory of Vietnam. And in 
the early days of Vietnam, everything was going well. Your 
predecessor, Secretary McNamara, had the Congress absolutely 
convinced that everything was wonderful. There were only a few 
Senators that disagreed with that. Senator Morse, from Oregon, 
kept referring to it as McNamara's war, but the rest of the 
Congress went along.
    The disquieting thing about that was that the people who 
were on the ground in Vietnam who would come back all said, 
``It's not going well.'' The general opinion in the United 
States was, ``This is wonderful.'' I remember the campaign of 
1964, when McNamara was saying, ``The boys will be home by 
Christmas.'' One of the jokes of that time was, ``Gee, if you 
vote for Goldwater, you'll have 500,000 troops and major war in 
Vietnam.'' And I didn't believe them. I voted for Goldwater, 
and it turned out they were right. We had 500,000 troops. And I 
must have caused it, because I voted for Goldwater.
    But the people who came back from Vietnam kept saying, 
repeatedly, at every level, ``Things are not going right. We 
are being lied to.'' The grunts came back and talked about 
``fraggings.'' The reporters who were on the ground came back 
and said, ``This isn't going the way people said.'' Outside 
observers would go and come back and say, ``On the ground it is 
not connecting with what the leaders are saying.''
    So, with all due respect, sir, as I listen to what you say, 
I want to pay attention to what the people on the ground say. 
And they are coming back and saying, ``The press is lying. And 
the commanders and the Secretary of Defense are telling the 
truth.'' I shared this vignette with the President--I meet with 
the families of the members of the Guard and the Reserve from 
Utah, who are in Iraq, and discovered in that meeting, I hadn't 
known before, that if you go to Iraq and your wife is pregnant 
and scheduled to deliver, you can get a 2-week compassionate 
leave to come home to be there for the delivery. And in the 
group that I met with was a young guardsman whose wife had 
delivered twins. And they were sitting there in the crowd with 
these two babies, less than 1 week old, the wife holding one, 
the GI holding another. And in that meeting was a gentleman who 
wanted to make the point that everything is disaster and was, 
if I might, quoting the CNN line that, ``Nothing's going 
well.''
    This GI, holding this baby, spoke up and said, ``I believe 
in the mission. I'm glad to be there. I'm leaving tomorrow, and 
I'm glad to be going back.'' And then he made the comment, 
``When I got home for my 2 weeks compassionate leave to help my 
wife at the time of the delivery of the twins, I turned on the 
television. And after watching television for one night, I 
turned it off and refused to watch it anymore, because what I 
was seeing was so different from what I was experiencing on the 
ground that it made me angry and ill, and I did not want to be 
that angry in the 2 week time I was home with my wife and the 
family.'' He said, ``I'm going back tomorrow, and I'm glad to 
be going back.''
    I cannot remember any single incident in the Vietnam era 
that came even close to that kind of a report from the people 
on the ground.
    So, Mr. Secretary, I hope you do not become McNamara. I 
hope you do not give us rosy scenarios that can't possibly play 
out. I hope you remain as candid and blunt as you possibly can 
be. But I will gauge your accuracy by the reports I get from 
the people on the ground who are actually experiencing this. 
And I hope you do, too.
    Could you comment on what you are hearing, not from the 
official contacts that want to make you feel like you've done a 
good job, but are you going outside those contacts and hearing 
from people directly on the ground?

                        BEING CANDID ABOUT IRAQ

    Secretary Rumsfeld. Senator, I was in Congress during 
Vietnam and remember it well. And I think there are a whole 
host of people in the Department of Defense who remember it and 
are determined not to repeat that experience.
    I have bent over backwards trying to be as forthright and 
candid and accurate and balanced in how I've characterized 
what's taking place.
    Senator Bennett. Thank you.
    Secretary Rumsfeld. I guess time will tell.
    Senator Bennett. Thank you.
    Since I've been in the Senate, I have heard Iraq discussed 
by various Secretaries of Defense. The first one who told us 
that we had to act militarily or we would be in danger of 
attacks on Americans was Madeleine Albright. And I remember the 
somewhat chilling briefings that she gave to us in S-407 on 
this subject. And it has gone on from that time forward.

                IMPORTANCE OF INFRASTRUCTURE TO SECURITY

    There have been references made to the infrastructure. Is 
it not a fact that infrastructure is directly tied to security? 
That is, for example, if the electricity doesn't work, we're 
the ones that need the lights. Our troops are the ones that 
need the lights. If the roads are impassible, it's our vehicles 
that are impeded as they attempt to get to the firefight to 
protect people. Aren't these two absolutely inextricably 
connected?
    Secretary Rumsfeld. There's no question but that as the 
difficulties with electricity and water, particularly, 
sanitation, and infrastructure, as those difficulties exist, 
the security problem is worse. And the reverse is true. To the 
extent those issues are addressed and improved, the 
circumstance of the people is better and the security improves.
    Senator Bennett. Final comment, Mr. Chairman. Thank you for 
your courtesy.
    I, last night, turned on the television, and it's still 
going on. We are winning the reconstruction--we are losing the 
reconstruction on CNN, but we are still winning it on FOX.
    Chairman Stevens. Senator Murray is recognized for 8 
minutes.
    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Secretary, I think you know that some of the intensity 
of this hearing is a reflection for many of our constituents 
who are very concerned that the cost of this at a time when our 
own economy is struggling and people are losing their jobs in 
our own investment, infrastructure investment, here at home is 
not being made. So a lot of people are asking us what this $87 
billion is going to do. Will it bring about security? I think 
you're rightfully arguing that without stability in these 
countries, these countries will be a breeding ground for future 
terrorism. But I think what many of us want to hear is that the 
investments we're making will make a difference in those 
countries. We want to know what the plan is, what we're going 
to see 1 year from now, how we measure success.

                   PROTECTING VULNERABLE POPULATIONS

    And you've rightfully stated we haven't been in Iraq very 
long. But we have been in Afghanistan for almost 2 years, and I 
am increasingly concerned by what I see coming out of there, 
particularly for vulnerable populations. I've seen a report by 
Human Rights Watch that says army and police troops in 
Southeast Afghanistan and Kabul City are kidnapping Afghans, 
holding them for ransom, breaking into households, raping 
women, girls and boys, extorting shopkeepers, on and on. I hear 
a deep concern about women and girls being targeted, and, 
frankly, many families now keeping their young girls home and 
out of school. And I'm concerned that the atmosphere of 
violence, along with the resurgent fundamentalism in parts of 
Afghanistan is really endangering the important human rights 
improvements since the end of the Taliban, and that's the 
ability of girls to go back to school.
    Can you tell me how the security plan, the money you're 
asking for in both Iran and Afghanistan, specifically will 
protect vulnerable populations like women?
    Secretary Rumsfeld. You're quite right, of course, that the 
vulnerable populations are the first to suffer as circumstances 
become less stable. The area you've described in Afghanistan 
has been and remains the most difficult area along the Pakistan 
border, the southeastern portion of the country. You're also 
correct to point out that there have been some resurgents and 
regrouping of some Taliban.
    On the other hand, as that's occurred, it's given General 
Abizaid and his forces an opportunity to go in and deal with 
them. And they have had significant successes in the recent 
period.
    John, you may want to comment on that.
    General Abizaid. Senator, the situation in Afghanistan, of 
course, has a significant security difficulty associated with 
it in and around the Afghan/Pakistan border area. We've only 
got 10,000 troops in Afghanistan. You know we also have ISAF. 
That's in the Kabul area. And while we have made a lot of 
progress militarily in Afghanistan, it's also clear to us that 
we have got to couple not only military progress, but also 
economic and political progress in Afghanistan with some 
forward momentum to expand the ability of President Karzai to 
have more control over the complete country.
    This will take some time. It'll take some dedication of 
international and United States interagency effort. We've got a 
plan. I believe it's a good plan. Again, it cannot be done 
cost-free, and I think the investment that is in this 
supplemental that will allow that to move forward will not only 
address military needs there, but also the more important 
economic and political movements that have got to go forward. 
It is fair to say that the situation in Afghanistan is one that 
requires our prompt attention.
    Senator Murray. And I think what concerns a great many 
people is, it's clear that it's going to take a long-term 
investment. We're asking for $87 billion now. What is it going 
to be in the future? How long do we have to be there? And, 
again, when our own country is struggling, that is why you are 
being asked for a plan that really shows us that we're going to 
have stability and that it comes about.
    Mr. Secretary, on September 7 President Bush said that we 
will help Iraqis restore basic services, electricity and water, 
build new schools, roads, and medical clinics. This effort is 
essential to the stability of those nations and, therefore, to 
our own security. On Monday, Ambassador Bremer testified before 
this committee saying that security is the first and 
indispensable element of the President's plan. Those statements 
suggest to me that the administration draws a correlation 
between the types of physical and social infrastructure 
improvements and a reduction in violence and terrorism 
emanating from those countries. I assume that's a fair 
statement.

               COMBINING POLITICAL AND ECONOMIC PROGRESS

    Secretary Rumsfeld. It is, Senator. We do believe the 
political progress has to go along with economic progress, as 
well as security improvements.
    Senator Murray. Well, beyond Afghanistan and Iraq, where we 
obviously currently have a large presence and where obtaining 
the goodwill of the native populations is essential to our 
success, there may be other areas where we need to make the 
same kind of impact. Is it your sense that we should be 
exploring this kind of approach for other nations where there's 
a highly developed terrorist infrastructure?
    Secretary Rumsfeld. The United States Government has 
approached the world terrorism problem in differing ways 
depending on the circumstance. For example, in the country of 
Georgia, we provided some train-and-equip assistance to them so 
that they could do a better job dealing with that problem. In 
the case of the Philippines, where the Abu Sayyaf terrorist 
group has been active, we've assisted the Philippine military 
in some training, as well as providing some infrastructure 
assistance, particularly on Basilan Island, with good effect, 
I'm told--that the wells that were dug, the roads that were 
provided not only helped the Philippine military to do a better 
job of dealing with the Abu Sayyaf in that area, but in 
addition it improved the circumstances for the people on that 
island, and that has had a beneficial effect.
    So I don't think there's one size that fits all. I think 
that the pressure that's being put on terrorists throughout the 
world, with a 90-nation coalition, has been effective in many 
respects--in sharing intelligence, putting pressure on their 
finances, bringing all elements of national power to bear, 
making it more difficult for them to move from country to 
country, making it more difficult for them to transfer funds.
    And you never can be sure that you are going to stop every 
kind of terrorist attack. And we know there have been terrorist 
attacks in the last 6, 8, 10, 12 months. But what we can do is, 
by keeping that pressure up and doing it in ways that seem 
appropriate from country to country, we can do the best chance 
of protecting the innocent men, women, and children that 
ultimately suffer from the terrorist----
    Senator Murray. And part of that----
    Secretary Rumsfeld [continuing]. Attacks.
    Senator Murray [continuing]. Is infrastructure improvement, 
whether it's schools or roads or----
    Secretary Rumsfeld. It can be.
    Senator Murray. Thank you, Mr. Secretary.
    Chairman Stevens. Thank you very much, Senator.
    Senator Craig is recognized for 8 minutes.
    Senator Craig. Mr. Chairman, thank you.
    Mr. Secretary, Generals, I, like many here, want to 
congratulate you on the successes of our men and women in 
uniform and the tremendous dedication that they demonstrate and 
are continuing to demonstrate. I, like many of us, have visited 
with those who have been there and some who are still there, 
and I, too, am struck with their energy and their intelligence, 
their dedication, and their recognition that what we're doing 
there is the right thing.
    Possibly, Mr. Secretary, General Myers, and others, you 
might comment on these thoughts. While some have tended to 
belittle 32-country Coalition that is engaged in Iraq, largely 
because of their size or maybe their capability, I experienced 
something during the war, at least during the active fighting, 
that told me a great deal about why many of them are there. By 
my limited calculation--and I haven't taken out a map, Mr. 
Secretary--I've calculated that of the 32, 14 of those nations 
have somewhat newly emerged out from behind the Iron Curtain. 
The taste of freedom is still very sweet within their lips. And 
they have, for the first time in a long while, had the 
opportunity to go their own way, have a representative form of 
government, and, most importantly, express freedom. I believe 
that's why they're standing with us today in Iraq, in part.
    This spring, I was in Romania. I met with the president and 
the prime minister, flew to--well, drove down to the Black Sea 
to an airbase that we were trafficking some of our folks 
through into Iraq because of the Turkish situation. I must tell 
you that the Romanian Air Force was so very proud to be a part 
of this in the limited way that they could be a part. They 
could offer us their physical facilities. We were investing 
there. We were investing there for our own purposes and for 
human comfort and facilitating purposes.
    I held a mini town meeting there of Idaho folks, very proud 
men and women in uniform who were en route to Iraq. The 
commander of the air force for Romania flew down and picked me 
up in an old Russian airplane that was bolted and wired and 
fused together, but he was mighty proud. I have a feeling that 
it is that sense of freedom--new freedom, not the old freedom 
of Central Europe, that many of those folks feel today--and, in 
their limited ways, they're giving to us and helping us against 
terrorism because of that.
    You've mentioned, Mr. Secretary, Georgia and our 
relationship there. Well, Georgia's on the list, newly having 
emerged from a great period of tyranny and dictatorship and 
suppression. Lest we not forget, and I think we've not 
forgotten, that's why we're in Iraq, that's why our President 
is as committed as he is, and it's why we are, it's why we've 
supported him. I trust it's why we will continue to support him 
and you and our military, and coincide with that, obviously, 
the kind of infrastructure development that is necessary.
    Now, having said that, I have a job of accountability. I am 
expending a limited resource. I am expending the tax dollars of 
the citizens of my State and the Nation. And accountability is 
critical, and we all have to be held accountable, as you will 
be and must be. And I would hope that as we work our way 
through these processes that there is a way for us, not beyond 
the large plan that Ambassador Bremer has placed before us, but 
in a more clearer timeline plan and success accomplishment 
plan, able to track and hold accountable where we're going and 
how we're going to get there.
    Now, I know the risk, that when you set a timeline and you 
don't make it, you obviously are judged from it. And we all 
understand. And timelines have slipped on occasion. But I do 
think that these kinds of experience, kinds of measurements, 
are valuable. I think the citizens of my State, while they are 
strongly behind what is going on at this moment, have some 
apprehension, have some frustration, want to have a clearer 
understanding of what is transpiring, not only because their 
sons and daughters are over there--that's the first concern--
but, secondarily, in a time of flat economies and large 
deficits, we are expending a phenomenal amount of money. And I 
do believe that the citizens of my State, and, I think, this 
country, are willing to make the investment in a way that will 
hopefully disallow ever another 9/11. That's all very, very 
important.
    So I would trust, Mr. Secretary, Generals, that a way to 
measure--and if you can't get it before that public, bring it 
to us and we'll talk about it publicly.
    Now, let me talk about something else that we will talk 
about publicly, because the message isn't getting out. The 
young man in my office this morning, who is an assistant to the 
Ambassador, he's from Idaho, he's been a friend longstanding, 
he's over there now, he's here now, he was in my office this 
morning. And, Mr. Chairman, he had a little Canon digital 
camera with him, and he said, ``Senator, let me show you the 
pictures that I take in Iraq that the Ambassador hands to the 
press but never makes the evening news here.'' And here were a 
bunch of kids all gathered round, with a little sign saying, 
``We love President Bush.'' I can kind of understand, in 
today's politics, why that doesn't make the front page of the 
New York Times. There was another picture praising the fact 
that Saddam Hussein was no longer in power. I said, ``Where did 
you get these?'' He said, ``Well, this is out traveling around 
the country. And when there is a visible presence of us landing 
in a helicopter, all of a sudden hundreds of kids appear, and 
these signs appear, and I snap their pictures with this little 
digital camera.'' I said, ``Well, get them to us. I'll go to 
the floor of the United States Senate, and I know about 18,000 
or 19,000 C-SPAN junkies. At least we can get it out to them. 
We'll talk about the successes, even though many in the media 
choose not to print them.''
    Yes, I don't deny the responsibility of reporting the 
losses, but I think it is time we also report the successes. 
Instant gratification is, in part, the character of our country 
today. And I suspect that that is part of our frustration.
    As we redefine our foreign policy, and this President is 
doing so in a post-cold war era, we're being caused to redefine 
it probably in a way that we don't want to, but we will and, I 
think, we must. And I do support what we're doing. But I would 
also hope that we could sustain, in a much clearer fashion, a 
measurement of accountability.
    Lastly, my colleague from Pennsylvania spoke to the 
character of our Guard and the need, of course, to have 
sensitivity to them. General Myers, I am pleased with what I am 
hearing from you and the Secretary as it relates to how we 
shape their time and the relationships. Equipment is critical 
for them. Hand-me-down doesn't work if they're going to be 
front-line. State-of-the-art must be obtained so that they can 
train effectively. We're going to use them again and again and 
again, I would guess, in the decades to come as we sustain this 
country's freedoms and as we work with other freedom-loving 
people around the world to sustain theirs or gain theirs. So 
let's not forget how we handle those people and how we 
effectively acquire and utilize state-of-the-art equipment for 
them.
    I thank you. I would trust, Mr. Secretary, that--not just 
in the briefings, but in the factual material you bring to us, 
that we establish a new form of measurement. I know the 
Ambassador is going to try to break down the plan into--I'm not 
talking flash-cards, but I'm talking the sound bites that maybe 
somehow we're able to get out to the American people.

                      NEW MEASUREMENTS OR METRICS

    Secretary Rumsfeld. Thank you very much.
    Just two comments. You're quite right, it's important to 
have metrics. It's also important to have the right metrics and 
not be misled by metrics, as has happened in some other 
conflicts. So we're working on that, and it's difficult to do, 
but we're hard at it.
    I counted 16 countries, Senator, that----
    Senator Craig. Okay, you're two more than me.
    Secretary Rumsfeld [continuing]. That have recently----
    Senator Craig. Close enough.
    Secretary Rumsfeld [continuing]. Achieved their freedom. 
And I agree with you completely that they are highly motivated, 
and our folks are proud to be working with them.
    Senator Craig. Thank you.
    Thank you, Mr. Chairman.
    Chairman Stevens. Senator Feinstein is recognized for 8 
minutes.
    Senator Feinstein. I beg your pardon. Thank you very much, 
Mr. Chairman.
    Mr. Secretary, first of all, thank you very much for being 
here this morning. I'd like to associate myself with the 
comments made by Senator Kohl. I sit as a member of the 
Intelligence Committee. I feel many of the same things that he 
has just verbalized here today. I think, on this side of the 
aisle, still waters are running very deep. That may not be a 
problem for you, but for those of us that have always felt that 
foreign policy, and specifically this kind of foreign policy, 
should be bipartisan, I think there are very strong feelings 
emerging. And my very sincere recommendation would be to pay 
attention to them.
    Many of us believe that we were brought into this on 
grounds that have proven to be very shaky, and that the 
doctrine of unilateral preemption is a flawed doctrine when 
faced with an asymmetric threat. If I'm correct, we will, in 
these two supplementals, for Iraq alone, spend $113 billion--
$51.5 billion in this one, and $62.6 billion in the last one. I 
think that's $113 billion that none of us thought would be the 
cost. As a matter of fact, members of your own Department have 
said in hearings, ``Well, a lot of it would be paid for with 
oil.'' And we now find that that's not the truth.
    And all of us want to succeed. We want our people over 
there to do well, we want to bring them home, we want to see a 
democratic Iraq, if possible. But, just from this Member, I 
think still waters can also flow over the banks and that maybe 
someone should pay a little bit of attention to that. I mean, 
the time comes when we may not be a majority in this house, but 
that doesn't mean we shouldn't be consulted, it doesn't mean we 
shouldn't be meant to be part of it.

               MILITARY CONSTRUCTION SUPPLEMENTAL FUNDING

    So enough of that. I wanted to put on my MILCON hat, if I 
might, on this supplemental and, as the ranking member, ask a 
couple of questions about two things in the MILCON request. The 
first is $500 million for unforeseen and unauthorized military 
construction projects. Now, as you know, we have provided $150 
million for contingency construction in the previous 
supplemental, with prior notification. According to the 
notifications we have received to date, less than a third of 
that contingency money has been spent.
    So my question is, why are you seeking such a large 
additional contingency when only a third has been spent? I 
realize the last supplemental covered only 6 months, but that 
included the invasion, major combat operations, and a great 
deal of uncertainty. Is there any intention or possibility to 
use this transfer authority to build new enduring bases in Iraq 
or elsewhere in the Central Command region?
    Dr. Zakheim. Senator, you are right. We've expended only 
about a third. By definition, of course, the whole contingency 
fund is, in effect, for unforeseen construction. As you would 
recall, the genesis of this fund was that there were a lot of 
construction-type operations that were being funded out of 
operations and maintenance (O&M) funds. There was a lot of 
concern here and in the other Chamber about that, and we all 
agreed that the best way to do this was to create a contingency 
fund.
    Now, it is not only the fact that that $150 million was 
really covering only 6 months. It is also that a lot of the 
construction had already been done previously, a lot of it with 
O&M money, as you recall. So essentially what we said was, ``if 
you look at the totality, then $500 million, again, for 
unforeseen projects--and it is only authority; we are not 
asking for the money, so funding would have to come out of 
other DOD programs--$500 million seems a reasonable estimate.'' 
This in no way connotes that we are intending to build long-
term construction-type facilities in Iraq. I certainly have not 
seen anything like that, and I am certain that the Generals 
will say the same thing.

                      CONSULTATIONS WITH CONGRESS

    Secretary Rumsfeld. I'd like to comment on your earlier 
comments, Senator, about consulting. I agree with you. I served 
in the Congress, and I recognize the importance that each 
Senator and each Member of the House of Representatives has, in 
terms of representing their people in their national Congress. 
I can't tell you about the whole rest of the Department of 
Defense, but Congress has been in session 24 weeks in 2003. I, 
personally, have been before the Senate, in S-407, to brief 
Members of the Senate, 10 times before the House, 10 times, a 
total of 78 meetings within the Congress, something like three 
a week within the period Congress has been in session, whether 
it's been briefings or hearings or various other types. In 
addition, we've had 30 Operation Iraqi Freedom updates by the 
J3, the J2 and the Office of the Secretary of Defense and the 
Department of State, for all Members between March 19 and May 
5. We have had regular update packages blast-faxed to the 
Members of the Congress. We've had recess packages provided. 
It's been an enormous effort on the part of the Defense 
Department to recognize the importance of each Senator and each 
House Member.
    Senator Feinstein. May I respond to that? Because you've 
done those things. The briefings have been very good. I've 
certainly tried to attend them. We appreciate them very much. 
But it's as if it's a wall. It's as if everything comes one way 
and nothing ever sticks that comes back the other way. I'm just 
going to tell you like I see it.
    Secretary Rumsfeld. Uh-huh.
    Senator Feinstein. The briefings go on, but, I mean, we 
could be anybody in those briefings, not United States 
Senators. I mean, it doesn't matter what we think. That's the 
impression that's given. And Peter's coming home to pay Paul 
now, because you've come in for huge money, without a way to 
pay for it, in a war that many of us think was generated for 
the wrong reasons.
    Secretary Rumsfeld. Well, I----
    Senator Feinstein. So that's where we kind of are. I don't 
want to debate that with you----
    Secretary Rumsfeld. No.
    Senator Feinstein [continuing]. Today, but I want you to 
know how we feel on this side. And I think you're seeing it 
come out more and more. We want to be good Americans. We want a 
bipartisan foreign policy. We know that time is tough. We want 
to be with you. But it's----
    Secretary Rumsfeld. Well, I can tell you that----
    Senator Feinstein. There's a feeling that you know it all, 
the administration knows it all, and nobody else knows 
anything, and, therefore, we're here just to say, ``Yes, sir. 
How high do we jump?'' And at some point, we refuse to jump.
    Secretary Rumsfeld. Well, that's, of course, the 
responsibility of each Member of the House and Senate, to make 
those judgements. But I can tell you, it does stick. There 
isn't a time that we meet with Members of the House or the 
Senate that we don't go back, talk about it, learn from it, 
track down questions that are raised and issues that had been 
presented. We consider the time important and valuable, and I 
think that the product of the Department of Defense is a better 
product because of that interaction.

                    UNSECURED IRAQI MUNITIONS SITES

    Senator Feinstein. All right. Now, let me ask you about 
one, if I might. On September 5, I wrote you a letter about 
unsecured Iraqi munitions sites, and I think I mentioned 50. I 
now understand that there are many more than 50. And these 
sites contain Soviet-era munitions, including bombs, bomb 
materials, RPGs, as well as shoulder-launched missiles. And 
I've been given some information and received some photographs, 
as well, of these sites. I'm told that there have been helo 
flights at night, through infrared, that have observed these 
sites being looted and that some of the munitions that blew up 
the United Nations building may well have come from these 
sites.
    Secretary Rumsfeld. I remember that issue, and John Abizaid 
and General Myers and I have talked about--General Abizaid and 
I have talked about it, and he can respond.
    Senator Feinstein. Good.
    General Abizaid. Well, Senator, I saw your letter, and my 
staff provided input that went to the Department, and if you 
haven't received it, I don't know why. You should be getting it 
soon. But I would tell you that you are right, there are a 
tremendous number of sites with ammunition that are in Iraq. 
The biggest ones, we secure. The ones that are known, but 
unsecurable, for various reasons, because of their location or 
because we don't think that the material in them necessarily 
needs to be secured full-time, receive some amount of 
patrolling.
    I'd also like to point out to you that there are also 
stockpiles of ammunition in Iraq that we have yet to find. In 
the third infantry division--or, excuse me, in the fourth 
infantry division area alone, General Odierno told me that he 
has found 3,000 caches of ammunition that he has had to either 
move, destroy, or guard.
    So I would only tell you that there is more ammunition in 
Iraq than anyplace I've ever been in my life, and it is all not 
securable. We have moved probably 70,000 or 80,000 tons of it 
and destroyed much of it. We are securing other amounts of 
ammunition for the new Iraqi army. And there is other 
ammunition that is out there unknown and unsecured.
    I wish I could tell you that we had it all under control, 
but we don't. We're working at it. But the problem with 
explosives and ammunition being used by terrorists and others 
who wish to do us ill is a big problem that will not be readily 
solved.
    Senator Feinstein. Thank you for being up front. I 
appreciate that.
    Thanks, Mr. Chairman.
    Chairman Stevens. Senator Dorgan is recognized for 8 
minutes.

         SEPARATING TWO PARTS OF FISCAL YEAR 2004 SUPPLEMENTAL

    Senator Dorgan. Mr. Chairman, thank you very much. Mr. 
Secretary, I've had some other hearings occurring as well, 
today. I regret I've not listened to all of your testimony, but 
thank you for being here.
    I wanted to ask a question about the request that is made 
of us in two parts, but in the same request it is both military 
and also reconstruction funds. And I asked Ambassador Bremer 
about this, as well. It seems to me that while they are 
requested in order to achieve the same result, they are very 
different types of requests, and I believe that we ought to 
treat them separately.
    Can you tell me why you think they must travel together, 
especially inasmuch as Ambassador Bremer indicated to us 
yesterday that he would have money until January 1. So we have 
from now until January 1, it seems to me, to come up with a 
funding source for the reconstruction effort. Why does that 
need to be done in the next week or 2 weeks?
    Secretary Rumsfeld. Senator, we see them together, because 
we are all--certainly everyone at this table is convinced, 
persuaded, that there's an intimate interaction between 
political progress, economic progress, and security. As you 
know, the bulk of the request is for the Department of Defense. 
A portion, $20 billion, is for the Coalition Provisional 
Authority. Of that portion, a significant fraction is for 
security activities. It's for the Iraqi army, it's for the 
Iraqi police, it's for the site protection, it's for the civil 
defense group, it's for the border patrol. The pieces that are 
not directly for security relate to security. There's a big 
chunk for electricity and for water, things that everyone who's 
doing anything about security needs, plus the very things that 
will determine if--we will not be successful unless the Iraqi 
people are committed to the success of Iraq, and they need to 
see progress, not just in the security side, they need to see 
it, somewhat, in the economic side--that is to say the 
infrastructure side. So we've connected them for those kinds of 
reasons.
    Senator Dorgan. Well, I agree with that goal. My point is 
that Ambassador Bremer indicated that he has money to take him 
to January 1. So we have until that period to finish our work 
on that piece of the supplemental--that is, reconstruction.

                         PAYMENTS ON IRAQI DEBT

    And let me just propose something to you and see how you 
react to it, if I might. I am told the reason the 
administration is requesting taxpayer dollars for the 
reconstruction of Iraq is because Iraq has very large 
overhanging debt, and the oil revenues, which will be about $16 
billion a year, exported oil revenues, beginning next July, at 
a $3 million barrel-per-day rate--if we're talking about $16 
billion per year, that's $160 billion in 10 years. The reason 
that would not be used to reconstruct Iraq--which would be 
logical to me, use the oil under the sands of Iraq to 
reconstruct Iraq--is because it has large overhanging debt. 
This is debt incurred by Saddam Hussein's regime, the two 
largest portions of which are to Saudi Arabia and Kuwait. 
Included in addition to that are Russia, Germany, France, and 
so on.
    The newspaper reported that Ambassador Bremer said the 
largest debt was owed to France and Germany and Russia, but 
that is not the case. In fact, the largest debt is owed to 
Saudi Arabia and Kuwait.
    Wouldn't it be the height of irony if the U.S. taxpayer is 
paying for the reconstruction in Iraq while Iraq oil is 
producing revenues so that the Iraqi people can reimburse 
Kuwait and Saudi Arabia for debt incurred by Saddam Hussein? 
That is a byzantine construct that I personally don't support. 
And I believe that, if you think through this, the ability to--
--
    Secretary Rumsfeld. I wouldn't want to leave the impression 
that's what's going to happen.
    Senator Dorgan. Well, that is exactly what's going to 
happen if the American people pay for the reconstruction of 
Iraq, and Iraqi oil is producing revenue at the rate, beginning 
next July, of $16 billion a year but that revenue can't be used 
because of the overhanging debt, the bulk of which is owed to 
Saudi Arabia and Kuwait. That is exactly what'll happen.
    Secretary Rumsfeld. Senator, I'm--this isn't my area of 
expertise, but my understanding is that any debt repayments 
have stopped. They have been put off under an international 
agreement until sometime in 2004. And the plan is that, between 
now and then, there would be a significant debt restructuring 
conference that would take place. And I think you can be 
certain that there is no intention that U.S. taxpayers' dollars 
are going to go to pay off Saddam Hussein's debt.
    Senator Dorgan. All I can tell you is that when I asked 
Ambassador Bremer about this specifically, he indicated the 
reason Iraqi oil would not be paying for Iraq reconstruction is 
because of the claim against Iraq for a debt that has been 
incurred. Now, it seems to me that if Kuwait and Saudi Arabia 
want to collect a debt incurred by Saddam Hussein, they ought 
to go find Saddam Hussein and present him with a bill. It 
doesn't seem to me like the people of Iraq ought to bear the 
burden of that debt, number one. And, number two, if they do 
not, then the Iraq oil revenues will be sufficient to pay for 
the reconstruction of Iraq.
    And let me make one more point. Ambassador Bremer also said 
this. They are constructing a mechanism inside Iraq to begin 
funding for their government. And he was very proud of the fact 
that they've constructed an income tax which will impose a top 
rate of 15 percent on those in Iraq with the highest incomes. 
Once again, a circumstance would exist where Americans paying 
39 percent tax rate at the top will be paying money to 
reconstruct Iraq that has a tax system with a top tax rate of 
15 percent. And it'll also be the case, if what Ambassador 
Bremer said is the case, that the oil revenues will be used to 
pay the nations that hold the debt instruments--or credit 
instruments, rather, particularly Saudi Arabia and Kuwait. None 
of that makes any sense to me.
    And if we have until January 1 to deal with this, what I 
believe we ought to do is give all the money that is necessary, 
that is requested, to do the job here, but--or provide that 
money--but do it in a way that is vastly different than is 
suggested by the administration with respect to the issue of 
reconstruction. Securitize the oil revenues, collateralize 
them, raise the money, let Iraq oil provide the reinvestment or 
reconstruction in Iraq.

                      WHEN CPA FUNDS WILL RUN OUT

    Dr. Zakheim. If I could take some of those on, Senator. 
First of all, as I understand it, the money is only available 
until January, if we do not do anything in particular with 
respect to the security forces. All the things that Secretary 
Rumsfeld just spoke about--the police, the border guard, the 
civil defense, the force protection, and the new Iraqi army--
none of those were in the calculus when Ambassador Bremer said 
he runs out of money in January. If you start doing those 
urgent things immediately, and we have to, then the money is 
going to run out quite a bit sooner. The same with electricity. 
If you are going to put in the level of effort that is required 
immediately, your money runs out sooner. Right now, the money 
that is available is not going to cover those urgent 
requirements.
    Senator Dorgan. Well, then I guess, Mr. Chairman, I have a 
misunderstanding of what we have here. I need to see the plan 
that has the spend rate that describes the need for spending on 
electricity outside of the authority that Ambassador Bremer has 
between now and January 1. He was asked directly the question 
yesterday, ``The money that you have''--and we have committed a 
substantial amount of money, as you know--``The money you have, 
a certain amount of it, is still available. How long is that 
available to you? When do you run out? When do you need urgent 
supplemental money in order to deal with things you need to 
deal with?'' His answer was that he has that money until--he 
will run out of money on December 31.
    Dr. Zakheim. As long as he just continues with the projects 
that he had already budgeted for. The projects, such as the 
security projects, were not budgeted for in his original sum.
    Secretary Rumsfeld. I'd like to say one other word about 
reconstruction. The words used, the implication is that Iraq's 
going to be restored or reconstructed to some level. And I've 
always found that difficult to get my head around. Some people, 
I think, probably hear it, and they think, well, it's going to 
look like New York City. Or some people think, well, it's just 
going to get back to pre-war, because there was a lot of war 
damage.
    There wasn't a lot of war damage. What that country is 
suffering from is 30 years of a Stalinist-type economy and 
starvation of the infrastructure of the needed investments. 
That is not the obligation of the United States of America to 
repair that. That's a different thing.
    The World Bank, I'm told--I haven't seen the document, but 
I'm told that they--first, they're an international 
organization--estimated that Iraq's going to need something 
like $50 to $75 billion. Another one said something like $61 
billion. The $20 billion that is being proposed in this 
supplemental is not to reconstruct Iraq. It is to take care of 
the urgent security situation now so that U.S. forces can 
transfer the security responsibilities to the Iraqi people over 
a relatively short period of time. It's going to take 
international donors, it's going to take the Iraqi oil money, 
it's going to take the frozen assets, it's going to take the 
Oil for Food funds. All of those sources are going to have to 
be available, and the $20 billion is not going to reconstruct 
Iraq.
    Senator Dorgan. Mr. Chairman, you've been generous with the 
time. Let me just point out that included in the $20 billion is 
restoring marshlands and a whole series of things that don't 
exactly represent urgent, immediate needs. That's the point of 
it.
    Secretary Rumsfeld. That's true. A large portion is 
electricity and security and water, all of which are central. 
And, you're right, there's some other items.
    Chairman Stevens. Senator Durbin is recognized for 8 
minutes.
    Senator Durbin. Mr. Secretary, I hope you can remember, in 
your early days in the House, when you were so low in seniority 
that you waited for 3 hours to get a chance to finally ask a 
question, but I'm glad that I do have this chance. I welcome 
you and all who have joined you today, and I hope that I'll be 
mercifully short in my questions, and you the same in your 
answers.
    Let me say, when I cast that vote last October against the 
use-of-force resolution, I did not doubt two things. I didn't 
doubt that Saddam Hussein was a very bad man, and the sooner he 
was gone from the scene, the better; nor did I doubt what the 
performance of the American military would be when called upon. 
And they lived up to every expectation. Our men and women in 
uniform did their very best and, in a very brief period of 
time, brought, I thought, control to a situation which some had 
speculated would take months to bring under control. So I 
salute them, and I salute all of you at the table for your role 
in organizing and well-planning a very, very good military 
operation. And I note that in your statement, your third 
paragraph, you express your gratitude to these men and women in 
uniform, as well.
    I want to take our expressions of gratitude, which have 
come from every member of this committee, from words to deeds. 
I was surprised, when we got into this, to ask and learn what 
combat pay and family-separation allowance was for members of 
the military. In fact, when I'd go around Illinois and I'd ask 
people, ``What do you think we pay for combat pay for someone 
who is literally putting their life on the line?'' People would 
guess, ``$1,000 a day? How much do you pay?'' You know, ``It 
must be a lot if they're going to risk their lives.'' Well, 
combat pay, imminent-danger pay, was $150 a month.
    ``And how about family-separation allowance? Guardsman, 
Reserve, others removed from family circumstances, out of their 
job, what is family-separation allowance? How do you make up 
for the spouse at home with the children under these 
circumstances? What do you think family-separation allowance 
is?'' And they would say, ``Well, it has to be at least $1,000 
a month.'' It was $100 a month.
    Combat pay, $150. Family-separation allowance, $100.
    I came in with an amendment when our Defense appropriation 
bill or supplemental bill was before the Senate, and asked to 
increase each to $400 a month, and I thought it was totally 
justifiable. And I spoke to the chairman of the committee, 
Senator Stevens, and Senator Inouye and others, and we finally 
reached a compromise, understanding it was an appropriation 
bill. We said we're going to raise combat pay to $225 a month, 
and family-separation allowance to $250 a month. And we said 
we'll leave it to the authorization committee to decide just 
what to make in terms of permanent law.
    I come before you today, Mr. Secretary, with a great deal 
of discomfort over what's happened. We raised those levels, and 
those levels that we raised them to will expire on October 1. 
There is pending an authorization bill that would make 
permanent law increases in combat pay and family-separation 
allowance. The administration has given us conflicting reports 
on where they stand, where you stand, on this. At one time, 
they said, in the Statement of Administration Policy, they were 
opposed to these increases. Then they came back and said, ``No, 
we favor these increases.'' Now there's the third option. And 
the third option is to remove the increases in combat pay and 
the increases in family-separation allowance, but to increase 
hardship pay only for those troops in Iraq and Afghanistan.
    I think this would be a serious mistake. How in the world 
can we justify activating all these Guardsmen and Reserves, 
removing them from their families and saying, ``If you don't 
happen to be assigned to Iraq or Afghanistan, we're going to 
revert back to $100 a month family-separation allowance''?
    Chairman Stevens. Senator----
    Senator Durbin. It's----
    Chairman Stevens. Would the Senator yield to me right 
there?
    Senator Durbin. On your time?
    Chairman Stevens. That extension is in the continuing 
resolution that the House will send us tomorrow.
    Senator Durbin. It's my understanding that we have a 
proposal--and I'd like to ask the Secretary--that we remove the 
increases and go back to an increase in hardship pay, which is 
a discretionary increase.
    Mr. Secretary, which is it?

                          SPECIAL MILITARY PAY

    Dr. Zakheim. It is true that we are extending the family-
separation and the imminent-danger pay through the end of the 
year. At the end of the year, we go with the increase in the 
hardship pay, and that is, in fact, for Iraq and Afghanistan.
    Senator Durbin. Well, Mr. Chairman, there's your answer. So 
the increase in combat pay from $150 to $225 is eliminated, and 
the increase in family-separation allowance from $100 a month 
to $250 a month is also eliminated. And, instead, there's an 
increase in hardship pay of $300 a month, but only for two 
theaters, Iraq and Afghanistan.
    We can give all the speeches we want about our respect for 
men and women in uniform, but I find it unconscionable that we 
are going to say to so many thousands who have been activated 
that they are not going to receive an increase in family-
separation allowance, that it will be eliminated. How can that 
help morale? How can that say that, beyond our speeches, we 
really do care about these men and women in uniform?
    Dr. Zakheim. Let me just add that in the case of the 
hardship pay, that is across the board. The family separation 
allowance, as you know, deals only with those who have families 
to separate from, so this supplemental removes a certain 
inequity, as well. Finally, the clear emphasis of this 
supplemental has been on the Iraq and Afghanistan theaters. 
That has been the case across the board, and that is why it is 
being applied here.
    Senator Durbin. Well, I disagree completely. And to say 
that you're removing an inequity--the inequity is that someone 
happens to leave a family behind. And we have been conscious of 
that family left behind since we established this family-
separation allowance in 1970, at $30 a month. I just don't 
think this is fair to military families. And to say that 
increasing the hardship only two theaters means that an 
activated Guardsman out of Illinois who is sent to some other 
place to take the spot that an active soldier may have today so 
that active soldier can go to Iraq or Afghanistan, that 
activated Guardsman or Reservist is not going get the family-
separation allowance, that is unfair.
    I would like to say, Mr. Secretary--I'd like to ask you 
this question. A lot has been asked and said----
    Secretary Rumsfeld. Can I just--my understanding is that 
the executive branch had an arrangement with the legislative 
branch that the supplemental would be restricted to Iraq and 
Afghanistan. And it seems to me that the point that Dr. Zakheim 
makes really does suggest that we conform to the requirement. I 
could be wrong on this.
    Senator Durbin. You're right about that, but the Defense 
conference only funds this for 3 months. So what's going to 
happen--what I've just described is going to happen, and it's 
an administration decision, and I think it's the wrong one, and 
I think you're going to hear about it, as you should.

                    NO-BID CONTRACT FOR HALLIBURTON

    May I ask you a second question? And that is, this whole 
episode involving a no-bid contract to the Halliburton 
subsidiary. This has been a source of embarrassment to, I hope, 
the administration and to our country, and perhaps to those who 
view us from overseas. Mr. Secretary, at some point along the 
way, did someone step back and say, ``You know, we ought to 
think twice about a no-bid contract to a company which formerly 
employed the Vice President''? Was that a source of concern to 
you, that it did not appear to be on the square and perhaps a 
little more thought might have been given to it?
    Secretary Rumsfeld. The two issues have been raised with 
me. One was a Bechtel contract, and one was a Kellogg Brown and 
Root contract. And I'm sure Dov Zakheim has better information 
than I do, but I was advised that the Halliburton contract for 
oilfield restoration is currently in the process of being re-
competed and that no new funds are planned to be awarded under 
the old contract, and the Army Contracting Authority is 
expected to award a new re-competed contract about October 1, 
in 1 week or so.
    My understanding of the contract is that originally it had 
been competed, and that it was a contract that was for 
emergency-type activities of the very nature that it was used 
to fund in this case for a short period of time, and that that 
was what was done.
    The Bechtel contract--that was a Corps of Engineers 
contract--the other contract that gets raised from time to 
time, I'm told, and we've looked into it--is an AID contract 
with Bechtel that was used for infrastructure. And this 
contract, which does use appropriated funds to rebuild non-oil 
infrastructure was not a sole-source contract. Six companies 
were offered the request for proposals, and the award was made 
after evaluation of their submissions.
    Again, that contract, however, is going to be competed for 
any new work to be accomplished after the November/December 
time frame.
    Senator Durbin. I'm happy to learn that what we have read 
and heard about has led to a greater sensitivity from the 
Department of Defense. I don't understand how they could walk 
into this situation and not understand the appearance of 
impropriety in giving a no-bid contract to a Halliburton 
subsidiary, and one that had the potential, I understand, over 
2 years, of $7 billion being awarded to this company. But the 
fact that no more funds will be given to Halliburton 
subsidiaries until there is a competitive bid, I think is 
progress, and I salute you for that change.
    Thank you, Mr. Chairman.
    Chairman Stevens. I might say to the Senator that we did 
look into this, and that was a competitive bid in the 
beginning. And it's not something in response to--in 
sensitivity, it's a response to the law. The law requires a 
competitive bid, and that law was complied with. We've made an 
investigation into that.
    I'd like to use my time now to discuss the process we're 
going through.
    During the debate on the 2004 bill, my distinguished friend 
from West Virginia continually asked me and asked the Senate 
why the 2004 bill contained no money for the Iraq war. As a 
matter of fact, when the budget was before the Budget 
Committee, Senator Feingold had offered an amendment for $100 
billion to finance the Iraq war, to be put into the budget. 
That was not the case. The President presented us a peace 
budget for 2004 for the Department of Defense. And we were told 
we would get, and we have gotten now, a request for 2004, on an 
emergency basis, to fund all the activities related to Iraq and 
to Afghanistan. This does do that. It is in response. I agreed 
with my friend from West Virginia on the floor at the time, and 
agreed that the practice in the past was wrong.
    In the past, the Presidents have taken, from the O&M 
accounts primarily, but from almost all the accounts of the 
Department of Defense, used those for emergency purposes, and 
later the Congress replaces the money and it then goes back 
into the accounts from which it was taken. That leads to 
questions such as Senator Feinstein had, What happened to 
MILCON money? The MILCON money was in the supplemental, went 
back to pay back the O&M account, and, therefore, there was 
very little of it left to go forward and deal with the problems 
for the future.
    There's been questions asked about some of the items in 
this proposal. For instance, the FBI money. That FBI money is 
directly related to counter-terrorism activities, and it's to 
investigate bombings and attacks on American and Coalition 
installations and for force protection.
    After the U.S.S. Cole was attacked, dozens of FBI agents 
went to Yemen to investigate. In this situation in Iraq, they 
have gone to investigate the U.N. bombing. And we recently 
captured, as a result of their activities, the mastermind of 
the Cole attack.
    The request before us includes funding to improve troop 
habitation and basic living conditions, including new latrines, 
mess facilities, air conditioners, water-purification 
equipment, improved postal services. Also, there are funds for 
morale, welfare, and recreation facilities, like commissaries.
    In addition to that, I have a whole list of the things that 
we have examined, the highlights of this bill. I asked my staff 
to prepare that. This bill now represents considerably less 
than what Senator Feingold thought would be necessary, $100 
billion, but it is $66 billion for Defense.
    It includes $18.6 billion for basic military pay, special 
pay, and entitlements, including $12.5 billion for Reserve and 
National Guard members called to active duty.
    It includes $16.9 billion for increased operational tempo, 
including flying hours, spare parts, ship-steaming days, ground 
operation, and logistical support.
    It includes $8.3 billion for transportation costs to 
support the rotational deployments of personnel by air, and 
major equipment by sea.
    It includes $5.3 billion for procurement, including basic 
soldier gear like night-vision goggles, body armor, and 747 up-
armored Humvees to protect our forces.
    There is an additional portion that is classified within 
that in the research and development (R&D) that I'll not 
discuss here. But we have examined that.
    There's $2.8 billion for depot maintenance of weapons and 
platforms that need service after the wear and tear of combat 
operations in the harsh desert climate, $2.7 billion to improve 
the quality of life and habitability in theater by providing 
decent facilities, as I mentioned, including relief centers and 
base-camp housing units.
    There's $1.9 billion for Coalition support to key operating 
nations, including the cost of a second multinational division 
and the flexibility to pay for a third. The first multinational 
division led by the Polish forces is already in place, as has 
been discussed.
    There's $858 million to finance the logistical 
communications and personnel costs for the Coalition 
Provisional Authority, the CPA, that Ambassador Bremer 
testified before, $658 million for healthcare of mobilized 
Guard and Reserve and for post-deployment healthcare and 
replenishment for the frozen blood stocks for our blood supply 
for emergency purposes.
    There's $600 million for increased fuel costs, $600 million 
for morale, welfare, and recreation support, including a new 
rest and recuperation, an R&R, leave program for those deployed 
for 1 year, improved mail delivery, and recreation and 
entertainment facilities, $412 million for military 
construction, and $73 million to counter-drug trade in 
Afghanistan.
    Now, all of those are in addition to those monies that were 
in the peace budget, the budget to maintain our Department of 
Defense activities worldwide. I do believe that these are 
necessary functions, functions that very much need to be 
responded to by the Congress as quickly as possible.
    Secretary Rumsfeld. Mr. Chairman, may I be excused to 
request that General Abizaid be excused from the hearing? He 
has a hearing on the other side of the Capitol.
    Chairman Stevens. I was just coming to the question of 
whether we need some R&R ourselves here.
    We've been going for 3\1/2\ hours now, and I know Senator 
Byrd has some additional questions. General Abizaid----
    Senator Byrd, do you have additional questions for the 
General? He's scheduled to appear before a House committee in 
20 minutes.
    Senator Byrd. I believe not. But let me thank the General 
for the service he has performed for our country, which he 
continues to perform, for his excellent leadership of our men 
and women in uniform. I have only the highest praise for him 
and the people who serve under him.
    General Abizaid. Thank you, sir.
    Chairman Stevens. Thank you very much, General, for your 
courtesy, and we wish you the absolute best in the future.
    Now, I might inquire, Senator Byrd, we have been going 3\1/
2\ hours. I'm not sure how much time we should take off, but I 
think we should have a little R&R for the reporter. Can we just 
take a 10-minute recess while we determine how much longer 
we're going to go and what the process will be?
    Dr. Zakheim. Senator, would you mind, before you do that, I 
just want to clarify something for the record. I think----
    Chairman Stevens. Can you do that after? The reporter has 
been sitting here for 3\1/2\ hours. I think we'll answer the 
call of nature first.
    Dr. Zakheim. Okay, sir. I yield to nature.
    Chairman Stevens. Mr. Secretary, are you ready?
    Senator Byrd, you're recognized.
    Senator Byrd. Mr. Chairman, can you give us some idea of 
what your plans are, how long you intend to go?
    Chairman Stevens. We're going to continue as long as you 
have questions of these witnesses, and then recess until 
tomorrow. Tomorrow afternoon, we will have a further hearing 
pertaining specifically to the Afghanistan matter, but whatever 
other questions we will have at that hearing. It's going to be 
General Peter Pace, who's the Vice Chairman of the Joint 
Chiefs, and Dr. Dov Zakheim, DOD Comptroller, to answer any 
further questions about the money side of this bill. But with 
specific reference to the Afghanistan items, we have some 
questions.

                         PROJECTED OIL REVENUES

    Dr. Zakheim. Mr. Chairman, before we broke for nature's 
purposes, you said I could come back at you on an issue that 
really does need clarification, if I may, sir.
    Chairman Stevens. Yes, sir.
    Dr. Zakheim. I believe that the Deputy Secretary's remarks 
about oil revenue were mischaracterized earlier, and I wanted 
to clear them up for the record.
    Mr. Wolfowitz said, and here I am quoting, ``In my''--and 
then he broke--``in a rough recollection, the oil revenues of 
that country could bring in between $50 and $100 billion over 
the course of the next 2 or 3 years.'' And I believe the 
Secretary just told you before that we anticipate approximately 
$12 billion in 2004, $19 billion in 2005, and $20 billion in 
2006 in revenues. That adds up to $51 billion. So the Deputy 
Secretary's recollection was very, very good, and I, just for 
the record, did not want what he said to be mischaracterized in 
some other way.
    Chairman Stevens. Thank you for that clarification.
    Senator Byrd?
    Senator Byrd. Well, Senator, I wish that if you had planned 
to go on in to the afternoon, as you apparently do, that my 
colleagues could have been informed of that at the beginning, 
because they might have wanted to follow on with some 
additional questions. They may have thought we were going to 
stop for lunch and then we would come back. I don't know what 
their thinking was--and I say this with respect--but I do think 
that we should have been told that we're going on until we 
finish our questions today. I gather that's what you want to 
do.
    Chairman Stevens. Senator, I'm informed that we did inform 
the minority that we would go straight through as long as there 
were questions. And as I started the beginning, I said this 
would be the first round, and we'd determine how we'd handle 
the second round when we got there. But we had no intention of 
asking Secretary Rumsfeld, Dr. Zakheim, and General Myers to 
stay. We knew that General Abizaid had to leave to meet the 
House hearing. But they have agreed to stay with us as long as 
anyone has questions here today.
    The hearing tomorrow will be, as I said, Dr. Zakheim and 
then the Deputy Chairman of the Joint Chiefs of Staff.
    Senator Byrd. Very well. I don't intend to make a cause 
celebre. It was not my understanding that we're going straight 
through.
    Chairman Stevens. I'm sorry about that. We did inform both 
sides, we thought.
    Senator Byrd. Very well.
    I ask unanimous consent that a statement by Senator Harry 
Reid be included in the record.
    Chairman Stevens. Without objection, so ordered.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    Mr. Secretary, General Myers & General Abizaid: We 
appreciate you being here today to explain this massive 
supplemental budget request. General Myers and General Abizaid, 
as representatives of our uniformed troops, let me express my 
thanks to you and all of our men and women who have performed 
so heroically in the Iraqi and Afghan campaigns. We see each 
day the evidence of their courage and heroism, and I hope you 
will communicate to them at every occasion how grateful the 
American people are for their service.
    Ultimately, I am most concerned, as I know you are, for 
their safety and about when they can finally return from what 
has become a rather long deployment. When we talk here about 
``internationalizing the effort,'' we do so not only to help 
Iraq succeed, we do so in order to take some of the enormous 
pressure off of our young men and women, and reduce the size of 
the bulls-eye, which is today affixed squarely on our forces. I 
am also interested in reducing the burden on U.S. taxpayers, 
who appear to be picking up 90 percent of the tab for this so-
called ``reordering of the Middle East''. Therefore, it is with 
those concerns in mind that I ask the following questions.

    Senator Byrd. Now, I have a second question, Mr. Chairman, 
having to do with procedure here. As I indicated earlier, it is 
my feeling that we should have outside witnesses so that we'll 
get a broad view and a view that may or may not be in 
accordance with the administration's view. I have some 
suggestions, and I could add to the list, but these are the 
people I'm thinking of: U.S. Agency for International 
Development, Administrator Andrew Natsios, OMB Director Josh 
Bolten, retired General Anthony Zinni, former President Jimmy 
Carter, former Representative Lee Hamilton, former Senator 
George Mitchell, former Secretary of State Madeleine Albright, 
former Secretary of State Warren Christopher, former Army 
Secretary Thomas White, Bush administration Chief Weapons 
Inspector David Kay, and the Iraq Governing Council or some 
representation therefrom.
    So I make that request, for the record.
    Chairman Stevens. Senator, I'm glad to have your request. 
It's my understanding that the Foreign Relations Committee will 
have outside witnesses, and they have started that. It's my 
understanding that the Armed Services Committee is holding 
hearings. I don't know whether they'll have outside witnesses 
or not.
    This is a hearing on the request, the specific request, of 
the President and the justification for that request. I do not 
intend to call any outside witnesses, as I said before, and I 
have never seen an outside witness on a supplemental request 
before.
    Senator Byrd. Well, I'm not here to argue that, but I can 
remember that last year you and I joined in inviting outside 
witnesses on a supplemental request, and we had seven 
Department heads in addition to the Director of the Federal 
Emergency Management Agency (FEMA). We had Governors, mayors, 
and, I think, some county commissioners. We had a broad array 
of outside witnesses.
    So, even that aside, whether or not we had ever had outside 
witnesses would not rule out the necessity of our having that 
viewpoint expressed in this instance. It is my feeling that, 
inasmuch as we're launching down a long road here which entails 
reconstruction efforts, which the American people were not told 
about, and which entails the establishment of a democracy in 
Iraq, and the democratization of the whole Middle East, we need 
other than administration witnesses.
    I make that request, most respectfully.
    Chairman Stevens. Well, again, Senator, very respectfully, 
I know all the men that you've mentioned, and Madeleine 
Albright. They are all addressing policy questions that are not 
before this committee. This committee is responding to a 
request for emergency supplemental appropriations, and I don't 
know that any one of them know one thing about the needs of the 
military in Iraq right now or the needs for the Department 
right now for money.
    The policy issues are different matters, and the other two 
committees have those policy issues before them. They may come 
out with new plans, or whatever. I don't know. Whatever money 
we put up will be subject to the laws that will be enacted by 
the Congress. And the President, of course, has the right to 
say whether he's going to approve such bills, should they be 
passed.
    But we do not have in front of us a policy bill. We have in 
front of us a bill requesting money for specific emergency 
purposes to conduct this war, and it is in the form requested 
by yourself, Senator, when you asked the President to submit a 
definite plan, a request for money for Iraq. This is exactly 
what you sought when we examined the DOD bill for fiscal year 
2004. It was not in that 2004 request, and the President has 
submitted a request. It's less than some people expected, but 
it is an enormous amount of money, I will agree with that.
    But we do not have the policy issues that those gentlemen--
I don't know what--I have great respect for the former leader, 
George Mitchell. Why should he come in and give us his opinion 
on this money? I don't see that. Opinion is going to be made up 
by the Members of the Senate as to whether or not the money's 
appropriated, not by former Senators.
    Senator Byrd. He knows a great deal about the Middle East 
and about the issues involved there.
    So much for that. But I should add that, while other 
committees determine policy for the most part, we also 
determine policy by the appropriations that we make, and we 
need to have a determination of some policies as we go along in 
making appropriations here for the democratization of the 
Middle East and for establishing a democracy in Iraq and for, 
not just reconstruction, but for construction of facilities in 
Iraq that, I think, in many instances, may be better, far 
better, than what they had to begin with and, in some 
instances, may be viewed as improvements over what we have in 
our own country.
    I don't want to argue this with you, but I think that it's 
a matter worth consideration that we have people come to this 
committee who do not represent the administration's line. After 
all, we're not just appropriating for the administration, we're 
appropriating on behalf of the American people, and it involves 
their treasure and their sons and daughters.
    I understand that there's going to be a donors' conference, 
I believe, the last of October. Is that true, may I ask?
    Chairman Stevens. Senator, that was Ambassador Bremer's 
testimony yesterday, that there would be a donors conference 
sometime this fall.
    Dr. Zakheim. It will be--Senator, it is going to take place 
in Madrid on October 24.
    Senator Byrd. Yes. I don't know when we're going to adjourn 
sine die, but it would seem to me that we ought to have the 
information coming out of that Madrid conference as to how much 
money those various and sundry countries are going to 
contribute. Perhaps, if we had that information, we would feel 
that we could contribute less than we're being asked for here.
    Chairman Stevens. That may be true, Senator. Does the 
Senator wish to--I wish to proceed now. There are two--Senator 
Brownback has not asked questions yet, and Senator Domenici and 
Senator Cochran are back with additional questions. Does the 
Senator have additional questions?
    Senator Byrd. Well, yes, I have a lot of additional 
questions.
    Chairman Stevens. Would you like to be recognized now, sir, 
for those questions?
    Senator Byrd. I'm afraid it would take a lot more than 8 
minutes.
    Chairman Stevens. Well, you may use 8 minutes and then come 
back again, sir.
    Senator Byrd. Very well. I'll do that.
    I hope that I will not overtax the chairman with my 
questions, or the witnesses. When are the witnesses going to be 
allowed to get a little lunch?
    Chairman Stevens. Senator, I just sneaked a power bar. I'll 
get them a power bar if they want it.
    Senator Byrd. Well, I think you're not being very gracious 
to the witnesses if you just give them a power bar. I think we 
ought to treat our witnesses better than that.
    Chairman Stevens. Well, if the Senator wishes to discuss 
it, I'll be glad to discuss whether the gentlemen wish to have 
a luncheon break. We discussed it informally, Senator, and it 
was my understanding they preferred to just keep going until 
the session is done.
    Senator Byrd. Oh, very well. That's very well. I wasn't in 
that discussion.
    Now, Mr. Chairman, I am shocked by this administration's 
loose talk about a Marshall Plan for the Middle East. Before we 
went into Iraq, President Bush told the country that the 
purpose of the war was to disarm Iraq by removing Saddam 
Hussein from power. At what point exactly did our mission in 
Iraq expand so dramatically that our conversation has shifted 
to bringing democracy and free-market economies to the entire 
Middle East? Talk about mission creep. This is mission creep in 
its most supreme form.
    We're not talking just about reconstructing Iraq, we're 
talking about modernizing Iraq. We're not restoring the country 
to the state it was in before the war, or even before Saddam 
Hussein, we're talking about making conditions in Iraq better 
than they've ever been, and we're trying to do it almost alone, 
out of the pockets of American taxpayers. The administration 
has completely redefined our goals in the Middle East, and they 
speak as if this change were just another unavoidable 
development in the global war on terror.
    The truth, of course, is that this long and costly 
occupation was not unavoidable, and it was not an urgent threat 
in the war on terror. The President chose to initiate this war 
in Iraq based on tenuously constructed links to terrorism. And 
now, the American people are being saddled with an expensive 
reconstruction effort that is distracting the country from 
other real priorities in the war on terror.
    Before we start comparing this reconstruction to the 
Marshall Plan, I think we need to step back a moment and ask 
how we got to this point. The American people have never heard 
debate on whether the President's new objectives in Iraq are 
worthwhile or even realistic, and we should not be afraid to 
challenge this monumental agenda of nation building that the 
President is trying to ram through this Congress.
    The Washington Post, on September 9, carried an article 
that stated as follows, quote, ``On February 26, the day Bush 
said in a speech that bringing democracy to Iraq would help 
democratize other Arab countries, the State Department's Bureau 
of Intelligence and Research completed a classified analysis 
that dismissed the idea. The State Department analysis 
entitled,'' quote, `` `Iraq, the Middle East, and Change, No 
Dominoes,' '' close quote, ``reportedly stated that,'' quote, 
`` `liberal democracy would be difficult to achieve,' '' close 
quote, ``in Iraq and that,'' quote, `` `electoral democracy, 
were it to emerge, could well be subject to exploitation by 
anti-American elements,' '' close quote.
    Secretary Rumsfeld, I'm sorry about my voice, but perhaps 
it'll get a little better as we go along--have you seen this 
study?
    Secretary Rumsfeld. Not that I know of.
    Senator Byrd. Do you know what I'm talking about?
    Secretary Rumsfeld. I don't.
    Senator Byrd. Is it true that there is dissent within the 
intelligence community about whether Iraq could ever be 
democratized?

             DISSENT ABOUT WHETHER IRAQ CAN BE DEMOCRATIZED

    Secretary Rumsfeld. I don't know, but I wouldn't be 
surprised. There generally are differences of viewpoints. The 
intelligence community is broad and deep, and a lot of people, 
as with most people who do analytical work, come to different 
conclusions, and that's a healthy, good thing.
    Senator Byrd. Yes. That's a reasonable answer, too, I would 
say. That's a reasonable answer.
    Why haven't the American people heard about this sooner? Is 
this dissent in our intelligence reports being whitewashed by 
the administration?
    Secretary Rumsfeld. No. The intelligence community has a 
practice of seeking to surface differing viewpoints, so that if 
there are dissents from the majority view in an intelligence 
estimate, it tends to be footnoted and recognized in the 
analytical process.

                    UNIFORM AND EQUIPMENT SHORTAGES

    Senator Byrd. Secretary Rumsfeld, on February 6, I wrote to 
you about National Guard units that were not getting camouflage 
uniforms before being shipped out to the Persian Gulf. The 
final line in my letter to you was, and I quote, ``Further, I 
suggest that you initiate an immediate review to ensure that 
our troops are receiving the proper equipment for the 
environment in which they are being deployed,'' close quote.
    Since then, I have learned that many National Guard units, 
including the 157th Military Police Company of Martinsburg, 
West Virginia, which is now deployed in Iraq, are without the 
ceramic inserts that are needed to maximize the effectiveness 
of their bulletproof vests. This Iraq war supplemental requests 
additional funds for the ceramic inserts, but this supplemental 
comes 6 months after the war began.
    Secretary Rumsfeld, did you initiate a review of the 
equipment that was being issued to our troops, as I called for 
in my letter dated February 6, 2003?
    Secretary Rumsfeld. General Myers has been examining this 
issue and is happy to respond.

                   EQUIPPING THE FORCES BREASTPLATES

    General Myers. Sir, we did respond to your request and 
others. And it's true that the ceramic breastplates, there were 
not enough of them on hand. We have a date, December, when we 
will have enough to equip all the forces in Iraq. It's not a 
question of money, it's a question of capacity to manufacture 
these devices, and we're making them as quickly as we can.
    Senator Byrd. General Myers, you say you did respond to my 
request?
    General Myers. Well, in the general sense that we're well 
aware of the letter and we looked into those issues, 
absolutely.
    Senator Byrd. Well, you looked into one of them. Let me 
read your reply to me. It's over the signature of Thomas E. 
White. ``This responds to your letter addressed to Secretary 
Rumsfeld dated February 6, 2003, in which you expressed concern 
regarding the readiness of our soldiers after learning of 
reports that members from the 459th Engineer Company were 
deploying without desert camouflage uniforms, DCUs. Many 
Reserve component units have been mobilized faster and earlier 
than planned to support potential future operations. In some 
cases, this has resulted in late delivery of the centrally 
managed stocks of DCUs to the unit. I can assure you the 459th 
Engineer Company will deploy with DCUs. DCUs will be issued to 
all soldiers from both the active and Reserve components 
scheduled to deploy to the Central Command area of operations. 
I appreciate your continued interest in the welfare of our 
soldiers.'' Signed Thomas E. White.
    The other parts of the request that I made were not 
responded to. Why was supplemental funding for these important 
items not included in the request sent by the President to 
Congress on March 27?
    Dr. Zakheim. Well, Senator, as you can imagine, the budget 
that was originally sent up was prepared well before then. When 
your letter came in, as the Chairman of the Joint Chiefs just 
indicated, it was responded to, and this was really the first 
opportunity I believe we had to insert into a supplemental the 
kinds of needs that you had correctly identified.
    Senator Byrd. And we'll have enough vests in December?
    General Myers. We have enough vests now. It's the inserts 
that were in short supply. And we'll have that fixed by 
December, sir.
    Secretary Rumsfeld. If I'm not mistaken, General Myers, I 
believe they already have inserts. They're just not the insert 
that is being referred to by----
    General Myers. I think that's right----
    Secretary Rumsfeld [continuing]. Senator Byrd----
    General Myers. That's right.
    Secretary Rumsfeld [continuing]. Which is the ceramic----
    General Myers. That's the----
    Secretary Rumsfeld [continuing]. Insert.
    General Myers [continuing]. Ceramic insert.
    Secretary Rumsfeld. They have the vests, they have inserts, 
but apparently the----
    General Myers. Ceramic insert is better.
    Secretary Rumsfeld [continuing]. The ceramic insert has 
been proven to be better, and, as a result, it is being added 
and replacing the other inserts.
    Senator Byrd. Why has it taken more than half a year to 
provide this vital protective equipment to all of our troops?
    General Myers. I think the--probably the large demand 
overcame, as it did in the case of the DCUs, where they had to 
go back and manufacture DCUs on an expeditious basis. I think 
it was the same sort of thing in this case, the demand just 
exceeded the forecast supply.
    Secretary Rumsfeld. The services, under the law, have the 
obligation to organize, train, and equip their forces, and they 
make judgments about what they think they will need. After 
every conflict, indeed after every exercise, reassessments are 
made as to what they now think, with new information, new 
experience, and new technologies. And so as they go through 
that process, we are constantly readjusting the so-called 
requirements or the needs that are expressed in the various 
services' approaches to it. And they then come in with 
additional changes and adjustments to what they now think is 
the appropriate thing. And I'm sure, in 6, 12 months, we're 
going to find that the current needs or requirements or 
appetites are going to be slightly mismatched, and we'll have 
to then make some adjustments again. That's just the nature of 
the world, as it is with any organization, in terms of 
inventories.
    Senator Byrd. There have also been countless reports of 
active duty, National Guard, and Reserve troops going to 
military surplus stores to buy boots, gloves, and handheld 
Global Positioning System (GPS) satellite navigation equipment. 
They're paying for these items out of their own pockets. Why 
are our troops using their own modest pay to buy this equipment 
when Congress has appropriated to the Pentagon $427.7 billion 
during this fiscal year? How can it be that our defense 
spending is approaching half a trillion dollars a year, when we 
can't provide the right boots for our troops?
    Secretary Rumsfeld. I guess I'll let General Myers answer 
it, but I can begin by ``it's always been so.'' No matter when, 
the people who have to go into an environment are going to 
figure out something that they'd like to have that's slightly 
different than what they were issued, and then they're going to 
go ahead, with their own money or their family's or whatever, 
and supply those things. I've talked to any number of people 
who have done exactly that, and I've seen that phenomenon occur 
over a great many years, as I'm sure Senator Stevens and Dick 
Myers has.
    Chairman Stevens. Senator, I'm going to have to interrupt 
you. Senator Brownback has not had any opportunity to ask 
questions yet. So I'll yield to Senator Brownback.
    But I ran across a photo of my own, Senator, the other 
night, taken as I went from India into China, and I had just 
been to the store and bought boots and bought a different 
holster for my gun and bought a different shirt. It's still 
khaki, but it had been made over there in India. It made us, we 
thought, look a little better. But I remember distinctly 
spending my money as I went on into China.
    Senator Brownback?
    Senator Brownback. Thank you very much, Mr. Chairman. And, 
gentlemen, thank you very much for being here today.
    This is my fourth meeting or hearing with either yourselves 
or Ambassador Bremer this week, and so I'm very appreciative of 
the amount of time that you've given to Congress to fully vet 
and to answer these questions. There's a lot of questions and 
concerns, and I really appreciate your being here and your 
taking the time to do this so carefully.
    One thing, I want to back up just for a couple of minutes 
and remind all of us, is that while some will say this idea of 
Iraq was hatched in the administration or somewhere, I was in 
the Congress, in the 105th Congress, when we put forward the 
Iraq Liberation Act----
    Secretary Rumsfeld. Uh-huh.
    Senator Brownback [continuing]. 1998, that that passed over 
300 votes in the House, passed by unanimous consent in the 
Senate. And what that called for--passed and signed into law by 
President Clinton, what that called for was regime change in 
Baghdad, because we had been fussing around for a long period 
of time with Saddam Hussein. And we were looking at that time, 
and we were working with a number of different people, and 
Iraqi opposition were coming here and said, ``Please address 
this.'' And they pointed to the same situation we're dealing 
with today. The North, Saddam is not running. It's pretty much 
running on its own, separate. The South is completely--he's 
occupying, he's got sporadic control over the South, draining 
the swamps, killing the people, you know, a terrible situation, 
and he has the middle of the country. And so we looked around, 
and we thought, ``What can we do? What can we do?'' We pushed 
the administration at that time, not particularly interested. 
So the Congress, the Congress, comes up with the Iraq 
Liberation Act and calls for regime change in Iraq. And 
President Clinton signed it into law, and we appropriated $100 
million--several years, $100 million--to support the 
opposition, to build up an opposition to Saddam Hussein, worked 
with the administrations to implement that.
    And so if people, you know, say this has a short history to 
it, or that it's just coming up within this last year, this has 
a longer history, and it's the Congress that initiated the 
policy. We're the ones that brought this on forward. And I just 
think it's important that we remember some of the history of 
this and how much the Congress was involved with this.
    We had a number of people. We had Dr. Chalabi in testifying 
in front of the Foreign Relations Committee several times, 
along with other people, the Iraqi opposition, saying, ``Here's 
things that we can do.'' People agreed, they disagreed, but we 
held a lot of hearings and thoughts on this. And so I think 
it's important to remember that.
    I want to say to Secretary and Chief of Staff, I've been to 
Fort Riley a couple of times, in Kansas, and met with troops up 
and down the line, the heads and the enlisted men. And, to a 
person, they are very pleased and honored to have served in 
Iraq. The conditions are tough, and they've really had their 
mettle tested, but they have been very honored to have served. 
And they'll cite to the children that they've helped over 
there, they'll cite to, you know, the kids coming out in the 
street and welcoming them. And I've purposely gone there, 
because the press accounts, so much of it's been so negative, 
particularly since the embedding of the troops have stopped, or 
the embedding of the media. I don't know if you can continue 
that now, and it might help if they could be embedded again. 
But it's just been so negative. And the troops have been--so I 
went over to talk with the troops directly, and they've been 
very positive. It is tough, but it was the right thing, it was 
the thing that we needed to do, and they're concerned about our 
supporting and continuing to support them.
    One item that I would raise with you is, I hope we can help 
some of the families who have lost family members there. And 
it's such a terrible tragedy, but we have a gentleman in 
Kansas, Jacob Butler, who was a soldier that was lost, from 
Wellsville, Kansas. And his family--they're supportive of the 
cause. This has been a tough, terrible tragedy. His dad wants 
to go to Iraq sometime when he can, when it's safe, to the spot 
where his son was killed in combat. And for him it's a part of 
completing the circle here.
    And I hope when the situation becomes safe enough that we 
can do these sort of things, if you're being requested of that, 
that we can work with these families. Because I went to the 
house and met with the family members. I talked with the mother 
and father and the family members. Very supportive of what 
their son did. He's a hero. But they--I said, ``What can we do 
to help?'' And this was the one thing that he asked of me. And 
so I told him, well, we'll try to comply with that whenever we 
can, when it's safe.
    And so I appreciate all your willingness to answer the 
questions that we've put forward. We do have a lot of 
questions. People have a lot of concerns about the size and 
scale of the funds and what they're being used for.
    I would note that once you start down this path, like we 
did in 1998 with the Iraq Liberation Act, removing regime in 
Baghdad, it doesn't end once the regime is out. You've got to 
then go ahead and finish it through or else you leave yourself 
in a situation that's probably going to be far worse long-term, 
because you're going to leave this vacuum, and then people are 
going to come and we're going to have a situation like what's 
evolved in Afghanistan since 1980, when the Soviets pulled out, 
and you'll get a real cesspool of terrorists and drugs that 
will run and control the place. And we just don't need that in 
Iraq.
    I don't like the size of the bill. This is awfully 
expensive. But having gotten into this at this point, if we're 
to complete the task and if we're to spread democracy and human 
rights and freedoms, religious freedoms, throughout that 
region, you've got to see this--we've got to see this on 
through. And this is going to be part of what we need to do.
    I may have some particular questions, in addition to the 
ones I've already used before, that we'll submit to you, but 
I've been very appreciative of your willingness to answer them 
thus far.

                          IRAQI LIBERATION ACT

    Secretary Rumsfeld. Thank you very much, Senator.
    It's helpful to remind us of the Iraqi Liberation Act 
passed by Congress back in the late 1990s. It is a fact. You're 
completely correct.
    Second, it is wonderful that you take the time to visit the 
families of those that have been killed in Iraq. And certainly 
the--it's so understandable that a number of those families 
would want to find a way to have the experience of seeing what 
their sons or daughters were involved in and where they might 
have been killed. And I think that that's understandable, and 
that's something we have to, as the security situation sorts 
out, find a way to achieve.
    Senator Brownback. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Stevens. Senator Cochran, do you have a second 
round of questions?
    Senator Cochran. Mr. Chairman, just a couple of questions.

                      URGENCY OF THE SUPPLEMENTAL

    One is, this is a supplemental that's been presented to 
Congress, and I assume it is a matter of some urgency. To that 
extent, I worry that we may be prolonging the hearing process 
and put in jeopardy our situation in Iraq because of that. To 
what extent are we pressed for time, in terms of consideration 
of this measure? What is the timeline as you see it? When do 
you expect that we need to act before we run the risk of 
putting ourselves in jeopardy?
    Dr. Zakheim. A rough estimate, Senator, probably is no 
later than sometime in the middle of next month, if not sooner. 
The reason I say that is that Ambassador Bremer has indicated 
that he would run out of funds by the beginning of January. 
That is, of course, only an estimate, and it could be worse 
than that. But even with that estimate, he did not account, in 
particular, for the security expenditures, which everyone 
agrees are extremely urgent and which comprise 25 percent of 
his request. So that is something that needs to get going 
immediately, as they say, if not sooner. And clearly action the 
early part of October is probably warranted.
    Secretary Rumsfeld. The sooner that we can get this bill 
passed and we can get the monies invested in the security side 
of it, the sooner we'll have more and more Iraqis assuming 
responsibility for the security of Iraq, instead of Americans 
and Coalition countries.
    Senator Cochran. Well, I need to say that I am impressed by 
the degree to which you are all personally involved in 
attending the hearings--representatives of the military at the 
highest level, the Department of Defense with the highest 
level--before the Senate Foreign Relations Committee, the House 
Armed Services Committee, the Senate Appropriations Committee, 
the House Appropriations Committee, the Senate Armed Services 
Committee, and the House International Relations Committee. 
These are all committees that are having hearings, or have had 
hearings, this week, and I'm hopeful that we can complete 
action so that we will not hold up funding for important 
activities of our Department of Defense.
    The chairman handed me something that he had seen and I had 
not seen. I was glad to look at this RAND Review. And there's a 
special article about James Dobbins here on nation building. 
And it talked about how much more complicated it is when there 
are more than one entity involved in helping another nation 
rebuild. And I'm sure this will be brought to your attention. 
Many factors can affect the success and likelihood of success 
and the time it takes to complete the action. But this is 
something interesting to read, so I bring it to your attention 
in case you run out of things to read in the near future.
    Secretary Rumsfeld. There's no question but that some sort 
of unity of effort is enormously important. If you think of the 
problem in Bosnia and Kosovo and the number of years it's 
taken, part of the reason is that the people with the incentive 
to get our troops out of a country--we don't want to occupy 
countries. We want to help create a stable situation and then 
transfer responsibility to those countries. And the greatest 
incentive to do that are those countries that have those troops 
in there. To the extent you disconnect the development of the 
civil side, the progress on the economic side, the evolution in 
the political system, you separate it from those people who 
have the determination and the requirement to not stay there 
forever, you then end up with a situation where people's 
expectations aren't met, as was the case in Bosnia or Kosovo. 
It's just taken an awful lot longer than people had 
anticipated.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Stevens. Senator Domenici, you're recognized.
    Senator Domenici. Thank you very much, Mr. Chairman.
    I'm very sorry that I had to return and that you have to 
continue to be here.

                 PUBLICALLY PRESENT IRAQ RECOVERY PLAN

    I predicted--but I wanted equal time, so I'm here for equal 
time.
    Now, I have two questions, and I'm going to try to get them 
out there. They are important to me or I wouldn't bother you 
with them.
    First, I am convinced that the American people are still on 
your side. They want you to win that war, and they still--not 
by large margins, but who would expect large margins under this 
kind of situation in a democracy--but by a plurality they still 
say they favor us doing this.
    Now, frankly, Mr. Secretary and General, I believe to 
sustain this acceptance long enough, the American people have 
to be convinced that you have a plan and that you're executing 
it. I believe the single-most important question asked of their 
Representatives and Senators by our people is, ``Well, I'm for 
him, but what's the plan?''
    Now, Mr. Secretary, I urge, as strongly as I can, that as 
soon as possible, 2 weeks, not 2 years, that you put forth, 
under the auspices of the Ambassador and the leader of the 
Iraqi provisional government, the plan. I know you keep saying 
it's there. I've read what's supposedly there. That is a very 
hard plan for people to understand. It wasn't written for 
presentation. I suggest you produce documents for presentation 
to the public, on a regular basis, not more than five or six 
general how--governance, democratization, and capitalism. Then 
set your goals. Infrastructure and public needs--you know what 
they are, they're in the plan, put them on, things that are to 
be put up and stood up, and you can say to the public, ``Here 
is the plan.'' Then you can say to the public, ``We're going to 
tell you about the plan every month,'' or whatever is a 
reasonable time. And I urge, Mr. Secretary, that you literally 
let Americans in on a totally transparent plan as regularly as 
you can, and show the bad breaks and the successes, as you do 
it every month or every 2 months or whenever.
    Now, could I at least get your notion of whether what I'm 
talking about makes sense, and could you do it?
    Secretary Rumsfeld. Well, Senator, it certainly makes 
sense. And the idea that there's no plan is just factually 
incorrect. There has been a plan. There is a plan. Ambassador 
Bremer provided the plans. There are sub-plans under it. For 
example, he provided one on economic infrastructure. There is a 
piece of that that's elaborate for electricity. There's a piece 
of it that's elaborate for water. There's a piece of it that's 
elaborate for oil. It all exists. The problem is, as you 
suggest, it's complicated. It is not readily absorbable or 
communicated through the television in a sound bite or a bumper 
sticker.
    If we're looking for a bumper sticker, a short message, the 
message is, the plan is to transfer responsibility for that 
country to the Iraqi people--the security, the political 
leadership, and the economic control. We've got mountains of 
paper as to how that is being done. How we do what you're 
asking, and that's finding a way that you could tell your 
constituents that this is what's being done, in a simple way, 
so that it----
    Senator Domenici. Well, I think it's you telling Americans, 
not me. You've got to tell Americans, in a simple, transparent 
way, what the plan is.
    Secretary Rumsfeld. Yeah. The plan is transparent, that's 
for sure. It's available. It exists. It has existed.
    Senator Domenici. Mr. Secretary----
    Secretary Rumsfeld. It isn't simple, though.
    Senator Domenici [continuing]. Believe me, believe me, 
believe me, the public does not believe there's a plan because 
you can't sell what you've got. You have to act like--you have 
to hire somebody that says, ``If you had this plan, it's 386 
pages, how would you summarize it and present it so that people 
would understand?''
    Secretary Rumsfeld. That, we have not done. You're quite 
right.
    Senator Domenici. I really believe it's tough.
    Secretary Rumsfeld. It is tough.
    Senator Domenici. It is very urgent. And, you know, I have 
been working hard to make my points with you guys and to--
excuse me, with you people--and to help where I can. And I 
think I know what I'm talking about. It would be a beautiful 
day if the three of you, two Generals and you, stood up and 
said, ``Well, we want the American people now to see the plan. 
It's in five parts, and here it is,'' and take 30 minutes and 
present it, and then answer questions.
    I think what we've got now is--we lose, because we're going 
to get an iteration of all the bad breaks that are happening, 
is going to be the news. And it's already happening. And we're 
lucky----
    Secretary Rumsfeld. That's true.
    Senator Domenici [continuing]. In the last 4 hours, we've 
gotten some good news out of these hearings, but we've got an 
awful lot of negativism that's flown out of it, too, maybe 60-
40----
    Secretary Rumsfeld. Uh-huh.

                 SCREENING IRAQI'S FOR SECURITY DUTIES

    Senator Domenici [continuing]. On the side of negative.
    My last point has to do with--it was clear to me from the 
beginning that you were screening Iraqis too tightly in terms 
of who you would accept as policemen and soldiers, that you 
were saying, ``We don't want anybody that was a member of the 
party of Saddam, and we don't want anybody that isn't totally 
loyal to''--I think you've loosened up a bit, rightly so, 
because you've--you know, an awful lot of able-bodied men want 
a job, and they used to be in that party. And all I can ask of 
you is, as you hire them--and I understand you are hiring them 
and you're taking them into the military--are we being as 
careful as we can to make sure that they stay on our side and 
that they remain loyal? And we must have ways to train and do 
what we can in that regard, and are we doing it?
    Secretary Rumsfeld. You're right. Just after World War II, 
they had the issue of de-Nazification, and we've got this 
problem of de-Ba'athification, if you will, in Iraq, and how to 
do that. And some judgments have been made. And clearly the--on 
the one hand, if you take senior Ba'ath Party people and put 
them into positions of responsibility, they were ones running 
that country, they were the ones benefitting from the regime--
and you put them in positions of responsibility, it's going to 
look like, to the other people, that you're simply trading one 
bad group for another bad group. And so--but you're quite 
right, those people need jobs, too. There are a lot of people 
that needs jobs, who were, one way or another, connected with 
that regime.
    There's two ways it's happening. There's a public vetting 
process, where they bring people in, and people then comment on 
them, and they throw some out. The other thing that's happening 
is, we're encouraging every contractor to hire Iraqis, so 
there's an opportunity for Ba'ath Party people, who are not 
brought back into ministries in senior positions, to get jobs 
in the private sector as these contractors come in and begin to 
do these various projects.
    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Stevens. Senator Burns?
    Senator Burns. Thank you, Mr. Chairman. I'll be pretty 
brief.

                 COMMUNICATING WITH THE AMERICAN PEOPLE

    I want to pick up on what Senator Domenici alluded to, and 
that is the communications to the American people. I spent some 
time in the broadcast business, Mr. Secretary, and I've been in 
the selling business all my life. I'm an auctioneer, and that's 
the way we made our living. And I don't want to have a sale in 
Iraq right now. I don't think they could quite understand me 
now.
    The reiteration, over and over and over again, it has 
become repetitive, it gets tiresome of saying it all the time. 
But also there is one sad feature about American advertising 
and in communications with the American people. The people who 
really do a great job in communicating devise their message at 
the fourth-grade level so people like Conrad Burns can 
understand it. And then that becomes repetitive, and it finally 
sinks in.
    We talk about those things called freedom and democracy and 
these types of things. We pick up on that pretty quickly. I'm 
not real sure it's not time for maybe a town-hall meeting, 
electronic, goes nationwide, that would have the principals 
involved and can set there and can kind of point to a board. 
Because we know how one presidential candidate, in 1992, was 
very successful using little display cards. And that's the way 
we devise our message.
    But we, as people who represent constituencies--I just got 
a little e-mail here from a good friend, and they have a son in 
Iraq. And it was wonderful to hear. He says, ``You know, we 
have rehabilitated hundreds of schools in this country. And 
from this point on, when the school starts up, about this week 
or next, things will become different. They will become 
quieter, because families are just like American families. When 
the kids are in school, the focus becomes the family education 
and how do we survive as a society.'' I think it's a pretty 
powerful statement coming from a man that's been in Iraq. He 
got there a week after operations ceased and has been working 
there, and is a member of the military. But he says, ``I see 
these things happening all over,'' because some people were--
that are in the--what we would refer to as the ghetto here, 
where you have 8 or 10 families in a single building, that are 
now looking forward to their kids going to school and seeing 
the opportunities that that's presented to themselves under 
this situation, because, he said, ``I was driving with two of 
these families,'' and he said, ``There was a little 
demonstration by an organization over there, and one of the men 
said, you know, if they had demonstrated like that when Saddam 
was here, he would have had them shot.''
    Secretary Rumsfeld. Yup.
    Senator Burns. ``And I explained to them,'' he says, ``we 
don't do that. Demonstrations and sending a message is a vital 
part of freedom and democracy.''
    They still have that--they have a hard time running it 
through their computer. If they've got the right floppy and the 
right drive, why, it'll connect. But, still, they're starting 
to catch on what it's all about. And that's what this 
appropriation is all about.
    Now, let me comment on the infrastructure and spending 
money to bring it up. We know, when we got there--no, we didn't 
destroy a lot of the infrastructure, like water systems and 
telephones and electrical power. We didn't do a lot of that. 
But it was Hussein could only produce about 70 percent of the 
power that was required to run the society in the first place. 
The government controlled all the central services, from 
telephones to water and whatever. And if you were a bad person 
and not accepted by the party or Hussein, he rationed that. You 
went home one night, and you'd say, ``Well, this guy is not 
doing a good job for me, and he doesn't like me, so I'll cut 
off his electricity.'' He rationed everything. Healthcare. All 
the central services were rationed to his likes or dislikes.
    So what we had to do, we've got to get power up to where 
everybody has electricity, everybody has a phone. Now, and I'm 
really interested in the telecommunications and the 
communications industry, as you well know, over there. And 
we'll be going over and visiting here very shortly. And I want 
to talk about that. I want to know what kind of technologies 
we're putting together for wireless, broadcast companies, the 
ability to broadcast news. That infrastructure was limited, and 
it was rationed by the man that we took out of power, and 
that's the way he controlled his people.
    We restored everything that was there in the first place. 
Now it is to reach the people that never had those services in 
the first place. And that's what this is all about, too.
    So I just wanted to make that statement. Now, in your 
research and development part of this, I know some of it is 
highly classified, but, nonetheless, can you give me an idea, 
General Myers, on--you've got quite an appropriation here in 
military construction--tell me what we have to do for your 
infrastructure so your troops can be safe and also operate in 
that country. What kind of construction are we doing, and what 
role does it play? And then I'll go away forever and----

                           SAFETY FOR TROOPS

    General Myers. Senator, there are 23 sites, I believe the 
number is, inside Iraq that we want to provide temporary, 
secure, and safe facilities for our troops over there right 
now. Right now, they don't have that. So they're living in 
buildings they can borrow and tents and so forth. Frankly, we 
want it to be a little bit like it is in the Balkans. We have 
folks over there that live in temporary facilities, but at 
least the temporary facilities are such that they have toilets, 
they have warm showers, they can get contract food, which is 
good. It's a secure place, so they can feel safe to take their 
gear off and get a good night's rest. And they have some of the 
other comforts, in terms of--necessities, I would say, in terms 
of communicating with their families.
    And so we're trying to build some of those around the 
nation. None of them are going to be permanent. They're all 
temporary. And for the quality of life for our folks and for 
the operating effectiveness, I think they're absolutely 
essential.
    There are other things in the military construction budget 
that support the war on terrorism. And if you see upgrades to 
some of the airfields, those airfields are the ones that 
specifically support Afghanistan and Iraq and, for that matter 
the Central Command's area of operation, and absolutely 
essential to this effort.

                           TELECOMMUNICATIONS

    Dr. Zakheim. Senator Burns, because you asked about 
telecommunications, I thought I might just point out a couple 
of things that you may or may not be aware of.
    As you know, Ambassador Bremer opened all sectors, except 
for oil, to foreign investment. That is number one. There is 
going to be, soon, an announcement of the winner of the Iraq 
mobile cellular licensing competition. That is important, as 
well. They did make a major effort to level the playing field 
for all kinds of technologies, and several hundred vendors had 
a chance to bid on that.
    Senator Burns. Well, in other words, they settled on a 
spectrum that they need so that we can have two or three 
different kinds of technologies in the wireless industry. Is 
that correct?
    Dr. Zakheim. They have done a number of things. First, for 
that bid, they opened it up. But on the spectrum management 
itself what they are saying is that they plan to get a new 
regulatory regime so that you have the mobile licensing 
competition, which will be announced soon. In addition, they 
expect relatively soon to have a new regime for 
telecommunications and frequency spectrum.
    Senator Burns. Well, what I was concerned with, when I 
communicated with both the State Department and you folks, is 
that we don't want to get settled in--other words, what makes 
our communications systems in this country work is because we 
try to stay technology-neutral. And there is--I'm sure we have 
the Global System for Mobile Communications (GSM), we have the 
Code Division Multiple Access (CDMA), and we have got other 
technologies over there that's available. And I just want to 
make sure that these technologies can compete.
    And the wireless communications is the most important, 
because the wired infrastructure is not as good as it should 
be. And, of course, until they get fiber in the ground, where 
they can move massive amounts of information, that is some time 
off. But the wireless--we have broadband wireless, and the 
ability to set that in place rather quickly, and I think the 
quicker that the northern part of Iraq can communicate with the 
southern part of Iraq and those services--yes, sir--and it's 
going to be very important.
    So let's keep one thing in mind, that we stay technology-
neutral, because there are certain features about all of those 
technologies that we should be looking at.
    And thank the chairman and thank you for your patience, and 
I'll go away forever now.
    Chairman Stevens. Well, not forever. Thank you very much.
    Senator Bond, you're recognized. You haven't been 
recognized yet at all today.
    Senator Bond. Thank you, Mr. Chairman. I'm still 
technologically unqualified. But I appreciate very much the 
testimony here today, Mr. Secretary, General Myers.
    I've found it very helpful and very persuasive to learn not 
only how much we've accomplished--and the outlines of 
accomplishments I think are very significant; we just don't 
hear enough about those, and we appreciate your bringing them 
out in this hearing so that all the people who watch, as well 
as those who may be here on the Hill, can learn a little bit 
more about it.
    But it seems to me that your commitment for the additional 
$20 billion to build the infrastructure, both the military and 
law enforcement and the essential infrastructure, so we can get 
our troops out is one of the most compelling arguments that you 
can make. It does no good to supply $66 billion for maintaining 
our troops if there's no exit strategy.
    Can you tell me what would be the impact if we did not 
build up Iraq's own capabilities and do the things in that $20 
billion supplemental?

              IMPACT OF DISAPPROVAL OF $20 BILLION REQUEST

    Secretary Rumsfeld. Senator, you've hit it right on the 
nose. If we fail to invest in the Iraqi police, the Iraqi 
border patrol, the Iraqi site protection, the Iraqi civil 
defense, and the Iraqi army, they're not going to be able to 
provide for their own security and they're going to continue to 
be dependent on foreign troops, ours and Coalition's.
    The same thing's true in terms of getting the economy off 
the ground. They simply have got to get enough of a jumpstart 
that they are able to begin attracting outside investment and 
have sufficient electricity and water so that the place works.
    And equally important is the political side. We've got to 
keep moving them down Ambassador Bremer's seven-point plan 
towards developing a constitution, ratifying a constitution, 
and ultimately having elections and transferring sovereignty.
    Senator Bond. There have been discussions about how this 
was not a war of defense. It seems to me that we have been 
under attack. We've been under attack not just with the huge 
tragedy of September 11, but our people have been under attack 
in Khobar Towers, the U.S.S. Cole, Lebanon and Somalia, to name 
a few. And I would hope that we have learned that we cannot 
simply prosecute the people. Usually suicide bombers don't 
suffer much retaliation no matter how much you'd like to 
retaliate against them. That's in higher hands, not ours. And 
we have to do what I believe this administration is doing. 
Number one, defending our homeland with the Patriot Act, and 
aggressively enforcing it, as my good friend and former 
colleague, Senator Ashcroft, is doing under President Bush's 
direction. But carrying the war to those states that harbor 
terrorists is absolutely essential. And it seems to me that 
we've seen a tremendous difference with the Taliban regime gone 
in Afghanistan, with the Saddam Hussein regime gone in Iraq. 
There are no longer safe places for these terrorists to 
operate.
    Yes, the question raised about the intelligence of how 
directly Iraq was involved, we'll go into that. Can't go into 
that here, and we shouldn't.
    But I tell you something, I'm from the ``show me'' State, 
and what they're showing us is that the battle against 
terrorism is being carried out in Iraq today. That's where 
we're fighting the terrorists. And that gives you some 
suspicion and a strong indication of the presence and the close 
alliance that those terrorists had with the former evil regime 
of Iraq. And right now, you are fighting the battle against 
terrorism with our best-trained, equipped, and finest 
personnel, in Iraq.
    And, to me, the good news is, we're fighting the battle 
against terrorism in Baghdad rather than Boston or Boise or 
Baldwin, Missouri, or Belton, Missouri. And it seems to me that 
that is a very important part of this story that needs to be 
told, and it needs to be told--all of the accomplishments we 
have made and the recent polls showing that the Iraqi people, 
by and large, understand what we've done for them.
    One of the problems I think all of us have is that the 
media carries the tragedy of the one or two American soldiers 
killed, without talking about the thousands of civil work 
projects, about the reception that they receive over there.
    During the Iraq war, we had a very balanced view, because 
you came up--and I'll attribute it to you, Mr. Secretary; I'm 
sure that it came out of the Defense Department--they had 
embedded journalists. Is there any thought of using embedded 
journalists again to go over and participate with the American 
forces? And I just met with General Flowers, and the great 
things the Corps of Engineers is doing over there. Any thought 
to using those again?

                  INCREASED USE OF EMBEDDED REPORTERS

    Secretary Rumsfeld. Yes, indeed. We've tried to encourage 
it, but there are very few takers at this point. The bulk of 
the journalists are in Baghdad. And, of course, there they have 
the facilities, hotels, and connections with their home 
offices, and all of those things that are available to them, 
briefing centers and the like. So we've not had many takers on 
the embedding program, which still exists and is available.

                    INVOLVEMENT OF SMALL BUSINESSES

    Senator Bond. One slight suggestion I would make to you, as 
you go about rebuilding Iraq, there is a great pool of 
resources available in the United States in the small business 
area, and as a former chairman of the Small Business Committee, 
I continue to get requests from small businesses about how they 
could participate, how they could get a share in it. I read--
there's some official in the Defense Department who's quoted as 
saying that they were holding bidding for the major businesses 
that go over there, and the small businesses should just talk 
with their big-business partners. Well, quite frankly, that is 
a dead-end street, as I've been told time after time, that the 
large businesses don't want to be bothered with small business. 
I would urge you to re-think and provide some means, as you do 
in other Defense Department procurement, to involve the many 
resources of able small businesses that can bring new ideas, 
new approaches and perhaps new skills, specialized skills that 
would be needed in building Iraq, to help establish a strong 
infrastructure. And, frankly, the example of small American 
businesses could be a very useful training tool for the nascent 
small businesses in Iraq. And I've been very pleased to see 
that small businesses are starting up. And I know that there 
has been--that timeliness and so forth is of the essence. Any 
thought, any way we could get some small-business involvement?
    Dr. Zakheim. Senator, just to clarify, there are quite a 
few small businesses already involved. It is not just the very 
large ones that we're constantly hearing about, but there are a 
host of contracts that are in the tens of millions of dollars 
that have been given to small businesses. So I do not know who 
issued that other quote, but it, frankly, does not reflect the 
reality, sir.
    Senator Bond. Well, thank you. And I would be interested, 
Mr. Chairman, if you could supply some examples of that. I need 
that.
    [The information follows:]

                                                                              SMALL BUSINESS PRIME CONTRACT AWARDS
                                                                                      [Dollars in millions]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                                              Contract   Funded
            Awarded To                 Awardee Location                Description of Work                  Contract No.           Contract Type      Period of Performance    Amounts   Amounts
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
EOD Technology, Inc..............  Knoxville, TN...........  Destruction and cleanup of captured     DACA87-00-D-0037 Task      August 2003 to      $65.00..................     $3.45
                                                              Iraqi ordnance and munitions.           Order #28.                 July 2004.
IAP Worldwide Services...........  Irmo, SC................  Heavy lift for 305 trucks and buses...  DABM06-03-C-0004.........  FFP...............  Jan to Mar 2003.........    $12.03    $12.03
MZM, Inc.........................  Washington D.C..........  Linguists (Translators)...............  DASW01-03-F-0507.........  T&M...............  March 2003 to July 2003;     $3.64     $2.43
                                                                                                                                                     two 4 month options.
Native American Industrial         Upper Marlboro, MD......  Protocol Officer (Ms. Marian Spencer).  DASW01-03-F-0465.........  T&M...............  April 2003 to October        $0.61     $0.61
 Distributors.                                                                                                                                       2003; one 1 year option.
Ronco Consulting.................  Washington D.C..........  Disarmament, Demobilization and         DASW01-03-F0366..........  T&M...............  March 2003 to July 2003;     $1.72     $0.23
                                                              Reintegration of the Iraqi Army.                                                       two 4 month options.
S&K Technologies.................  St. Ignatius, MT........  Administrative Support to ORHA........  DASW01-03-C-0032.........  T&M...............  1 year, two 1 year          $60.00     $5.00
                                                                                                                                                     options.
Segovia..........................  McLean, VA..............  Satellite based internet protocol       N65236-03-D-5130.........  FFP ID/IQ.........  Sept 2003 to Sept 2004..    $17.80    $17.80
                                                              voice and data communication services.
USA Environmental................  Tampa, FL...............  Destruction and cleanup of captured     DACA87-00-D-0036 Task      ..................  August 2003 to July 2004    $65.00     $3.45
                                                              Iraqi ordnance and munitions.           Order #18.
                                                                                                                                                                             -------------------
      Total......................  ........................  ......................................  .........................  ..................  ........................   $225.80    $45.00
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Senator Bond. Thank you very much, Mr. Chairman.
    Chairman Stevens. Thank you very much, Senator.
    Senator Byrd?

                 PREVENT DECLINE IN RESERVE COMPONENTS

    Senator Byrd. Mr. Chairman, when I last had the microphone 
we talked about the National Guard, and I want to finish my 
questions along that line.
    On September 20, the Washington Post carried a report 
entitled, quote, ``Protests Grow Over Year-Long Army Tours,'' 
close quote. The article noted that the wars in Afghanistan and 
Iraq do not appear to have had an impact on the recruitment of 
active duty and Reserve Army forces, but that the new policy 
requiring Guard and Reserve forces to serve year-long tours in 
Iraq appears to be having a serious effect on the National 
Guard. According to the article, the Guard appears to be 
falling short of its annual recruiting goal by more than 20 
percent. In addition to recruitment, retention is another 
concern.
    Mr. Secretary, what is the Defense Department doing to 
prevent the decline of the National Guard? And how long do you 
intend to maintain a policy of year-long tours of duty in Iraq?
    General Myers. Senator Byrd, if I may, if I could answer 
that----

                         COMBAT SERVICE SUPPORT

    Senator Byrd. Yes.
    General Myers [continuing]. Or at least take a stab at it.
    The first thing that we've got to recognize is that we have 
most of our combat service support in the Reserve component, 
Guard and Reserve, and that's just the way we're structured 
right now. Most of us feel that's not right for the future, 
that that doesn't posture us very well for the 21st century 
security environment we're going into. So the Secretary has 
directed that we re-balance--look at the balance of the mix 
between our Guard and active forces to avoid some of the issues 
that you just brought up. Because it's evitable, if we're going 
to send active ground-component Army into a situation, there's 
going to be a Reserve piece that goes with it. And that may be 
fine for some situations, but probably not all. That's some of 
it.
    As I testified to earlier, we do have indications that 
recruiting, at least for one quarter, with the Army Guard, were 
down, made up for by the fact that more Guard folks were 
inclined to reenlist. So their manning was good, was fine. And 
this is an effort that we need to take on long-term and look 
long-term to make sure we don't do anything in the short-term 
that would jeopardize manning, because these people are crucial 
to our ability, and we totally agree with that.
    I think the issue of predictability comes in when we start 
talking about the year, and in our mobilization process, as 
well. Our mobilization process, as the Secretary said, was for 
a different era. It really is industrial based. It is not light 
on its feet. It can't pick people up, alert them, mobilize 
them, and get them into a productive situation as quickly as it 
should. It's very inefficient. The Army is the one that's 
primarily concerned with this process, and they're addressing a 
lot of those issues. That will help us.
    But it still remains that for our work in Iraq, that the 
policy developed that the people that go to Iraq should expect 
to spend up to 1 year in Iraq, and that's active duty and 
that's the Reserve component.
    There is an issue of fairness here, and I think the Reserve 
component would be the first to tell you that they are willing 
to pull their fair share. They always have, and they're very 
proud of that. The part that's a little bit different is that 
it takes them longer to get ready to go and get them ready, and 
then when they come back, to demobilize them, give them the 30 
days of leave or more that they've accrued over that period of 
time, which all has to be taken into account.
    Generally, this is something we really worry about, and I 
know the Secretary does, I do, the Joint Chiefs do, the Service 
Secretaries do, as well, because the Reserve component is very 
important to us. And that's the way I would address your----
    Senator Byrd. Well, I think you have good reason to worry 
about it. Pulling their fair share gets harder and harder and 
harder, as their fair share becomes longer and longer and 
longer. So, you have good reason to be concerned.
    I've heard from many families anxious to know when their 
deployed loved ones might return home. All of these families 
expressed a deep frustration with the open-ended, unfocused 
deployment of Guard and Reserve units. After reviewing what 
some of these units have experienced, I understand the 
frustration. While the Nation's citizen soldiers are proud to 
serve their country overseas, they also have obligations at 
home to their home, to their community, to their families. And 
we all have reason to be concerned.
    Given the concerns that families of National Guard members 
have raised, would you support a policy of limiting overseas 
deployments for Guard and Reserve forces in terms both of the 
duration of overseas tours and the number of overseas tours 
during a given period of time?

                         REBALANCING THE FORCE

    Secretary Rumsfeld. General Myers and I have spent an 
enormous amount of time on this, Senator Byrd, and I think the 
way to do this is to re-balance the force, as he indicated, so 
that we have more of the skills that are only in the Reserve 
and Guard on active duty. That way we will not have to call up 
the Guard and the Reserve over and over and over again, which, 
as you point out, is simply not fair to them, their families, 
or their employers. If they wanted to be full-time, they'd be 
on the active force instead of the Reserve or the Guard.
    Senator Byrd. Sure.
    Secretary Rumsfeld. So that's something we're doing and 
we're hard at. There also are a dozen other things we're doing, 
and one I should mention, and that is we simply have to be able 
to bring closure to some of our other commitments in the world. 
We can't leave forces in locations over extended long, long 
years, decades, periods of time. We need to make sure that we 
have our footprint worldwide arranged, which, again, will 
relieve the stress on the force.
    General Myers. Senator Byrd, if I can just tag onto that, I 
think it's also--we are, right now, in an extraordinary period, 
of course. And, I mean, we are a nation at war. And when you're 
at war, that's when your demands on the Guard and Reserve are--
you could expect to be the highest. In my travels--and I try to 
talk to the soldiers and the sailors, airmen, marines, and the 
reservists, as well, and their families to get their input--
what I hear from them is that they understand that this is an 
extraordinary period, and they are proud to serve.
    And then I'll go back to my previous comments, you know, we 
can do a better job of communicating and providing 
predictability. We've got to do that. In some cases, we've done 
very, very well. In some cases, we haven't done as well, and 
we'll do better.

                         LIMITS ON DEPLOYMENTS

    Senator Byrd. Would establishing limits on deployments be 
acceptable?
    Secretary Rumsfeld. It's not a subject that I've addressed 
in a thoughtful way. My immediate reaction is no. If the 
country were in a national emergency, a crisis, and you had 
some sort of an arbitrary restriction on that, it would be 
unhelpful to the country.
    What we need to do is to treat them fairly, be respectful 
of them and their families and their employers, we need to see 
that we have sufficient incentives that we can attract and 
retain them, and they've motivated, they're willing to be 
retained, they're willing to serve and come into the force, and 
then see that we treat them well throughout their careers.
    I think that most people, as Dick Myers said, understand 
it. If there's a spike in activity because of something like 
Iraq, they're willing to step forward. These are volunteers. 
What they're not willing--what they ought not to have to endure 
is being put through periods of long uncertainty or being given 
only a few days mobilization time, or being called up four, 
five, six times over a 10-year period. That just isn't 
acceptable, and we've got to get that fixed, and we will get it 
fixed.
    Senator Byrd. Setting aside national emergencies, but, more 
to the point of what you've just mentioned, the kind of 
situation that that brings to our attention, would establishing 
limits on deployments be acceptable?
    Secretary Rumsfeld. I would rather not put limits. What I'd 
rather do is to say here's how we've arranged the force. We've 
looked into the future to the best we can, we expect that there 
are going to be certain types of activities where our country 
is going to have to contribute to peace and stability, and if 
things go roughly like that, people ought not to be called upon 
to be activated repeatedly in a 5-year period, or some number 
like that, and they ought not to be prolonged on active duty 
for excessive periods, they ought to have a period off or a 
rotation of some kind, or not be in a war zone for an excessive 
period, but always with the understanding that the first task 
for the Department of Defense is to defend the American people. 
If there were an emergency or a spike in activity, then, by 
golly, everyone has to be willing to do something unusual and 
out of the order.
    Senator Byrd. Yes. Well, I think that I meant to--I told 
Senator Domenici that I thought he raised a good point with 
respect to letting the people know what the plan is.
    Now, reference is made to the plan that was released by 
Ambassador Bremer. That working document was dated July 21, 
2003. But then, someone said that ought to have been made 
public or that such plans should be public. I note on this 
plan, that it says ``not for public release.'' So, there was no 
intention of making that plan public. And I say again, as I 
said 2 days ago, that I never heard of such a plan until the 
day before yesterday. This is it, what I hold in my hand. I 
never heard of it. And I don't know how it got around to some 
of the other Senators--I haven't found any Senator on this side 
of the aisle who saw that plan before that day, I believe which 
was Monday.
    Now, 2 days ago, Ambassador Bremer testified that one of 
the reasons that the President requested $20.3 billion for 
Iraqi construction is that Iraq is still responsible for Saddam 
Hussein's debt to France, Germany, Russia, and Japan. He 
concluded that Iraq could not handle more debt. Yet, the 
President is proposing that Congress approve $87 billion for 
the war in Iraq by increasing our own debt. Instead of spending 
billions on the war in Iraq, we could have used the money to 
shore up the Social Security and Medicare programs, which are 
expected to have 65 million beneficiaries when those programs 
are expected to run out of resources, in 2017. Instead, we're 
building prisons in Iraq. Instead, the President proposes that 
we increase our own debt to pay $20 billion for Iraq 
construction, reconstruction, so that Iraq can pay off Saddam's 
debt to France. The increased deficits produce higher interest 
rates, the cost of a college education, for example, will grow, 
and the cost of a home mortgage will grow. And that will be a 
backdoor tax increase for working Americans across this land.

                       PAYING FOR THE WAR IN IRAQ

    What is the President's policy for how to pay for this war 
in Iraq? Does anyone wish to tell me?
    Secretary Rumsfeld. Senator, as we discussed earlier today, 
the debt that Saddam Hussein ran up is substantial, both in 
terms of debt, normal debt, and also in terms of reparations 
from the gulf war. The debt payments, by international 
agreement, have been put off to the year 2004, so there will be 
no debt payments that would be made out of any funds 
appropriated here by the Congress.
    The next step would have to be for the world community to 
restructure that loan, that debt, in some way. What they'll 
decide to do, I have no idea.

                             AFFORDABILITY

    Senator Byrd. Are you saying, Mr. Secretary, that the 
United States can handle the costs?
    Secretary Rumsfeld. That what?
    Senator Byrd. The United States can handle the costs?
    Secretary Rumsfeld. If you're asking me whether or not the 
United States Government can handle the expense of the bill 
that's pending before your committee, you, sir, are an expert 
on appropriations, and this committee will have to make that 
judgment.
    The way I look at it is that when I came to Washington in 
the Eisenhower administration, we were spending about 10 
percent of our GDP on national defense. And when I was 
Secretary of Defense the last time, it was about 5 percent. And 
today it's about 3.1 percent. I would say that the United 
States is capable of spending whatever it decides is necessary 
to provide for its national security. And I do believe that 
these investments are appropriate. I think they're prudent, and 
I hope that the Senate of the United States and the Congress 
will approve them.
    Senator Byrd. Well, if the President's $87 billion request 
is approved, it is expected that the deficit for fiscal year 
2004 could reach $535 billion. That assumes that we're spending 
the $164 billion Social Security surplus in the streets of 
Baghdad. If we were truly saving the Social Security surplus, 
we would admit that we were facing a $699 billion deficit. That 
is $2,400 for every person in this country, or nearly $10,000 
for every family of four. Our public debt will grow to over 
$4.4 trillion, with an estimated 32 percent of that debt being 
held by foreigners, and that is a very high cost for this 
country to bear.

                          OTHER CONTRIBUTIONS

    Mr. Secretary, in your testimony before the Senate 
Appropriations Committee on March 27, 2003, you said, and I 
quote, ``I do not believe that the United States has the 
responsibility for reconstruction. We want to participate in 
reconstruction, other countries will want to participate in 
reconstruction, and the funds can come from frozen assets, oil 
revenues, and the Oil for Food Program,'' close quote.
    Now the President is requesting that the U.S. taxpayer pay 
$20.3 billion for Iraqi reconstruction. Clearly, Mr. Secretary, 
you misjudged--and we all do misjudge situations and things; I 
have done so in my own life--you misjudged the extent to which 
oil revenues, foreign donations, and other sources would 
produce revenue.
    At the same hearing, you said that you expected over 60 
countries would contribute to the reconstruction effort. Now, 
how much have those 60 countries actually contributed? I 
believe that you said that they've pledged $1.5 billion.
    Secretary Rumsfeld. I think that's what I said. I think 
that's the number that the--however the number of countries 
have done it, it ends up, at the current time, I think, about a 
billion and a half.
    But I don't think I did misjudge. I think I avoided 
judging, because I know I'm probably not smart enough to look 
into the future. What I said was what you said I said, except 
that I also said we have a responsibility to get that country 
on a path so that it has a future for it.
    All those things I mentioned have, in fact, contributed, 
Senator Byrd. Some money has come from assets that were 
discovered in the country. Some has come from the Oil for Food 
Program. Some has come from contributions from other countries. 
Some has come from frozen assets. And some will come from the 
oil revenues. We've been over this today a couple of times, and 
I can't remember quite what I said, but I think it was 
something like $2 billion this year from oil revenues, 
something like $15 or $12 billion, I think, next year, and then 
going up to $19 billion the following year, and $20 billion the 
year after that. Now, that's not nothing, $20 billion a year at 
that point. And if you add it up, between now and 2006 or 
whenever that is, the fourth year, it adds up to a good sum of 
money--$20, $19, $12, and $2--I've been here so long I can't 
add that up in my head--$53 billion. So their oil revenues will 
be contributing.
    And, now, will they actually prove to be that? Those aren't 
my estimates. Those are the estimates of the Coalition 
Provisional Authority, the experts that advise them. They could 
be plus or minus 10 or 15 percent. But I think it's probably 
ballpark. But we can't see into the future.
    Chairman Stevens. Senator, Senator Bond would like to ask 
another question.
    Senator Byrd. Yes.
    Chairman Stevens. Is that possible?
    Senator Byrd. Oh, absolutely, yes.
    Chairman Stevens. Senator Bond?

                     COSTS OF SEPTEMBER 11 ATTACKS

    Senator Bond. Thank you very much, Mr. Chairman.
    You know, we're talking about the costs. Obviously, we're 
very much concerned about that cost. But I remember earlier 
today that you gave some costs of September 11. We all know the 
cost in human lives, 3,000 people lost. But the figures you 
laid out in the costs to the United States economy of the 
terrorist attack, I haven't done the math in my head, but I 
know that Dr. Zakheim is very quick. Is there a ballpark 
estimate of the total cost of that one terrorist attack on the 
United States?
    Secretary Rumsfeld. The Wall Street Journal made a stab at 
it, and I have not, but--and I'm sure there's some overlap in 
there, but the estimate comes to something more than hundreds 
of millions of dollars. That is----
    Senator Bond. Hundreds of ``B''--billion?
    Secretary Rumsfeld. Hundreds of billions of dollars, yeah, 
more than $200 billion.
    Senator Bond. Yeah. So what we're talking about is cost 
avoidance here. I believe it was President Kennedy who said 
we'll bear any cost. Didn't he say something like that, in 
terms----
    Secretary Rumsfeld. Pay any price, bear any burden or, you 
know----
    Senator Bond. You have a much better memory than I do. I 
think that was the point.
    You know, I was also struck with another point about a 
specific time limit on deployment. You all are the experts, but 
just as a very interested legislator, it would seem to me that 
if you had a time limit on deployment, if you said all our 
folks are going to be out by next May, there would be a 
tremendous incentive for the terrorists who know all we have to 
do is hang on until next May, keep knocking off one or two or 
three a day or a week, and if we can just reach that magic 
timeline, we'll have our totalitarian government, we'll have 
our terrorist-harboring state back. Am I wrong in that? Does 
that make any sense?
    Secretary Rumsfeld. You're right on the mark. I think one 
of the worst things governments can do is to try to make a firm 
deadline on something when it's not possible to know that and 
all it does is demystify the problem for the other side. It 
eases the difficulty for the other side, for the enemy.

                RESTRICTIONS ON THE $20 BILLION FOR CPA

    Senator Bond. I am concerned, and I know some of my 
colleagues are concerned that--a question was raised earlier 
about does this money allow the Iraqis to pay back the debts to 
France and Russia and others who supported Saddam Hussein. I 
understand that the $20 billion which is being requested in 
this supplemental will be spent under the direction of the 
Provisional Authority, and that money isn't going to go to 
anybody but the construction of facilities and the training of 
the military and law enforcement officials in Iraq. Is that----
    Secretary Rumsfeld. That's correct.

                       RESTRUCTURING IRAQ'S DEBT

    Senator Bond [continuing]. Is that fair? And I guess, if 
you looked at the debt service, $200 billion in debt service, 
that's just the interest charges on it would be equal to what 
we hope to get out of oil next year. So my hope is, and my 
expectation is, that since the United States is stepping 
forward with its $20 billion, that we would be in position not 
only to urge other countries to make contributions, obviously 
smaller in scope, but, by the same token, once we have finished 
with that, I would hope there would be a continued discussion 
about whether, if, and to what extent there would be any 
repayment of that existing debt. You know, if you go through 
bankruptcy, creditors don't get paid. The creditor is lucky to 
get 7 cents, 10 cents on a dollar. And if there was ever a 
bankrupt regime, I would say it would be the former regime of 
Saddam Hussein. Am I wrong in that analysis?
    Dr. Zakheim. Senator, you're right. As the Secretary said, 
the international community has agreed not to address debt at 
all for a full year, so in 2004, they are not even looking at 
it. The game plan is to then revisit all of this afterwards and 
use exactly the arguments you have been making. Certainly, from 
my personal perspective, the hope would be that we are talking 
about 10 cents on the dollar or less.
    Senator Bond. Well, as I recall, when the President 
announced that we were going to conduct a war on terrorism and 
bring the terrorists to justice or bring justice to them, I 
don't believe he put any time limit on how long it was going to 
be to win that war on terrorism, did he? Was there any idea at 
the time that even wiping out the Taliban and the Saddam 
Hussein regime would end terrorism?
    Secretary Rumsfeld. No. The only thing I believe that I or 
the President have ever said is that it's going to take time, 
it's not something that's going to be done quickly.
    I should make a comment about Dr. Zakheim's comment. I'm 
sure he speaks from a pinnacle of considerable knowledge, 
greater than mine, that's for sure, but I should add that that 
is not a subject that's a responsibility of the Department of 
Defense. It's the Treasury Department. And how that gets sorted 
out will be sorted out by them and by the White House, as 
opposed to DOD.
    Senator Bond. Well, I think we're going to have a lot of 
legislative input on that, and that's--I asked that for my own 
edification, because I believe that will be part of the 
discussions, as well.

                         TERRORIST SAFE HAVENS

    As I understand it, the war on terrorism may go on for a 
long time, but once we have destroyed the safe havens for 
terrorists, from a military standpoint that becomes a much 
different kind of enterprise, doesn't it? How would--if there 
were no longer states like the former Afghanistan and the 
former Iraq that harbored terrorists, how would that change--
and maybe General Myers could comment on this--how would it 
change the operation that one would conduct and that one would 
fight terrorism?
    General Myers. I think the President laid the goals of the 
war on terrorism out right after September 11, and he said that 
we've got to degrade and disrupt the international terrorist 
organizations, we've got to deny safe haven, that's number two, 
and, three, we've got to make sure that weapons of mass 
destruction don't fall in the hands of terrorists.
    And, Senator Bond, I think you're absolutely right, that 
the safe haven part is a big piece of that. We know they used 
Afghanistan to train and to plan operations to include 
September 11, and that sanctuary is no longer available to 
them.
    Other countries, states that--the rogue states, the ones on 
the terror list--also provide those opportunities, as do other 
ungoverned areas in the world. And parts of Somalia, most of 
Somalia, I think, falls in that category. But there are other 
things that--and so that would be a big help.
    And you're also right in that it's not just a military 
operation. Right now, obviously the military is in the 
spotlight because of operations in Iraq and Afghanistan, but 
there are many other elements of our government, and, for that 
matter, governments around the world, that are helping in this 
problem, and that part would--no matter where the safe havens 
go, I think the safe havens would go a long way to hurting 
these organizations. But they have shown great resiliency. They 
think. They adapt to their environment. So once the safe havens 
are gone, they will find other ways, probably, to operate. And 
while they're not--might not be military tasks that are needed, 
there will certainly be other tasks for this government to 
perform, whether it's treasury and money, whether it's the 
intelligence agencies, whether--commerce, everybody that has a 
play in this.
    So I think your basic premise is right, it'll go a long way 
towards confronting this threat. I don't think it'll be the 
final blow, though.

                      WINNING THE BATTLE OF IDEAS

    Secretary Rumsfeld. Could I add one thing? John Abizaid, 
General Abizaid, touched on it earlier briefly. Existing 
terrorists are one thing, and they are whatever they are. It's 
hard to know, from an intelligence standpoint, but it's finite. 
Whatever they are, there's a number. The problem is more being 
made, more being taught, more being persuaded that their goal 
in life ought to be to kill people, innocent men, women, and 
children, and their goal in life ought to be to oppose the 
West, their goal in life ought to be to oppose any regime that 
is not ideologically perfect from their standpoint. So any 
secular regime, even though it may be a Muslim regime, it could 
be vulnerable to their hostility.
    That's a problem for the whole world. That's a problem 
that, to the extent a religion, a religion that has an 
impressive history, is hijacked by a small number, not by a 
lot, but by a small number of human beings, and they are being 
produced in schools and being funded by people who believe 
those things, then the world has a problem.
    And so we need to do all the things we're doing, but we 
need to do something more than that. We need to find ways to 
see that the people of the world recognize the danger and the 
threat that that poses to the world, particularly given the 
availability of these technologies and the availability of 
weapons of increasing power, and the fact that it's so 
difficult to prevent their proliferation.
    And if you have people who are being taught this, who are 
willing to give their lives up, and they have access to those 
kinds of technologies, the world faces a threat that is greater 
than a terrorist state. It is greater than a rogue state. It is 
greater than an ungoverned area. It is a problem of the world 
producing people who think that, and the necessity for us to 
find ways to compete with those ideas and to win the battle of 
ideas.
    Senator Bond. Well, I would agree with you. The competing 
in the world of ideas, showing a better way, the other path 
rather than The Shining Path in Peru was very important. And I 
think actually what you're talking about is not the Muslim 
religion, but the Wahabism and----
    Secretary Rumsfeld. Exactly.
    Senator Bond [continuing]. Others that have gone off in the 
ways that are traditionally counter to the peaceful teachings 
of that religion.

                       PROJECTIONS FOR RESERVISTS

    But just a final area of comment, I had asked you, General 
Myers, some time ago, about the same question my colleague, my 
good friend from West Virginia asked, about the deployment of 
Reserves and Guardsmen and -women. Are there timetables being 
set? Are there rotation schedules that are being conveyed to 
these people? I had questions from home about that, as well, 
about, ``When will we get our father or mother back? When will 
I get my employee back?'' Are you able to tell them some----
    General Myers. Yes, and there absolutely are. I think we 
can, today, for those deployed and for those that may be called 
up in the future, we can communicate to them and their families 
and to their employers with much greater precision when they're 
going to leave, when they're going to come back. You bet.
    Senator Bond. Do you have any ideas on what the mix of 
Guard and active forces will be over there next year? Have you 
thought through the plans for that? I know--and I would 
certainly agree with the Secretary that some of the skills now 
possessed primarily in the Guard and Reserves need to be in the 
regular Army, but until you can train those, do you know what 
the force structure might be next year?
    General Myers. The macro sense, as we talked about earlier, 
during the height of the major combat in Iraq we had 223,000 
Reserve component individuals called up. We've reduced that now 
by 50,000. So we're--over 50,000--we're just a little less, 
right around 170,000 reservists called up. Before major combat 
operations in Iraq, just for protecting the United States of 
America with our Operation Noble Eagle and some other demands 
in other parts of the world, we were around 50,000 steady-state 
on the war on terrorism. So that leaves you the remainder that 
are contributing primarily to Afghanistan and Iraq, that number 
of 120,000, which we think will go down somewhat.
    In terms of how they're going to be used in the future, we 
know what units and the units have already been alerted that 
will participate in that rotation. Beyond that, there are 
several options, depending on what happens. If we get a 
multinational division in, that's one solution. If we need more 
U.S. forces, depending on how the situation goes, it could be 
Reserve component, it could be United States Marines, it could 
be a combination of active Army and Marines. Those options are 
still being looked at and have not been decided upon yet. But 
they will be far enough in advance to provide the kind of 
predictability that I talked about earlier and, for the most 
part, will impact units that have not been called up recently.
    Senator Bond. Thank you very much, General.
    My time's expired. And I apologize and thank the Chair and 
the ranking member.
    Chairman Stevens. I know that Senator Feinstein has 
returned.
    The Senator from Kansas mentioned the Liberation Act that 
was passed in 1998, and it's been called to my attention that 
Section 7 of that act said, ``It's the sense of the Congress 
that once the Saddam Hussein regime has been removed from power 
in Iraq, the United States should support Iraq's transition to 
democracy by providing immediate and substantial humanitarian 
assistance to the Iraqi people by providing democracy 
transition assistance to Iraqi parties and movements within 
democratic goals, and by convening Iraq's foreign creditors to 
develop a multilateral response to Iraq's foreign debt incurred 
by Saddam Hussein's regime.''
    Does the Senator from California wish to be recognized?
    Senator Feinstein. Yes, I do.
    Senator Byrd. Would the Senator yield to me----
    Senator Feinstein. I certainly will.
    Senator Byrd [continuing]. On my time?
    Let me just make it clear for the record--my earlier 
question regarding limiting deployments was specifically 
applied to the National Guard and Reserve forces. I did not 
suggest ending deployments of all--underline ``all''--American 
troops.
    I thank you, Senator.
    Senator Feinstein. Thank you very much. Thank you.
    One additional MILCON question----
    Chairman Stevens. Would the Senator yield just for a 
moment?
    I'm informed that we're soon going to come to the process 
on the floor of calling up the conference reports that have 
been taken up. The homeland security bill has been--conference 
report has been taken up. We have the supplemental conference 
report that will be taken up and the Defense bill for fiscal 
year 2004, its conference report will be taken up this 
afternoon. So I hope that we can agree on a time to end this 
hearing soon.
    Senator Feinstein. I have two questions.
    Chairman Stevens. Yes, thank you.
    Senator Feinstein. Thank you, Mr. Chairman.
    Mr. Secretary, you certainly have staying power. 
Congratulations.
    Secretary Rumsfeld. Thank you.
    Senator Feinstein. Again, this is a MILCON question. This 
request includes nearly $300 million for Air Force military 
construction for projects in Southwest Asia in support of the 
Iraq and Afghanistan operation. Of particular interest to me is 
the identification of the Al Dhafra Air Base in the United Arab 
Emirates (UAE) as a, quote, ``main operating base,'' end quote, 
to provide an enduring presence in Southwest Asia.
    And my questions are these. How many enduring bases does 
the United States military currently have in the Central 
Command region, and where are they? And then, are there plans 
to establish additional enduring bases in the region? If so, 
where? And do you plan on adding enduring bases in Iraq?

                  EVALUATING THE U.S. GLOBAL FOOTPRINT

    Secretary Rumsfeld. The answer to the latter is no. The 
first part of the question, I'll let Dick comment on. The 
middle part, about the future, I can address.
    We have spent a great deal of time, the better part of 2\1/
2\ years, looking at our footprint around the world. We're 
making an effort to adjust it to fit the reality that the 21st 
century security environment is notably different from when 
that footprint was first established.
    So we're looking at Northeast Asia, we're looking at 
Europe, we're looking at CENTCOM and Africa and Latin America. 
And we have the areas of responsibility coming forward to us 
with their proposals and their ideas, but they tend to be a bit 
stovepiped. We're now in the process of integrating those, at 
which point we then would have to go to the President with a 
proposal. We then have to look at costs and the kinds of things 
that MILCON are so critical to, and phasing. And then we would 
have to go to our allies.
    So we're well along in that process, and it's going to 
result in some proposals for some relatively significant 
changes over a period of time, which we would have to work out 
closely with the Congress. But we're not able to answer that, 
because we've not gotten our thinking finalized, nor have we 
made a proposal to the President.
    Do you want to comment on the current situation?
    General Myers. You bet.
    Senator Feinstein. And what the $300 million is for, 
specifically.

              MILITARY CONSTRUCTION REQUEST AND AIR BASES

    Secretary Rumsfeld. You can do that. Dov can do that.
    General Myers. Okay, and I'll start with the bases.
    First, in Afghanistan, Bagram Air Base in Afghanistan is 
our main operating base inside Afghanistan right now. It has, 
of course, the headquarters for Joint Task Force 180. It also 
has a limited number of aircraft, fighter aircraft. It's also a 
logistics hub.
    There are another two support bases, one in Kurdistan, one 
in Uzbekistan, that support it. The one in Kurdistan we call 
Manas, and the one in Uzbekistan is Karshi Khanabad, or K-2. 
And there have been improvements made to all of those. I think 
the only one in the supplemental is Bagram, and Bagram is one 
of those bases that suffered greatly during the war with the 
Soviets. And as you probably recall, mines are a problem, and 
there's a--the facilities there are just very, very bad. And 
I'll let Secretary Zakheim talk about those.
    When you go down to the Gulf states, as we have pulled out 
of Prince Sultan Air Base in Saudi Arabia, the relocation of 
that capability has fallen primarily into two areas. One is Al 
Udeid Air Base in Qatar, and that's where the Air Operations 
Center is. It's also very close to where General Abizaid's 
forward headquarters is, which is just down the road. That is 
the big logistics hub for our war on terrorism and for events 
in Central Command. So that's Al Udeid. You'll see several 
projects in the supplemental that help us with Al Udeid.
    And then there's Al Dhafra, which is in the UAE, which has 
taken a lot of the intelligence, surveillance, and 
reconnaissance assets, to include tankers. It has always been a 
fairly crowded air base, because the UAE uses it, as well, as 
you would expect. And are some improvements to that air base.
    But those are two of the primary bases that we expect to 
use in the foreseeable future for the war on terrorism, given 
that that Central Command AOR is----
    Senator Feinstein. So you're saying the $300 million goes 
for Bagram and----
    General Myers. Well, I can--I'll have to get the----
    Senator Feinstein [continuing]. The UAE base, essentially?
    Secretary Rumsfeld. Dr. Zakheim will answer that question.
    Dr. Zakheim. Yes.
    Secretary Rumsfeld. But before he does, I believe you used 
a word ``enduring'' in your question, and I wouldn't want Dick 
Myers' answer to be connected to your question ``enduring.'' 
Because what I said earlier is the fact, and that is that we're 
reviewing the footprint, which bases should be enduring, which 
bases should simply be warm bases, where we may exercise from 
time to time, and all of those things are open and would be 
discussed, of course, with the MILCON committees.
    General Myers. Exactly right.
    Dr. Zakheim. Just to give you the details. The chairman 
mentioned Bagram, that is $48 million. There are $3.5 million 
for a switch facility at Diego Garcia that supports Operations 
both Iraq and Enduring Freedom. You have $47 million for Al 
Dhafra that the chairman spoke about. There are $18 million for 
an airlift ramp in Iraq, but that is simply a contingency 
parking ramp, there is nothing permanent there; an airlift 
apron, $17.5 million in a classified location--I can tell you 
right afterwards, if you like, where exactly that is. Al Udeid, 
again, the chairman mentioned that, you have a total of $60 
million for two projects at Al Udeid; you have $15.3 million 
more in Al Dhafra. You have some additional funds for 
facilities that have been supporting operations in the theater 
but are not actually physically located in the theater; some $5 
million for munitions maintenance, storage, and a wash pad at 
Camp Darby, in Italy, which, as you know, has been supporting 
theater operations; and then we need additional money for the 
roof that collapsed at Dover Air Force Base, which is the base 
that does the most support of in-theater operations.
    Senator Feinstein. But the $15.3 million at Al Dhafra----
    Dr. Zakheim. Yes.
    Senator Feinstein [continuing]. Will make that a main 
operating base. Is that correct?
    General Myers. Well, it is one of the--as I mentioned, Al 
Dhafra is, from the standpoint of our tanker fleet and the 
standpoint of our intelligence-surveillance-reconnaissance 
fleet, once we pulled out of Prince Sultan Air Base in Saudi 
Arabia, it has picked up some of that load, and that's what 
that's for. That ramp, it's a ramp and living facilities, 
which--now that we have more people there, so it becomes an 
important facility for us.
    Senator Feinstein. You mentioned, General, that there were 
23 sites inside Iraq where the Army wants to provide temporary 
housing and support for soldiers.
    General Myers. Base camps, yes, ma'am.
    Senator Feinstein. So the funding in this bill covers how 
many of those sites?

                          FUNDING FOR 23 SITES

    General Myers. My understanding is it covers all 23 of 
those sites.
    Senator Feinstein. All of them are covered.
    General Myers. Yes.
    Senator Feinstein. Thank you.
    General Myers. That's my understanding.
    Senator Feinstein. Thanks, Mr. Chairman.
    Dr. Zakheim. We will get it for you for the record. 
Something tells me that it might be less, and I do not want to 
challenge the chairman on it, but we will get you the right 
answer.
    [The information follows:]

    The supplemental request would cover the cost for temporary 
housing and support for 23 sites in Iraq. However, the actual 
number of temporary sites may differ depending on the 
operational missions and the security environment.

    Senator Feinstein. Thank you.
    Chairman Stevens. Senator Craig, do you----
    Senator Byrd. May I ask you a question?
    Chairman Stevens. Yes.
    Senator Byrd. I have a meeting in our leader's office at 4 
p.m. In the meantime, may I ask at this point--your next 
session is when?
    Chairman Stevens. Our next session will be tomorrow, 
Thursday, at 2 p.m., in Dirksen 106, this room, on this 
supplemental request, particularly directed towards 
Afghanistan.
    Senator Byrd. Now, as I understand it, is it still your 
plan to mark up this bill on Monday of next week?
    Chairman Stevens. That is the request of our leadership, 
and I intend to do my best to cooperate with it that we mark up 
on Monday. We were going to do it on Tuesday, sir, but I have 
discussed that with you, we've moved that back to Monday.
    Senator Byrd. Well, let me implore that you wait until 
another day to have that markup. We can't possibly--our staffs 
can't possibly do a good job on preparing for that markup 
through the remaining few days that we have in this week, 
counting Saturday and Sunday, and there's just no reason why we 
ought to go to a markup that soon.
    Now, I hope you'll discuss this further with your leader.
    Chairman Stevens. I'll do that, sir. I'll discuss it with 
our leader, but it's my understanding that they wish to bring 
this bill up on the floor next week, and we'd have to have it 
out in the floor for at least 1 day before we could call it up. 
So I do believe that we will have to go on Monday and finish 
that markup by Tuesday afternoon or Wednesday in order to 
achieve that goal of the leadership.
    Senator Byrd. Well, Mr. Chairman, the House is not having 
any hearing on this bill next week. The House is not marking up 
this bill next week.
    Chairman Stevens. The House is proceeding with the other 
appropriations bills.
    Senator Byrd. That's true.
    Chairman Stevens. And we will be out of session the 
following week, the House will not be.
    Senator Byrd. Well, why do we have to mark this up Monday? 
I hope you will carefully study this request. I want to 
protest, on behalf of my fellow Senators on this side and on 
behalf of myself, any markup of this bill as early as next 
Monday.
    Chairman Stevens. As I said, Senator, I'll discuss with the 
leader and tell him of your request.
    Senator Byrd. All right.
    Chairman Stevens. But his request to me was to initiate the 
markup so that the bill could be before the Senate next week.
    Senator Byrd. Very well.
    Chairman Stevens. I told him it would have to start by 
Tuesday. Because of our conversation, we decided to start it on 
Monday and finish it on Tuesday night or Wednesday morning. And 
that would mean it would be possible to take it up hopefully on 
Thursday.
    Senator Byrd. I thank the chairman.
    Chairman Stevens. Senator Craig, did you wish recognition?
    Senator Craig. Yes, Mr. Chairman, thank you.
    Gentlemen, Mr. Secretary, thanks again for your----
    Senator Byrd. Oh, would the Senator allow me one----
    Senator Craig. Certainly.
    Senator Byrd. I thank the Senator.
    I want to thank the Secretary and General Myers, and 
General Abizaid, and Secretary Rumsfeld--I believe I named you. 
I haven't eaten yet, so I may be doing a little repetition.
    Secretary Rumsfeld. I haven't eaten either.
    Senator Byrd. Well, I know, but you're a lot younger than I 
am.
    Secretary Rumsfeld. Oh, not much.
    Senator Byrd. I was 85 when I came into this hearing. I 
think I'm a little older now.
    But thank you. Thank you, too, Dr. Zakheim. Thank you all.
    Secretary Rumsfeld. Thank you, sir.
    Senator Byrd. I know it's an imposition on you to have to 
stay through these many hours without eating. That's not my 
fault. I said good naturedly, to my chairman that I had hoped 
that we'd have additional days of hearings. That would allow 
for a little lunch.
    But thank you, again, very much for your appearance.
    Thank you, Senator Craig.
    Senator Craig. Thank you, Senator Byrd.
    I don't mean to boast, but I have had lunch, and it was 
excellent.

                       CONTROLLING IRAQ'S BORDERS

    Mr. Secretary, again, General Myers, thank you much for 
your obvious diligence here and your effort at full disclosure.
    I think all of us are not surprised, but we do grow 
frustrated over Iraq, and especially the Baghdad area and 
others becoming the collection point for the world's terrorists 
crowds, if you will, or perpetrators of terrorist acts. It 
certainly appears that that is happening and that we're falling 
a bit of a victim to some of that at the moment.
    It is obvious that the borders are amazingly porous. I know 
we're dealing with a large landscape out there. What provisions 
are being made in this request, if any, for greater border 
policing and interdiction, if you will, at the border to try to 
gain control of the Iraqi borders as best as we possibly can?
    Secretary Rumsfeld. The funds in here, of course, are for 
all military operations relating to Iraq and Afghanistan. 
You're quite right, the borders are porous. We are doing a 
series of things with respect to the borders. One is, we're 
working with friendly countries to try to cooperate with them 
to have a much closer arrangement as to border protection--for 
example, with Turkey, Jordan, Saudi Arabia, Kuwait.
    With respect to the borders of Iran and Syria, we have seen 
terrorists come in from both countries, in some cases in 
relatively large numbers. And we have demarched them, as they 
say in the foreign policy business, allowing as how we thought 
that was enormously unhelpful. We are also focusing a higher 
degree of military effort attempting to deal with the borders. 
And it's a combination of manpower, as well as technical 
capabilities, which I don't want to get into.
    And, last, we're dealing with some Iraqi forces to train 
them to assist with the borders. And, in addition, there are 
some negotiations and discussions taking place with some of the 
tribal elements that are in those areas, the relevant areas, to 
solicit their cooperation.
    So there's a recognition of the problem you've cited, and 
there are a variety of things underway to try to cope with it.
    Do you want to add a comment here?
    Dr. Zakheim. Yes. First of all, just to remind you that, as 
Ambassador Bremer points out frequently, the border is about 
the size of our total United States/Mexican border, so----
    Senator Craig. Oh, yes.
    Dr. Zakheim [continuing]. So it is a very long border. We 
have, in the $20 billion part of the request, $150 million to 
establish a Department of Border Enforcement which would hope 
for 13,600 new personnel, Iraqis obviously.
    Senator Craig. In developing that level of personnel, the 
training and all, is that a part of the overall military group 
we're standing up in Iraq?
    Dr. Zakheim. Yes, that is part of the $5 billion security 
portion of that budget. And, as the Secretary mentioned, there 
are multiple components of that--civil defense and site 
protection--and this is one of them.
    Secretary Rumsfeld. It's not part of the regular army, 
Iraqi army.
    Senator Craig. All right. It's a separate group, right.
    Secretary Rumsfeld. Although the Iraq--one of the functions 
the Iraqi army could perform----
    Senator Craig. Would be border----
    Secretary Rumsfeld [continuing]. Would be border patrol.
    Senator Craig [continuing]. Border patrol.
    Secretary Rumsfeld. As opposed to internal-type things.
    Senator Craig. Uh-huh. You know, Mr. Secretary, you spoke 
of the successes of standing up as many as you have already, 
and are continuing to work on that as it relates to military. 
Are we doing as well as it relates to domestic or civilian 
police authority?

                       POLICE AND SITE PROTECTION

    Secretary Rumsfeld. That number I mentioned, of 56,000 
providing security now, with another 14,000 recruited and in 
training, the 70,000, included the police.
    Senator Craig. It did include the----
    Secretary Rumsfeld. It includes----
    Senator Craig [continuing]. Police.
    Secretary Rumsfeld [continuing]. The relatively small 
number of army people, thus far, civil defense, border patrol, 
site protection, and police, all of those combined. You can go 
a lot faster with some disciplines than others. For example, 
the ones that are living in their own neighborhoods, like 
police and site protection, they don't need barracks.
    Senator Craig. That's right.
    Secretary Rumsfeld. They need different periods of 
training. The army is going to need longer periods of training, 
barracks, and better equipment, different equipment, more 
expensive equipment. So it's more costly.
    The advantage of the police and the site protection is that 
these folks live in the neighborhood, they're providing us 
additional intelligence--the more there are joint patrols 
between Coalition forces and Iraqis, the better the language 
capability, the better the intelligence information that's 
flowing in, because those people live in the neighborhood and 
they know the drill.
    Senator Craig. Sure. Okay.
    Gentlemen, thank you. Thank you very much. I appreciate 
those comments and questions.
    Mr. Chairman?

                   ALTERNATIVE TO $20 BILLION REQUEST

    Chairman Stevens. Mr. Secretary and Generals, I thank you 
very much for your attendance at this hearing.
    I'd make one request to you. You've heard the opposition we 
face. If we don't get this money approved for the $20.3 billion 
for the side that pertains to rebuilding and moving into a new 
civilian government for Iraq, what's the impact on military 
policy? We're there. We're not going to come home. So what does 
it mean? Are you going to set up a military government? What's 
ahead for us in terms of an occupation force in the future if 
we do not have the money to transition to a civilian government 
in Iraq?
    Secretary Rumsfeld. Senator, you're exactly correct, we 
simply need those funds so that we can, in fact, invest in 
creating the Iraqi security forces so that they can take over 
the responsibilities for providing security in that country 
themselves. The only alternative to that is additional United 
States forces over a sustained period of time, and additional 
Coalition forces.
    Chairman Stevens. We could not leave. If we left there, 
there would be a bloodbath of the people who have helped us. So 
we're going to stay there. We're not going to run from this 
place.
    What goes on if we don't get Ambassador Bremer the money 
they need? That's what the American public needs to know, and 
that's what I need to be able to tell the Congress when this 
bill comes up on the floor. So I hope you'll help me. Give us 
some----

                           SECURITY SITUATION

    General Myers. It's hard to imagine, Senator Stevens, that 
the security situation would, in any way, get better if we 
don't get those funds. There's only so much you can do 
militarily. As General Abizaid said, this is not primarily a 
military problem, it's a problem of the political and economic 
development, as well. If that doesn't come along, then we are 
going to be there--as you said, assuming we don't pull out, 
we're going to be there, and the situation just can't better, 
because the lives of the Iraqis are not going to get better, 
because the infrastructure is not going to be fixed, because 
the engine for the power and the water and everything else that 
feeds the economy is not going to get better. We're not only 
going to be there, we're going to be in, in my view, a 
deteriorating security situation.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Stevens. Well, thank you very much. It's going to 
be a tough fight on the floor, but we'll continue. Thank you 
for your presentation.
    Secretary Rumsfeld. Senator Stevens, I can assure you the 
President of the United States is exactly where you are. We're 
not pulling out.
    Chairman Stevens. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Donald H. Rumsfeld
               Questions Submitted by Senator Harry Reid
    Question. Will the cost of U.S. military operations in Iraq 
decrease as you bring in more multinational troops? I assume that if 
you are able to bring in 2 to 3 multi-national divisions, the cost to 
the U.S. taxpayer will decrease, as we decrease the number of U.S. 
boots on the ground--is that true? Why not?
    Answer. The Coalition in Iraq now contains over 20,000 troops from 
more than 30 countries. Every troop contingent contributed by the 
international community reduces costs to the U.S. taxpayer, even in the 
case of less economically developed countries where we cover the costs 
of airlift/sealift and sustainment in theater. These countries are 
still paying for the salaries for their own troops and often have 
additional outlays for equipment and training. At present there are two 
multi-national divisions in Iraq plus numerous smaller units from 
troop-contributing countries in other areas of Iraq. The presence of 
these troops reduces the requirements for U.S. forces and thus reduces 
the overall cost to the taxpayer.
    But increases in these troop contributions are not the most 
important factor in determining whether it is appropriate to reduce 
U.S. troop strength. The key factor is the increase in Iraqi 
participation in efforts to bring about a more secure situation. Every 
day the numbers of Iraqi's serving in the police, the facilities 
protection service, the Iraqi Civil Defense Corps and the New Iraqi 
Army go up. There are over 200,000 Iraqi's on the front lines now, 
working to establish a more secure environment for reconstruction 
efforts.
    Question. What is the best case scenario on international troop 
commitments? Which countries will these troops come from, how many will 
there be and when will they be deployed? Who in our government is 
responsible for spearheading the effort on getting these additional 
foreign troops?
    Answer. Efforts toward maintaining security in Iraq are shifting 
from gaining international contributions to developing an Iraqi 
capacity. We do expect an RoK division of two brigades totaling 
approximately 3,000 personnel to be deployed in the April/May 2004 
timeframe. The force is scheduled to be garrisoned in the northern 
portion of Iraq. This is likely to be the last significant increase of 
coalition forces into Iraq. The Coalition Working Group (CWG) is the 
mechanism used to gain additional foreign troops. The CWG is comprised 
of Joint Staff, OSD(P), OSD(C), DoS, DSCA, and Army Staff personnel. 
Weekly SVTCs are conducted to coordinate with the Regional Combatant 
Commands and Unified Commands.
    Question. Is there an expectation that any of the international 
financial commitments (if there are any) can be used to offset the 
costs of our military operations, or will all the international 
financial contributions go strictly to the reconstruction effort?
    Answer. The donor's conference in Madrid last October exceeded 
expectations and set a record for the size of the overall 
contributions. The non-U.S. contributions exceeded $13 billion in 
grants and loans. Those funds will be dedicated to the reconstruction 
of Iraq, not to offset U.S. military costs.
    Question. What is the current number of personnel in the Iraqi 
Army? By this time next year, how large will the Iraqi Army be? Will 
the United States pay all the costs (salaries, training, supplies, 
weapons procurement, etc.) to stand up this army?
    Answer. Please see attached chart.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question. Will U.S. troops be expected to play a role in Iraqi 
border security over the next year or several years.
    Answer. Yes, Coalition troops and United States will play a role in 
Iraq's border security in the near future, similar in manner to our 
role with the other Iraqi security forces. Today, Coalition forces 
under CJTF-7 have the border control mission to monitor and control the 
movement of persons and goods across the borders of Iraq. They also 
perform functions of border police, customs police and inspections; 
immigration duties, port facility protection, detention and 
deportation, and passport issue and inspection.
    We have already hired and are in the process of training over 
12,000 Iraqi Border Police (which includes other functions such as 
customs and visas). Eventually, we foresee a force of about 25,700 
Iraqi Border Police and Customs personnel, operating under their 
Ministry of the Interior as a domestic security service. As we continue 
to hire and train these Iraqi Border police, they will gradually assume 
primary responsibility for that mission, and CJTF-7 Coalition forces 
will assume a supporting role, as the capability of the Iraqis allows.
    Question. Will Mr. Kay be releasing any kind of interim report on 
the search for weapons of mass destruction? When will that be available 
and will part of his report be available to the public?
    Answer. [Clerk's Note.--The Department failed to respond.]
    Question. In order to secure a new U.N. Security Council 
Resolution, would you be supportive of Ambassador Bremer reporting to 
the Security Council? Why not?
    Answer. Under mutual agreement between the United States and the 
Iraqi Governing Council, the Coalition Provisional Authority (CPA), 
which Ambassador Bremer heads, will dissolve June 30, 2004. At that 
time the Iraqi people will resume sovereignty, perhaps with help and 
participation from the United Nations.
    Question. Would you be willing to give up some control over Iraqi 
day-to-day political decision making to the United Nations? Why not?
    Answer. One of the objectives of Operation Iraqi Freedom was to 
create conditions in which a free Iraqi people could control their own 
destinies. Day-to-day control and political decision will shift to the 
Iraqis on June 30, 2004, when full sovereignty is restored. The United 
Nation's final role in the post-June 30th period will be worked out in 
close consultations between the Iraqis and the United Nations.
    Question. Are you aware that the POWs from the first Gulf War--who 
were tortured--had brought suit against Saddam Hussein, they prevailed 
in that suit, but were unable to collect their judgment because all 
Iraqi seized assets were apparently returned to Baghdad. Will the 
Administration be doing anything to replenish the seized assets account 
so these POWs, their families, and other claimants can satisfy their 
judgments against the former dictator? Does the fact we have won this 
war invalidate their claims of torture, murder and theft?
    Answer. These matters are the subject of ongoing litigation. It 
would be improper for this Department to comment.
    Question. Can you tell us the number of wounded American and 
coalition forces since the start of the campaign, and give sense as to 
the general nature of the injuries? Are the number of wounded on the 
rise or decline since the end of major combat operations?
    Answer.

NUMBER OF CASUALTIES, UNITED STATES AND COALITION SINCE THE START OF THE WAR AND SINCE THE END OF MAJOR CONFLICT
                                            THROUGH DECEMBER 8, 2003
----------------------------------------------------------------------------------------------------------------
                                                         United States         Coalition             Total
                                                     -----------------------------------------------------------
                                                        Since     Since     Since     Since     Since     Since
                                                      March 19    May 1   March 19    May 1   March 19    May 1
----------------------------------------------------------------------------------------------------------------
Killed in Action....................................       305       191        68        40       373       231
Wounded in Action...................................     2,170     1,619        92        45     2,262     1,664
Non-hostile death...................................       140       115        10         5       150       120
Non-hostile injury..................................       355       220         8         4       363       224
                                                     -----------------------------------------------------------
      Total.........................................     2,970     2,145       178        94     3,148     2,239
----------------------------------------------------------------------------------------------------------------

General categories of injuries
    WIA--Gunshot wound--343
  --Hostile small arms gunshot injury (includes Friendly Fire)
    WIA--RPG--243
  --Rocket-propelled grenade attack injury
    WIA--Vehicle--80
  --Aircraft or land vehicle injury not due to RPG or ordnance
    WIA--Ordnance--1,316
  --All explosion injuries not from RPG (i.e. improvised explosive 
        devise (IED), landmine, mortar, hand grenade, plastic explosive
    Other--188
  --All combat injuries not described above (including not seriously 
        injured)

                             RISE/DECLINE OF CASUALTIES SINCE END OF MAJOR CONFLICT
----------------------------------------------------------------------------------------------------------------
                                  Major Conflict                       End of Major Conflict
                                 -------------------------------------------------------------------------------
                                                                                                          Dec. 1-
                                    Mar     Apr     May     Jun     Jul     Aug     Sep     Oct     Nov      8
----------------------------------------------------------------------------------------------------------------
KIA.............................      36      73      11      17      25      16      17      36      68       6
WIA.............................     135     378      68     147     217     167     255     405     345      53
----------------------------------------------------------------------------------------------------------------
Large number of Improvised Explosive Devices (IED) and Rocket Propelled Grenades contributed to the October
  increase in WIA and KIA.
38 of the 68 KIA and 28 WIA in November were due to helicopter crashes and large number of IEDs contributed to
  the increase in WIA.

    Question. Can you explain the impact that the Iraq war has had on 
our efforts in Afghanistan? Would we have drawn down our force levels 
in Afghanistan if we had not taken military action against Iraq? Is 
there a need to ramp-up the level of forces in Afghanistan?
    Answer. We have roughly the right number of forces in Afghanistan. 
There may be times, such as elections, force rotations, or for other 
specific operations, that we may need a temporary surge in forces, but 
the number we have in Afghanistan, and have had in the past, is about 
right. As we continue the transition to stability operations, we are 
increasing the number of folks contributing to the multinational 
Provincial Reconstruction Teams (PRTs), a key component of our security 
and reconstruction strategy.

                            COMMITTEE RECESS

    We'll be in recess until tomorrow, the 25th, at 2 p.m., in 
Dirksen 106, this room, we'll hear testimony on the 
supplemental request, particularly relating to Afghanistan. Our 
witnesses to start off will be General Pete Pace, the Vice 
Chairman of the Joint Chiefs of Staff, and Dr. Zakheim, our DOD 
Comptroller who's been with us all day.
    [Whereupon, at 3:40 p.m., Wednesday, September 24, the 
committee was recessed, to reconvene at 2 p.m., Thursday, 
September 25.]


 FISCAL YEAR 2004 SUPPLEMENTAL REQUEST FOR RECONSTRUCTION OF IRAQ AND 
                              AFGHANISTAN

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 2003

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 2:15 p.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Domenici, Bond, Bennett, Craig, 
Byrd, Inouye, Leahy, Harkin, and Murray.

                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. DOV ZAKHEIM, Ph.D., UNDER SECRETARY 
            OF DEFENSE--COMPTROLLER
ACCOMPANIED BY:
        GENERAL PETER PACE, VICE CHAIRMAN, JOINT CHIEFS OF STAFF
        PETER RODMAN, ASSISTANT SECRETARY OF DEFENSE FOR INTERNATIONAL 
            SECURITY AFFAIRS

                   STATEMENT OF CHAIRMAN TED STEVENS

    Chairman Stevens. Mr. Secretary, I have received word from 
Senator Byrd. He is delayed--oh, here he is. Thank you, sir. 
Thank you, Senator. I know that Senator Byrd was in a hearing 
this morning.
    We are pleased that you and Secretary Rodman and General 
Pace could be with us this afternoon so we can discuss this 
2004 emergency supplemental request. As we all know, the 
administration sent to Congress an $87 billion supplemental 
appropriations request, of which $66 billion is for the 
activities of your Department of Defense. On Monday Ambassador 
Bremer testified before the committee on reconstruction efforts 
in Iraq and yesterday Secretary Rumsfeld, General Myers, and 
General Abizaid testified also as to the defense portion of 
this request.
    Those two hearings highlighted the critical need for the 
supplemental funding as quickly as possible. The committee has 
had a total now of 9\1/2\ hours of hearings on this 
supplemental so far. The Senate Armed Services Committee and 
Senate Foreign Relations Committee have also held hearings on 
this supplemental request and the House Appropriations, House 
Armed Services, and the House International Relations 
Committees have also held hearings.
    Much of this time has been focused on Iraq and ongoing 
efforts by our military to liberate the Iraqis. This afternoon 
we will hear testimony focusing on the ongoing operations and 
activities in Afghanistan. The supplemental requests $10.5 
billion for Operation Enduring Freedom. This includes funds for 
Afghanistan and the global war on terrorism.
    As many of us know, the Army and Special Operations 
continue to employ forces in Afghanistan as part of the 
sustained campaign against terrorism worldwide. Operational 
forces are also focused on border control, training the Afghan 
National Army, conducting civil-military operations, and 
undertaking security operations. The Combined Joint Task Force 
180, with over 10,000 soldiers under its command, continues to 
focus on the effort along the Pakistan border, rooting out and 
destroying terrorist networks. The Combined Special Operations 
Task Force is coordinating civil-military projects and 
humanitarian assistance throughout Afghanistan. Over 1,400 
Special Operations soldiers are in Afghanistan today, I am 
told.
    Yesterday I said that I did not think our Nation should 
fail to meet the--I said that, as our Nation did not fail to 
meet the needs of Europe and Japan after World War II, we could 
not now fail to meet the needs of the people of Iraq and 
Afghanistan. We must complete our mission to provide stability 
in Afghanistan, with the hope that democracy will take hold, 
and give that country the economic assistance it needs to 
succeed. I believe this supplemental request will address the 
needs of our men and women in uniform and we should not fail to 
provide them the support and resources they need to do their 
jobs.
    Senator Byrd, do you have a statement you would like to 
make at the opening?

                  STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Yes, I do. I would be glad to make an opening 
statement.
    First let me thank you, Senator Stevens, for the work that 
you have done here, and I appreciate the appearance before us 
of General Pace, Dr. Zakheim, and Mr. Rodman. I thank you for 
calling this particular hearing on Afghanistan.
    I firmly support the war in Afghanistan. There was an 
attack on us, September 11, 2001. The American people are 
firmly behind that war. It was from that land, Afghanistan, 
that sprung the heartless attacks of September 11, 2001. But 
the administration has consistently used the specter of that 
tragedy to build momentum for its preemptive war in Iraq. 
Leading up to the invasion of Iraq, the administration 
officials carefully fashioned an implied link between 9/11 and 
Iraq, never saying directly that Saddam Hussein was involved, 
but leaving that clear impression.
    On September 8, 2002, on ``Meet the Press'', Vice President 
Dick Cheney said: ``Come back to 9/11 again, and one of the 
real concerns about Saddam Hussein as well is his biological 
weapons capability.'' National Security Adviser Condoleeza Rice 
said on September 25, 2002, quote: ``There have been contacts 
between senior Iraqi officials and members of al-Qaeda going 
back for actually quite a long time.'' Close quote.
    Defense Secretary Donald Rumsfeld said on September 26, 
2002, quote: ``Yes, there is a linkage between al-Qaeda and 
Iraq.'' Close quote. On October 14, 2002, President Bush said, 
quote: ``This is a man''--meaning Saddam Hussein--``that we 
know has had connections with al-Qaeda. This is the man who in 
my judgment would like to use al-Qaeda as a forward army.''
    So, Mr. Chairman, the implication was clear: Wave the 
bloody shirt of 9/11, throw in al-Qaeda, and make the case for 
war against Iraq. Do not mention that there was no tie between 
Saddam Hussein and 9/11, as the President later clarified, and 
that he saw no evidence of any tie with 9/11 and Saddam 
Hussein. Do not mention that there was not a single Iraqi who 
hijacked those three airplanes on that fateful day. Let the 
implication linger. Let the people believe whatever they want 
to believe.
    But what has been the result of these half-truths? Gone is 
the focus on Afghanistan and the so-called hotbed of terrorism 
in those remote areas. Gone is the major attention on Osama bin 
Laden. In fact, if news reports are to be believed, Osama bin 
Laden and Mullah Omar continue to hide in the mountains of 
Afghanistan, regrouping, recruiting, and preparing for another 
opportunity to strike at America.
    The administration's almost singular focus on Iraq has left 
the war on terrorism treading water. Just this week, Pakistani 
Parvez Musharraf said that his government needs more military 
and intelligence help from the United States to fight al-Qaeda 
and the Taliban. He needs more helicopters and increased 
resources in order to patrol the difficult terrain between 
Pakistan and Afghanistan. The administration plans to provide 
some funding to support coalition forces, but the overwhelming 
focus of the funds is to rebuild Iraq to a level, in my 
opinion, that it has never known before.
    The importance of garnering more international support for 
our overseas missions cannot be understated. The administration 
frequently touts the fact that 32 nations are contributing 
troops to our mission in Iraq, but then glosses over the fact 
that 10 of those countries have contributed less than 100 
troops each.
    I have said that I will support funds needed for the safety 
of our troops. When we say we will support funds for our 
troops, that can mean many things. I mean that I will support 
funds needed for the safety of our troops. But more money for 
our troops does not mean that they will be safer. The first 
order of business should be to bring in more international 
troops to relieve our tired soldiers. Unfortunately, the 
administration has taken the tack of trying to push $87 billion 
through Congress while saying that a new United Nations (U.N.) 
resolution to encourage more international troops could take 
months, as reported by the Washington Post this morning.
    I believe that the administration has lost focus on what is 
most needed in Iraq. I believe that the administration has lost 
focus on Afghanistan in preference for its much higher priority 
in building democracy in Iraq. From the beginning, vital 
resources, including troops, translators, and intelligence 
resources, were shifted from the hunt for al-Qaeda to the 
strikes against Saddam Hussein. Even in this request, the bulk 
of the resources are placed on Iraq, even as reports grow that 
the Taliban is gathering strength and that communities outside 
of Kabul are controlled by warlords.
    Is this a strategy that will capture Osama bin Laden? I 
fear that this will more likely result in a renewed safe haven 
for terrorists instead of an end to their operations in 
Afghanistan.
    In yesterday's hearings, I asked that at further hearings 
an outside witness be called so as to expand the analysis of 
this supplemental and the path that it will surely place this 
Nation upon. I am trying to shorten my statement now, Mr. 
Chairman, so I will ask that the remainder of the statement be 
included in the record, and I will try to close it at the end 
here.
    I hope that the committee will have the opportunity to hear 
from Secretary Powell and to hear from those who are 
responsible for administering the classified section. The 
American people have a right to expect their elected 
representatives to fully understand this request, to have time 
to craft amendments, to debate those amendments, and to fashion 
the best possible product. We cannot possibly meet that 
responsibility in such a rush.
    So, Mr. Chairman, I renew my request for more hearings, 
more witnesses, and more time. This is $87 billion that will 
have enormous long-term funding and policy implications. We 
ought to be responsible in our approach and not rush 
legislation that we may come to regret.
    I thank the Chair.
    Chairman Stevens. Thank you very much.
    Senator Domenici, do you have an opening statement?
    Senator Domenici. No, I do not. I will wait.
    Chairman Stevens. Senator Bond?
    Senator Bond. Thank you, Mr. Chairman. I think I will wait 
until the question and answer session, and I may offer some 
comments along with questions.
    Chairman Stevens. Senator Inouye?
    Senator Inouye. I will wait.
    Chairman Stevens. Senator Bennett.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman. I also will wait 
for the question period for substantive comments, but I would 
like to make this comment at the beginning of this hearing. 
This is a very difficult question and Senators on both sides 
have very strong opinions. They are deeply held convictions. 
They are opinions and positions that have not been arrived at 
frivolously and they are not held, I believe, in most instances 
for political purposes.
    I want to thank you and Senator Byrd for the history you 
have established in this committee of maintaining a sense of 
bipartisanship even in the face of disagreement, and I 
appreciate the tone that has been set again here this afternoon 
that, in spite of the fact that some harsh words have been 
spoken, the committee is returning to its long-term tradition 
of amity among members even as we have very vigorous 
disagreement on policy.
    I want to thank you and Senator Byrd. This is rooted in 
your deep personal friendship and the friendship that you, Mr. 
Chairman, have had over the years with Senator Inouye on the 
Defense Subcommittee has set the example for all of us. We all 
know that, however much you disagree and however often you vote 
against each other, in the confines of this committee you 
maintain that friendship and that sense of cordiality. I 
appreciate the fact that we are getting back towards that, at 
least so far in this committee today, and I hope you and 
Senator Byrd will continue to set the example for all of us. 
Even as you disagree, you make it clear to all of us that we 
are a committee and we should stand together to do our 
committee's work.
    Thank you.
    Chairman Stevens. Thank you very much, Senator.
    Dr. Zakheim, do you have an opening statement for us today 
or comment upon the Afghan situation?

                    SUMMARY STATEMENT OF DOV ZAKHEIM

    Dr. Zakheim. I certainly do, Senator, Mr. Chairman. If I 
may, I have a brief statement; if I could read it out, please.
    Thank you very much, Mr. Chairman, Senator Byrd, members of 
the committee. First of all, I want to thank the committee for 
all the support you have provided for Afghanistan over the past 
2 years, both in terms of funding and in the special 
authorities we have requested. I want briefly to address three 
matters today: first, the progress we have made so far; second, 
the steps we need to take to accelerate our progress; and 
third, our new request for funds and authorities.
    As Deputy Secretary Wolfowitz has said, the United States 
remains strongly committed to success in Afghanistan and to 
establishing there a moderate and democratic political order 
that is fully representative of the Afghan people. Afghanistan 
has suffered a great deal over the last quarter century and it 
has come a long way since the fall of the Taliban regime in 
2001. The United States shares and supports President Karzai's 
and the Afghan people's hopes for a peaceful, democratic, and 
prosperous country that can serve as a partner in the region 
and as a model for other Muslim states.
    Over the past 2 years we have provided slightly over $2 
billion in assistance to Afghanistan. We currently have 9,800 
troops stationed there, 8,100 active, 1,700 reserve. Thirty-
nine countries have contributed almost an equal number, 8,000 
troops, to Afghanistan. This remains a major priority, a top 
priority, for the United States.
    With respect to security and particularly strengthening the 
role of central government, that too is one of our top 
priorities. So far we have trained and partially equipped 10 
battalions of the Afghan National Army. We have trained 700 
Afghan national police. We have helped to implement a national 
communications system. And we have put in place a national 
police ID card system.
    To help increase commerce, improve security, and better 
integrate the various provinces, the international community 
has begun to work to improve the roads in Afghanistan. The 
United States has graded the entire 450-kilometer stretch of 
the ring road between Kabul and Kandahar. It has deployed 
security along road construction sites and it has paved 15 
kilometers to date. Just by way of illustration, it took 30 
hours to do that trip before. Now it takes about six, I am 
told.
    We also have built 142 schools and 140 health clinics, 
again to help the central government provide for its people and 
to counter the influence of extremists. As you know, the 
history of Afghanistan has always been one of a central 
government struggling to have control over its outlying 
provinces. By helping the central government to extend 
services, we are trying to change the fundamental political 
culture of the country.
    We have also begun to create joint civilian-military 
Provincial Reconstruction Teams, called PRT's. Two are operated 
by the United States, one each are operated by the United 
Kingdom and New Zealand, and one opened in Mazar-e-Sharif in 
July. These teams help provide basic services to the Afghan 
people and increase security in outlying areas.
    As you know, Afghanistan is a poor country without many of 
the institutions necessary for democracy and governance. Prior 
to being essentially a terrorist state, it was a communist 
state, and prior to that it was a monarchical state. We are 
talking about again something very, very different now, and the 
ability of Afghanistan's government to provide basic services 
to its people is very, very limited after decades of war.
    The United States has contributed $53 million to the 
recurring budget to help in that area. As the government starts 
meeting the needs of its people, it helps to reduce the 
influence of provincial or regional or local warlords. We have 
also begun helping Afghanistan to prepare for what is a unique 
institution, the constitutional loya jirga, and for voter 
registration in the run-up to next June's elections.
    While we have made significant progress in Afghanistan, 
there is obviously much that has to be done, and we want to do 
as much as possible in the immediate future, in the next 
months, to help Afghanistan get back on its feet in advance of 
the June 2004 national elections, which are crucial to the 
future of Afghan democracy.
    Between our base 2004 request and the supplemental, we will 
nearly double our funding for Afghanistan to $2 billion this 
year. Among the things we hope to do, we want to train and 
equip and deploy 27,000 additional police, including border 
police, highway patrol, and counternarcotics personnel, and the 
supplemental covers 20,000 of these.
    We want to begin a demobilization, disarmament and 
reintegration program together with Japan. We want to fully 
train and equip the Afghan National Army central corps and 
create another six battalions.
    With respect to reconstruction, we are working to complete 
the first layer of pavement on the Kabul-Kandahar Road by the 
end of December 2003 with the funds we already have. But we 
want to begin the Kandahar-Herat Road, which goes further to 
the west, and 1,000 kilometers of secondary roads, and we need 
supplemental funding for that.
    We want to construct a total of 372 schools. The 
supplemental will get us another 130. We want to construct 300 
new health clinics. The supplemental covers another 90. We want 
to expand the PRT program by at least four additional PRT's, in 
Herat, Jalallabad, Kandahar, and Parwan so we have got a 
countrywide presence.
    Now, in Bamiyan, New Zealand took over the leadership of 
the PRT on September 22----
    Chairman Stevens. What does that mean?
    Dr. Zakheim. Sorry?
    Chairman Stevens. What does that acronym mean?
    Dr. Zakheim. That is the Provincial Reconstruction Teams. 
Those are the teams that are out literally in the hinterlands 
and they are multi-agency, they are multinational. There is 
some military presence, and what they do is enable the central 
government to really show that it is extending its hand 
throughout the country, so that it is not simply seen as some 
kind of Kabul mayoralty or something like that. These PRT's 
have been extremely successful and that we are getting other 
countries involved--I mentioned the British and the New 
Zealanders, but the Italians, Rumanians, and South Koreans also 
want to provide support to the PRT's. This is a truly 
international effort.
    With respect to democracy and governance, we want to 
contribute an additional $75 million to the recurring budget, 
another $25 million coming out of the supplemental. We have to 
complete preparations for the constitutional loya jirga that I 
mentioned earlier. We have to help the government to increase 
and professionalize revenue collection and we have to help to 
complete voter registration and party development as the run-up 
to the election next June.
    We also need some authorities. We have asked, as we have 
asked before, for train and equip authority. But what we have 
seen in Afghanistan is that you have to build the local 
capacity to combat terrorists. Without that it is much, much 
more difficult to achieve our goals.
    The Department of State traditionally has financed training 
for foreign troops under its authorities. But when new threats 
emerge unexpectedly, State finds it very hard to come up with 
the funding because they precommit their resources and there is 
no real flexibility to get the kind of funding that is urgently 
needed.
    We very much appreciate the counterterrorism train and 
equip authority you provided us in the fiscal year 2003 
supplemental, and the Office of the Secretary of Defense (OSD) 
and particularly my colleagues in Policy--and Assistant 
Secretary Peter Rodman is here--is working closely with State 
to utilize those authorities carefully. But to fight the kind 
of war we face, we need maximum flexibility to benefit from 
contributions that foreign military forces who share our goals 
could make. But in some cases they are simply limited in their 
ability to provide effective assistance without additional 
equipment, training, or funding.
    Right now we operate with what is really a patchwork of 
authorities that allow us to provide assistance to such 
countries, but there are real gaps. In some cases there are 
dollar limitations, for instance the drawdown authority in the 
Afghan Freedom Support Act. In some cases authorities expire. 
In some cases we cannot pay for salaries or per diem of foreign 
military trainees or train forces assisting American forces in 
counterterrorism operations. For instance, in Afghanistan some 
ANA troops have completed training and could deploy with our 
forces, but they just do not have the funding for salaries. The 
language we are requesting would cover those gaps.
    I just mentioned the drawdown authority. It has been 
critical to our ability to support the training of the Afghan 
National Army, particularly when State had insufficient 
resources to meet the requirements this year. We intend to 
exercise what is left of that authority, $135 million. We are 
going to do that this fall to keep the Afghan National Army 
going. But we are asking for supplemental funding for the State 
Department to cover the known requirement for the rest of 2004.
    Still, we need an additional $300 million in drawdown 
authority to ensure that we can deal with unexpected costs. 
That is what we have found. These costs do arise. We need the 
authority to let us continue.
    We have a request for counternarcotics programs. Our 
request is for $73 million. That is in addition to what the 
State Department has requested. There is a distinction between 
the two. State Department is going to provide basic training 
for the police. What we are doing is to provide first of all 
advanced training to those people trained by State so they can 
be prepared for the counternarcotics mission. That is a highly 
specialized capability that we are in a better position to 
provide.
    We also will provide personal equipment for security 
forces. We would construct training facilities, border 
checkpoints, enhance communications, command and control and 
related activities, so that the Afghans can deal with the 
narcotics challenge head-on. For that, we are requesting $73 
million above what State is asking for.
    Finally, the supplemental includes $1.4 billion for 
coalition support with the same authorities you previously 
provided us. The vast majority of those funds we anticipate 
would be used to reimburse Pakistan, Jordan, and other key 
cooperating countries that are helping us combat terrorism in 
this part of the world. Pakistan continues to patrol along the 
Afghan border in an area that they do not normally operate in, 
in fact that they historically never operated in. That is the 
tribal areas in the Northwest Frontier Province. We would use 
those funds to cover the incremental costs of the operations, 
operations they would not undertake without us asking them to 
do so.
    Depending on how the situation on the ground develops, we 
could, at least in theory, use some of these funds to support 
foreign troop contributions in Afghanistan or foreign PRT 
participation as well.
    Lastly, we have included $48 million in military 
construction funds for repairs of an air field in Bagram. As 
you know, Bagram near Kabul is the hub of our military presence 
in Afghanistan. And we have also requested additional funds to 
support Operation Enduring Freedom elsewhere in the region, a 
number of bases including Diego Garcia, facilities in the 
United Arab Emirates, in Qatar, and elsewhere that provide the 
overall base of support for operations both in Iraq and in 
Afghanistan.
    I thank you very much for the chance to make this statement 
and will be happy to answer your questions.
    Chairman Stevens. Thank you very much.
    Mr. Rodman, on that money for the drug control, could you 
bring us up to date on what is going on there? I understand 
there has been a substantial buildup now in the growth of 
poppies in Afghanistan and the Department is now working with 
the Department of State in a program to curtail that growth. 
Could you give us a summary of that activity?
    Mr. Rodman. It is a major problem and, as you know, Mr. 
Chairman, when we arrived in Afghanistan the British took 
responsibility for the counternarcotics effort and we thought 
that was appropriate. But it is clear as the years have gone by 
that the problem is more serious and that the United States 
needs to do more to support.
    I think one thing we are doing is, as Dr. Zakheim said, is 
expanding our own role in the police training, and a lot of 
that goes, a lot of that effort, as he explained, will go into 
the counternarcotics effort. The money that the Department of 
Defense (DOD) is asking for, the $73 million, is meant to 
supplement and complement the money that the State Department 
is providing, and we intend to work hand in hand with the State 
Department to be more effective.
    Chairman Stevens. I apologize, I had to sign those 
documents.
    Can you tell us what we are doing? Are we buying equipment 
with this money for the Afghan people? Is it just for the 
civilian side or is this for the Afghan military? How are you 
interfacing with what the State Department is doing in that 
regard?
    Mr. Rodman. It is training. What we are providing is more 
advanced training. The State Department, the INL money, 
provides for basic police training, a lot of which is dedicated 
to the counternarcotics effort. Our support is intended to be 
sort of postgraduate training for some of these graduates, to 
give them the more specialized training in the counternarcotics 
area. So it is complementary to what the State Department is 
doing in that respect.
    Dr. Zakheim. I can give you details, dollar details, Mr. 
Chairman. Out of that $73 million, $59 million is directly to 
Afghanistan, $15 million for equipment, $10 million for 
training, $7 million for one-time capital investment in 
infrastructure, $14 million for one-time investment in command, 
control, communications, computer and intelligence systems, $8 
million for intelligence, surveillance, and reconnaissance 
support, and a one-time $5 million program for a new 
intelligence fusion center. That is directly to Afghanistan.
    Then we have got another $14 million for states that border 
Afghanistan because, as you know, there are people going back 
and forth across those borders all the time: $5 million for 
equipment, again $3 million for one-time infrastructure 
investment, and $6 million from the C\4\I systems, again a one-
time investment.
    So that is the detail of that $73 million.
    Mr. Rodman. If I may, I can supplement that a little bit. I 
think some of the DOD money for the counternarcotics is also 
going to cover personal equipment for security forces, to help 
construct training facilities, border checkpoints, and improve 
communications and command and control for the counternarcotics 
effort, in addition to the training piece.
    Chairman Stevens. Have our efforts been at all successful 
in reducing the level of that crop increase?
    Dr. Zakheim. One of the reasons, Mr. Chairman, that we have 
asked for this money is that, as you well know, the trajectory 
of their production has gone all the way up. They may well be 
by now again the world's leading producer of illegal drugs.
    The lead for this effort was undertaken by the United 
Kingdom and we played a supporting role and still play a 
supporting role. If our troops are in the middle of an 
operation and we come across drugs, then we destroy them. But 
that is not our primary focus.
    So what we are doing here is injecting funds that in Afghan 
terms are quite significant, to allow Afghans to take on a much 
larger share of this load. Ultimately it is the Afghans that 
have to deal with their problem, but we want to help them.
    Chairman Stevens. Good.
    General Pace, Senator Inouye and I had an interesting 
experience at K2. I would like to have you tell us what are the 
living conditions there now. We had a report that many of our 
forces were still in tents and had rather rudimentary 
facilities. Is that going to be changed by this supplemental?
    General Pace. Sir, not directly by this supplemental. But 
you are absolutely correct, the quality of life in Karshi-
Kanibad is not what we would like it to be. My last visit there 
was just before yours, sir. We do have troops living in tents 
there, it is dusty, it is dirty. The commanders on the ground 
have undertaken a program to improve the facilities long-term, 
to begin to air condition some of the tents, to tamp down the 
dust, and to create a better environment for our troops. That 
will be a long-term program and there is not money in this 
supplemental for that.
    Chairman Stevens. Well, does the rest and recuperation 
portion of this bill cover those people that are in 
Afghanistan, particularly up there in Uzbekhistan?
    General Pace. Sir, I will check to make sure my answer is 
accurate. I believe that the answer to that question is no, 
sir. The rest and recuperation part of this bill was for the 
troops in Iraq to be able to get a 15-day break during their 1-
year period. The troops in Karshi-Kanibad--I am going to get 
corrected right now, sir.
    Dr. Zakheim. I think it is both.
    Chairman Stevens. I wondered whether it was both because I 
know that some of those people in Afghanistan have been there 
for a long time and that would be a good place to test it, 
would be on the Afghanistan people, if it is possible.
    General Pace. I am sorry, I thought you were talking about 
Karshi-Kanibad, sir. I misunderstood your question.
    Chairman Stevens. Thank you very much. I will be back with 
more questions. Senator Byrd.
    Senator Byrd. You are asking for several authorities. I 
want to think about these pretty carefully. Several were asked 
for last year and were rejected by the Congress. I think we 
ought to be very careful about giving additional authorities to 
the executive branch. I do not care whether it is Republican or 
Democrat. Well, I do care, but with respect to giving them 
authorities I do not care which one it is. I am against it. I 
am for the legislative branch of government first, last, and 
all the time, recognizing that we do have two other branches.
    But I want us to be very careful, Mr. Chairman, about 
extending authorities, especially new authorities, either in 
this area or in the Iraqi area. I think that for over 200 years 
now we have fought wars, we have fought small ones and we have 
fought big ones, and we have gotten along very well with the 
authorities that were there, especially in coming through World 
War I, World War II, and the other wars that we fought in the 
20th century, and we did not change the authorities. We have 
lived with about the same authorities all along.
    But now comes the efforts in this administration to have 
these authorities changed, which means that more and more 
legislative power and constitutional power, if they can get it, 
flows to the executive branch. And once it flows there, we will 
never get it back, you can be sure of that, because a 
Presidential veto would require, as we all know, a two-thirds 
vote in Congress to overcome.
    So I want us to guard, Mr. Chairman. I hope our staffs will 
go over very carefully these authorities that are being asked 
for and any that are being asked to be extended and any that 
are being asked to be enlarged. I hope we will very zealously 
guard the authorities and powers of the legislative branch.
    I would have more time on these, but I have a whole page of 
the authorities here and I will not take the time to go into 
all of them. But looking down here at a few of them, the 
President proposes to increase the Secretary of Defense's 
authority to transfer funds--that gives me problems--to 
transfer funds among accounts in fiscal year 2004 by $5 
billion. Such transfers would be subject to advance 
notification: Hello there, we want to transfer this; okay, we 
have notified you and that is it. Such transfers would be 
subject to advance notification.
    In the fiscal year 2003 supplemental, Congress only gave 
the Secretary an additional $2 billion transfer authority. I 
think that a $5 billion transfer would be excessive, so I would 
be opposed to that.
    Here is another proposal: It would permit DOD to transfer 
up to $500 million to pay for unauthorized military 
construction projects in fiscal year 2004, with a requirement 
for 7-day advance notification: Hello there, next week on this 
very day, we expect to transfer these; that is it, thank you, 
goodbye.
    A similar authority was approved for 2003 in the fiscal 
year 2003 supplemental at a level of $150 million. Well, this 
time they want to triple that and more. This authority would 
potentially allow the United States (U.S.) to establish bases 
in Iraq, in Afghanistan, and in the former Soviet states. Well, 
$500 million in transfer authority for military construction 
(MILCON) is excessive. As I say, only $150 million was in the 
supplemental.
    Now, the proposal would permit the use of any foreign 
contributions for any purpose--are you hearing me out there? I 
think I am coming through all right.
    Dr. Zakheim. Yes, I hear you very clearly, Senator, 
absolutely.
    Senator Byrd. Good.
    The proposal would permit the use of any foreign 
contributions for any purpose, without subsequent approval by 
Congress or advance notification of Congress. Now, that is 
really, I think, kind of outlandish, to expect that. Congress 
rejected this proposal in the fiscal year 2003 supplemental, 
limiting the authority to expenditures on the repair of the oil 
infrastructure.
    Next, blanket authority is sought for DOD to use fiscal 
year 2004 operation and maintenance (O&M) funds for supplies, 
services, transportation, and other logistical support to 
coalition forces supporting military operations in Iraq. This 
request was rejected in the fiscal year 2003 supplemental. 
Well, that was rejected last year--this year. We are talking 
about 2004 operations and maintenance funds. That was rejected. 
It was rejected in the fiscal year 2003 supplemental.
    I think that on behalf of the people--it is their money. As 
I have heard it said so many times with respect to these tax 
cuts, that it is the people's money. Well, it is the people's 
money here, and I think that Congress had better try to be 
tight-fisted, especially when it comes to giving additional 
authority to the executive branch.
    The President once again seeks an authority rejected in the 
fiscal year 2003 supplemental that would give the Secretary of 
Defense his own foreign aid budget. Well, I like Secretary 
Rumsfeld. I am always glad to see him appear before the 
committee. I wish he would appear before the committee more in 
conjunction with the requests in this bill. But he is not going 
to be able to do that. I think we ought to reject that again. 
We do not need another foreign aid budget, and we do not need 
another foreign relations department.
    The President also requested $15 million for the DOD 
Secretary that can be used upon the certification of the 
Secretary for confidential military purposes. Now, I do not 
know. If we give $15 million now, it will be $50 million next 
time, then $100 million, then it is gone, out the window.
    $1.4 billion is requested for fiscal year 2004 for DOD to 
support coalition forces, primarily Pakistan and Jordan, with a 
15-day advance notification requirement. Similar authority was 
approved in the fiscal year 2003 supplemental. I would not 
approve it this time. I would oppose it.
    The President's proposal would extend for calendar year 
2003 the increases in imminent danger pay and the family 
separation allowance that were approved by Congress in the 
fiscal year 2003 supplemental. Effective on January 1, 2004, 
these increases are proposed to be replaced with an increase in 
the hardship duty pay allowance from $300 to $600 per month. 
Now, that sounds all right to me.
    Now, let us see. I did not ask you for any comments on that 
because I know we are going to hear the executive branch line, 
and I can understand that. I am just flat-out opposed to more 
authorities to the executive branch, in this administration, or 
in the previous one, or in the next one.
    Now, the President has requested $1.4 billion in this 
supplemental for coalition support. Are we talking about the 32 
nations that are in the coalition?
    Dr. Zakheim. No, sir. No, we are talking here about the 
money for places like Pakistan and Jordan that essentially have 
the ability to carry out certain missions to support us, but do 
not have the finances to do it because their own budgets are 
stretched and we are asking them to take on new tasks.
    Senator Byrd. Of these funds, how much is related to the 
mission in Afghanistan and how much is related to Iraq?
    Dr. Zakheim. Right now the overwhelming proportion is 
actually related to Afghanistan. We have been reimbursing the 
Pakistanis at the rate of about $70 million a month, so right 
there you have accounted for about $850 million out of that 
$1.4 billion. In addition, we have reimbursed some other 
countries for approximately another $35 million or $40 million 
or so.
    Now, some of it has been related to Iraq. For example, that 
is how we funded the Polish division that is there. That cost 
about $300 million, give or take. So that is the bulk of the 
money. But clearly the largest proportion would again be for 
Afghanistan.
    Senator Byrd. Are there any efforts underway to increase 
the number of foreign troops in Afghanistan?
    Dr. Zakheim. Right now, as you know, the North Atlantic 
Treaty Organization (NATO) has taken over command of the 
International Security Assistance Force in Afghanistan, what is 
called ISAF. There are currently 8,000 foreign troops in 
Afghanistan, in addition to the Afghan National Army that we 
are training. If you add those to it, it is approximately 
9,000, and we have approximately 9,000.
    Senator Byrd. Does the United States pay other countries to 
contribute troops to fighting al-Qaeda?
    Dr. Zakheim. We have not been paying to my knowledge, no, 
sir, with some exceptions where they are providing direct 
support to our operations.
    Senator Byrd. Can you give us an idea of what we are 
talking about, how much money?
    Dr. Zakheim. Oh, sure. As I said, when the Pakistanis 
patrol their side of the border and hunt down al-Qaeda types 
and they are running up costs that they would not have to run 
if we were doing this, then we reimburse them. Of course, if we 
did it we would probably have a lot less success and it would 
cost us a lot more, and not only in dollars but possibly in 
lives.
    Senator Byrd. Would you supply for the record how much we 
are paying other countries, and what countries and how much to 
each, to contribute troops to fighting in Afghanistan?
    Dr. Zakheim. Certainly, sir.
    [The information follows:]

    The United States has provided limited financial support to 
enable foreign countries to contribute troops to Afghanistan. 
The United States provided approximately $277,000 to transport 
an Engineering Unit from Thailand into Afghanistan. This is the 
only instance where the United States has provided financial 
support to enable foreign nations to contribute troops to fight 
in Afghanistan.

    Senator Byrd. Mr. Chairman, is that red light flashing, is 
that against me? Is that my time?
    Chairman Stevens. That is 10 minutes, yes, sir, but we are 
not rushed for time. Senator Inouye is next.
    Senator Byrd. Senator Inouye, I have had a chance to say a 
good bit and ask a good bit. I will yield now for another 
Senator.
    Chairman Stevens. Senator Inouye, do you have any 
questions?
    Senator Inouye. In the past few days, Dr. Zakheim, we have 
learned that we are hoping to develop another multinational 
division to go to Iraq, and that one of the potential 
contributors to this division will be Pakistan. I have been 
thinking to myself one of the problems we have in Afghanistan 
is the inability on our part, together with Pakistan, to close 
the border between Pakistan and Afghanistan. It is common 
knowledge that the al-Qaeda go back and forth.
    Why are we asking the Pakistanis to send troops to Iraq 
when we need them more on their border?
    Dr. Zakheim. Let me start if I may, Senator, and then 
perhaps General Pace can comment on the military realities. We 
think Pakistan, first of all, is very capable and has the 
capability to be a very effective peacekeeping force in Iraq. 
Secondly, I suspect that what we need from Pakistan in the 
border area is a certain commitment and effort and would not 
necessarily be affected by the numbers of troops. I think our 
judgment is that they can spare the troops for Iraq if they so 
choose. And we have been cooperating with them, with a degree 
of effectiveness in the border area against al-Qaeda and 
Taliban on the Afghan border.
    So my sense is that we think they can do both missions if 
they so choose.

                       MIDDLE EAST BORDER ISSUES

    Senator Inouye. Do you believe that the borders are secure?
    Dr. Zakheim. No, it is not secure, but the terrain is 
horrendous and it is something that we and the Pakistani 
government need to redouble our efforts in. But it depends on 
intelligence. It may not be a function of the numbers of 
troops.
    General Pace. I might be able to help a little bit on that, 
Senator. There is a tripartite commission between the Afghan 
government, the Pakistani government, and our commander on the 
ground working the potential border issues. Clearly it is up to 
the Pakistan government to determine what they can and cannot 
give. The military estimate is that if they were to contribute 
forces to Iraq that they would still have sufficient forces to 
defend Pakistan and to work with the Afghans and the United 
States along the Afghan-Pakistan border. But that is their 
choice, but our military estimate is that they have sufficient 
troops to do both, sir.
    Senator Inouye. General Pace, we have been told that troops 
that have served in Afghanistan are now serving in Iraq. How 
many of these troops have done double tours?
    General Pace. Sir, I will have to take that question for 
the record. I do not know how many have done both countries.
    [The information follows:]

    The number of troops that have served in Afghanistan are 
now serving in Iraq: Army--20,571; Marine--1,598; Air Force--
120; and Navy--14,274.

           PERCENTAGE OF U.S. TROOPS--RESERVES/NATIONAL GUARD

    Senator Inouye. Of the 9,000 American troops in 
Afghanistan, what percentage are Reserves and National Guard?
    General Pace. There is about 1,700 out of about 9,000, sir. 
So about 22, 25 percent.
    Senator Inouye. We have been told it was more than that, 
but you think it is less than 20 percent?
    General Pace. Today, sir, there is about 1,700 out of the 
9,000. It goes up and down as units come and go.
    Dr. Zakheim. It is 98.
    General Pace. Sorry.
    Dr. Zakheim. It is 9,800 now.
    General Pace. 98, excuse me.
    The next unit going in will be an active duty Marine, U.S. 
Marine battalion, so those numbers should not change.
    Senator Inouye. Dr. Zakheim, we started off the global war 
on terrorism in Afghanistan and many of the letters that I 
receive suggest that we have forgotten Afghanistan. Would that 
be a just criticism?
    Dr. Zakheim. No, it would not be at all. We have made 
tremendous progress there. I think I am correct in saying that 
Afghanistan has the most stable government since President 
Karzai took over that they have had in the previous 25 years. 
In addition, we have continued to put money into that country 
and to do it in a very targeted way. Afghanistan was a 
devastated country--23 years of internecine warfare, no 
infrastructure to speak of, and before they went to civil war 
and before the Soviet invasion they were essentially a backward 
country anyway.
    So that in terms of absorptive capacity, we have been 
putting in pretty much what can be put in, and the 
international community has been supportive as well. We are 
talking about approximately $5 billion worth of multi-year 
pledges. But we ourselves are going up to approximately $2 
billion just for this year because of the $1.2 billion that we 
are providing them, $800 million in the supplemental and $400 
million that we are moving around from within programs.
    So I do not think by any stretch of the imagination could 
we say that we are ignoring, forgetting, or otherwise 
overlooking the place.
    Senator Inouye. If we are making that progress as we claim, 
why are the Talibans back again?
    Dr. Zakheim. I think in part it has to do with the nature 
of their source. The Talibans are essentially a Pushtu ethnic 
group. The Pushtu tribes border both sides of the Afghan-
Pakistan border. On the Pakistani side of the border, the 
central government traditionally has had very little control. 
Their troops are in there really now for the first time since 
Pakistani independence.
    On the other hand, you have madrassas, many of which, these 
religious schools, are breeding grounds for extremism, and that 
is where the Taliban get their recruits. So President Musharraf 
has a very difficult balancing act to perform. On the one hand 
he is trying to control this extremism. On the other hand he 
has to be certain that he can maintain stability in his own 
country.
    Pakistan is made up of basically four different ethnic 
groups, of which the Pushtus are one. So you have this kind of 
breeding ground. The Pakistanis are helping us to deal with it. 
It is not a simple matter and of course, as you all know, 
Senator, this is a problem that is endemic not just to 
Afghanistan, but to the entire region.
    Senator Inouye. At yesterday's hearing we were advised that 
the bulk of those who are doing much damage in Baghdad, 
terrorist groups, come from Afghanistan. Would the number of 
forces we have there be sufficient to close that border?
    Dr. Zakheim. Iraq does not really border Afghanistan. I 
believe the Secretary said that we have got a pretty good 
handle--and I will ask both Mr. Rodman and General Pace to 
correct me and add to what I am saying. But I believe we have a 
pretty good handle on the borders with Jordan, Turkey, Saudi 
Arabia, and Kuwait.
    But Iraq's borders are as long as our border with Mexico 
and there are two countries there where it is not as clear that 
we have as good a handle. One is Syria and the other is Iran, 
and most of our difficulties are stemming from those two areas.
    But I defer to you gentlemen for additional points.
    General Pace. Sir, I would say that anyone who sat here and 
told you we could close the borders would not be accurate. We 
cannot close the borders. We can do better. We are doing 
better. We are working very closely with Jordan and Saudi 
Arabia on border security. But we have not and would not be 
able to seal the borders, if I understood your question 
correctly.
    Senator Inouye. My final question, sir. We are making 
progress, as you have indicated, but not enough to cut our 
troop levels there?
    Dr. Zakheim. In Afghanistan? Our troop levels, as I believe 
General Pace indicated, have already gone down. We roughly have 
about as many people as the international community does, the 
NATO-led force. I will defer to General Pace as to what the 
prospects are.

                            AFGHAN SECURITY

    General Pace. Sir, I think as you know we have transformed 
into stability operations. As you know, there is not a pure 
military solution to the problem in either Afghanistan or Iraq. 
What we are able to do in Afghanistan is to provide a stable 
environment. That will be done best by the Afghan people.
    We have trained now the 11th battalion of the new Afghan 
army, just graduated. We intend to have about 12,500 total in 
that centrally controlled Afghan army by June of next year for 
the elections. So it is not a matter in my mind of having more 
coalition members in Afghanistan. It is very much a matter of 
the Afghan government, the Afghan police force, the Afghan 
National Army, growing over time as they are, so they can 
provide the security for themselves. The Provincial 
Reconstruction Teams that Dr. Zakheim mentioned, these teams of 
about 80 to 100 that are in four locations now, expanding to 
eight by December of this year, are very, very good linkages 
between the central government in Kabul and the regional 
governments out in the provinces.
    So the answer in my mind is not more United States or 
coalition, but more security overall, provided by the Afghans 
themselves.
    Senator Inouye. You are telling us that militarily you 
believe that our mission can be accomplished with the funds 
requested?

                     FUNDING AFGHAN TROOP TRAINING

    General Pace. I need to make sure I understand your 
question, sir. One more time, please?
    Senator Inouye. As a leader in the military, do you believe 
that the funds that you are requesting would sufficiently cover 
your costs to carry out your military mission?
    General Pace. Yes, sir, for the upcoming year. Right now 
the expenditure rate in Afghanistan is about just shy of $1 
billion a month total and this request for supplemental I 
believe is just under $12 billion. So for the current year 
upcoming, yes, sir.
    Senator Inouye. Thank you, sir.
    Chairman Stevens. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    I have been very interested in what is going on in 
Afghanistan and was most impressed when I had an opportunity to 
meet President Karzai. You have talked about some of the 
challenges that we are facing there and also the schools, the 
roads, the health clinics that have been built. I would like to 
know, with the Iraqi--excuse me. With the Army divisions that 
we have trained and the police, how effective are they in 
disrupting terrorist activities or other lawless activities 
there?
    Dr. Zakheim. I will give you my literally eyewitness 
experience and I will defer to my colleagues. When I was down 
there last, which I guess was a few months ago, I went to one 
of our PRT's in Gardez and I saw these Afghan troops. They tend 
to patrol with our own, by the way. And I also saw some of the 
troops of the so-called warlords, and the difference between 
the Afghan National Army (ANA) troops and the warlord's troops 
is night and day.
    I mean, it is not just that the ANA troops are well 
presented and that they have got good uniforms and so on, but 
they have a sense of operating as military people. I happen to 
have been out there to have watched the very beginning of one 
of these battalions training up and these guys were crawling on 
the ground and they could not keep their helmets on. Then when 
I go out there 6 months later, they are patrolling, they are 
being commanded by the non-commissioned officers (NCO's). You 
ask NCO's what are the problems that they face or what are the 
requirements that they need and they tell you things like 
better communications, the kind of thing that an NCO here will 
tell you.
    So they are making tremendous progress. When they started 
out, the first battalion--they are supposed to have about 600 
people per battalion. As I understand it, the first battalion, 
they had trouble getting 400. Now they are pretty much meeting 
the complement. These battalions are multi-ethnic. You see it 
on their faces. You can tell who is an Uzbek and who is a 
Tajik, and who is a Pushtu and so on.
    So in terms of both ethnic integration, sense of unity, 
loyalty to the central government, and just professionalism, I 
as a non-military guy was impressed. And I will defer to my 
military colleague.
    General Pace. Sir, clearly the new Afghan battalions are 
being very well trained, and in the last several operations 
that we have conducted under CJTF180, the U.S. command there, 
there have been battalions of the new Afghan army. They have 
done extremely well. They helped--without getting into too much 
specifics of today's operations, there are major operations 
going on today in which they are embedded. In the past couple 
of months they have participated with us in eliminating upwards 
of 200 enemy, in capturing over 50 tons of ammunition and 
supplies.
    Senator Bond. 200? You say 200?
    General Pace. Upwards of 200 enemy either killed or 
captured, sir, in the last couple of months, on operations that 
included very capable units of an Afghan National Army. They 
are well trained and when brought into the field they are doing 
a very good job.
    Senator Bond. And 50 tons of equipment?
    General Pace. Yes, sir--50 tons of ammunition, sir.
    Senator Bond. Of ammo.
    General Pace. Yes, sir.
    Senator Bond. To what extent are there still--what is the 
risk to U.S. soldiers and Afghan government, civil government 
supporters, from terrorist attacks now in Afghanistan?
    General Pace. Sir, there is still threat. Collectively we 
sustain about one attack per day throughout Afghanistan. Most 
of those are indirect, mortar fire and the like. Some of them 
are improvised explosive devices designed either to explode on 
a certain timeline or to be remotely detonated. So there is 
threat, and we believe that some of the Taliban are beginning 
to puddle up again and to reorganize, and those are the 
elements that we are attacking as I sit here with coalition 
forces, to include Afghan National Army.
    Senator Bond. Actually, when you get them to spool up, that 
is really the best time to deal with them, is it not, if you 
can catch them? We used to--there are people who used to use a 
little stick of dynamite to go fishing and the analogy I would 
think would be appropriate here. So we will hear, I suppose, 
some time shortly about how this is proceeding.
    But I have said, I said yesterday, at the risk of 
repetition, that I thought this supplemental was absolutely 
imperative for Iraq in order for us to bring our troops home, 
the best investment we could make. And I am worried about the 
Guard and the Reserves and the Active who have been stationed 
over there, and if we have time I am going to ask some 
questions about that. But it seems to me to help build a stable 
society in Iraq it means turning on the lights, the water, the 
sewer system, and building a military force as well as a police 
force is the best way to bring our troops home and not have to 
spend as much or to expose as much.
    To what extent can we draw down any further the forces in 
Afghanistan? And based on what you have seen with the trained 
Afghan military and police, what do you think this can do for 
the peace and stability in Iraq? Can we get the same results in 
Iraq that we have in Afghanistan and when might we be drawing 
down our remaining troops from Afghanistan?

                           DRAWDOWN OF TROOPS

    General Pace. Sir, I can start on that. The estimate right 
now by the military commanders in Afghanistan is that the 
10,000, just shy of 10,000, United States and just shy of 8,000 
coalition forces that we have in Afghanistan right now are 
about the right force needed between now and June 2004, when 
the Afghan people have a chance to go to the polls and vote. We 
want to maintain that stability, and during the time that we 
are keeping our numbers constant we are looking to have another 
20,000 plus Afghan police, another 6,000 plus Afghan National 
Army, to build up their police forces and their own 
capabilities.
    Then when the new Afghan government is in place we will 
have a little bit better feel for what is possible in the 
future as far as drawing down.
    I think the lesson for the folks in Iraq will be that as 
they watch what is happening in Afghanistan, as they see that 
this government brings forward a constitution, that this 
government in Afghanistan has free elections, that what we are 
telling them in Iraq is in fact true, that we want the Iraqi 
people to write their own constitution, we want the Iraqi 
people to have their own free elections, and I think that will 
impact favorably on the collective judgment of the Iraqi 
people.
    Senator Bond. Dr. Zakheim, did you want to add something to 
that?
    Dr. Zakheim. I will simply say that we are clearly 
succeeding with the training of the Afghan National Army, and 
one of the reasons we are requesting the new authorities that 
we are requesting is precisely to build on that success. As you 
rightly said, Senator, the more we succeed in this regard, the 
more likely it is, as the General said, that at some point in 
the future we can move our own people out.
    We are really anticipating relying very heavily on trained 
Iraqis, trained our way, to do a lot of this work.
    Senator Bond. That was the point. From the experience you 
had in Afghanistan----
    Dr. Zakheim. Absolutely.
    Senator Bond [continuing]. You are farther down the road in 
Afghanistan. We want some assurance that we are going to be 
farther down the road in Iraq if we can help--if we can speed 
up the rebuilding of the Iraqi military.
    Dr. Zakheim. There is no reason to believe that it would 
not be analogous. And by the way, the Afghan experience is very 
much an international cooperative effort. The British are 
training the NCO's, the French are training the officers, the 
Germans are training the police. And when you talk to the 
German trainers, the first thing they tell you is these guys 
are learning to work with one another regardless of ethnicity.
    When you talk to the French--and they will not speak 
English to you, so I have to speak French to them--they will 
tell you that----
    Senator Bond. C'est dommage.
    Dr. Zakheim. Exactly, c'est dommage.
    They will tell you that they are dealing with people who 
are motivated, enthusiastic, and they are succeeding. And I do 
not know any reason why we should not be able to replicate that 
experience in Iraq, though we do need the authorities and we 
need the funds.

                 TROOP TRAINING AFGHANISTAN VERSUS IRAQ

    General Pace. To just add onto that if I may, sir, in Iraq 
there are some significant differences with Afghanistan. 
Afghanistan did not have a standing, trained army; Iraq did. We 
can go into the society in Iraq and recruit men and women who 
have had previous experience. So the level at which we begin 
their training will be different. And the folks in Iraq are 
very well educated. They read, they write, they absorb 
education very quickly. So there is every reason to believe 
that we will be able to translate the lessons from Afghanistan 
quickly in Iraq.
    Senator Bond. One quick question, the concern about the 
Guard and Reserves. There have been a lot of questions about 
that. What is your assessment of the morale and the retention 
of the Guard and the Reserves in the theater?

                              TROOP MORALE

    General Pace. Sir, morale is superb. Just like any service 
member, Active or Reserve, what they want is some certainty. 
They would like to know when we send them how long they are 
going to be there. They would like to know when they are going 
to come home, and they would like us to not change that on them 
midstream, and we owe that to them and we have not done as good 
a job on that as we can.
    But the individual soldier, whether he is a Reservist or a 
Guard or an Active duty, is absolutely superb. I have visited 
many of them and unless you ask them what place they came from 
there is no way of telling the difference between U.S. Army 
soldier one and U.S. Army soldier two as far as he was Active 
or Reserve. They are absolutely superb.
    Senator Bond. Thank you, Mr. Chairman.
    Thank you, General.
    Chairman Stevens. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    I realize as I have listened to this there have been a 
number of questions on Afghanistan. There is around $800 
million in the supplemental for reconstruction. I wish we had 
more information about this. I am concerned about what is going 
on there. I know General Pace is here and Dr. Zakheim is too.
    The Iraq and Afghanistan population are not that much 
different. I think it is 22 and 25 million each. Of course, 
Afghanistan does not have oil resources. It is far poorer. It 
almost made me think after the bombing, the war, and everything 
else that we would be spending more on Afghanistan than on 
Iraq. And I realize what has been said about some help from 
other countries, but we have $20 billion for reconstruction in 
Iraq and $800 million for Afghanistan.
    Security seems to be deteriorating in Afghanistan and I 
wonder if we have thought through the priorities. I remember an 
article last week in the Post titled ``Key Security Initiatives 
Founder in Afghanistan.'' It described attacks by the Taliban. 
Yesterday's New York Times had an article entitled ``Afghan 
Warlords Thrive Beyond Official Reach.'' It shows how there is 
no effective government, the warlords dividing up what they 
want, having shootouts almost right up to the--it is almost 
like going to meetings to talk about dividing things up and 
they are still blazing away at each other in what amounts to 
the parking lot.
    General Pace, do the warlords control more or less 
territory now than they had last year?

                         AFGHAN RECONSTRUCTION

    General Pace. Sir, they have the same territory. They have 
fewer troops under their direct command, as a result of 
President Karzai directing the changes of authority in several 
of the provinces. But the provinces are the same. The 
individuals, some have changed out, but what is different, if I 
understand your question correctly, is that some of the 
governors no longer have direct command of the troops in their 
province.
    Senator Leahy. Well, and even the question of who has 
command or does not, President Karzai is the president of the 
country, but the fact is he can travel safely very few places 
in the country. I think many of us are impressed with his 
commitment and courage. I certainly am. But there is very 
little he can do. In fact, if we had not provided personal 
security for him I think it would be safe to say the man would 
not be alive today.
    But whether they have more or less troops, is there 
effective, real control of more territory by the government, 
the legitimate government, today than there was 1 year ago, 
after all the money we put into it?
    Dr. Zakheim. I think the Minister of the Interior, Mr. Ali 
Jalalli, would tell you yes, and that is due to a number of 
things. The Provincial Reconstruction Teams have extended the 
presence of the central government throughout the country, and 
we will be setting up several more of those. In addition, the 
roads, the Kandahar-Kabul Road that nearly has the first layer 
of paving on it, extends the reach of the central government 
and provides security in that regard.
    The very fact that, as General Pace said, President Karzai 
could remove some of these provincial governors shows the 
degree of power that he certainly could not have if he were 
indeed----
    Senator Leahy. How did he remove them?
    Dr. Zakheim. Essentially he did not have to do it by force. 
He did it by decree and by jawboning and I guess their 
knowledge that ultimately they would have to give way, and they 
did. I do not believe there has been any----
    Senator Leahy. Did we provide support to some of them, of 
whatever kind?
    Dr. Zakheim. Well, certainly not to my knowledge.
    Mr. Rodman. Senator, may I interject in this? What has 
happened in the last several months in this past year is 
President Karzai asserting his authority, with our backing, and 
demonstrating his own political mastery, and he has therefore I 
think expanded his control. Now, it is hard to measure in terms 
of geography, but in terms of----
    Senator Leahy. Well, after the fall of the Taliban during 
the war, did our forces cooperate with or support these 
regional warlords?
    Mr. Rodman. We did in the war against the Taliban.
    Senator Leahy. Did we afterward?
    Mr. Rodman. Excuse me?
    Senator Leahy. I know we gave the Taliban Stinger missiles 
when they were fighting the Soviets that we now worry about, 
and then we sided with some of the corrupt warlords to fight 
the Taliban. Today we are talking about billions of dollars to 
retrofit our passenger planes because of the concern we have 
for some of the Stinger missiles we gave to the Taliban back 
then.
    But I am talking about now, the present, and after the fall 
of the Taliban, did any of our armed forces cooperate with any 
of these warlords?
    Mr. Rodman. The Bonn Agreement was a political bargain 
among all the forces in Afghanistan, including those that we 
now call warlords. So what we started with in Bonn 2 years ago 
was a political bargain among them all. But the other part of 
Bonn was to gradually strengthen the authority of the central 
government, so that instead of being a flat management----
    Senator Leahy. So is that a yes?
    Mr. Rodman [continuing]. That the central government would 
gradually assert authority over the country.
    Senator Leahy. Is that a yes or a no?
    Mr. Rodman. Excuse me?

                       AFGHAN CENTRAL GOVERNMENT

    General Pace. Sir, I might be able to help here. The answer 
is yes. When they were anti-Taliban forces before the war, the 
answer is yes. When they were warlords, the answer is yes. And 
now that they are provincial governors, the answer is yes. We 
have had special operators out in the provinces working with 
these governors who are recognized by President Karzai, and we 
also have the Provincial Reconstruction Teams which we have 
discussed previously in this hearing that are also partly 
United States and some other countries.
    So yes, sir. Whether you call the man a warlord or the 
governor or the anti-Taliban leader, he is the same person. 
Dostum and Atta in Mazar-e-Sharif, Ishmael Khan in Herat and 
the like, those are recognized government leaders by President 
Karzai and we are working with them, sir.
    Senator Leahy. Fine, thank you.
    Dr. Zakheim. And some of them have government ministries as 
well. They are twin-hatted.
    Senator Leahy. You may have discussed this before I came 
in. There are what, 10,000 troops in the Afghan National Army 
now, is that about right?
    General Pace. There are 6,600 fully trained and two more 
battalions in training, with a goal of 12,500 by June, sir.
    Senator Leahy. And the request is $220 million for training 
and equipping this army?
    General Pace. In the supplemental, I believe that is 
correct, sir, yes.
    Senator Leahy. Now, we have been there 2 years. I think it 
was yesterday or the day before one of the witnesses from the 
administration said that in Iraq the administration says it 
could have 30,000 to 40,000 soldiers trained by the end of next 
summer. So it takes a couple years to train around 10,000 
Afghans and in about 1 year we can train 30,000 to 40,000 in 
Iraq. What is the major difference?
    General Pace. A fair question, sir----
    Senator Leahy. I am not a military person, you are, and 
that is why I ask you.

                AFGHAN GROWTH OF THE CENTRAL GOVERNMENT

    General Pace. A great question, sir. In Afghanistan you 
have a country that has not had a strong central government. In 
Afghanistan you have had regional warlords with ethnic-specific 
groups of individuals who are armed fighting against each 
other. So what we have had to do to assist President Karzai is 
to first assist him in recruiting individuals from every ethnic 
background who could then come and be trained as part of a 
joint force, so to speak, a joint ethnic force, as opposed to 
each individual sector of the country having its own separate 
army.
    So that whole process of recruiting and then training as 
the central government has grown in stature and influence has 
taken time.
    In Iraq you have 400,000 individuals who used to be under 
arms in a centrally run armed forces, and we believe that 
because of that history in Iraq, very different from 
Afghanistan, that we will be able to cull out and recruit from 
that 40,000 and rebuild three divisions in Iraq by about this 
time next year.

                           TERRORIST MOVEMENT

    Senator Leahy. General Pace, you know I have the utmost 
respect for you and admiration for you. I do not want to create 
problems for you now that you are back at the Department of 
Defense, and Dr. Zakheim and I have known each other and worked 
together for years. I may want to delve into this more with 
you, because I am concerned.
    Of course we want to get the terrorists who struck at us. 
Primarily they have been from Saudi Arabia and we have gotten 
precious little cooperation until very, very recently from 
Saudi Arabia and we still have funding for some of al-Qaeda 
coming out of Saudi Arabia now to Pakistan and of course now to 
Afghanistan. Now I gather that a lot of them are going into 
Iraq.
    So I would hope that we can do everything we should in 
Afghanistan, because a lot is at stake. Thank you, Mr. 
Chairman.
    Chairman Stevens. Thank you.
    Senator Craig.
    Senator Craig. Thank you, Mr. Chairman.

                      FORCE PROTECTION PROCEDURES

    General, gentlemen, thank you again for your time here 
today as we work our way through these situations and this 
supplemental request. I guess the thing that has concerned me a 
great deal is the somewhat--well, the ambushes, the sniper fire 
if you will, rocket fire that has gone on on a selective basis, 
that is certainly taking life out there.
    We know the kind of armaments that are spread across the 
country of Iraq at this moment because of the amount that you 
have all reported rounding up and collecting and the caches 
found and all of that.
    In this supplemental I understand there is a certain amount 
of funding included for things critical to protect our soldiers 
as it relates to these front line sniper attacks, if you will, 
the ambushes, the shoulder-fired missiles. We have heard about 
this kind--of such things as the protective body armor, the up-
armored Humvees. I guess, could you give us some details as to 
the steps you are taking, the equipment that you are procuring 
to ensure adequate force protection in these kinds of 
engagements?
    General Pace. Sir, I can talk to the procedures we are 
undergoing and perhaps Dr. Zakheim can talk to the dollars that 
are being applied.
    Senator Craig. Please do.
    General Pace. As you know, the protective armored vests 
that we have recently been procuring----
    Senator Craig. I have been seeing some of them.
    General Pace [continuing]. Protect the soldier extremely 
well, not only from the .556 round that comes out of a M-16, 
but also the heavier caliber round that comes out of the AK-47 
and some of the machine guns that are employed over there. 
These vests will in fact stop that kind of a round.
    We had a procurement need before the war which has been 
satisfied except for about 41,000 sets of this armor, all of 
which is to be delivered by the end of November this year. So 
from the standpoint of protective, individual protective 
plates, thanks to the Congress moving that money forward for 
us, we have been able to purchase at the rate that industry has 
been able to produce it for us.
    With regard to the armored Humvees, as we swap out forces 
over the next several months and the heavier tanks and 
equipment comes home they will be replaced and they are being 
replaced as we speak by approximately 1,600 to 1,700 of these 
armored Humvees, which give you protection from the types of 
arms that I am talking about, but also give you quicker 
mobility. You need to have some speed and agility in the 
cities, as opposed to the ponderous, heavy, heavy weapons that 
we needed to win the fight in the first place.
    With regard to how much money is being spent, sir----
    Dr. Zakheim. On the body armor, the inserts, the ceramic 
inserts, we are spending about $390 million. We have got a 
total of $5.6 billion for procurement and research and 
development. The research and development is classified, but on 
the armored Humvees in particular, we are going to buy 747 new 
ones, we are going to take 300 more from stock.
    We would have put in more money if we could actually 
produce more in 2004. In fact, our original estimate was that 
we could only produce about 590. The Army came back to us and 
said: No, we think we can produce about 150 more. And we said 
fine. So we are going to go literally to produce as much as we 
can and we are funding them.
    Senator Craig. In the body armor, you are saying you are 
getting as much as can be produced. With this acquisition, in 
relation to the troop force that is there and the circumstances 
that require this kind of armor, are we assuming or can we 
assume that most who are out there in the line of fire will 
have this kind of armor?
    General Pace. You can assume that, sir, and in fact this 
will buy the body armor that the entire United States Army and 
the entire United States Marine Corps need for their troops, so 
you do not have to swap out when you get there. Every soldier, 
every marine, who is in a front-line unit will have this 
available to them so that if we have to go do something else 
they will also have the protection they need.
    Senator Craig. Good.
    Dr. Zakheim. I owe you a number, Senator. It was $177 
million for the Humvees.
    Senator Craig. Okay, all right.
    May I have a little more time?
    Chairman Stevens. Yes.

                    RAPID FIELDING INITIATIVE (RFI)

    Senator Craig. General Pace, the supplemental request 
includes funding for the Rapid Fielding Initiative, a program 
which procures commercially available items in an expedited 
manner so that our troops receive the equipment they need in a 
timely manner. Could you comment on the success of this 
program?
    General Pace. Sir, the authorities that are embedded in 
that make it possible for us to quickly move, not short-circuit 
because that is not the right flavor, but to move quickly from 
identifying a need, seeing that it is available off the shelf, 
and purchasing it, and to streamline the numbers of boxes that 
need to be checked to be able to get that from where it is 
available to where it is needed. It has been very, very 
successful.
    Senator Craig. Comparatively speaking in time, from point 
of determination of need to acquisition, how has this improved? 
Wherein lie the efficiencies?
    General Pace. Sir, if I could take for record the exact 
examples so I can give you a real answer that is accurate. My 
sense is that we have been able to identify and field inside of 
months instead of inside of years.
    [The information follows:]

    Efficiencies gained by our Rapid Fielding Initiative (RFI) 
are the warfighting improvements derived by the Program 
Executive Officer (PEO) Soldier taking requirements directly 
stated by deployed or recently redeployed Soldiers, rapidly 
determining possible solutions, applying the needed testing, 
and then fielding the equipment in a very short time. End 
benefit is we are able to field upgraded equipment and 
increased capability to deployed Soldiers to assist in 
executing their missions.
    The RFI has improved from years to months the delivery of 
needed equipment to the Soldier. An example is the new 
insulated boot (AF Flier). Soldiers in Afghanistan stated a 
need for a boot that could withstand the harsh terrain and also 
keep the Soldier warm at high altitudes. The desert boot (used 
in the Gulf War) was built for soft sand. When used in the 
Afghanistan terrain, the sole quickly deteriorated and the boot 
itself provided very little insulation from the cold. PEO-
Soldier completed a quick review of commercial and other 
Services' boots. The top selections were tested against the 
Afghanistan requirement and the AF Flier boot met the need. It 
was fielded in little over a month from the original request. 
The AF Flier boot is now part of the RFI list issued to all 
deploying Soldiers.

    Senator Craig. Those are significant terms, months versus 
years.
    General Pace. They are significant terms, you are right. 
But I would like to be able to come back to you for the 
record----
    Senator Craig. Please do.
    General Pace [continuing]. And show you some examples of 
that, so that I do not just give you my gut feeling, which is 
based on the experience I have had in the past couple of years, 
but I wanted to give you an exact example.
    Dr. Zakheim. Senator, let me just add that at the heart of 
this is the ability to get something commercially off the shelf 
that is available.
    Senator Craig. Right.
    Dr. Zakheim. And you know very well that if you are talking 
about something that is not procured that way, but through the 
usual government military specifications, then you are talking 
about volumes of times of what is being required, and about 
developing something specially. That takes far longer. I used 
to be in that business and it can take years.
    Senator Craig. Well, I can tell you a good many of us who 
have watched our budgets over the years and have been 
frustrated that if it is a Maglite designed for the Army versus 
a Maglite designed for commercial use and they are both of 
quality and staying power, the one costs twice as much and 
takes twice as long to produce because somebody has spent a lot 
of time measuring and developing, design for thickness and 
sheen of color on surface, and all of that--really did not make 
a lot of sense.
    So I am pleased to hear that you are out doing that. 
Obviously, there are situations and items, like an armored 
Humvee, that are not common on the streets of our country. 
Well, I have got a few of them running around out in Idaho, I 
think. But I can understand those kinds of specifications.
    Thank you.
    General Pace. Thank you, sir.
    Senator Craig. Thank you, Mr. Chairman.
    Chairman Stevens. Senators, we determined on this hearing 
we would go by seniority. The next person in line would be 
Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman.
    I have three things I need to cover with you. First, 
General Pace, in today's Washington Post it says that ``Vice 
Chairman Peter Pace, the Vice Chairman of the Joint Chiefs of 
Staff, warned that more National Guard and Reserve forces could 
be activated if the third foreign division, 15,000 to 20,000 
troops, is not secured within the next 6 weeks.''
    Please lay out some of the numbers and the timelines of the 
possible activation for our Reserve and National Guard forces? 
You say that an additional activation will be necessary if a 
third foreign division is not secured within the next 6 weeks. 
Does that mean that we will know in the next 6 weeks whether we 
will be activating more National Guard and Reserve forces?

                           INCREASE OF FORCES

    General Pace. It would not surprise you, sir, to know that 
the context in which the answer was given and the context in 
which it appeared in the paper were not exactly identical. So 
let me tell you the answer I gave and give you the exact same 
answer.
    I was asked specifically, would we need to use more 
Reserves and National Guard in Iraq, and my answer is this: We 
know that in the January, February, March time frame of this 
coming year, 2004, we are going to have to replace some or all 
of our current force in Iraq. How much of that force we need to 
replace is going to be based on a couple of things: first, the 
security environment; second, how many Iraqis have we been able 
to train in their police force, their border guards, their 
militia, their army, and their site protection forces. They 
have five different security forces being built as we speak. 
Then third, how much of what has been discussed amongst some 32 
currently and going to potentially 46 nations, how much will 
those 46 nations provide to the coalition between now and next 
March?
    So those are the three factors that have to be looked at. 
What I said then was, as we make the estimates of what the 
security environment will be like we look at what the total 
number of troops we think will be needed to take care of that 
security environment and we subtract out reasonable coalition 
contributions and expectations of Iraqi contributions, there 
will be a number left. We will then take that x number of 
divisions and look at our requirements worldwide and look at 
our rotation policies.
    Then, if the recommendation to the Secretary of Defense is 
that we should bring on board a Reserve division, for example, 
then when you back up from the March timeline 3 to 4 months of 
training for that division before they go, plus 1 month of 
notification that they are going to be called to active duty, 
you have got 4 or 5 months. You then are looking at the 
October-November window for the appropriate time, if we are 
going to have to do it, to notify the National Guardsmen that: 
In about 30 days we are going to bring you on active duty, and 
about 4 months after we get a chance to train you properly we 
are going to send you to Iraq.
    That is what that whole story was, sir.
    Dr. Zakheim. Can I give you the other side of that 
equation, because I was involved with it, and that is how long 
will it take to get an international division up and running. I 
worked with the Poles and with the Spanish and with the Central 
Americans in particular, and from the time that there was a 
commitment made by the Poles and the Spanish to send troops to 
the time that they fielded their force was about just over 3 
months.
    So that in theory at least, as long as General Pace knew in 
about whatever the period was that he outlined that someone was 
committed, you would have those forces there in about 3 to 4 
months. That is how long it took.
    Senator Harkin. Well, so you gave the three types of 
parameters that you would have to look at. But those were 
criteria that if you do not know them, if you do not know all 
of those by October, then you are still going to have to put 
the word out about mobilization, right? You are going to have 
to put the word out on who has to be called up.
    So if you are talking about a January, February, March 
rotation scheme, you must have some idea of how many troops you 
are talking about.
    General Pace. Sir, we have.
    Senator Harkin. How many are we talking about?
    General Pace. I know exactly how many divisions I am 
talking about, but I cannot speak about it in this forum. I 
would be happy to speak to you in a classified forum about it. 
We know exactly how many troops we have at three different 
levels of anticipated environment in which we are going to need 
to work. We have the commanders on the ground, General Abizaid 
is coming back in to the Secretary of Defense within the next 
several weeks with his estimate of what the security 
environment will be like and what he is going to need.
    So the choice is going to be made by the Secretary of 
Defense when we come forward to him as to whether he wants to 
provide that force with active forces or reserve forces. If he 
decides to go with reserve forces, then we need to tell those 
reservists that they are going to be activated. And that 
process should take place within the next 4 to 6 weeks.
    Senator Harkin. Okay, within the next 4 to 6 weeks. It 
would seem to me if you are going to put the word out to 
activate Reserves and National Guards, you would have some idea 
now what the number needed will be. I am just trying to get a 
handle on this. What I am hearing is that there is a distinct 
possibility--no, more than a possibility a probability that in 
the next 4 to 6 weeks more Reserves and National Guard will be 
called up and activated. Is that right?
    General Pace. No, I am not saying that.
    Senator Harkin. There is not even a probability?
    General Pace. Let me tell you what I know for a fact. It is 
a fact that there will be at least three brigades of Reserve 
and National Guard called up to active duty. Those individuals, 
those units, already know that. They were told that a couple of 
months ago.
    Then there is a potential in the future, and what we need 
to lay out for the Secretary of Defense so he can make a 
reasonable judgment is what we think the security environment 
is going to be like and then if he goes with active forces, 
what he has left for other contingencies around the world, and 
if he were to decide to go with a reserve force that he would 
have to activate them relatively soon.
    It is potentially true that you would get to the point 
where you would say to yourself for the sake of strategic 
security that you would tell reservists that they were going to 
be activated, activate them, and then get to the point 3 to 4 
months down the road where you did not have to employ them. 
That is all a matter of risk and risk mitigation that we have 
to work through for the Secretary.

                          ACTIVATION OF FORCES

    Senator Harkin. So I should tell National Guards and 
Reservists that they will know in 6 weeks whether or not they 
are going to be activated?
    General Pace. We will be able to tell within the next 6 
weeks for this particular iteration of troop movements whether 
or not we are going to activate more than have already been 
told, that is true, sir.
    Senator Harkin. We just do not know.
    General Pace. And the Guard and Reserves will be part of 
that process, and their leadership will be consulted, as they 
have been in the past.
    Senator Harkin. I do not know how much time we have left, 
but I want to get into a bit on Afghanistan. People wonder why 
we have so many questions about where the administration is 
heading in Afghanistan. I see that in fiscal year 2003 we spent 
$815.9 million on reconstruction projects in Afghanistan. On 
March 17 of this year, at a donors conference in Brussels the 
administration announced it would spend another $820 million in 
Afghanistan. On July 27, the Washington Post reported that the 
administration would provide $1 billion to Afghanistan 
reconstruction projects. Finally, yesterday Secretary Rumsfeld 
tells us that the administration now plans to spend $1.2 
billion on reconstruction in Afghanistan.

                   AFGHAN SUPPLEMENTAL RECONSTRUCTION

    The administration has gone from a request for $820 million 
to $1 billion to $1.2 billion. This is why we are concerned 
that the administration will keep coming back for more and more 
money for Iraq. That is what is happening in Afghanistan. What 
happened to the administration's July plan not to ask for 
additional moneys for Afghani reconstruction?
    Dr. Zakheim. I cannot really comment on press reports. I 
can just tell you what I know, which is that $1.2 billion that 
the Secretary referred to actually comprises two parts, and 
maybe this will help you. $400 million is simply money that is 
being moved around----
    Senator Harkin. From existing accounts. I know that.
    Dr. Zakheim. Exactly.
    Senator Harkin. Then there is $800 million from new money.
    Dr. Zakheim. And the $800 million is the new money.
    Senator Harkin. I understand that.
    Dr. Zakheim. No, but that is my point.
    Senator Harkin. I have been on this committee a long time, 
Dr. Zakheim. I know what appropriations processes are like.
    Dr. Zakheim. All I am trying to say, Senator, is that I do 
not know again the context of the press reports, but the 
original----
    Senator Harkin. Can I stop you right there. Forget about 
the Washington Post. On March 17 the administration said it 
would spend $820 million. Yesterday Secretary Rumsfeld said 
$1.2 billion. That is not a press report.
    Dr. Zakheim. But that includes $400 million of programs 
that are being moved around. That is my point, sir.
    Senator Harkin. Okay, so you are moving them around. You 
are moving them from one place in the Department of Defense 
budget to Afghanistan.
    Dr. Zakheim. Yes.
    Senator Harkin. So in March we were told $820 million would 
be spent on programs. Now we are told $1.2 billion is needed. I 
do not care where you are getting the money from.
    Dr. Zakheim. Okay. The overall approach is to accelerate--
--
    Senator Harkin. You are playing little word games here with 
me.
    Dr. Zakheim. No, I am not trying to, sir--is to accelerate 
what we are doing in Afghanistan, and the reason we are trying 
to accelerate is so that we can do as much as we can on the 
ground before June.
    Senator Harkin. Conditions have changed, the $800 million 
is now $1.2 billion. Conditions have changed, so now you want 
to put more money in. That is a straightforward answer to my 
question.
    When we look at what is happening in Iraq and we look at 
the money that you are asking for in this supplemental request, 
this $20 billion, again I wonder, where are the end of your 
requests. I asked this question yesterday and I am going to ask 
it again in terms of the military. We have $119.9 million for 
power plants and distribution systems. You said yesterday that 
these facilities were needed for our troops, water and 
wastewater treatment facilities. I was told that these would be 
semi-permanent. That was the phrase you used yesterday.
    Dr. Zakheim. Yes, sir.
    Senator Harkin. Semi-permanent.
    Dr. Zakheim. Yes, sir.
    Senator Harkin. Well, I was thinking about that and I do 
not know what ``semi-permanent'' means. I just do not know. I 
asked someone on my staff and they said: Well, you know, up 
until the 1960's we had some wooden buildings down here on the 
Mall that were built during World War II as semi-permanent 
buildings.
    Now, again what I am getting at here and the thrust of my 
questions is, we hear from the Secretary and I guess from you 
that we have this plan of turning Iraq back to the Iraqis, but 
it looks like what we are building here are permanent types of 
structures, not semi-permanent. It seems like these are 
permanent types of things, which raises questions about how 
long you are planning to stay in Iraq. Is your vision for us to 
stay in Iraq? That is all I am getting at.
    Dr. Zakheim. As to the buildings themselves I can tell you 
what I have seen with my own eyes. There is a difference 
between the kinds of tents that the people are living in and 
buildings that will have some air conditioning and some water 
and so on. They are clearly not what I think we would consider 
permanent in the sense of say the kinds of bases we would have, 
say, in Europe. So I think there really is a distinction there.
    Maybe the General could expand on that.
    General Pace. Sir, I do not know how long we are going to 
be in Iraq.
    Chairman Stevens. The Senator's time has expired.
    Senator Harkin. That is the most honest answer I have ever 
heard yet. Thank you, General.
    Chairman Stevens. Senator Murray is recognized for 10 
minutes.
    Senator Murray. Thank you very much, Mr. General, and thank 
you to all of you for coming here to talk about the 
administration's plan for funding. I think we all agree that we 
need to bring stability to Afghanistan, as we are discussing 
today, and Iraq. But we want to make sure we are making the 
right investments and that is why I think these hearings are so 
important.
    General, on September 7 President Bush said that: ``We will 
help Iraqis restore basic services, such as electricity and 
water, build new schools, roads, and medical clinics. This 
effort is essential to the stability of those nations and 
therefore to our own security.'' Secretary Zakheim stated today 
that this funding would fund the construction of about 130 
schools and 90 hospitals, among other things; and yesterday 
Secretary Rumsfeld said these projects are helpful in securing 
the support of the people, therefore an instrumental part of 
our security plan.

                 IRAQI POST WAR TIMELINE RECONSTRUCTION

    General Pace, could you share with this committee what the 
effect has been of these kinds of investments in terms of our 
reception in the area, for troop morale, for how the people in 
those countries view us?
    General Pace. Yes, ma'am, I can try. There was a poll that 
was published yesterday that basically said that the Iraqi 
people believed that currently their conditions were worse off 
than they were before the war, but that overwhelmingly they 
believed that they had to go through this process to get to 
what they really believe would be a better future.
    I believe part of that is because they do now see that, 
while security is being provided, basic security is being 
provided by the coalition forces, that in fact the electrical 
power grid is coming back on line, that water is being 
produced, that schools are being rebuilt and repopulated, and I 
think about 90 percent of the schools are in fact up and 
operating and about the last 10 percent are being rebuilt. So 
there are many, many areas in which what the Coalition 
Provisional Authority, Ambassador Bremer and his team, are 
doing to assist the Iraqi people in gaining self-governance, 
that that expectation of a better tomorrow in fact makes the 
Iraqi people more willing to work with those security forces, 
who understandably they would rather not have in their country. 
They would rather we not be there. We would rather we not be 
there, and collectively we can get to the point where they are 
prepared to take over their own security and they are prepared 
to take over their own government.
    Senator Murray. You can understand why I am asking this, 
because our constituents are asking us why we are building 
schools and hospitals. I think what I hear you saying, and I 
want you to be clear to me, you are saying that we will see a 
reduction in violence and terrorism if people there see an 
improvement in their social and physical infrastructures, like 
schools and health care clinics; is that correct?
    General Pace. My short answer would be yes, ma'am. My 
longer answer would be that there is about--there were about 
400,000 Iraqi young men who had arms who were part of the Iraqi 
army. That is what they are trained to do. They are going to 
give us a little bit of time here to see whether or not there 
is going to be a job for them, if there is a future for them. 
If they do not see prospect of a better future, they are going 
to revert to what they know how to do. They will take up arms 
again and they will potentially be those who we have to fight 
against.
    If you do not give people hope, they are going to revert to 
basics. I truly believe that schools and hospitals and roads 
and electricity and water and the like give people a hope of a 
better future and they are then willing to be a little patient 
with the military operations that are going on around them.
    Senator Murray. Mr. Secretary, did you have something you 
wanted to add to that?
    Dr. Zakheim. No, I think it covers it quite well.
    Senator Murray. Okay. Well, if we draw that conclusion for 
Iraq and Afghanistan, would it be fair to say that perhaps it 
is an approach we should take in other countries where there is 
highly developed terrorist infrastructure? If you are saying to 
me if they do not have schools and hospitals and health care 
clinics that terrorists will be much more attractive to them--
is that my understanding of that? And if that is the case, 
should we be looking at doing that in other countries that 
support terrorism or have highly--have a lot of terrorist 
infrastructure in them?

                          TERRORISM WORLDWIDE

    General Pace. I believe that part of the solution to 
terrorism worldwide is what your U.S. military can do for you, 
but military operations will not solve the terrorist problem. 
It is the society and environment from which the terrorists 
come, and anything that can be done to change the education 
processes in those societies, to give the people a better 
standard of living that allows them to want to be part of that 
society instead of wanting to take it down, is a benefit. I 
hope that answers.
    Mr. Rodman. May I add? It is a good question. I can say 
that, for precisely the reason you have given, the United 
States since the war on terrorism has begun has given priority 
to a couple of key countries that are on the front line--
Pakistan, Turkey, Jordan, and I am sure there are others. But 
these have become priority countries for assistance, and not 
only in the military field, but precisely in order to help them 
be successful as moderate members of the Muslim world and so 
on, because the battle is not just a military battle.
    Senator Murray. I appreciate that very much.
    General, I have another question. I asked it yesterday 
about Afghanistan and I want to ask it today, too, because I am 
very concerned about it. That is a report by the Human Rights 
Watch that Afghan army and police troops in both southeast and 
Kabul city are breaking into homes, robbing families, raping 
women and young girls, kidnapping Afghans, holding them for 
ransom. The thought--what I am hearing is that because soldiers 
are targeting women and girls, many of them are now staying 
indoors, especially in the more rural areas of the country, and 
it is making it really impossible for them to attend school or 
go to work or participate in any kind of activities. In many 
places, the human rights abuses are driving many Afghan 
families to keep their young girls out of school.
    I am very concerned about those reports and I wanted to ask 
how the investments you have in your proposal to us will 
specifically help the vulnerable populations like women in the 
security plan.
    General Pace. Ma'am, I will start and I will let Dr. 
Zakheim talk to the dollar part. But I want to make sure I got 
it right. The accusation from whoever it is is that the --
    Senator Murray. It is the Human Rights Watch, correct.
    General Pace [continuing]. That the Afghan National Army--
that the Afghan National Army?
    Senator Murray. Correct.
    General Pace. Regardless of who, it is totally 
unacceptable. But if it is folks that we have trained, it would 
make it doubly egregious. I do not know the answer to that 
question, ma'am. I will find out. I would like to take that for 
the record to find out what we do know about that. I can tell 
you that that is not what we are teaching the Afghan National 
Army. That is totally counter to--
    [The information follows:]

    Although I do not have any first hand knowledge of the 
human rights violations you refer to, I do not doubt the 
veracity of the report. These activities do not occur where 
coalition soldiers are present, though, because perpetrators of 
these acts know we will not permit it.
    I think it is important to note that there are several 
types of military forces in Afghanistan. Many provincial 
Governors, and in some cases, simply warlords, have their own 
military forces, termed Afghan Militia Forces. These militia 
forces operate in a very decentralized manner working for and 
being paid by their commanders and warlords to whom they have 
patronage.
    The Afghan National Army we are training is a disciplined, 
well-trained army under the command and control of the Central 
Government of Afghanistan. As of today, we have trained 11 
battalions and we plan to train up to 70,000 in the next few 
years. We know of no instances where the ANA has acted in this 
way and we have U.S. soldiers with each ANA unit.
    I am told the Afghan Militia Forces and corrupt police are 
the perpetrators of these acts. These soldiers are generally 
underpaid and in many instances poorly led and undisciplined. 
As yet, the Afghan Government has little influence or control 
of these forces.
    It is for this very reason we are training the Afghan 
National Army (ANA) and the Germans are training a police 
corps. The building of these important elements is critical to 
extending legitimate government control of Afghanistan and 
enabling the militia forces to be disarmed, de-mobilized and 
reintegrated into the Afghan society. Once we do this, a 
professional police corps and National Army can perform the 
necessary security sector responsibilities in a manner expected 
of these organizations by the Afghan people.

    Senator Murray. That is not my question. I am just very 
concerned--in fact, I was just handed the story here and it 
says that ``Human Rights Watch believes that human rights 
conditions in Afghanistan, which of course had improved 
dramatically with the collapse of the Taliban, are now in a 
state of deterioration, and that families are now living in a 
constant state of fear, most of the country is in the hands of 
warlords and gunfighters.''
    That is who I was talking about, from the Human Rights 
Watch, who are saying that that kind of fear and that kind of 
world that they are living in is now keeping a lot of families, 
keeping their young girls home. We just talked about the 
importance of making sure that they are educated and 
participating in society, and I want to know specifically what 
is in this plan if we are going to make an investment that is 
going to make sure that those families are not living in a 
constant state of fear.
    As I said at the beginning, we are asking to spend a lot of 
money in reconstruction. We want to know that it is the right 
kind of investments that will bring about stability, rather 
than just throwing money at a plan and hoping a year from now 
things are going better. We know in Afghanistan we have been 
there several years. This is what we are seeing now. So let us 
make the right investments now, and that is why I am asking the 
question.
    Dr. Zakheim. Sure. Basically, as I understand it the abuses 
have been done by some of these in effect warlords' troops.
    Senator Murray. Right.
    Dr. Zakheim. So therefore you get back to the basic problem 
of how do you deal with them, and they are being dealt with in 
a number of ways. Some of them are political, some of them are 
things we are funding. For example, we are going to be working 
with the Japanese on disarmament and that whole program to 
disarm some of these warlords' people, to get them other jobs, 
obviously goes to the heart of some of this.
    A second area is the Afghan National Army itself. The more 
you have an army that is properly trained in proper ways by us, 
by the British, by the French----
    Senator Murray. How much money is in this for training of 
the Afghan army?
    Dr. Zakheim. Well, we have got for the ANA----
    General Pace. $220 million.
    Dr. Zakheim. That is right, $220 million for the Afghan 
National Army, plus we have asked for authority to spend 
another $300 million out of the Afghan Freedom Support Act. So 
that essentially we could train literally as many as we could 
get our hands on and properly do it. We are training 
battalions. The goal, as I believe General Pace said, is about 
12,000 troops. So that is another aspect of this.
    A third aspect obviously is the work of ISAF. If you are in 
Kabul, you have seen that there are some women who even go 
around without burkas on. There are girls schools. I mean, it 
really depends on where you are and what the overall security 
environment is. So we are attacking this from a number of 
different vantage points and that is a significant amount of 
the funding that we are either asking for, either in authority 
or in direct dollars, to go to the heart of the problem.
    Of course, as you know, it is not just the women. As you 
say, there are others who are vulnerable; if you are from the 
wrong ethnic group, if you are Shia for example. Clearly, what 
we have to do is create a security environment for basically 
ordinary folks, and that goes to the heart of what the ANA 
training is all about.
    Senator Murray. Well, according to the New York Times 45 
women presented President Hamid Karzai with their own Afghan 
Women's Bill of Rights in Kandahar. It is a document that 
guarantees an education, health care, personal security, 
support for widows, with the freedom to vote, speech, and with 
guarantee of right to orphans, disabled women, and widows.
    I hope--and my time is up, but I hope that we have the 
right kind of funding in here to make the social and physical 
investments in a country to allow young women the opportunity 
to be educated and participate, because I guarantee you a year 
from now if we are sitting here having these hearings and we 
have invested a vast sum of our taxpayer dollars into bringing 
security and we are still seeing young women who cannot go out 
of their homes and are not being educated and continuing 
disruption and fear in their lives, it will leave a lot of us 
wondering if we have made the right investments. So that is why 
I am asking these questions today.
    Dr. Zakheim. We have worked with the State Department, 
Senator, to actually build schools. I visited an all-girls 
school and it really is quite amazing to see these young girls 
and their teachers learning modern subjects, and some girls as 
old as 16 in the equivalent of the sixth grade because they are 
trying to catch up.
    Again, what is needed is a central government that has the 
reach to pursue the education programs. That is a lot of what 
we are trying to do here, to enhance the power of the central 
government through the PRT's, Provincial Reconstruction Teams, 
through the training of the Afghan National Army, and through 
the programs that allow the central government to deliver 
services.
    The central government is clearly committed to this. That 
is the kind of Afghanistan they are looking forward to. Again, 
a lot of what we are doing now, that $1.2 billion, is precisely 
to create conditions in that country so that what you are 
talking about does not happen and the education of women, the 
education of minority groups of whatever kind, the dealing with 
the disabled in a 21st century way, can in fact take place.
    Senator Murray. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Stevens. Thank you very much.

                         EQUIPMENT REPLACEMENT

    General Pace, I would like to get back to some of the 
aspects of the bill. For instance, my staff has told me that we 
have funds in here to replace equipment that has been destroyed 
or left behind in Afghanistan, Iraq, such as a multiple launch 
rocket system, language transition systems so that our troops 
can better communicate with the Iraqis, robots or explosive 
ordnance equipment to destroy bombs and unexploded ordnance, 
spare parts for equipment to reduce cannibalization of existing 
assets in order to keep some of the equipment moving. You have 
already discussed the Army vehicles for the Marine Corps.
    My real question is what is the immediacy of this? How 
quickly is that equipment required, and is it equipment that 
will be sent to Iraq if it is replaced?
    General Pace. Sir, some of the things you mentioned are in 
fact new, off the shelf capabilities. Some of the classified 
things that you just touched on--you did not say anything 
classified, but some of the systems that you are talking about 
are in fact in a classified mode. Those are new buys, but they 
go to the heart of being able to do things better in an 
improvised explosive device, remote-controlled detonation 
environment.
    Then you have the things that we have been using up, the 
tank treads and the multiple launch rocket systems like you 
said. These replenish our inventories. As you know, Senator, 
thanks to the Congress we have replenished almost all of the 
precision munitions that were dropped from the air because we 
have not been dropping that many and we have been able to build 
in our industry. But we are continuing to use up ground systems 
in Iraq and that is what this bill covers. It covers the day to 
day consumption of what in total is about $4 billion per month 
in total consumption, not all of hardware, but over the course 
of month in and month out.
    Chairman Stevens. To all of you, I was surprised not too 
long ago when Senator Inouye and I went over to Dover to see a 
C-17 parked there that was being cannibalized for parts. How 
extensive is cannibalization in these two theaters of 
Afghanistan and Iraq?
    General Pace. Sir, cannibalization is not serious. What is 
in this bill is the ability to replenish the spare parts that 
we have been consuming. We were very fortunate that Congress 
before this war had helped us build our spare parts bins, and 
we have used up a good number of those. We are not to the place 
where we need to be cannibalizing a lot of our good equipment, 
but this is what this supplemental is about. It is making sure 
that we can buy the spares as opposed to taking a good part off 
of a good machine just because there is no spare parts 
available.
    Chairman Stevens. Well, again, how immediate is that 
requirement?
    General Pace. Sir, it is immediate right now. We need to 
spend the moneys for the spare parts now to stay ahead of the 
problem that you say could take place.
    Chairman Stevens. Secretary Zakheim, we have money here to 
recapitalize the force, given attrition of the equipment in 
both Afghanistan and Iraq. To what extent--I think this 
includes $2.8 billion for depot maintenance, another $5.3 
billion for new equipment. The General and I have been just 
talking about some of that. But again, what is the immediacy of 
that requirement? That is almost, what, $8 billion in here.
    Dr. Zakheim. The clear answer is that we are looking at the 
systems that we used in Iraq and the expectation that--as the 
General has said and as has been indicated frequently--that 
they are pretty beaten up, and the real question is how much 
can we do in depot maintenance, because the bill may well be 
larger than that.
    We feel that the $2.8 billion in depot maintenance in 
particular, which would amount to about a 25 percent increase 
whether we use private facilities or public facilities or some 
split between the two--it is going to be 25 percent--is doable. 
The replacement units that we are getting, the procurement that 
we are undertaking, is for systems, essentially replacements or 
some upgrades, that we can implement in fiscal year 2004. I 
suspect the bill will be higher than that as systems come home. 
They are taking a pretty stiff battering out there just from 
use.
    Chairman Stevens. Some of that we will have to take care of 
after they get home. But I am worried about what is over there 
now and the immediacy of it. Do you think the industrial base 
will accommodate the expenditure of this money and time to get 
it to these people who need it over there now?
    Dr. Zakheim. Yes. One of the governing rules of how we put 
the supplemental together was that we could expend these funds 
in fiscal year 2004 and that the industrial base was up to the 
capacity of doing so.
    Chairman Stevens. Roughly how long does it take, the 
administrative process to make this money available after the 
President signs the bill?
    Dr. Zakheim. Oh, it will be--it could be made available 
very quickly, sir.
    Chairman Stevens. On Afghanistan, I am told that four 
Afghan aid workers were murdered in southeastern Afghanistan 
earlier this month and Afghan de-miners working the Kabul-
Kandahar Road have come under periodic assaults. What is the 
security situation there with regard to those who are carrying 
out this type of work?
    General Pace. Sir, we have had some of the individuals 
working on that road attacked. We have, ``we'' being the 
coalition commander there, Lieutenant General Vines, has 
allocated not only some of his own resources as far as 
intelligence collection is concerned, but we have also been 
able now to take some of the newly trained Afghan National Army 
individuals and move them down into that region.
    So it is just like a border, sir. It is a very long 
highway. It is not defendable every stretch of the way. But 
where they are working is being better defended. The Afghan 
National Army is now involved and we are allocating additional 
intelligence resources to overwatching that highway.
    Chairman Stevens. Are you using the de-mining equipment 
that was used in the Persian Gulf War in advance of troop 
movements, the one that dragged the chains out in front of 
equipment so that it would set off the mines ahead of time?
    General Pace. Sir, we can use that kind of equipment on 
roads, we can use that kind of equipment in static areas where 
we are going to be. But as the troops patrol day to day, no, 
sir, we do not use that. And we are not coming in contact with 
large minefields. The attacks from the enemy right now are 
mortar type indirect fire weapons that are, fortunately, not 
very accurate and some explosive devices that have been set up, 
like boobytraps, but not large minefields, sir.
    Chairman Stevens. We discussed yesterday the location of, 
well, really munitions in remote areas of Iraq. Does that exist 
in Afghanistan, too? Do we have remote caches of military 
supplies, particularly ammunition, in Afghanistan?

                   REMOTE CACHES OF MILITARY SUPPLIES

    General Pace. Sir, absolutely. We know in Iraq, for 
example, that there are several thousand locations that we know 
of for sure. In Afghanistan, as I mentioned, within the last 2 
months we have found another 50-plus tons of ammunition 
secreted in caves and the like. So there is no doubt in my mind 
that there are many, many more locations like that that we do 
not know about yet.
    Chairman Stevens. And the road you mentioned from Kabul, 
does that go by Bagram? Is that the road that I was on?
    General Pace. The road you probably were on, sir, if you 
went from Kabul to Bagram, that would not be it, sir. It is the 
road that goes from Kabul down to Kandahar, which is much 
further south.
    Dr. Zakheim. It is south and west, sir.
    Chairman Stevens. What is the condition of the road system 
now there for civilian use in the area where we are operating?
    General Pace. The roads now, sir, have been graded and 
filled in and basically crushed rock, and we are in the process 
now of beginning to pave some of the roads. But for the most 
part it is crushed rock.
    Dr. Zakheim. But as I said, I believe, in my opening 
statement, sir, that nevertheless reduces by a factor of as 
much as six the time it takes to go from point A to point B, 
just having the crushed rock.
    Chairman Stevens. Are we moving out towards Iran in terms 
of the roads that are over there on that border?

                    IMPROVE INFRASTRUCTURE--HIGHWAYS

    General Pace. There is a request, sir, not specifically 
toward Iran, but you end up going that direction when you go 
from Kandahar to Herat, and that road to connect those two 
major cities is a reason to build that road, sir.
    Chairman Stevens. Will this supplemental cover that road?
    General Pace. Yes, sir.
    Chairman Stevens. That was mentioned by some of the people 
I talked to who had come back as being one of the areas that 
absolutely needed some ground transportation.
    General Pace. That is correct, sir.
    Dr. Zakheim. Yes.
    Chairman Stevens. You will proceed with that under this 
supplemental?
    Dr. Zakheim. Yes.
    General Pace. Yes, sir.
    Chairman Stevens. Thank you very much.
    Senator Byrd.
    Senator Byrd. Dr. Zakheim, you indicated in your earlier 
statement, as I recall, that it used to require 30 hours to go 
from Kabul to Kandahar.
    Dr. Zakheim. Yes, sir.
    Senator Byrd. 30 hours, and now it takes 6? How many miles 
is that?
    Dr. Zakheim. It is 450 kilometers. 450 kilometers, so that 
is, what, about--how many miles?
    Mr. Rodman. 300 miles.
    Dr. Zakheim. 300 miles, give or take.
    Senator Byrd. That is somewhat like it used to require to 
go from Williamson in Mingo County, West Virginia, to the 
eastern panhandle or to Washington, D.C., about 30 hours, maybe 
longer, from some parts of West Virginia to here. Now one can 
go in 6 hours from McLean, Virginia, to Charleston, West 
Virginia. That is the way it was when I was starting out in 
West Virginia, driving roads. There was not a divided four-lane 
highway on the West Virginia map in 1947.
    But we now have well over 1,000 miles of divided highways. 
So we have been a long time in West Virginia in getting some of 
our infrastructure opened up. I think it was 1965 that we had 
the Appalachian Regional Highway System planned and beginning 
to move. So we have been from 1965 until 2003 and we still have 
not built some of those roads. That is true for other parts of 
Appalachia with respect to the Appalachian Highway System. So 
Afghanistan is not by itself when it comes to needing highway 
infrastructure.
    General Pace, the West Virginia National Guard has served 
extensively in Afghanistan and in Iraq. Last year, one special 
operations soldier, Sergeant Gene Vance of the West Virginia 
National Guard, lost his life in Afghanistan. Our Adjutant 
General, General Allen Tackett, needs help from the Pentagon, 
but he is not getting it. He says there do not seem to be 
answers to his questions about deployments of his troops.
    Where would you say, General Pace, is the breakdown in 
communications?
    General Pace. Sir, I do not know, but I will find out.
    Senator Byrd. General Tackett is asking questions about our 
National Guard troops, but not getting answers. So I ask you, 
what needs to be fixed? Do you have any idea at this point?
    General Pace. I do not, sir, but I will find out and I will 
make sure that I understand what the General's needs are and 
that we reopen that line of communications if somehow it has 
gotten broken.
    Senator Byrd. Very well. So would you please report back to 
my office and to this committee about what actions you will 
take to improve communication between the Pentagon and our 
National Guard commanders? Would you do that?
    General Pace. Yes, sir.
    [The information follows:]

    I have looked thoroughly into both of the questions you 
asked me during my hearing before the Senate Appropriations 
Committee on September 25.
    First, let me address the death of Sergeant Gene Vance. As 
you noted during the hearing, Sergeant Vance died while 
performing special operations in Afghanistan. We are deeply 
saddened at the loss of Sergeant Vance, who sacrificed his life 
serving honorably in America's war on terrorism. Major General 
Tackett, the Adjutant General from West Virginia, indicated 
Sergeant Vance's wife continues to request additional 
information concerning her husband's death. He has provided 
Mrs. Vance with as much as he is permitted in the interest of 
operational security, as has Sergeant Vance's commander in 
Afghanistan. The sensitive nature of Sergeant Vance's work in 
Afghanistan precludes General Tackett from releasing further 
details of his death to Mrs. Vance.
    Your second question pertained to the broader issue of 
communications between the Pentagon and National Guard 
commanders. As you know, Lieutenant General Steve Blum has 
recently assumed duty as the Chief, National Guard Bureau. 
Secretary Rumsfeld and General Myers directed General Blum to 
continue to improve communications among the Guard, the Army 
and Air Force Secretaries, the Office of the Secretary of 
Defense, and the Joint Staff. General Blum has taken that 
message to heart, and what he characterized as good and open 
channels of communication are getting better. Major General 
Tackett concurs with this assessment.

    Senator Byrd. Very well. How soon do you think we might 
hear from you?
    General Pace. Within a week, sir.
    Senator Byrd. Very well.
    Now, let me ask a couple of questions on behalf of Senator 
Feinstein. DOD materials suggest that, including the 2004 
supplemental request, the fiscal year 2004 request, in the 3 
years since September 11, 2001, DOD will spend a total of about 
$35 billion for Afghanistan, or Operation Enduring Freedom, 
including $10.8 billion in fiscal year 2004. The cost in 2004 
is almost as high as in fiscal year 2003 and fiscal year 2002, 
when DOD conducted combat operations.
    For how many years does DOD anticipate that this $11 
billion cost will continue?
    Dr. Zakheim. I do not know that I can answer that. All we 
know is what we anticipate for this year, sir.
    Senator Byrd. So you anticipate this $11 billion cost will 
continue?
    Dr. Zakheim. That is the--the request, as you know, 
Senator, is for approximately $11 billion. We are spending 
approximately $950 a month right now--million, that is.
    Senator Byrd. How much a month?
    Dr. Zakheim. About $950 million a month right now, sir.
    Senator Byrd. Close to $1 billion a month?
    Dr. Zakheim. Yes, sir.
    Senator Byrd. When would DOD expect these costs to decline?
    Dr. Zakheim. I guess that is a function of the environment 
there. General Pace?
    Senator Byrd. General Pace?

                        DRAWDOWN OF U.S. TROOPS

    General Pace. Sir, I do not know specifically. It will 
decline when we can remove some of our 10,000 troops or all of 
our 10,000 troops. That will be dependent on many things, to 
include the free and fair elections that are coming up next 
June, the continuing standup of the Afghan National Army, the 
continuing standup of their border police and other police so 
that over time they will be able to not only rule their own 
country through free and fair elections, but also be able to 
provide their own security, which will allow not only the 
10,000 United States, but the 8,000 coalition who are there, to 
go home, sir. When precisely that would be, I do not know, sir.
    Senator Byrd. Why is the cost of operations in Afghanistan 
about as high today as they were during the war? Should not the 
cost be decreasing by now?
    Dr. Zakheim. One of the reasons, Senator, is that I believe 
we have more reserves there now than we did during the war and 
the cost of reserves on active duty average out to about 
$123,000 per reserve a year, whereas the active duty costs are 
simply the additional costs, the special pays that we pay them 
when they are in combat. But the base pay is something that 
they receive whether they are in Afghanistan or anywhere else. 
So that accounts for a part of the difference, sir.
    Senator Byrd. If we expand the International Security 
Assistance Force beyond Kabul, can we expect costs for U.S. 
military operations to increase?
    General Pace. I do not think that would be true, sir. As 
you know, right now NATO has taken over the ISAF mission. The 
NATO commander has a responsibility to report back in October-
November time frame his estimate of what it would take NATO to 
expand beyond Kabul. If they were to do that, then the United 
Nations would also have to vote to change the resolution under 
which the ISAF exists.
    So if there were to be an incremental increase in costs 
because of ISAF expansion, it would come as a result of U.S. 
participation in U.N. or U.S. participation in NATO, but not as 
a direct result of some additional burden on U.S. forces that 
are currently there. In fact, I would argue that over time an 
expanded ISAF capability would in fact help us decrease the 
burden that we have right now.
    Senator Byrd. The second question by Senator Feinstein: 
DOD's request says that $10.8 billion covers the cost of 
sustaining U.S. forces in Afghanistan. Press reports cite U.S. 
troop levels of about 8,000 to 10,000. That suggests that the 
annual cost per troop in Afghanistan would be about $1 million 
per troop per year. That figure is about four times as high as 
the annual cost per U.S. troop in Iraq of about $260,000, based 
on DOD's estimate of monthly costs of $3.9 billion for Iraq and 
troop levels of 180,000.
    Why is the cost per troop in Afghanistan so much higher?
    Dr. Zakheim. Again, I think it has a lot to do--we will get 
you for the record the exact answer, but I believe a 
significant factor again is the higher proportion of reserves 
in Afghanistan as a proportion. But I will get you the answer 
for the record, Senator.
    [The information follows:]

    The question above is based on the assumption that only 
8,000 to 10,000 troops are financed through the request. In 
fact, there are now 9,850 U.S. troops on the ground in 
Afghanistan and that number is expected to remain fairly 
constant. However, there is a total of 44,856 total U.S. 
personnel planned in support of OPERATION ENDURING FREEDOM 
(OEF) and funded from the supplemental request. The press 
reports only included Army personnel on the ground. They failed 
to include the Navy and Air Force personnel in the country or 
off shore, and those in the AOR directly supporting OEF, or the 
reach back support personnel assigned to OEF in the United 
States. When the total 44,856 personnel assigned are considered 
the average support cost is much more similar to the costs 
experienced in Iraq. In addition, it should be noted that the 
$10.5 billion requested in the supplemental for OEF includes 
much more than personnel and personnel support costs. It also 
includes all military operations (flying hours, steaming days, 
ground OPTEMPA), all logistics, inter-theater airlifts. And all 
other DOD programs and support within Afghanistan. Personnel 
and personnel support costs account for approximately $5.8 
billion of the total amount requested. Further, during fiscal 
year 2003 a larger percentage of reserve component and guard 
personnel have been employed in Afghanistan than in Iraq. This 
increases costs substantially because a mobilized troop's 
annual incremental cost to DOD is six and one-half times that 
of an active duty member assigned to a mission. That, coupled 
with the many remote areas in Afghanistan where U.S. forces 
operate and the lack of infrastructure to support U.S. forces, 
substantially increases the logistics support expenses.

    Senator Byrd. Very well.
    I was in Kabul 48 years ago. Where were you then, General?
    General Pace. I was 9 years old, sir. So I am not sure 
where I was, but I was having a great time.
    Senator Byrd. All right, so you are 57.
    General Pace. I am now, yes, sir. Just a baby, sir.
    Senator Byrd. Okay. I believe that completes my list of 
questions as far as Afghanistan is concerned. Thank you, Mr. 
Chairman.
    Chairman Stevens. Thank you.
    Thank you, gentlemen. I do thank you also, and I want you 
to know that we look forward to putting together our trip to 
Iraq and possibly to Afghanistan some time after the next 
period of Senate business following this recess. We would hope 
to go some time in November. So I look forward to planning with 
you that kind of a visit. It depends, of course, on my 
colleague Senator Inouye, when he is prepared to go. It would 
be at his--I should put on that right there, I am sorry. I am 
not sure you heard me.
    Dr. Zakheim. Yes, we did. We heard.
    Chairman Stevens. I look forward to going to the area with 
Senator Inouye, both to Iraq and if possible Afghanistan, some 
time in the late October, early November period. We have not 
been there for over a year and I think we should make that 
trip. But we will be in touch with you.
    We do thank you for your courtesy. We do not have any 
further hearings scheduled on this matter at this time.
    Senator Byrd. Mr. Chairman, before you go out, if I may be 
pardoned for interrupting you.
    Chairman Stevens. Yes, sir.

                     ADDITIONAL COMMITTEE QUESTION

    Senator Byrd. I do have some further questions. I will 
submit them to the record. I need to go back to my office and 
help my wife with her nebulizer. So I just elect to turn those 
in for the record.
    [The following question was not asked at the hearing, but 
was submitted to the Department for response subsequent to the 
hearing:]
              Question Submitted by Senator Robert C. Byrd
    Question. Please provide your estimate for obligations for 
Operation Iraqi Freedom, Operation Enduring Freedom, and Operation 
Noble Eagle by quarter for fiscal year 2002, for fiscal year 2003, and 
projections for fiscal year 2004.
    Answer.

                                            [In billions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                 1st Quarter  2nd Quarter   3d Quarter  4th Quarter     Total
----------------------------------------------------------------------------------------------------------------
Fiscal year 2002: \1\
    Operation Iraqi Freedom....................  ...........  ...........  ...........  ...........  ...........
    Operation Enduring Freedom.................        2.242        2.596        3.169        2.951       10.958
    Operation Noble Eagle......................        1.174        1.183        1.485        1.844        5.686
Fiscal year 2003: \1\
    Operation Iraqi Freedom....................  ...........       10.346       15.447       16.622       42.415
    Operation Enduring Freedom.................        2.601        3.107        3.233        3.396       12.337
    Operation Noble Eagle......................          750        1.523        1.871        2.131        6.275
Fiscal year 2004: \2\
    Operation Iraqi Freedom....................       12.400       13.300       10.400        9.200       45.300
    Operation Enduring Freedom.................        2.000        2.100        1.900        1.700        7.700
    Operation Noble Eagle......................        1.800        1.800        1.600        1.600        6.800
----------------------------------------------------------------------------------------------------------------
\1\ Actual obligations.
\2\ Excludes $5.3 billion appropriated for classified programs.

                         CONCLUSION OF HEARINGS

    Chairman Stevens. Yes, sir.
    Senator Byrd. Thank you.
    General Pace, thank you. Thank you, Dr. Zakheim.
    General Pace. Thank you.
    Dr. Zakheim. Thank you, sir.
    Senator Byrd. Thank you, Mr. Rodman.
    Mr. Rodman. Thank you, Mr. Chairman.
    Chairman Stevens. Thank you very much. We appreciate your 
courtesy.
    The committee stands in recess.
    [Whereupon, at 4:27 p.m., Thursday, September 25, the 
hearings were concluded, and the committee was recessed, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
